<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                        APPROPRIATIONS FOR 2000
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman
 C. W. BILL YOUNG, Florida            DAVID R. OBEY, Wisconsin
 HENRY BONILLA, Texas                 STENY H. HOYER, Maryland
 ERNEST J. ISTOOK, Jr., Oklahoma      NANCY PELOSI, California
 DAN MILLER, Florida                  NITA M. LOWEY, New York
 JAY DICKEY, Arkansas                 ROSA L. DeLAURO, Connecticut
 ROGER F. WICKER, Mississippi         JESSE L. JACKSON, Jr., Illinois
 ANNE M. NORTHUP, Kentucky
 RANDY ``DUKE'' CUNNINGHAM, 
California                          

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  S. Anthony McCann, Robert L. Knisely, Carol Murphy, Susan Ross Firth,
                and Francine Salvador, Subcommittee Staff
                                ________

                                 PART 7B

                            (Pages 1659/3457)

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-745 O                   WASHINGTON : 1999


                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                         Wednesday, April 21, 1999.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                     NATIONAL INSTITUTES OF HEALTH

                                WITNESS

D. ROBERT RICH, MD, CHAIRMAN, COMMITTEE ON PUBLIC AFFAIRS, AMERICAN 
    ASSOCIATION OF IMMUNOLOGISTS AND EXECUTIVE DEAN AND PROFESSOR OF 
    MEDICINE AT EMORY UNIVERSITY SCHOOL OF MEDICINE, REPRESENTING THE 
    AMERICAN ASSOCIATION OF IMMUNOLOGISTS
    Mr. Dickey [presiding]. As we begin the hearings, I want to 
remind witnesses of two provisions in the Rules of the House. 
In addition to their written statement, non-governmental 
witnesses must submit a curriculum vitae and a statement of 
Federal grant or contract funds they or the entity they 
represent have received. If you have any questions concerning 
the applicability of this provision or questions as to how to 
comply, please contact the subcommittee staff.
    In order to accommodate as many members of the public as 
possible, we have scheduled over 20 witnesses for each session 
and are still not able to hear from all who wanted to testify. 
Overall, we will hear from over 200 witnesses in this segment 
alone. As a result, and these words are underlined, I have to 
enforce the rule limiting testimony to 5 minutes very strictly. 
I would like to ask that if you testify, you keep this 
limitation in mind in consideration for the other witnesses 
that must follow you.
    The first on the list is Dr. Robert Rich, M.D., chairman, 
Committee on Public Affairs, American Association of 
Immunologists and executive associate dean and professor of 
medicine at Emory University School of Medicine, representing 
the American Association of Immunologists. Is that how you 
pronounce it?
    Dr. Rich. That's it.
    Mr. Dickey. Fire away.
    Dr. Rich. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to testify before you this morning. I would 
like to begin by simply thanking the subcommittee for the 
extraordinary level of support it has provided to the NIH over 
many years now and especially for last year's appropriation 
representing the first in a five year commitment to double the 
NIH budget. We now join today with the Ad Hoc Group for Medical 
Research Funding in asking for the second installment on that 
commitment, that is a second 15 percent increase in Fiscal Year 
2000.
    I can assure, Mr. Chairman, that today's scientific 
opportunities and promises still vastly out-pace our means. NIH 
is ready, willing, and able to put taxpayer dollars to the best 
possible use.
    I would also like to call this subcommittee's attention to 
a second important accomplishment during the past year and a 
second thank you to the subcommittee for an initiative that was 
directed to the more efficient use of research dollars. Five 
years ago, I first addressed this subcommittee about an ever-
growing burden of rules and regulations that govern the conduct 
of scientific research. From the beginning, the subcommittee, 
particularly Congressman Dan Miller, has remained committed to 
addressing this issue. We now have a first victory to report. 
The private sector study that the subcommittee requested from 
NIH has been completed. NIH has done an excellent job. Today, 
we urge adoption and implementation, as feasible, of that 
report's recommendations.
    However, this report to restrain the regulations at their 
source won't be easy. As you know, there are three sources of 
the regulations that govern NIH-sponsored research. First, NIH 
itself. Second, the Department of HHS, which regulates NIH. 
And, third, all the other departments and agencies that issue 
research-specific regulations. We will need the help of this 
subcommittee particularly with those myriad regulations that 
originate outside of NIH. Moreover, and most importantly, this 
cannot be a one time effort. I especially urge adoption of the 
study's last recommendation, that is the establishment of a 
permanent advisory committee, drawn from the research community 
and reporting to the NIH director, that would provide ongoing 
oversight and concrete recommendations to further reduce the 
regulatory burden.
    I have one remaining issue to bring to the subcommittee's 
attention this morning. For decades, our country has benefited 
enormously from a unique partnership between the Federal 
Government and its universities in support of the research 
infrastructure. Unfortunately, however, during the 1990's, 
Government has withdrawn significantly from that partnership. 
This withdrawal has been seriously exacerbated by the 
revolution in health care delivery systems, that is managed 
care. Every day, we read in the newspaper stories about the 
staggering losses in the clinical practices of our leading 
academic health centers. Taken together, these factors 
seriously threaten our capacity to support research, 
particularly at a time of increased support for research 
projects. I refer to an acute need for such things as new and 
replacement instrumentation; laboratory renovation 
construction; flexible short-term funding for the support of 
new ideas and new scientists; bridge funding to allow 
productive scientists to maintain promising research projects.
    I would like to suggest two approaches to addressing this 
problem:
    First, I urge the subcommittee to adopt the professional 
judgment budget of the National Center for Research Resources. 
NCRR provides support for research instruments and facilities 
on a national peer-reviewed basis, but it is woefully under-
funded.
    Second, there is a continuing need for a program of 
locally-administered support that is more rapidly responsive to 
urgent needs at the institutional level based on a local peer-
review process. Such needs include equipment, laboratory 
renovation, and flexible funding for promising research.
    In previous appearances before this subcommittee, I have 
argued for the creation of a new biomedical research support 
grant. Since I last appeared, the need for such a mechanism has 
become even more acute. When a centrifuge breaks or a new hot 
research idea is proposed, a local response can be made 
quickly, within days or weeks and the equipment can be replaced 
or the new idea can be explored. On the other hand, an 
application to NIH would take at least nine months to be fully 
reviewed. We, therefore, join this year with FASEB and the AAMC 
in recommending the establishment of a BRSG-type grant program, 
funded at a level of 2 percent of the total research project 
grants at a given institution.
    Mr. Chairman, this subcommittee has been extraordinarily 
supportive of biomedical research at NIH. Please do not allow 
the erosion of its foundation to threaten the effectiveness of 
that support. I respectfully urge you to restore the balance in 
the Federal-university partnership for infrastructure support 
of our biomedical research enterprise.
    Thank you very much for allowing me to testify.
    Mr. Dickey. Thank you, Dr. Rich.
    [The prepared statement of Dr. D. Robert Rich, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                            SLEEP DISORDERS


                                WITNESS

DAVID DAVILA, MD, MEDICAL DIRECTOR OF BAPTIST MEDICAL CENTER'S SLEEP 
    DISORDERS CENTER, LITTLE ROCK, ARKANSAS, REPRESENTING THE NATIONAL 
    SLEEP FOUNDATION
    Mr. Dickey. Next, we have Dr. David Davila from Arkansas, 
representing the National Sleep Foundation. I hope you can 
assure me that I won't fall asleep while you're talking?
    Dr. Davila. I will do my best.
    Mr. Dickey. Welcome.
    Dr. Davila. Thank you. Thank you for inviting me on behalf 
of the National Sleep Foundation. The National Sleep Foundation 
or the NSF is a science-based, nonprofit, voluntary health 
organization dedicated to promoting awareness about the 
importance of sleep, its disorders, and the consequences of 
sleep deprivation. Our research tells us that nearly 60 million 
Americans at any given time are operating on inadequate sleep. 
As you can see from Chart 1, in the Sleep in America Poll, 
which was a nationally representative telephone survey 
conducted by the Foundation earlier this month, 40 percent of 
Americans reported being so sleepy that it interferes with 
their daytime activities. The toll of that sleep deprivation on 
human health, safety, and productivity is enormous.
    The NSF and sleep experts like myself take this chronic 
sleep deprivation very seriously. NSF has been working with 
State and Federal Governments for the past six years to combat 
the dangers of drowsy driving and fall asleep crashes through 
its Drive Alert and Arrive Alive campaign. Sleepiness, whether 
the result of untreated sleep disorders or simply sleep 
deprivation, has been identified as a causal factor in a 
growing number of on-the-job injuries. Fatigue was cited by 
investigators as contributing in disasters ranging from the 
Challenger Space Shuttle explosion to the grounding of the 
Exxon-Valdez. In fact, 10 years after the Valdez, we are still 
seeing the effects on Alaska's economy and environment. While 
many in the public and the media focused on the captain's 
intoxication, it was actually a sleep-deprived third mate who 
ran the ship aground in Prince William Sound. In its official 
report, the National Transportation Safety Board stated: ``The 
third mate's failure to turn the vessel at the proper time 
probably was a result of his excessive workload and fatigued 
condition, which caused him to lose awareness of blight reef.''
    More locally, just last week, I saw a patient who fell 
asleep driving between Little Rock and Fort Worth totaling his 
18-wheeler against a tree. Fortunately, he survived. He was 
able to be seen at our center and diagnosed with a treatable 
sleep disorder and sleep apnea.
    Why we tend to overlook the obvious, that we are all human 
and need to get a good quality sleep in order to maintain 
proper alertness on our jobs and in our lives is beyond me. The 
cost to the U.S. economy in terms of lost productivity, 
personal injuries, medical expenses, and property and 
environmental damage due to this fatigue, these sleep disorders 
and sleep deprivation is estimated to exceed $100 billion a 
year.
    The National Sleep Foundation is a health organization. 
While we promote good sleep as an important part of overall 
good health, our primary concern is the association between 
fatigue and the lapses in judgment and attention that results 
in injury. Sleep deprivation is dangerous, but it is 
preventable. Research conducted in recent years tells us that 
we can identify those people most at risk for sleep deprivation 
and how we can reduce injury due to fatigue.
    Mr. Dickey. Dr. Davila, I wonder if you could interrupt 
your statement and answer a few questions and then just let 
that go in the record?
    Dr. Davila. Sure.
    Mr. Dickey. Do you mind doing that?
    Dr. Davila. Okay.
    Mr. Dickey. What are the ways of treatment?
    Dr. Davila. Well, the interventions that we would recommend 
would be education, identifying risk groups, and targeting 
educational awareness for those to promote proper practices 
before driving, while driving, proper responses.
    Mr. Dickey. Medicine?
    Dr. Davila. Well, education first on just 
behavioralstrategies and then there are also other things, such as 
rumble strips on highways, which can be put in to prevent people from 
running off the side of the road from fatigue and drowsiness.
    Mr. Dickey. And what would the money be spent for if we 
appropriated this?
    Dr. Davila. Well, it would be to have the CDC and the 
Injury Prevention Control branch do some surveys, establish the 
scientific basis for the problem and some interventions and 
then promote a national awareness campaign for drowsy driving.
    Mr. Dickey. So you are talking about education first? We 
are having trouble in all of our areas of getting people after 
they are educated to do anything. Do you have any suggestion 
there?
    Dr. Davila. That is a tough one.
    Mr. Dickey. Well, it is. It is impossible. We have it in 
obesity. We have it in cigarettes. We have it in so many of 
the----
    Dr. Davila. Right, but one of our other diagrams----
    Mr. Dickey. Show us the other one, yes.
    Dr. Davila [continuing]. Shows the lack of knowledge there 
is in the general public. This is a simple 11 question test 
about sleep and 83 percent of the participants flunked it. So 
there is a general ignorance about sleep and its function and 
its disorders out there. And I think that is a reasonable 
starting point, education.
    Mr. Dickey. What would be the last things would you say to 
us?
    Dr. Davila. Get a good night sleep. [Laughter.]
    Mr. Dickey. Thank you, Dr. Davila. Thanks for coming from 
Arkansas.
    Dr. Davila. Thank you for having us.
    [The prepared statement of Dr. David Davila, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                             BIRTH DEFECTS


                                WITNESS

CHARLOTTE HOBBS, MD, PH.D., CO-DIRECTOR, ARKANSAS CENTER FOR BIRTH 
    DEFECTS RESEARCH AND PREVENTION
    Mr. Dickey. We have another Arkansas person, Dr. Charlotte 
Hobbs, co-director of the Arkansas Center for Birth Defects 
Research and Prevention, University of Arkansas for Medical 
Science in Little Rock, Arkansas.
    Welcome, Dr. Hobbs. I want to take this opportunity to 
thank you for the work you do on behalf of children and 
families across our State in reducing the prevalence of birth 
defects. I look forward to your testimony.
    Dr. Hobbs. Thank you. Mr. Chairman and members of the 
committee, I am pleased to testify on behalf of the Arkansas 
Center for Birth Defects Research and Prevention. I hope to 
gain support for increased funding for the birth defects agenda 
that is led by the Centers for Disease Control and Prevention.
    As a pediatrician, it is always difficult to tell parents 
that their baby has a condition that may result in death or in 
life-long disabilities. I also have three children, a three-
year-old and 18 month old twins. During my second pregnancy, we 
really had a scare when we thought that our son, Samuel, had a 
heart defect that could result in his death. Fortunately, a 
high-resolution ultrasound showed that his heart was fine. We 
were very lucky, but other parents are not so fortunate. Each 
year in the United States, 150,000 babies are born with birth 
defects. These are the leading cause of infant mortality.
    Mr. Dickey. Is spina bifida considered a birth defect?
    Dr. Hobbs. Absolutely.
    Mr. Dickey. Okay, excuse me. Go ahead.
    Dr. Hobbs. Children born in one year with birth defects 
will have special care costs of $7 billion throughout their 
lifetime.
    Federal funding has made a growing number of birth defect 
prevention programs possible. CDC's birth defects agenda has 
three components: surveillance, research, and prevention. I 
will illustrate this agenda by focusing on only three of the 
over 200 serious birth defects. Many of you will remember 
thalidomide. In the late 1950's, thalidomide was hailed as a 
wonder drug. Later, it was discovered that it resulted in fetal 
death or serious birth defects, usually arm and leg defects. 
The catastrophic effects of thalidomide were confirmed by 
surveillance that identified a cluster of defects. Surveillance 
showed that the number of babies born with the defect increased 
with the sale of thalidomide and decreased dramatically with 
its withdrawal from the market.
    Currently, less than 30 States have an operational birth 
defect surveillance system. Many of these programs are 
inadequately funded. CDC offers cooperative agreements to help 
States establish or improve programs. Due to increased funding 
in the Fiscal Year 1998 and 1999, CDC awarded grants to 18 
States. However, 18 more States applied for the grants and were 
approved, but they were unable to be funded. I urge you to 
consider appropriating an additional $2 million each year to 
fund surveillance programs in another 18 States.
    Another illustration of the agenda is brain and spine 
defects, called neural tube defects. Two common neural tube 
defects are anencephaly and spina bifida. Neural tube defects 
affect about 4,000 pregnancies each year. All babies born with 
anencephaly die, usually within the first few days of life. 
Infants with spina bifida have life-long serious disabilities. 
Fifty to 70 percent of neural tube defects could be prevented 
if women took a vitamin called Folic Acid. Despite a 1992 
public health service recommendation, less than 30 percent of 
women are consuming enough Folic Acid to prevent neural tube 
defects. Action must be taken to increase Folic Acid 
consumption. CDC and its partners, including the March of 
Dimes, have initiated the National Folic Acid Education 
Campaign. But without additional resources, the campaign will 
have limited success. With an additional $20 million, the 
campaign's activities could be implemented over a five year 
period. Surveillance programs could measure the success of 
these prevention strategies.
    Research has found the cause of some birth defects. 
However, for about 80 percent there has not been enough 
research. For example, heart defects are the most common birth 
defects but we still don't know what causes them and 
wetherefore cannot prevent them.
    In 1996 and 1997, CDC funded Centers for Birth Defects 
Research and Prevention in Arkansas, California, Iowa, 
Massachusetts, New York, New Jersey, and Texas. The centers' 
surveillance systems facilitate the search for causes by 
identifying babies and their parents to participate in the 
National Birth Defects Prevention Study. It is the largest 
case-control study of birth defects that has ever been 
conducted. We will be able to build prevention strategies upon 
the findings from this study.
    The seven birth defect centers are not fully funded. With 
additional funding, further research that will lead to the 
discovery of other causes could be conducted. An additional $8 
million a year is needed to make each center fully operational. 
As you can see, CDC is doing a great deal to reduce the number 
of babies born with serious birth defects. However, more 
attention and resources are needed. With increased 
congressional funding, CDC could expand their activities, fully 
realizing our Nation's potential to prevent birth defects.
    Mr. Dickey. Good job, Charlotte. I wanted to tell the 
audience that we allowed her to go a little past because in 
Arkansas, we talk slower. [Laughter.]
    Isn't that right? Good job. Excellent job.
    [The prepared statement of Dr. Charlotte Hobb, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                        CONGENITAL HEART DEFECTS


                                WITNESS

JOHN D. AQUILINO, JR., CITIZEN
    Mr. Dickey. Did you want to be recognized for the next one?
    Mr. Hoyer. No, I decided not to make any comments in 
furtherance of your previous comments.
    Mr. Dickey. All right. Dr. John D. Aquilino. Try it for me, 
can you say it?
    Mr. Aquilino. Well, it doesn't have doctor in front of it, 
sir.
    Mr. Dickey. Who it doesn't?
    Mr. Aquilino. No, sir.
    Mr. Dickey. Well, would you like to be a doctor? 
[Laughter.]
    Mr. Aquilino. If it helps my son, I would.
    Mr. Dickey. Is your son here?
    Mr. Aquilino. No, unfortunately, this is the week for 
standardized testing at St. Jerome's in Hyattsville, and I 
couldn't spring him.
    Mr. Dickey. I recognize Mr. Hoyer, my friend?
    Mr. Hoyer. Mr. Aquilino is a resident of my congressional 
district, and I want to say that we very much appreciate, there 
aren't a lot of people here because everybody is busy. And what 
we tend to do is come by and see those whom we represent or if 
we have particular interests. But you and others ought to know 
that obviously a record is being taken, a verbatim transcript. 
And during the course of markup, and I say this to all the 
witnesses, we due, in fact, refer to that and the information 
that is brought to us, not only those who we heard and the 
staff very much when they mark up, the chairman marks up his 
bill, takes into consideration the perspectives that have been 
given by witnesses. So I say to you I am pleased to be here 
with you because you can fire me if you don't like me. So I 
want to come here and listen to what you have to say.
    Mr. Dickey. Please do that, will you? We are tired of him. 
[Laughter.]
    Mr. Hoyer. That is my job. But I want all the witnesses to 
understand that their contribution does in fact make a very 
positive impact. And welcome to the committee, sir.
    Mr. Aquilino. Well, thank you.
    Mr. Dickey. Well-stated.
    Mr. Aquilino. Thank you, Mr. Dickey and Mr. Hoyer and 
particularly the staff of the subcommittee for allowing me to 
testify here before you today.
    This is the third year I have testified before this 
subcommittee, and I have asked you and your colleagues' support 
for the funding of the National Heart and Lung and Blood 
Institute and its ongoing heart research programs.
    As you have heard and will continue to hear until the men 
and women working in this field conquer the many complex 
problems in this area, physical problems of the heart are and 
continue to be the number one killer of our people and the 
cause of most common birth defects.
    I am here to repeat the never too often repeated message 
that heart disease is a major problem, not only with our age 
group, but also with our children. In general, heart defects 
are the major cause of birth-related infant deaths in the 
United States affecting 32,000 newborns each year. Of that 
number, 2,300 babies die before their first birthday. A million 
young Americans like my son, Johnny, live with the 
consequences. Johnny is nine years old now. He finished his 
first basketball season, and he is in the middle of not a 
very--he is sort of like the Orioles----
    [Laughter.]
    Mr. Aquilino [continuing]. In coach-pitch baseball with St. 
Jerome's.
    Mr. Dickey. Talk about sad notes.
    Mr. Aquilino. But he is trying. He is I believe the oldest 
child in the area and maybe the East Coast with hypoplastic 
left heart, which means his left ventricle, the major pumping 
chamber in his heart was never formed.
    First of all, I want to thank the committee and the 
Congress for the support for NIH and Heart, Lung, and Blood 
Institute, and I am here also to echo the American Heart 
Association's and Research America's recommendation of putting 
$2 billion into the Institute and doubling NIH'sfunding by the 
year 2003.
    This is critical, the support is critical because I live 
for the day when the people, the men and women at the 
Institute, allow my son to clone his own heart. For three years 
I have tried to do this, and I can't do it. But I am going to 
do it.
    Mr. Dickey. Well, it is very important what you are saying 
and who is saying, John. So just take your time.
    Mr. Aquilino. Thank you. I won't slow my advocacy for this 
research until that and similar research applications are 
available to all children no matter their land of origin. I am 
53 years old and I feel like a kid.
    Mr. Hoyer. Mr. Aquilino, let me make a comment. I have 
cried in this committee. My wife died of cancer two years ago, 
of stomach cancer. And the first time we went through the 
testimony of the folks from the Cancer Society, I did as you 
did. Everybody in this room knows the emotions that go into the 
illness of a loved one, the challenge that a loved one faces. 
And you don't have to be ashamed of it. I wasn't ashamed of it. 
And everybody in this committee understands it, and people 
wouldn't be in this room if they didn't care deeply, not just 
about their loved ones but by others similarly afflicted of 
which they have personal experience. I have not had a child who 
had your particular affliction, but I will tell you I have a 
27-year-old child who had a extra electrical charge in her 
heart. She had a five and a half hour operation at Hopkins when 
she was 19 years of age. And when the doctor, prior to the 
operation, said you understand, to her parents and to herself, 
that one of the possible outcomes of the operation was her 
death was her death, we all cried. These are wrenching when it 
happens to your children. So we understand.
    Mr. Aquilino. Thank you, sir.
    Mr. Dickey. I would like to say one other thing too. You 
are not employed to come speak up here and that means even more 
to us. I know it is important. There is information that comes 
from all sources, from the people who are employed and who are 
talking about their agencies. They matter significantly. But 
here you are a private citizen coming and doing this, and I 
want to thank you for that too.
    Mr. Aquilino. Well, let me just summarize what I wrote here 
and which you can read. In 1994, after my son had gone through 
most of his operations, I went down to CITES in Ft. Lauderdale 
and that the Convention in International Trade and Endangered 
Species, and I worked closely with people from Zimbabwe and 
other African nations. And I watched and I thought and I saw 
their situation, and I thought what would happen if I were born 
in rural Africa, if my son was born in rural Africa? And 
recently I was in Iceland at a convention of people who use 
whale meat for their traditional diets, and they talked about 
heart disease and they talked about their children. And I 
thought what would it be like if I was an Inuit and literally 
Johnny would be dead because we don't have what we have here.
    And the message that I really want to bring is if we can be 
known as a country that has one gift to give, let it be the 
fruits of our research.
    Thank you.
    Mr. Dickey. Thank you. I think it is caring parents that is 
one of our gifts too. Thank you.
    [The prepared statement of John Aquilino follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                      PRIMARY IMMUNE DEFICIENCIES


                                WITNESS

VICKI MODELL, VICE PRESIDENT AND CO-FOUNDER, JEFFREY MODELL FOUNDATION
    Mr. Dickey. Next, is Vicki Modell, vice president and co-
founder of the Jeffrey Modell Foundation. Are you from 
Cleveland by any chance?
    Ms. Modell. No, but a certain relative may have been.
    Mr. Dickey. Okay.
    Ms. Modell. Does that still give me my 5 minutes?
    Mr. Dickey. Yes, ma'am.
    Ms. Modell. Good, good.
    Mr. Hoyer. I don't know how slow Vicki talks but we are 
going to give her hopefully such time as she needs. Let me say 
that the Modells, Mr. Modell is here as well. And, yes, they 
are related to Art and his wife who, of course, own the Ravens, 
as you know, and formerly owned the Browns, now the Ravens. But 
I want to say that I mentioned something when Mr. Aquilino 
spoke, but America is enriched by Vicki, by parents such as you 
and Mr. Aquilino and all of you in this room who do take the 
time because you have a personal experience and can relate 
information in a way much more impelling than somebody--heads 
of the institutes are extraordinary people, unbelievable 
talent. Tony Fauci, as you recall, was one of George Bush's 
heroes. But the chairman is absolutely right, when somebody who 
has had personal experience comes before this committee and 
says, look, this is how it is and we need to focus on this, 
then itbecomes a lot easier for Mr. Dickey and myself and 
others to go to the Congress and say, ``We need to invest this money 
because, as Mr. Aquilino said, it will make a difference not just for 
our children and our families and our communities and our country, but 
for all the world.'' And I want to thank you. These two people--he is 
sitting back there. I don't know why you are hiding back there, but 
Vicki I know is the star. But you two guys do an incredible job, and I 
am so proud of you and they come to my office and they will probably 
visit you in your office. They are just terrific people.
    Mr. Dickey. They are welcome.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Dickey. You have a minute and a half. [Laughter.]
    Ms. Modell. Oh, thank you very much.
    Mr. Hoyer. None of that was off your time, Vicki.
    Ms. Modell. Well, I thank you, Mr. Hoyer, and you, Mr. 
Dickey, for all your encouragement and that encouragement has 
given us the courage literally your beautiful, beautiful words 
have prodded us and allowed us to continue this journey, which 
it is for my husband, Fred, and myself; and we appreciate that. 
Thank you and good morning. Good morning to the staff of the 
committee as well.
    I am honored to have the opportunity to testify again on 
behalf of The Jeffrey Modell Foundation. As you know, our 
Foundation is concerned with primary immune deficiency, which 
is a group of approximately 80 genetic disorders. Simply put, 
it is when the immune system fails to respond properly. Great 
progress has been made in the research I am happy to say, and I 
have detailed that in my written statement. But today, I would 
like to address the education and awareness campaign we have 
initiated with the NIH and the CDC.
    There are 500,000 Americans, mostly children, diagnosed 
with primary immune deficiency.
    Mr. Dickey. How many?
    Ms. Modell. One half million. And we believe that there are 
another half a million or more that have been mis-diagnosed, 
un-diagnosed or missed diagnoses. Our research efforts will 
help with the first group because they have been diagnosed. But 
the second group, the un-diagnosed have to be identified and 
put into appropriate treatment regiments. And why is this 
important? Let me just tell you this morning about my friend, 
Dina. Dina Laviena, her husband, Jeffrey, and their baby, Zac, 
were like millions of other young families. They had dreams. 
They had plans. They had a great future in front of them. The 
only thing holding them back was that Dina suffered from 
repeated bronchitis and pneumonia since her early childhood. 
She was first diagnosed with primary immune deficiency while at 
college and by that time, Dina's lungs were so severely and 
irreparably damaged and compromised with scar tissue. In a 
valiant effort to improve her quality of life, Dina underwent a 
lung transplant. She wanted to live, but she did not survive 
and she left Jeff and Zac without a mom, without a wife, and 
with a giant void in their lives. And I lost a good friend. Why 
did this have to happen to Dina? Why did she have to die? Was 
it because no one ever knew to look for primary immune 
deficiency as the underlying cause of her diseases? No one ever 
asked why.
    Well, we have a formidable task ahead of us to assure that 
no one else, no other children suffer like Dina. So far, The 
Jeffrey Modell Foundation has created a 10 Warning Signs poster 
and distributed it nationwide to pediatricians and primary care 
physicians. We have established three Education and Awareness 
Centers in New York, at Boston Children's, and Seattle 
Children's hospitals and those are connected with research 
programs that we also fund there. We have met with CDC, the 
NIH, and we have aggressively attempted to follow the direction 
that this committee gave us last year.
    The Child's Health Institute, under the extraordinary 
leadership of Dr. Duane Alexander, could not be more 
supportive. They have assigned the team responsible for their 
highly successful back-to-sleep campaign. They published a 
definitive brochure on the primary immune deficiency diseases 
and they have pledged to do more. And three weeks ago, we met 
with NIAID. And they, too, have agreed to join this public 
awareness effort in a meaningful way.
    Last year, Mr. Porter and Ms. Lowey suggested that we 
contact the CDC for this and, in fact, Mr. Porter's office was 
kind enough to encourage officials there to meet with us. While 
we have another meeting with the CDC in the near future, we 
hope that this very important agency fully participates in the 
collaboration. One simply cannot take upon an effort like this 
without a modest expenditure of funds. The Foundation has 
raised and set aside its own funds committed to this education 
and awareness campaign. NICHD is on board and NIAID is pledged. 
We hope the CDC will be joining us at least as equal partners. 
We are not asking any Government agency to do anything that we 
are not doing ourselves. We will fund our share every step 
along the way, as we have done in the past with the NIH in 
research collaboration. But for all the money we can raise and 
all the heart that we can pour into this effort, we are still 
just a grassroots organization.
    So, today, as always when I come before you, we are not 
asking for a hand-out, we are asking for your hand. Last year, 
this committee was generous in their remarks suggesting that 
Fred and I have accomplished a lot and that we were making a 
difference; and we thank you for your very kind words and 
assure you that we can do even more because we are committed to 
working in our son, Jeffrey's, memory. With your support and 
that of the NIH and the CDC, we can assure that no one else 
will grow up without their mom like Zac because no one knew to 
look for primary immune deficiency.
    Thank you very much for the privilege of testifying here 
today. Thank you.
    [The prepared statement of Vicki Modell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                             KIDNEY DISEASE


                                WITNESS

AARON FREIDMAN, MD, PROFESSOR AND CHAIRMAN, DEPARTMENT OF PEDIATRICS, 
    UNIVERSITY OF WISCONSIN, AND PRESIDENT, AMERICAN SOCIETY OF 
    PEDIATRIC NEPHROLOGY, REPRESENTING THE AMERICAN SOCIETY OF 
    PEDIATRIC NEPHROLOGY
    Mr. Dickey. Dr. Aaron Freidman, MD, professor and chairman 
of the Department of Pediatrics at the University of Wisconsin; 
and president of the American Society of Pediatric Nephrology, 
representing the American Society of Pediatric Nephrology?
    Dr. Freidman. Mr. Chairman, Mr. Hoyer, I thank you for the 
opportunity.
    Mr. Dickey. Welcome.
    Dr. Freidman. My name is Aaron Freidman. I am the president 
of the American Society of Pediatric Nephrology. In my other 
life, I am professor and Chair of the Department of Pediatrics 
at the University of Wisconsin. And in that capacity, I see 
daily children and adolescents suffering from kidney disease of 
one type or another.
    By way of background, the American Society of Pediatric 
Nephrology is a nonprofit organization, founded in 1969, to 
serve as an advocate on behalf of children and adolescents in 
this country who must endure the pain and suffering of kidney 
disease.
    I want to take this opportunity to express to you and to 
the subcommittee our deepest gratitude for your leadership last 
year in calling upon the NIDDK to develop a research agenda 
targeting the needs of children and adolescents suffering from 
kidney disease. In response to that charge, the NIDDK called 
together a number of experts in the field of pediatric 
nephrology to help craft a plan for conquering kidney disease 
that afflicts young children. Out of that effort came what is 
perhaps the most comprehensive blueprint ever developed in this 
field.
    Who will benefit if we achieve our intended purposes? They 
are the infants, children, and adolescents who comprise about 
25 percent of the population; 1.2 children under the age of 7 
who will develop urinary tract infections that may permanently 
damage their kidney tissue; 300,000 children and adolescents 
who will undergo evaluations for proteinuria, one of the early 
signs of progressive kidney disease. There are also 76,000 
young people who will be treated for hypertension, a pre-cursor 
of renal failure and cardiovascular disease and many forms of 
kidney inflammation, which disproportionately affect minority 
populations. There are also 100,000 who will be treated for 
diabetes, many of whom will ultimately develop renal failure 
and require dialysis or transplantation.
    While these young people and their families are our primary 
concern, it is important to recognize that their suffering does 
not end when they turn 21. Whatever progress we achieve in 
curing or treating the young means longer, more productive 
lives when they reach adulthood. Conversely, whenever we fail, 
the result is a lifetime of more extensive and more expensive 
treatment throughout their adult lives. They will grow up to be 
amongst the 300,000 Americans with end-stage kidney disease who 
require dialysis or transplantation to survive.
    Finding cures and effective treatment for kidney disease is 
more than good social policy. It is good economic policy. Over 
90 percent of our patients with end-stage renal disease and 
patients receiving kidney transplants are covered by Medicare. 
Together, the two represent the single largest disease 
expenditure in the Medicare program. For example, over the four 
year period between 1991 and 1994, Medicare paid $25.6 billion 
in claims for end-stage renal disease patients.
    It is important to make a distinction between the pediatric 
and the adult kidney disease population. When chronic kidney 
failure occurs in young people, normal growth and development 
may be impaired, and we believe that chronic kidney failure can 
have a profound effect on the developing brain, often causing 
learning disability and mental retardation. And to address 
these unique circumstances, it is pediatric nephrologists who 
are specifically trained and qualified to manage patients with 
end-stage renal disease in the pediatric age group. We have the 
special expertise in physical and psychological growth and 
development and pediatric drug dosages, nutritional 
requirements, dialysis, and transplantation in young people.
    Because of the age of our patients, our course of care 
often spans as long as 20 years, compared to the average three 
years for adult patients. We are uniquely qualified to manage 
the coordinated, multi-disciplinary approach that is required 
to meet the care and treatment needs of young people. And in 
contrast to our other nephrologist colleagues, the vast 
majority of us train and work at academic health centers and 
children's hospitals, the places where families turn to when 
their children suffer from chronic kidney disease.
    Mr. Chairman and Mr. Hoyer, the pediatric nephrology 
program at the NIDDK is the central focus for research in this 
field. It is augmented by NIAID's work in basic immunology and 
organ transplantation. We, therefore, have the following 
recommendations. We support the recommendation of the Ad Hoc 
Group for Medical Research Funding, which calls for an overall 
$2 billion increase in funding for NIH, as well as those of the 
Council of the Kidney Societies. More specifically, it is 
important that NIH continue to capitalize on both basic and 
clinical research opportunities that are the highest relevance 
to the pediatric kidney disease population. To that end, we 
respectfully recommend that the subcommittee urge NIDDK to 
focus additional resources on research into the causes and 
treatment of chronic kidney disease in children; encourage 
research that recognizes the unique long-term needs of children 
afflicted with kidney disease; and emphasize the need to expand 
the number of individuals specifically trained to manage the 
care.
    We want to thank you for your leadership and that of the 
subcommittee last year, and thank you again for the opportunity 
to appear.
    Mr. Dickey. Thank you, Dr. Freidman.
    [The prepared statement of Aaron Freidman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                             HEART DEFECTS


                                WITNESS

RICHARD BUZBEE, CITIZEN
    Mr. Dickey. Richard Buzbee, private citizen speaking about 
heart defects from Hutchinson, Kansas, representing the family 
of Anne Marie Buzbee. Welcome.
    Mr. Buzbee. Good morning, Mr. Chairman.
    Mr. Dickey. Good morning.
    Mr. Buzbee. I am Dick Buzbee from Hutchinson, Kansas, 
originally from Fordice, Arkansas.
    Mr. Dickey. Oh, let's talk about that a little while, you 
want to? Why did you move?
    Mr. Buzbee. A better paying job.
    Mr. Dickey. Do you think they would understand what a red 
bug is?
    Mr. Buzbee. They wouldn't have a notion.
    Mr. Dickey. Okay, all right. You talk as long as you want 
to. [Laughter.]
    Mr. Buzbee. I thought it might help. I am one of the 
grandfathers of Anne Marie Buzbee and with the slightest urging 
from the chairman, I would even show you a picture of Anne 
Marie.
    Mr. Dickey. Oh, wonderful. Oh, a little baby. Show the 
crowd.
    Mr. Buzbee. I am speaking on behalf of Anne Marie's mother, 
Sally Buzbee, is a journalist with the Associated Press here in 
Washington. Anne Marie's father, John Buzbee, is a Foreign 
Service Officer with the State Department.
    First, I want to report to how Congress' foresight in 
supporting heart research affected little Anne Marie and our 
family. And, second, I will suggest that a bold emphasis on 
further research will extend national benefits even beyond the 
potential savings of all the 32,000 babies who have been born 
annually with heart defects. Anne Marie was one of the 32,000 
babies in 1997. She was one of the about 3,200 in 1998 who did 
not survive.
    However, we had 7.5 months with her. Those 7.5 months were 
made possible largely by Congress' commitment to research that 
has continued since 1948. Because of that research, her family 
knew four months before her birth that she would face profound 
heart, hand, and other physical defects.
    With that knowledge, the doctors, nurses, and other 
specialists at Georgetown, and then later at Children's 
National Medical Center, were able to deliver safely Anne Marie 
and soon thereafter complete the first of what would be many 
complicated operations and tests, all of which were made 
possible by earlier Federal research support. The doctors never 
discovered the source of her problems, but the National Heart, 
Lung, and Blood Institute continues to probe for answers that 
some day will tell us what causes congenital heart 
abnormalities.
    Anne Marie traveled a lot during her 7.5 months, much of it 
was within hospitals and going to and from hospitals. She loved 
to travel. In her stroller on the sidewalk in the Friendship 
Heights neighborhood, she delighted in looking up at the leaves 
and generally insisted on keeping moving. Once when her dad 
took her to a neighborhood coffee shop, she sat patiently in 
her stroller next to him, contenting herself with her pacifier 
while he savored a cup of coffee and a brief worry-free moment 
with her.
    A year ago, as the cherry trees were beginning to bloom 
here, we bundled her up and her mom and dad drove us to the 
Tidal Basin so that she could take her first stroll under the 
cherry blossoms. However, we were so excited about taking her 
for a stroll in her stroller that when we arrived at the cherry 
trees, we discovered we had forgotten to pack the stroller. But 
that was no matter. She liked to be held too and there was no 
shortage of volunteers.
    Indeed, Anne's parents and grandparents spent many hours 
holding her and rocking her and playing Itsy Bitsy Spider and 
the Wheels on the Bus Go Round and Round. Anne especially loved 
books even at six and seven months. Even when she felt poor or 
was in the hospital, she would stare at the pictures in her 
books and put out her hand to turn the page when she wanted to 
see more, especially when the book was about Bloodhound Ben.
    We learned a lot from Anne. She taught us that neither 
medical science nor love can fix all problems, but love and 
medical science can enrich all lives with undying reminders not 
of what might have been, but what will be so long as we embrace 
each other today and tomorrow.
    Her family today stretches from the District here to Half 
Moon Bay in California and from Anchorage to Baton Rouge. We 
will carry a part of her and she will be a part of us for we 
are richer today than we were before we met Anne. And that is 
the final point I want to make. As our family is enriched, so 
are we all collectively. A Nation that seeks so vigorously to 
help little Anne with her heart problems will most assuredly 
find that its collective heart has been strengthened. So that 
all of us will never again be quite the same. And with an 
enduring commitment to research and the eloquence of a search 
that is worthy of America today, some day thousands of other 
little Annes will be able to grow up and contribute to a Nation 
that so confidently invested in their future. We will all be 
better for it and not least among us the dads and the grand-
dads who will have many opportunities to remember to bring 
along the stroller when they take the baby for a stroll under 
the cherry blossoms.
    Mr. Dickey. You have enriched us, Dick, thank you, 
particularly about the Itsy Bitsy Spider.
    [The prepared statement of Richard Buzbee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                              TRAUMA CARE


                                WITNESS

HOWARD R. CHAMPION, MD, PROFESSOR OF SURGERY, SENIOR ADVISOR IN TRAUMA 
    AND PROFESSOR OF MILITARY/EMERGENCY MEDICINE, UNIFORMED SERVICES 
    UNIVERSITY OF THE HEALTH SCIENCES; DIRECTOR OF RESEARCH AND 
    PROFESSOR OF SURGERY AT THE PROGRAM IN TRAUMA, UNIVERSITY OF 
    MARYLAND, BALTIMORE; AND PRESIDENT, COALITION FOR AMERICAN TRAUMA 
    CARE, REPRESENTING THE COALITION FOR AMERICAN TRAUMA CARE
    Mr. Dickey. Dr. Howard Champion, representing the Coalition 
for American Trauma Care?
    Dr. Champion. Mr. Chairman, Congressman Hoyer, from the 
State of Maryland. I appreciate the opportunity to testify 
before the committee.
    Mr. Dickey. Where is that accent from?
    Dr. Champion. The accent, sir, is from the United Kingdom.
    Mr. Dickey. All right.
    Dr. Champion. I emigrated to this country in 1972, and I 
think I have lost everything but the accent. [Laughter.]
    Mr. Dickey. Well, it is attractive.
    Dr. Champion. Thank you very much.
    Mr. Hoyer. Mr. Dickey has been trying to lose his. 
[Laughter.]
    Dr. Champion. I have been involved in the care of injured 
patients in this metropolitan Washington, D.C. and Baltimore 
area since 1972, and I am here to testify on behalf of the 
Coalition for American Trauma Care, which is an organization 
supported by the leading academic organizations involved in 
trauma and burn care throughout the United States. Increasing 
attention in recent years has been paid to the problem of 
injury and it is even more greatly needed. Injury is the 
leading cause of death after the age 44. More than 145,000 
people die each year from injury. Over 85 children and young 
adults die everyday in the United States from injury. Injury is 
the most frequent cause of disability in this country. Millions 
of Americans are non-fatally injured each year, leaving 
permanent disability from severe head, spinal cord, and 
extremity injuries. Because injury so often strikes the young, 
injury is the leading cause of years of lost productivity in 
this country and is estimated at $224 billion per year in 
lifetime costs related to injury in this country.
    My submitted testimony focuses on various areas of delivery 
and research which we believe is important. I am going to 
emphasize two first. The Coalition supports $6 million for the 
Trauma and Emergency Medical Services System development. Last 
year, Congress reauthorized the Trauma Care Systems Planning 
and Development Act for three years. This program was 
originally enacted in 1991. It was fully funded for three 
years. The program was reauthorized in 1994, but not funded. 
Under the program, which was administered by HRSA, nearly 40 
States received at least one year of funding to improve their 
emergency medical services and trauma systems.
    Attached to my written testimony is a survey of the States 
conducted by the National Association of State EMS Directors in 
May 1997 that illustrates in detail the positive impacts in 
improving the delivery of trauma and emergency care in those 
States that did receive funding. Numerous studies have shown 
over the years that organized systems of trauma care 
dramatically lower the number of preventable deaths resulting 
from serious injury.
    The important impact of trauma systems in saving lives was 
noted in a report issued by the Institute of Medicine entitled: 
``Reducing the Burden of Injury,'' which was just published at 
the end of last year. One of the recommendations of the IOM 
panel is as follows: ``The committee supports a greater 
national commitment to, and support of, trauma care systems at 
the Federal, State, and local levels and recommends the 
reauthorization of the Trauma Care Systems Planning and 
Development Act and outcomes research at HRSA.'' Congress has 
already accomplished the legislative steps of reauthorization. 
The trauma and emergency medical services community now urges 
you to provide full funding resources necessary to finish the 
job of developing trauma and emergency medical systems, which 
was started in the early 1990's.
    The second area I want to emphasize----
    Mr. Dickey. Let me interrupt you. Are you all on the ground 
in Colorado? Is that the type of service you give?
    Dr. Champion. Colorado was one of the States funded 
originally.
    Mr. Dickey. I am speaking of the high school?
    Dr. Champion. Yes, I am aware and they have developed their 
EMS system over the 1990's, and they are a very responsive EMS 
system and trauma system, particularly in the Denver area.
    The second area I would like to emphasize is research. The 
Institute of Medicine in their report issued in November 
identified the following recommendation with respect to the 
National Institutes of Health: ``The committee supports a 
greater focus on trauma research and training at the National 
Institutes of Health and recommends that the National 
Institutes of General Medical Sciences elevate its existing 
trauma and burn program to the level of a division. To 
accomplish this goal, the committee recommends the expansion of 
research and training grants and the formation of an NIH-wide 
mechanism for sharing injury research information and for 
promoting collaboration spear-headed by NIGMS.'' As the IOM 
report delineates, NIH spends less than 1 percent of its 
overall resources on injury related research despite the 
enormous public health impact of injury.
    The Coalition supports the findings of the Institute of 
Medicine Injury Committee and urges the subcommittee to include 
report language in this year's bill which re-states the IOM's 
NIH recommendation. The Coalition's other recommendations are 
included in my written statement.
    And, again, I thank you, Mr. Chairman, for the opportunity 
to testify and emphasize these two important areas of delivery 
and research supporting care of the injured.
    Mr. Dickey. Thank you, Dr. Champion.
    [The prepared statement of Dr. Howard Champion, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                             HEALTH FUNDING


                                WITNESS

KAREN M. HENDRICKS, PRESIDENT, COALITION FOR HEALTH FUNDING
    Mr. Dickey. Next, we will hear from Karen M. Hendricks, 
president, representing the Coalition for Health Funding? Good 
morning, Ms. Hendricks.
    Ms. Hendricks. Good morning. Mr. Dickey and Mr. Hoyer, the 
Coalition of Health Funding sincerely appreciates the strong 
and continued support that you and the members of this 
subcommittee have shown in the past several years for health 
discretionary programs. This year, the Coalition's 
recommendations and the work on the subcommittee has special 
significance as we prepare the Nation to respond to the public 
health challenges in the first year of the next millennium. The 
pennies we invest in public health today will reap billions of 
dollars of future returns. Over the past 30 years, the life 
expectancy has been added to, fully 25 years are due to public 
health intervention, including control of infectious diseases, 
improvements in nutrition, sanitation, and occupational safety. 
In the coming century, we expect our continued investments in 
public health to yield remarkable returns.
    But we also know that we face some very serious challenges 
in public health in the new century: new and emerging 
infectious diseases; bio-terrorism; costly chronic disease; and 
access to medical care, particularly preventive care and early 
intervention. To successfully address these and other 
challenges requires adequate investment across the continuum of 
public health activity. We must simultaneously support basic 
medical, behavioral, and health services research; community-
based intervention and prevention efforts; targeted service 
delivery for vulnerable and medically under-served populations; 
and the education of the health professions workforce. The 
Coalition's members recognize the interdependency of all of 
these goals and that no one component of the public health 
continuum can be effective without the strong support of the 
others.
    I would like to provide you with just two very quick 
examples of how our investment in research that is conducted at 
the NIH leads to improved health outcomes through our 
investment in other public health agencies and activities. 
SIDS, as you know, is the leading cause of death for infants 
under one year of age. However, deaths due to SIDS have fallen 
by more than 38 percent as a direct result of the NIH research 
advances. These are working in partnership with both the 
private sector, as well as other public health agencies. SIDS 
research studies revealed the role of sleeping positions in 
infant deaths. NICHD at the NIH initiated the Back to Sleep 
Campaign, an educational effort that encourages parents and 
other care-givers to place infants on their backs to sleep to 
reduce the risk of SIDS. Working with the private sector and 
through the Maternal and Child Health Block Grant, administered 
by HRSA, this research has reached parents of all socio-
economic levels and has resulted in a dramatic reduction in 
SIDS, and thus a reduction in infant mortality. However, we do 
know that we do know that we need some further outreach in 
communities, especially in minority group communities, as well 
as in family day care facilities and child care centers.
    We have looked to the NIH-sponsored research to help 
develop drugs to successfully treat those with HIV/AIDS, but we 
have looked to HRSA and the Ryan White program to make the 
drugs affordable and available to those who are infected but 
who cannot afford care.
    The Coalition for Health Funding appreciates the very 
difficult budget constraints that are facing the subcommittee, 
but we believe that the relatively small proportion of Federal 
funding now spent on public health is an important investment 
in the future because it will ultimately save dollars. As a 
proportion of overall health expenditures, Federal public 
health activities account for $29 billion. That is 3 percent of 
the estimated $1 trillion spent on health care in the United 
States. It is critically important that we maintain a balanced 
Federal budget, but we must not be ``penny-wise and pound 
foolish.'' Our extraordinary success over the past 200 years 
must continue into the next millennium.
    For Fiscal Year 2000, the Coalition is recommended $34 
billion be provided to address the Nation's needs in the areas 
of biomedical, behavioral, and health services research; 
disease prevention and health promotion; health services for 
vulnerable and medically under-served populations, including 
many in our rural communities; and health professions training 
and education. We are also recommending the inclusion of 
funding for the Indian Health Service and the FDA, although not 
within the jurisdiction of the subcommittee, both are part of 
the public health continuum and important agencies within the 
U.S. public health service. The Coalition appreciates that 
these funding levels may appear excessive, but they reflect 
both the professional judgment within the various agencies, as 
well as our own members' assessment of community need. The 
Coalition presents these recommended funding levels to the 
subcommittee in the hope that you will all view these as an 
important target for optimal health outcomes.
    Thank you, Mr. Dickey and Mr. Hoyer, for the opportunity to 
appear before the subcommittee. We look forward to working with 
you to both maintain and to improve the public's health during 
this very challenging appropriations year. Thank you.
    Mr. Dickey. The first lawyer I have ever known to finish on 
time.
    Ms. Hendricks. There you go.
    [The prepared statement of Karen Hendricks follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                              SKIN DISEASE


                                WITNESS

ELIZABETH TERRY AND IAN TERRY, COALITION OF PATIENT ADVOCATES FOR SKIN 
    DISEASE RESEARCH
    Mr. Dickey. Speaking of on time, I would like to say 
because of Mr. Hoyer's interruptions, mainly because of his, we 
are 15 minutes, 20 minutes behind. So let's move fast.
    Elizabeth Terry and brother Ian and the whole family maybe. 
Ian Terry, both are patients of pseudoxanthoma. Part of the 
problem is maybe I can't pronounce these things. I can see it. 
It is called PXE. You are representing the Coalition of Patient 
Advocates for Skin Disease Research. You are first. What is 
your name?
    Ms. Terry. Elizabeth.
    Mr. Dickey. Hi, Elizabeth.
    Ms. Terry. Thank you for the opportunity to speak to you 
today. I am representing the Coalition of Patient Advocates for 
Skin Disease Research. My name is Elizabeth Terry. I am 11 
years old. This is my brother, Ian Terry. He is nine.
    We want to thank Chairman Porter, Mr. Dickey, and the 
subcommittee for their work in getting the 15 percent increase 
for the NIH in Fiscal Year 1999. My brother and I have 
pseudoxanthoma elasticum or PXE for short. PXE is a disorder 
which causes calcification of the elastic tissue. It can cause 
skin problems, blindness, gastro-intestinal, and cardiac 
problems. We were diagnosed about four years ago. About a year 
after that, our parents founded PXE International. It is a 
support organization which gives patients and doctors 
information and helps to support research. Our organization is 
part of the Coalition of Patient Advocates for Skin Disease 
Research. That is a coalition of skin groups. We work together 
to support research for all of our diseases. We know working 
together with one voice is important for all of us. All 
biomedical research is related. A discovery for one disease may 
lead to cure for another.
    In the name of the Coalition of Patient Advocates for Skin 
Disease Research and all the people like my brother and me, I 
am asking you today to again support a 15 percent increase in 
the budget of the NIH. I know from being a part of the 
Coalition that it is important that researchers have the same 
level of funding from year to year so they can continue their 
work.
    I have seen first-hand the importance of medical research 
funding for diseases such as mine. Last year, the NIH sponsored 
a research meeting for PXE that brought scientists together 
from all over the country. This was supported by the Office of 
Rare Diseases and NIAMS. It has sped up research. As a result 
of the meeting, we are close to finding the gene. If they find 
the gene, maybe they can slow down the disorder and offer a 
cure, as long as it isn't a shot. [Laughter.]
    Millions of children and adults affected by these diseases 
represented by the Coalition aren't able to come here today. In 
their name, I am asking you to help. Thank you.
    Mr. Dickey. Great job, Elizabeth. Didn't she do a good job.
    Mr. Hoyer. You know I think it is somewhat unfair to have 
somebody as compelling as Elizabeth and as good at show and 
tell as Ian is to come before us and ask for more money. It is 
almost impossible to say no. Elizabeth, you are 11. I have a 
12-year-old granddaughter. And Thursday is bring your daughter 
to work day. And my daughter, her mother, is in school so she 
can't do that. And I am going to bring her and she is going to 
sit right here--if Ms. Pelosi is not here, I won't have her sit 
in Ms. Pelosi's lap--and participate. But I am going to tell 
her what a great job you did and Ian what you did as well. 
Thank you.
    Ms. Terry. Thank you very much.
    Mr. Dickey. We will do the best we can.
    [The prepared statement of Elizabeth Terry follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                           EDUCATION FUNDING


                                WITNESS

JOEL PACKER, SENIOR PROFESSIONAL ASSOCIATE, DIVISION OF GOVERNMENT 
    RELATIONS, NATIONAL EDUCATION ASSOCIATION AND PRESIDENT, COMMITTEE 
    ON EDUCATION FUNDING
    Mr. Dickey. Hurry, Joel Packer, representing the Committee 
of Education Funding. Where are you, Joel?
    Mr. Hoyer. Joel, this was unfair to do to you to have to 
follow Elizabeth.
    Mr. Packer. I am also not from Arkansas, so I have that 
strike against me as well.
    Mr. Dickey. Well, your time is up. [Laughter.]
    Mr. Packer. I am from Brooklyn, so I can speak fairly 
quickly. I have an 11-year-old daughter who is coming with me 
tomorrow to my office on Take Our Daughter's Work Day.
    Mr. Dickey. Elizabeth, you did a great job.
    Mr. Packer. I am Joel Packer, president of the Committee 
for Education Funding, a nonpartisan coalition founded in 1969 
with the goal of achieving adequate Federal financial support 
for our Nation's education system. CEF is the largest coalition 
of education groups in existence with over 90 members 
representing public and private schools from pre-school to 
graduate education.
    I want to review with you briefly the need for increased 
spending in education, as well as express our disappointment 
with the modest increase of 3.7 percent for the Department of 
Education proposed in the President's budget. During the past 
three years, Federal discretionary education spending has grown 
with bipartisan support by more than $10 billion,which has 
helped restore cuts enacted in Fiscal 1995 and 1996 and provided growth 
in investment in critical programs for educational opportunities for 
all Americans. However, the Federal share of elementary and secondary 
education over the longer term has declined. In 1980, it was almost 12 
percent. Last year, it was 7.5 percent. Similarly, at the higher 
education level, Federal share of expenditures declined from 18 percent 
to 14.6 percent. As an example, if you look at the Pell grant program, 
the purchasing power of the Pell grant program is now only about 75 
percent of what it was in 1980. A Pell grant maximum award now pays for 
only one-third of the average cost of a public four year college and 
only one-seventh of the cost of a private college.
    In addition, enrollment increases at both the elementary, 
secondary, and higher education levels have out-paced increases 
in Federal funding. Between 1980 and 1998, Federal funds for 
elementary and secondary education did increase by about 15.5 
percent but enrollment grew 19.2 percent. At the higher 
education level, the gap was even wider, while Federal funds 
decreased by 27 percent, enrollments rose by 17.4 percent.
    Looking at it another way, as a share of total Federal 
spending, education funding again has declined. In 1980, the 
Department of Education outlays were about 2.5 percent of the 
total Federal budget. Last year, even after the last three 
years of increases, education funding will only be about 2 
percent of the budget. Simply to restore education spending to 
2.5 percent of the Federal budget would require an increase of 
$8.8 billion or 26 percent.
    Mr. Chairman, the Committee for Education Funding asks this 
subcommittee to carry forward the momentum from the last three 
years and make a comparable investment of at least 15 percent 
or $5 million in the education of America's children, youth, 
and adults.
    While the President has led the effort to prevent 
substantial cuts in past years, and has successfully advocated 
for increased education investments in his budget in the last 
several years, as I stated, we are disappointed with his 
current budget proposal. We do support proposed increase 
investments the administration asked for in programs such as 
after school learning, class-size reduction, education 
technology, teacher preparation, and others. But we believe 
education programs need a much larger investment to meet the 
needs of America's students. In particular, we are unhappy that 
the President proposes to freeze, cut, or eliminate important 
programs, including special education State grants, vocational 
education, Impact Aid, Title 6 Innovative Strategy State 
Grants, professional development for teachers, and several 
campus-based student aid programs. Each of these programs was 
reauthorized recently by Congress on a bipartisan basis and 
they need additional resources to implement the reforms that 
Congress wants and expects.
    The other message I want to leave with you, however, is not 
to pit one education program against another. As an example, 
special education IDEA would need at least $11 billion a year 
to meet Congress' commitment to fully fund the program. At the 
same time though, investments in Title 1 are also desperately 
needed. CRS recently found that to fully fund Title 1 would 
require $24 billion, a tripling of the program. So we don't 
want one program to be funded by cutting another, whether it is 
at the elementary, secondary, or higher education level.
    Lastly, let me mention several CEF member organizations 
have proposed specific increases within our 15 percent overall 
goal for key programs, including a $400 increase in the Pell 
grant maximum award; $250 million for vocational education; $80 
million for Impact Aid; $70 million for the TRIO college 
programs; $65 million for supplemental grants; $50 million for 
the new LEAP Program which replaced State Student Incentive 
grants; and my testimony lists several others. One other 
program again I want to mention is IDEA where we are 
recommending at least a billion increase, and we also support a 
significant increase above the President's request for Title 1.
    In conclusion, CEF calls on you to help lead the way to 
again obtain a positive outcome for education funding. 
Incremental steps for investing in education are not 
sufficient. We can sustain our success by preparing for the 
future. Our future increasingly depends on education. The 
public has made education its top priority. The needs facing 
schools and post-secondary educational institutions are clear. 
The economic and budgetary situation provides you with a unique 
opportunity to meet these challenges. CEF urges Congress and 
the administration to prepare for a future that is brighter 
than ever.
    Mr. Dickey. Thank you, Brooklyn.
    Mr. Packer. Thank you.
    Mr. Dickey. Have you ever heard of Ebbit's Field?
    Mr. Packer. Oh yes, it was before my time though.
    Mr. Dickey. All right.
    [The prepared statement of Joel Packer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                                ALOPECIA


                                WITNESS

JACKIE OMENITSCH, REPRESENTING THE NATIONAL ALOPECIA AREATA FOUNDATION
    Mr. Dickey. Jackie Omenitsch, are you out there? Hi, 
Jackie.
    Ms. Omenitsch. Hi.
    Mr. Dickey. I am going to let you state, if you can, if you 
can pronounce the organization you represent? National 
something Foundation?
    Ms. Omenitsch. Alopecia Areata Foundation.
    Mr. Dickey. Say it one more time?
    Ms. Omenitsch. National Alopecia Areata Foundation.
    Mr. Dickey. Welcome, Jackie.
    Ms. Omenitsch. Mr. Chairman, the members of the House 
subcommittee and staff, I would like to thank you for this 
opportunity to testify today.
    I am Jackie Omenitsch. I am 11 years old. And I do have 
alopecia areata. I am here today on behalf of those who are 
suffering from alopecia areata and to represent National 
Alopecia Areata Foundation.
    Alopecia Areata is hair loss caused by something going 
wrong with our immune system, which makes it think our hair is 
bad for us. Therefore, it will not allow our hair to grow. For 
some people, it is the loss of a small patch on their head or 
other place on their body. This is called alopecia areata. For 
some, it is the loss of every hair on their head. This is 
called alopecia totalis. And still for others, it is the loss 
of every hair on their whole body.This is what I have. It is 
called alopecia universalis.
    Alopecia occurs in over four million people, usually 
happening between the ages of 5 and 18, but it can happen to 
anyone at any given time. I got it when I was only 18 months 
old. When it happens, it usually is met with shock and 
disbelief. And it doesn't help that most doctors don't know 
what causes it. They don't know if there is a cure for it. And 
most people haven't even heard about the National Alopecia 
Areata Foundation.
    My parents tell me that they tried to find a miracle cure 
and went to many doctors and hospitals. My mom says she is glad 
that I was too little to remember how upset they were. I don't 
remember ever having hair. My friends and most people in my 
hometown know me and know my condition. It is only when I go 
outside my community when I get remarks and stares. Some people 
are sympathetic because they think I have cancer. Others are 
rude and make remarks about my haircut. I get upset about those 
reactions.
    I guess I am lucky in a way that I got alopecia when I was 
so young. I am used to not having hair. But what if it happened 
to me now for the first time? I would not be so confident 
sitting here without a wig if I had just lost my hair a month 
ago. Oh, and just because I am used to not having hair, don't 
think for one minute that I don't want it.
    I have met lots of other kids with alopecia at our annual 
conferences. The other kids in their schools can be so mean to 
them when they lose their hair. Some of them can get teased so 
much that they get into fights. Sometimes it gets so bad, they 
have to switch schools and no one knows them and no one knows 
that they are bald. But then they have another problem to worry 
about. What if someone does find out that they are bald? I met 
one girl that was standing at her locker and a kid pulled off 
her wig. He threw it to another boy and they wouldn't give it 
back to her even when she cried. One older boy that I met got 
beat up because the kids in his school thought he was a skin-
head. His parents had to call the police and the kids that got 
in trouble kept scaring him. So his mom home-schooled him until 
he graduated.
    But I guess the worst thing that can happen to a person 
with alopecia is that they become scared of the world. Being so 
different from everyone can be especially hard for us kids. 
Society tells us that we need to be beautiful to be accepted. 
And I don't know anyone that thinks bald is beautiful except my 
parents. When I meet kids with alopecia who tell me that they 
feel ugly and that they are afraid to go new places or they 
don't participate in school stuff like football and basketball 
games or dances, it makes me feel sad. They lose self-
confidence, don't feel good about themselves, and they feel 
lonely and scared. Alopecia can be a devastating illness for 
children and adults. It is not just our hair, it's our self-
image.
    Fortunately, there are support groups that can help kids 
and adults learn that they are not alone and that they can do 
something about feeling bad and being scared. But the real 
solution will come when we find a cure. Funding for research 
for alopecia areata comes out of the National Institute of 
Arthritis, Musculoskeletal and Skin Diseases, called NIAMS. We 
are in the Coalition of Patient Advocates for Skin Diseases and 
we believe that NIAMS needs more resources. We are asking for 
you to consider a 15 percent increase in the funding that will 
bring it up to $354 million. My dad says I need to repeat this. 
[Laughter.] We are asking for a 15 percent increase in the 
funding that will bring it up to $354 million. I know you think 
it is not a big deal, but think, wouldn't it be hard for you if 
you had no hair, no eyebrows, no eyelashes either. It probably 
would. And I really do want hair.
    We hope that you will consider this request. Thank you. Are 
there any questions?
    Mr. Dickey. That was an excellent job. It obviously hasn't 
affected your articulation. Are you in pain at all?
    Ms. Omenitsch. No.
    Mr. Dickey. Do you take medicine?
    Ms. Omenitsch. It is also related to skin problems too. And 
I get eczema on my arms and around my ears too and I have to 
use some lotion to put on that so it heals.
    Mr. Dickey. Tell me this, did you worry about testifying 
before us? Are you glad it's over? That is what I thought. You 
did a great job, you and Elizabeth. This is the time for 11-
year-olds, is that right?
    Thank you, parents.
    Mr. Hoyer. Jackie, it's the time for beautiful 11-year-
olds.
    Mr. Dickey. That is exactly right. Your spirit is showing, 
Jackie.
    [The prepared statement of Jackie Omenitsch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                            ANOREXIA NERVOSA


                                WITNESS

CHERYL RACZON, STRATEGIC ALLIANCE MANAGER AND BUSINESS DEVELOPMENT 
    MANAGER, REVERE GROUP, DEERFIELD, ILLINOIS; REPRESENTING THE 
    NATIONAL ASSOCIATION OF ANOREXIA NERVOSA AND ASSOCIATED DISORDERS
    Mr. Dickey. All right. I have the names. Cheryl Raczon. Did 
I come close?
    Ms. Raczon. Yes, Raczon.
    Mr. Dickey. Okay, Raczon, representing the National 
Association of Anorexia----
    Mr. Hoyer. Nervosa.
    Mr. Dickey [continuing]. Nervosa and Associated Disorders 
and don't interrupt me ever again. [Laughter.]
    I am a very sensitive person.
    Mr. Hoyer. We are going to interrupt this hearing and go 
out and fight. [Laughter.]
    Mr. Dickey. Welcome.
    Ms. Raczon. Thank you very much. I am not 11, but I am 
going to do the best I can. I am very grateful for the 
committee and especially Congressman Porter for allowing me to 
speak in front of you today. I am representing over eight 
million people with eating disorders. I am very fortunate, I 
have survived what other people have died from.
    On behalf of ANAD, which is Anorexia Nervosa and Associated 
Disorders, we were founded in 1976 and they are our Nation's 
oldest nonprofit organization dedicated to eliminating the 
problems of anorexia nervosa, bulimia, and binge eating. They 
were my personal saviors.
    ANAD's education, early detection, and prevention programs 
provide models for low-cost outreach services that benefit 
hundreds of thousands of Americans and the programs are free. 
They effectively demonstrate that proactive support strategies 
not be expensive at all. Eating disorders are a form of severe 
mental illness that carries significant physical impact and 
many complex causes, including physiological, familial, and 
socio-cultural components. And some recent authoritative 
studies have revealed genetic and biological components as 
well.
    Statistically, death and disability rates for eating 
disorders are among the highest of all mental illnesses. The 
National Institute of Mental Health estimates that 10 percent 
of all victims die. NIMH further reports that 1 in every 100 to 
200 adolescent girls will be afflicted with an eating disorder. 
Further, 89 percent of the onset of the disordered eating 
behaviors occurs by the age of 20, with 43 under the age of 15, 
which I can personally attest to visiting a hospital last week 
where two girls were eight years old and they had to be tube 
fed.
    Treated early, eating disorders are curable and at a lower 
cost, both emotionally and monetarily as well. Eating disorders 
are a phenomenon of our culture. They are embedded and studies 
indicate that the incidence of eating disorders are growing 
rapidly. This is not surprising given our culture's obsession 
with thinness and billion dollar industries devoted to weight 
loss, fast food, and having a quick cure for everything. And 
while these problems are especially acute for our Nation's 
girls, they are shared with a number of growing boys, 
wrestling, having to make weight just like that.
    In an article published last year, Dr. Daniel Krowchuk, a 
pediatrician at Wake Forest University School of Medicine 
documented his research with over 2,000 sixth, seventh, and 
eighth grade students. In his study, he found that 10 percent 
of girls and 5 percent of boys surveyed reported vomiting or 
using laxatives to lose weight. This is our Nation's 
adolescents. He concluded younger adolescents trying to lose 
weight engage in a variety of problem dieting, weight loss 
behaviors that can compromise health and may be associated with 
eating disorders.
    Dr. Krowchuk's study and others like it are the reason that 
my focus today is on education and prevention, as well as 
studies to help understand why they happen more often, 
especially even biologically. This might possibly serve to 
advertise those destructive behaviors to some susceptible 
youngsters where the opposite is actually intended.
    For this reason, we ask Congress to appropriate a minimum 
of $10 million for the development and implementation of 
comprehensive education and preventive programs that promote 
correct notions about nutrition and that McDonald's really 
doesn't do it when you are trying to have a healthy eating 
behavior.
    We also would like to ask Congress for an additional $10 
million for the research necessary to investigate the causes of 
these disorders because they are simply not just ``I don't feel 
good about the way I look.''
    One of the keys of helping the predominately teenage 
victims of eating disorders is identifying the specific 
population at risk for developing these diseases. Research 
which results in discerning the specific cause or causes for 
eating disorders renders three great results: better treatment, 
development of effective prevention programs, and development 
of focused education programs. In order to ensure that Federal 
monies are earmarked for eating disorders and solely for this 
purpose, funds allocated should have built within them a system 
for monitoring their application and use. We ask the members of 
this subcommittee and Congress to enact legislation that 
provides funding aimed at preventing other generation of youth 
from developing eating disorders in really increasing numbers.
    With that, I genuinely thank you very much for your time.
    Mr. Dickey. I would like to ask a question?
    Ms. Raczon. Absolutely.
    Mr. Dickey. What form is the treatment?
    Ms. Raczon. There are several different kinds of treatment. 
It depends upon how bad the physical symptoms become. I can 
testify myself that I had gotten down, I was my height and I 
weighed 89 pounds. I had to be tube-fed through my nose and IVS 
in order to get back up to a weight. Unfortunately, the 
physical ramifications of that are I have heart problems and 
may not be able to have children. This is what having my eating 
disorder did to me.
    Mr. Dickey. Is that the only treatment though?
    Ms. Raczon. It is not. Effective nutrition education is one 
of them.
    Mr. Dickey. Prescription drugs? Any prescription drugs?
    Ms. Raczon. Some prescription drugs because a lot of eating 
disorders are directly related to depression, so they may be 
coincided together.
    Mr. Dickey. Karen Carpenter died?
    Ms. Raczon. Yes, sir.
    Mr. Dickey. Of what?
    Ms. Raczon. She died of anorexia nervosa, but complications 
of heart disease was what she actually died from.
    Mr. Dickey. Bulimia is just the opposite of anorexia?
    Ms. Raczon. It is a different form. Anorexia is the 
complete restriction of food altogether. Bulimia nervosa is 
where it's the binging and purging of food and oftentimes they 
are married together. You feel guilty about eating.
    Mr. Dickey. My daughter had some parts of that? Is that 
possible?
    Ms. Raczon. Absolutely.
    Mr. Dickey. Just light cases?
    Ms. Raczon. Yes, absolutely.
    Mr. Dickey. Okay.
    Ms. Raczon. And the beautiful part is if there is a light 
case, that means that she understood that what she was doing 
wasn't right.
    Mr. Dickey. Thank you so much.
    Ms. Raczon. Thank you.
    [The prepared statement of Cheryl Raczon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                            CANCER RESEARCH


                                WITNESS

JOSEPH S. BAILES, MD, PRESIDENT-ELECT, AMERICAN SOCIETY OF CLINICAL 
    ONCOLOGY
    Mr. Dickey. Next, we have Dr. Joseph Bailes, representing 
the American Society of Clinical Oncology. How are you, Joe?
    Dr. Bailes. Thank you. I am very well, Mr. Chairman. How 
are you, sir?
    Mr. Dickey. Doing fine, thank you. Don't ask Mr. Hoyer how 
he is doing.
    Dr. Bailes. How are you, Mr. Hoyer?
    Mr. Hoyer. I am fine, notwithstanding the comments of the 
chairman. [Laughter.]
    Mr. Dickey. All right.
    Dr. Bailes. Mr. Chairman, I am a medical oncologist from 
Dallas, Texas and am pleased to submit testimony to the 
subcommittee on behalf of the American Society of Clinical 
Oncology. I am its president-elect.
    The American Society of Clinical Oncology has more than 
12,000 members, and we are the association or society for 
physician research in cancer.
    Mr. Dickey. Do you know Bill Tranum?
    Dr. Bailes. I know Bill Tranum well.
    Mr. Dickey. I just saw him Saturday night. You want me to 
tell him hello for you?
    Dr. Bailes. Please do. Bill is actually a very close 
friend.
    Mr. Dickey. I went to school with him.
    Dr. Bailes. You did?
    Mr. Dickey. Yes, I did.
    Dr. Bailes. Well, he is a good friend.
    Mr. Hoyer. Don't let your opinion of him be compromised 
by----
    Mr. Dickey. You are out of order. You are out of order. 
[Laughter.]
    Dr. Bailes. I will have to ask Dr. Tranum. I think I can 
try.
    During the past two decades, we have witnessed significant 
strides against many forms of cancer. There are new anti-cancer 
compounds that have been introduced. We have many tools 
available to combat the toxic effects of treatment ranging from 
antiemetics that block nausea to hemopoietic growth factors 
that prevent depletion of various types of blood cells. 
Progress, however, has admittedly been incremental and much 
slower than anyone would have liked.
    In contrast to the 80 percent or more of children with 
cancer who enroll in clinical trials, the National Cancer 
Institute estimates that no more than 2 to 3 percent of adult 
patients with cancer participate in trials in this country. As 
a result, important research questions may go unanswered for 
years. Both the National Cancer Institute and private 
organizations like the American Society of Clinical Oncology 
and various patient advocacy groups are taking steps to 
understand the basis for this low level of enrollment and what 
we frankly can do to improve it. NCI should be supported by 
Congress in every conceivable way to further this effort.
    Emphasis on clinical research funding and participation 
will be even more important over the years. At present, 
inadequate numbers of clinical trials participants slow the 
incremental progress that has been the hallmark of cancer 
research over the past two decades. We now stand, however, at 
the brink of a new era, which discoveries about genetics and 
basic cell biology have created unprecedented opportunities for 
both preventive and therapeutic approaches.
    Through our Nation's investment in basic research, we now 
have a solid fundamental understanding of the ways in which 
genetic and cellular mechanisms influence the development, 
growth, and survival of cancer. In order to take advantage of 
this potentially life-saving knowledge, the National Institutes 
of health must make a substantial further investment in what is 
known as both translational and clinical research. 
Translational research is the bridge that leads discovery from 
the laboratory to potential applications in patients. And 
clinical research refines those applications to the point that 
they can be incorporated into standard medical practice. These 
steps can't be ignored if U.S. citizens are to enjoy the fruits 
of Federally-funded basic research in the form of decreased 
cancer mortality and morbidity and incidences.
    ASCO believes the National Cancer Institute has made 
important advances in expanding support of translation 
research, as reflected in new grant mechanisms for drug 
discovery and early human trials. The National Cancer Institute 
also strengthened the review of clinical cancer research with 
the establishment this year of a so-called special emphasis 
panel to review investigator-initiated clinical research 
proposals in cancer. For many years, clinical researchers have 
been frustrated by a peer review process at the National 
Institutes of Health that is dominated by laboratory 
scientists. After much urging from the American Society of 
Clinical Oncology and patient advocacy groups, such as the 
Leukemia Society of America, the new panel was created to focus 
on proposals that study that results in actual patients, which 
is ASCO's and others idea of patient-oriented research in 
opposition to studies that involve only tissue or blood 
samples. We are hopeful that this and other steps that NCI may 
take will improve the research environment.
    In order to maximize all our opportunities against cancer, 
whether in basic, translational, or clinical research, there 
must be a reliable stream of Federal funding.
    Last year's increase of funding of almost 15 percent was 
welcomed by the entire oncology community. We thank you and the 
subcommittee for your tireless work to increase funding for NIH 
and your commitment to biomedical research. Your success means 
that more researchers can be funded and the likelihood of 
translating these basic research advances and improved 
therapies is enhanced. We were dismayed, however, to learn that 
the administration was seeking only a 2 percent increase for 
the coming year. Recent action on the budget resolution has 
provided us some encouragement that the goal of the doubling 
the NIH budget over five years is a realistic goal, and we 
stand ready to support your efforts to do so. Cancer research 
is a complex process that to be successful must be sustained 
over time. Increases in one year may be to no avail if they are 
followed by what is in practical terms a reduction in the next 
year.
    ASCO, therefore, urges the subcommittee to provide an 
increase in funding of NIH that will permit continued expansion 
of cancer research programs to take advantage of these 
opportunities. Ideally, the professional judgment budget 
submitted by NIH should be taken by the subcommittee as its 
guide.
    Mr. Dickey. Time is getting you.
    Dr. Bailes. I know.
    Mr. Dickey. All right.
    Dr. Bailes. But if fiscal circumstances require otherwise, 
at least replicate the 15 percent increase.
    Thank you for your consideration of ASCO's views.
    Mr. Dickey. You did a good job, Joseph.
    Dr. Bailes. Thank you, sir.
    Mr. Dickey. Tell Billy he couldn't have done as well.
    Dr. Bailes. I will pass that on.
    [The prepared statement of Joseph Bailes follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                             RARE DISEASES


                                WITNESS

ABBEY S. MEYERS, FOUNDER AND PRESIDENT, NATIONAL ORGANIZATION OF RARE 
    DISORDERS
    Mr. Dickey. Abbey S. Meyers, founder and president of the 
National Association of Rare Disorders. Is Mr. Hoyer a subject 
of your studies, is he? [Laughter.]
    Ms. Meyers. I truly admire Mr. Hoyer, and I know that he 
goes to church with a number of people who have rare diseases 
and has been very considerate of them over the years. And this 
committee has been wonderful to the NIH.
    What we basically want to say is the scope of the rare 
disease problem, as many of these people who have appeared 
before you today who are representing rare diseases, the scope 
is huge. We are talking about 6,000 rare diseases that affect 
about 9 percent of the population in the United States.
    Mr. Dickey. Ninety percent?
    Ms. Meyers. Nine percent, 9 percent.
    Mr. Dickey. Nine percent, okay, excuse me.
    Ms. Meyers. It is over 20 million Americans. And some of 
them affect just a handful of people, like some of the severe 
combined immune deficiencies and some of them affect up to 
200,000 people. I became involved with this issue because my 
children, I have three children who have a rare genetic disease 
called Turrette Syndrome. And over the years, I could have come 
to this committee and asked you all for money specifically for 
Turrette Syndrome, and I have never done that. And the reason 
is that the overall problem for all of us is so intense that 
what we need is programs and research on all of them.
    A few years ago, NIH set up an Office for Rare Diseases 
research at NIH. It is not codified. It has a budget of under 
$3 million. Last year, when you increased NIH's budget by 15 
percent, the office got only $400,000 more out of that. It is 
an unbelievable problem because hardly any of these diseases 
have adequate research going on. They all need more attention. 
You just heard this child from Alopecia Areata say that last 
year there was a meeting at NIH and it was sponsored by the 
Office of Rare Diseases. They need to sponsor 100 of those, 200 
of those every year.
    Mr. Dickey. Ms. Meyers, let me ask a question. How is this 
not an overlap? If each one of these other programs and 
organizations are asking for money, then why is it not a 
duplication?
    Ms. Meyers. What we need is a central office at NIH that 
takes care of all of our problems so that these people don't 
have to come to you as often as they are begging for money for 
education programs. That office should take care of the 
education programs. It should be a clearinghouse for 
information. It should set up programs for training of 
researchers, training of physicians so that these things can be 
diagnosed.
    The commercial sector is not taking care of rare diseases. 
For hypertension, for cancer, for arthritis, the commercial 
sector looks at the problem and says that is a substantial 
market. If we make a drug for that disease, we are going to 
make billions of dollars, and they move right in; they have got 
very active research programs, but rare disease research relies 
solely on the NIH for birth defects, for metabolic diseases, 
for the immune deficiencies that the Human Genome Project is 
discovering. There used to 5,000 rare diseases; this year, 
there is 7,000 because of the Human Genome Project.
    So, what we are asking for is when you make this 
appropriation--of course, we support the 15 percent increase--
but a minimum of $25 million should be appropriated to the 
Office for Rare Diseases, and you should direct the NIH to 
conduct a feasibility study on making the office into a center 
for rare disease research.
    Mr. Dickey. Thank you, ma'am. Do you have any questions, 
Mr. Hoyer?
    Mr. Hoyer. You mentioned two figures at the outset, the 
6,000 rare diseases, and the second time you referenced 7,000--
5,000 to 7,000, because of the research of simply finding them 
out. What is it? It is a large number, obviously, but is it 
6,000?
    Ms. Meyers. It is 6,000. The official NIH figure thisyear 
is 6,000.
    Mr. Hoyer. Six thousand rare diseases.
    Ms. Meyers. There is a book on genetic diseases called 
``The Mendelian Inheritance in Man,'' and that lists 7,000 
hereditary diseases, but some of them, of course, like color 
blindness are not diseases, and they are not rare.
    Mr. Hoyer. Right.
    Ms. Meyers. So, conservatively, NIH says 6,000.
    Mr. Hoyer. Thank you very much for your testimony. It is a 
gargantuan problem--of course, the orphan drug bill and trying 
to deal with that in some degree, but you raised a real issue, 
and, Mr. Chairman, when you ask is it duplicative, obviously, 
to some degree all the research, as we know, has a synergistic 
effect on one other, the Genome Project in particular, but the 
institutes all rely on one other to some degree----
    Ms. Meyers. That is right.
    Mr. Hoyer [continuing]. But there obviously are unique--
which is why they are rare diseases--facets that are missed if 
not focused on. I appreciate your testimony, Ms. Meyers.
    Mr. Dickey. Thank you.
    Ms. Meyers. Okay.
    [The prepared statement of Abbey Meyers follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                     NATIONAL INSTITUTES OF HEALTH


                                WITNESS

EDWARD G. JONES, M.D., D.PHIL., PRESIDENT AND CEO OF THE SOCIETY OF 
    NEUROSCIENCE, DIRECTOR OF THE CENTER OF NEUROSCIENCE, UNIVERSITY OF 
    CALIFORNIA, DAVIS
    Mr. Dickey. Next, we hear from Dr. Edward G. Jones, 
representing the Society for Neuroscience. How are you doing?
    Dr. Jones. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Hoyer, I am testifying on behalf of the Society for 
Neuroscience, which is the largest organization in the world 
devoted to the study of the brain and the spinal cord. The 
Society of Neuroscience numbers among its members more than 
28,000 basic and clinical researchers affiliated with 
universities, hospitals, and scientific institutions throughout 
North America and other countries. The society is very grateful 
for this opportunity to give testimony, and I would like to 
express its gratitude to the subcommittee and to you, Mr. 
Chairman, for the high priority that you have given to ensuring 
continued funding for biomedical research at the National 
Institutes of Health.
    The increase in funding for NIH last year, which was the 
largest single increase in its history, was a direct result of 
your strong commitment. It has allowed the expansion of 
research aimed at combating such disorders as Alzheimer's 
Disease, Parkinson's Disease, mental retardation, stroke, 
severe depression, schizophrenia, and spinal cord injuries, 
just to name a few.
    We ask the subcommittee to again make biomedical research 
funding a high priority. We support the Ad Hoc Group for 
Biomedical Research's recommendation of a $2.3 billion increase 
for the National Institutes of Health in Fiscal Year 2000. This 
represents a 15 percent increase over last year, and it would 
be the second installment towards the goal of doubling the NIH 
budget over a 5-year period.
    Today, Mr. Chairman, over 50 million Americans suffer from 
a permanent neurological disability that restricts their daily 
activities. Brain and spinal cord disorders account for the 
majority of our Nation's long-term care costs, estimated at 
over $400 billion per year. And if we include psychiatric 
disorders and substance abuse, the cost of hospitalization and 
prolonged care exceed those of all other diseases combined.
    Our former President, Ronald Reagan, is one of four million 
older American who suffers from Alzheimer's Disease. This alone 
costs the Nation $100 billion per year. And as our population 
continues to age, 14 million Americans will have Alzheimer's 
Disease by the middle of the next century unless a cure or 
effective treatment is discovered.
    Twelve hundred Americans become stroke victims everyday. 
One-third dies and one-third are permanently disabled. The cost 
is estimated at $30 billion annually.
    Eighteen million Americans suffer from major depression. 
Disability from depressive illness exceeds that from diabetes, 
from hypertension, from gastrointestinal, and lung diseases, 
and it costs $44 billion annually.
    Nine million children in adolescents in the United States 
are affected by a developmental or a behavioral disorder, and 
only one-third receive treatment for their illness, and we have 
seen a terrible manifestation of this in the last day in 
Colorado.
    Delaying the onset of these and other major neurological 
and mind disorders by even five years can save billions of 
dollars in health costs annually.
    In 1990, President George Bush signed a proclamation 
declaring the 1990's to be the Decade of the Brain, and this 
decade was intended to educate the public and to increase the 
awareness of the importance research into neurological and 
psychiatric disorders. During this period, Mr. Hoyer was the 
recipient of the society's annual Decade of the Brain Award. 
The success of the Decade of the Brain was amply confirmed at a 
meeting organized last week by the Society for Neuroscience and 
held at the National Academy of Sciences to assess the Decade, 
and it was attended by Members of Congress, scientists, patient 
advocacy groups, and some of their most visible spokespersons. 
And in this past decade, neuroscience research has not only 
dramatically advanced our understanding of the complexity of 
the brain, but many advances have allowed or will soon allow 
cures for crippling disorders, such as Alzheimer's, stroke, 
depression, learning disability, and schizophrenia.
    I would like to give you just three examples--others are 
listed in the written testimony--of advances that have been 
made in the last three years as a result of continued support 
for NIH research. When the brain is affected by a stroke, 
damage follows very quickly, and it usually has devastating 
effects. NIH support of laboratory research led to the 
development of a drug which we call t-PA, and when t-PA is 
given within three hours of an attack, it can actually prevent 
damage to the brain and long-lasting symptoms in at least one-
third cases, which is a remarkable introduction.
    Mutations in a human gene, which we call L1, cause 
malformations of brain development leading to mental 
retardation. The importance of this is that alcohol impairs 
function of the L1 protein, and this helps us explain the 
severe mental impairment seen in Fetal Alcohol Syndrome, and 
there is obviously a therapeutic strategy in sight here.
    And, third, a drug now used effectively for treating brain 
injuries dramatically improves learning in the elderly, and 
scientists believe it can be used to arrest the mental decline 
that accompanies normal aging and the accelerated decline of 
Alzheimer's Disease.
    We feel that we are closer than we have ever been to 
fundamental breakthroughs in understanding most of the 
neurological, psychiatric, and behavioral disorders that 
afflict millions of Americans. The pace at which these 
discoveries proceed is directly related to our Federal 
investment in biomedical research, and if we should falter in 
our commitment to fundamental research, numerous opportunities 
for understanding the mechanisms of disease and for developing 
effective treatments and cures on the basis of this knowledge 
will be delayed or lost.
    Thank you, Mr. Chairman, for the opportunity to testify and 
the strong support that you and the subcommittee have provided 
for NIH.
    Mr. Dickey. Thank you, sir.
    Mr. Hoyer. Mr. Chairman, if it is right, I would like to 
make another comment.
    Mr. Dickey. Do you want another award?
    Mr. Hoyer. Right. [Laughter.]
    Doctor, Christopher Reeve testified last week here before 
the subcommittee, obviously on spinal cord injury and on the 
importance of research, and he made an interesting observation. 
I forget the name of the doctor to whom he talked--I believe 
the doctor was in, however, Great Britain--but said--
Christopher Reeve's observation was, it was his belief if we 
continued to make a substantial investment in basic research on 
spinal cord injuries and other neuro-related consequences, that 
he might be out of his chair in three to five years. If we did 
not, he may not be out of that chair for 25 or 30 years, which 
was a very dramatic, I thought, relationship between our 
investment and basic research in this area as well as other 
areas and the consequences to individuals.
    And I appreciate your testimony and Christopher Reeve's 
testimony. I don't think you were here, Mr. Chairman, but 
Christopher Reeve's testimony was very powerful.
    Dr. Jones. Thank you.
    Mr. Dickey. Thank you, sir.
    [The prepared statement of Edward Jones follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                        DEPARTMENT OF EDUCATION


                                WITNESS

LYNN SWANN, BOARD MEMBER AND FORMER PRESIDENT, BIG BROTHERS BIG SISTERS 
    OF AMERICA; PRESIDENT, SWANN, INC.; BROADCASTER, ABC SPORTS, AND 
    FORMER PROFESSIONAL FOOTBALL PLAYER, PITTSBURGH STEELERS
    Mr. Dickey. Mr. Lynn Swann, representing the Big Brothers 
and Big Sisters of American, and while you are sitting down, 
Mr. Swann, I would like to thank you for lending your celebrity 
to this, and ask you if you know what school Mr. Greenwood went 
to? Do you know what school he went to?
    Mr. Swann. Mr. L.C. Greenwood?
    Mr. Dickey. Yes.
    Mr. Swann. I believe it was----
    Mr. Dickey. Come on.
    Mr. Swann [continuing]. A school in Mississippi.
    Mr. Dickey. No, you flunked.
    Mr. Swann. I flunked.
    Mr. Dickey. Now, I am going to take a minute off your----
    [Laughter.]
    It is the University of Arkansas at Pine Bluff in Arkansas.
    Mr. Swann. Okay.
    Mr. Hoyer. Mr. Chairman, Mr. Swann is so fast that it won't 
affect him at all. [Laughter.]
    Mr. Dickey. I know it, I know it. You are right, you are 
right.
    Mrs. Lowey. And, Mr. Chairman, I know I am getting the 
pleasure of introducing Mr. Swann, but I hope you don't takea 
minute away from me, because I know the bells are going to go off.
    Mr. Dickey. You have all waited with baited breath to find 
out who this gentleman is, however.
    Mrs. Lowey. That is right, that is right, and I have the 
real honor of introducing Lynn Swann, because you know him to 
be associated with Big Brothers and Big Sisters, but I wonder 
if you all know that he--I will let you guess--he was part of a 
team that won four superbowl championships, was the NFL Man of 
the Year, and more recently a commentator with ABC Sports. Now 
do you know what team that was?
    Mr. Dickey. Jackie says she does.
    Mrs. Lowey. Which is it, Jackie?
    Ms. Omenitsch. Pittsburgh Steelers.
    Mrs. Lowey. Wow. [Laughter.]
    You got it.
    Mr. Hoyer. They were pretty mean to the Redskins from time 
to time, I want to tell you that.
    Mrs. Lowey. But I just have to tell you, in all 
seriousness, we are very proud and the world is proud of what 
Lynn did in his capacity as a great, great football player, but 
I am equally proud or more proud of your leadership of Big 
Brothers Big Sisters and your commitment to working with youth 
development and our young people as we all read of the horror 
in Littleton, Colorado. You just can't help but wonder what the 
families did wrong, what the communities did wrong, what their 
friends did wrong, what we did wrong. How could this have 
happened? Now, I know we are going to be asking those questions 
for a long time, but Big Brothers and Big Sisters understand 
that the connection between a big brother and big sister, the 
connection between the little sister and the big sister makes 
such an extraordinary difference, because that child 
understands that someone cares; that child understands that he 
or she has a mentor, and you, as a mentor and as a leader, have 
made such major contributions, I just wanted to thank you and 
introduce you to our committee.
    Mr. Dickey. You have five minutes. [Laughter.]
    Mr. Swann. Mr. Chairman, thank you. Congresswoman Lowey, 
thank you very much for that introduction, and I agree with you 
wholeheartedly. Big Brothers and Big Sisters, our core programs 
are one-to-one mentoring, and I think there is a very strong 
need in light of the tragedy in Colorado to further pursue the 
quest of one-to-one mentoring. I believe that there are a lot 
of groups that do good work, but we have proven with a 
significant amount of research and case studies that the best 
way to increase the chances for a productive life, an 
improvement in a young person's life, is through one-to-one 
mentoring.
    But, first, I want to thank you for allowing me to be here. 
Several years ago, I was here when Senator Porter Chaired the 
subcommittee on the Volunteer Protection Act, and I know he is 
not here today, but I would just like to go on the record as 
saying we thank him for the 10 years of dedicated service in 
this area, and we appreciate his work very much.
    A few years before that, I came here and gave testimony. I 
sat before a subcommittee to discuss a school-based mentoring 
program, called JUMP, with several of our more than 500 
agencies set to apply for a competitive grant in this school-
based mentoring program, and sat here and I said that if we are 
involved in this program, if our agencies receive a number of 
these grants, we would seek to quantify the results of this 
program and our involvement. I would like to give you a little 
bit of information on that.
    There were 10 agencies of Big Brothers and Big Sisters that 
received a JUMP grant. Let me give you the results in five of 
those. In Phoenix, in 1995, they began with 902 people in that 
program, and that moved up in 2 years to 1,371 children in that 
program. In Denver, Colorado, they began with 403; they jumped 
to 1,867 children served. In Philadelphia, 203; moved quickly 
up to 1,462 children served. In Minneapolis, they began with 
509 and moved up to 1,049, and in Bloomington, Indiana, they 
started with 116 in the first year. By the end of that third 
year, they had reached a number of 2,181. Of the 10 agencies 
that had this program, they started with a number of 3,439 
children in 1995. At the end of the program in 1997, they had 
served 7,844 children in a school-based mentoring program.
    Now, Big Brothers and Big Sisters of America, our core 
program matches children in the one-to-one relationship with 
the support of a professional social worker, and it takes more 
than just numbers. Six years ago, Public-Private Adventures 
embarked on a study--took them about four years to do this 
study--a comprehensive research of what our programs did for 
kids. They studied over 1,000 children--half of them matched, 
half of them unmatched--over a 4-year period of time. Let me 
give you some of the numbers as a result of that program. In 
the landmark study, Little Brothers and Little Sisters were 46 
percent less likely to use illegal drugs, 46 percent; 27 
percent less likely to begin using alcohol; 52 percent less 
likely ever to skip school; 37 percent less likely ever to skip 
a class. They were more confident of their schoolwork, more 
confident in their performance, less likely to hit someone, and 
more likely to get along better with their families and all 
people involved. The research states that it is our trademark 
approach to mentoring that helps volunteers become such 
powerful tools of influence in a child's life.
    Now, we understand that innovation occurs at the local 
level, and our agencies have been building a relationship with 
school programs to develop new school-based mentoring programs 
based on these models that utilize school settings in volunteer 
basis that have less time to commit. To ensure quality and 
provide adequate support to participating children and adults, 
Big Brothers and Big Sisters has undertaken an assessment of 
these school-based programs. UPS has provided a major grant to 
evaluate and create standards for our school-based mentoring 
program. This program will be completed this summer, and we 
will be able to implement this program at the start of the 
school year 2000.
    Now, I also sit on a advisory board for Fleet InCity. Fleet 
Bank has a volunteer program that has committed on 1998 17,000 
employees that have produced 95,000 hours of volunteer service. 
That was 600 projects, 39,000 children involved in a program, 
and over 450 community service program. That is the volunteer 
base we seek in corporate America that is accessible to us 
through our corporate partnerships.
    Mr. Chairman, 95 percent of our federation's operating 
budget comes from private sources, such as corporations, 
foundations, and individuals, and we rarely ask for public 
assistance for our programs. This year, however, we are asking 
for public support, because we know that our federation will 
make a significant contribution to thepositive youth 
development and school improvement through all our school-based 
mentoring programs in the years ahead. We are seeking $6 million over 
the next two years to seed our local affiliate school-based mentoring 
program. Now, these funds, if appropriated, will make up less than 2 
percent of the federation's total operating budget, yet they will have 
a huge effect on our capacity to serve more children. We will truly be 
able to go from significance to success in all of our programs. With 
these funds, the federation will be able to serve an additional 10,000 
children throughout our school-based mentoring programs.
    Mr. Chairman, I know our agencies in Salt Lake--that is for 
Mr. Porter if he were here. [Laughter.]
    But, the agencies----
    Mr. Hoyer. Well, Arkansas will appreciate it too. 
[Laughter.]
    Mr. Swann [continuing]. In Lake County and Metropolitan 
Chicago have expressed their support for this program, and we 
hope that you all will give support to this great program.
    Mr. Dickey. Mr. Swann, thank you. We are going to have to 
rush off to vote. We have gotten a call for a vote, but thank 
you so much for coming.
    Mr. Swann. Thank you.
    [The prepared statement of Lynn Swann follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wicker [presiding]. The hearing will come to order. My 
name is Roger Wicker from Mississippi, and it is my privilege 
to chair this meeting of public witnesses this afternoon. This 
is probably not the best process in the world. We have some 
very important testimony, this afternoon. Unfortunately, our 
witnesses are limited to five minutes each. I wish that were 
not the case, but it is the way we have to do it in order to 
accommodate as many people as possible. So, we will get right 
started.
    I do want to read a statement that Chairman Porter has 
asked me to read to sort of explain the proceedings that we 
will take. As we begin the hearing, I want to remind witnesses 
of two provisions in the rules of the House. In addition to 
their written statement, non-governmental witnesses must submit 
a curriculum vitae and a statement of Federal grant or contract 
funds they or the entity they represent have received. If you 
have any questions concerning the applicability of this 
provision or questions as to how to comply, please contact the 
subcommittee staff. In order to accommodate as many members of 
the public as possible, we have scheduled over 20 witnesses for 
each session, and we are still not able to hear from all who 
wanted to testify. Overall, we will hear from over 200 
witnesses in this segment alone. As a result, I have to enforce 
the rule limiting testimony to five minutes. I will enforce 
that very strictly. I would ask that, as you testify, you keep 
this limitation in mind in consideration for the other 
witnesses that must follow you. For the witnesses, we will give 
you a 15-second warning, the bell will go off, and then we will 
ask you to wrap to it up just as quickly as you possibly can 
after the 15-second warning.
                              ----------                              

                                         Wednesday, April 21, 1999.

                INSTITUTE OF MUSEUM AND LIBRARY SCIENCES


                                WITNESS

MICHAEL J. NOVACEK, PH.D., SENIOR VICE PRESIDENT AND PROVOST AND 
    CURATOR, THE AMERICAN MUSEUM OF NATURAL HISTORY
    Mr. Wicker. So, with no further ado and with that 
explanation, our first witness is Dr. Michael J. Novacek, 
representing the American Museum of Natural History. Doctor, 
have I pronounced your name correctly?
    Mr. Novacek. Absolutely, correctly.
    Mr. Wicker. We are delighted to have you.
    Mr. Novacek. Thank you.
    Mr. Jackson. Mr. Chairman?
    Mr. Wicker. Yes, if you will hold for a moment.
    Mr. Jackson. I thank the chairman. Let me just say that on 
behalf of other members of the subcommittee who are not present 
today, that some members of the subcommittee share 
responsibilities on other committees, as I do. The Secretary of 
Defense as well as the Chairman of the Joint Chiefs of Staff 
are testifying across the hall with respect to an emergency 
supplemental regarding our activities in the Balkans, and so I 
do know that some our colleagues are there, and while we 
recognize that your testimony is very, very important, many of 
my colleagues will read the record, and please don't take their 
absence and my constant departure and entrance into the room as 
anything other than the crisis that it is taking place in other 
parts of the world. Thank you very much, Mr. Chairman.
    Mr. Wicker. I thank the gentleman from Illinois. Dr. 
Novacek.
    Mr. Novacek. Good afternoon, Mr. Chairman and members of 
the subcommittee. My name is Michael Novacek, and I am provost 
of the American Museum of Natural History. I very much 
appreciate the opportunity to appear before you today. I want 
to thank this subcommittee for the contribution it has made to 
scientific research in this Nation and to science at the 
American Museum. The subcommittee's broad purview, ranging from 
research at NIH to collection practices of libraries and 
museums through IMLS to schooling the Nation through the 
Department of Education, mirrors that of the American Museum.
    For over 129 years, we have pursued a mission of examining 
critical scientific issues and increasing public knowledge 
about them. More than 200 active research scientists with 
internationally recognized expertise conduct more than 150 
field projects each year. The museum's ongoing research 
provides the foundation for its educational mission that 
reaches millions of adults and children nationwide. In 
partnership with NASA, we have recently launched the National 
Center for Science Literacy, Education, and Technology which 
helps to further the goal of increasing the Nation's science 
literacy.
    The museum supports a tremendous amount of valuable 
research and educational programs that compliment the goals of 
NIH. For example, studying the DNA of non-human speciescan lead 
to an understanding of their natural adaptation, and this can be 
applied toward solving challenges in health care, including the 
development of novel therapies for disease. The museum houses two 
molecular laboratories which are used for studies that focus on diverse 
endangered species. Gene sequence data are shared worldwide on NIH's 
Genbank database and via original scientific research.
    With the advent of DNA sequencing, museum collections have 
become critical baseline resources for genetic studies. For 
these reasons, we have launched a new effort to create a 
supercold facility and accompanying database to make molecular 
lab collections more accessible to scientists and to health 
researchers around the world.
    The museum's exhibition and educational program also 
compliments the goals of NIH. We have recently launched a 
temporary exhibition entitled, ``Epidemic: The World of 
Infectious Disease.'' This exhibition examines in detail the 
natural history of disease focusing on specific diseases, such 
as malaria, AIDS, and tuberculosis. We compliment this focus 
with extensive educational program.
    The American Museum also supports the goals and the 
important accomplishments of the IMLS. The museum is home to 
the largest, unified natural history library in the Western 
Hemisphere, comprising 485,000 volumes. The library collection 
is a unique research and educational resource for New York, the 
Nation, and the world.
    The museum's 32 million specimens and artifacts include one 
of the largest and most significant biological collections in 
the world. The collections are the libraries of life on earth. 
These holdings represent an enormous resource for ongoing and 
future sampling of tissue for gene information. This is 
significant, because many of these specimens can no longer be 
sampled in the wild.
    The museum is nearing the end of a two-decade collection 
storage upgrade and digitization project for the 
anthropological collections, a program supported by the 
National Endowment for the Humanities and undertaken in order 
to allow optimal conservation and greater access to these 
precious collections. The museum now turns its focus towards 
upgrading storage facilities and digitizing the biological 
collection. The IMLS has a distinguished history of supporting 
cutting edge collection and technological practices. We seek a 
partnership with IMLS in our ongoing efforts to develop and 
expand digitization initiatives, including applications for the 
World Wide Web. These will allow us to be in the forefront of 
collection practices and a model for the Nation. In concert 
with our digitization project, we seek support in Fiscal Year 
2000 for our ongoing efforts to upgrade our collection storage 
facilities, many of which were built early this century.
    This is our agenda for the coming years. Much of the 
support for these research and collection goals comes from 
foundations, corporations, and individuals. However, we 
strongly believe that Federal support of these practices can 
only help to leverage further support from private sources.
    The American Museum of Natural History is deeply 
appreciative of the support of this subcommittee. I thank you 
again, Mr. Chairman and members of the subcommittee, for the 
opportunity and privilege of appearing before you.
    Mr. Wicker. Thank you very much, Dr. Novacek. I note that 
the museum is seeking $1 million in support for critical 
upgrades for the next fiscal year, is that correct?
    Mr. Novacek. Yes.
    Mr. Wicker. Well, your request will be noted, and we thank 
you very much for taking the time to appear before us today.
    Mr. Novacek. Thank you, Mr. Chairman.
    Mr. Wicker. Mr. Jackson?
    [The prepared statement of Michael Novacek follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                     NATIONAL INSTITUTES OF HEALTH


                               WITNESSES

JOHN J. McDONOUGH, CHAIRMAN OF THE BOARD, JUVENILE DIABETES FOUNDATION 
    INTERNATIONAL
ALLISON McDONOUGH, BOARD MEMBER, CHICAGO CHAPTER
    Mr. Wicker. Our next witness is John J. McDonough, chairman 
of the Board of the Juvenile Diabetes Foundation International. 
With him, is Allison McDonough, a general volunteer and a board 
member of the Chicago chapter. We welcome you to our 
subcommittee.
    Mr. John McDonough. Thank you, Mr. Chairman and members of 
the subcommittee. I am John McDonough, a husband, father, 
grandfather, volunteer advocate, and businessman. I am the vice 
chairman and chief executive officer of Newell Rubbermaid, and 
I am pleased to be here today as the chairman of the 
International Board of the Juvenile Diabetes Foundation.
    I would like to thank you and the other members of the 
subcommittee for your strong support of medical research over 
the year. Last year's 15 percent increase in NIH funding is 
moving us closer to a cure for diabetes and its complications, 
and we are looking forward to working with you again this year 
to try to secure another 15 percent increase, so that every 
identified diabetes research opportunity can be fully funded.
    I am here today, as you indicated, with our daughter, 
Allison. She is also a JDF volunteer and also is an insulin-
dependent diabetic. Our desire to find a cure simply couldn't 
be greater. To date, our family has contributed $14.5 million 
to JDF, and we will continue to give our timeand money until a 
cure is found. My wife, Marilyn, lost two of her aunts to diabetes; my 
paternal grandfather died of the complications of diabetes in the late 
1920's. He was ravaged by this disease just at the time insulin was 
becoming available. I have had insulin-dependent diabetes for 56 years, 
almost 57, and Allison has had insulin-dependent diabetes for 16 years. 
Marilyn and I have four other children and four and two-thirds 
absolutely perfect grandchildren; more to come we hope, and we don't 
want to see anymore of this disease which cripples and kills so many 
people every year.
    I remember very clearly the day I was diagnosed. I was in a 
large ward in a Chicago hospital. My parents came in and told 
me I had something called diabetes. My father was simply 
devastated. He had married late, was then 50 years old, and it 
hadn't been that many years since his father died from this 
disease. My mother explained how I would get shots, how my food 
would be weighed, and how I would eat nothing unless she told 
me I could have it and when I could have it. Thanks to her, I 
understood perfectly what I had to do. You see, she was a very 
modern lady, even 56 years ago, and like young parents today, 
she believed in timeouts, the only difference being that her 
idea of a timeout was 30 seconds to rest her arm before she 
cracked me again with my father's razor strap. [Laughter.]
    From the time I was a child, I knew what I had to do to 
deal with this problem called diabetes, and I have done that 
all my life. There are probably few people who have worked 
harder at control than I have over the years. Yet, over 55,000 
shots later, my experience makes the point that insulin is not 
a cure, and it doesn't prevent complications; it is only life 
support, and despite good genes and excellent medical care, I 
have not been able to avoid some complications of this terrible 
disease, including the amputation of my left leg last 
September.
    We don't want to see anymore of this. While we have done 
well over the last few years in increasing the research money 
available, we can't become complacent. The research being done 
today is only a fraction of what needs to be done, and the 
relevant research that can be done today is limited only by the 
money available to fund it.
    Allison?
    Ms. Allison McDonough. I was diagnosed with diabetes in 
1983 at the age of 25. My parents were devastated. Emotionally, 
my father felt he was to blame, even though intellectually he 
knew he had no control over my diagnosis. And my mother, who 
had watched her aunts die from the disease, now had the same 
fears for me that she had had for my father for so many years.
    When my dad was diagnosed in 1943 at the age of 6, he was 
told he would not live to be 10. At 10, he was told he probably 
wouldn't live to be 20, and so on. He is fond of saying that he 
is not afraid of dying but is afraid of not living, but I am 
afraid of both, and not just for myself, but for my dad and 
also the undiagnosed members of my family.
    Living with diabetes, with all of its injections and blood 
tests and insulin reactions, is a cumbersome and difficult 
full-time job, and there is no such thing as remission. Yet, it 
is the constant dread of wondering when diabetes will strike 
our family again that I hate more.
    Last fall, my father not only lost his leg, he almost lost 
his life. There was one week after the amputation in which his 
stump needed to be left open. Every day, I forced myself to 
look into his open leg searching for signs in the tissue that 
healing was taking place. He would cry and tell me not to look 
and that it would not happen to me. That hole in his leg has 
left a hole in my heart, and just as I forced myself to stare 
it down, I don't want my siblings or future generations of my 
family to ever have to stare down the truth about diabetes as 
we who live with it do. In my family, I want this disease to 
end with me.
    Mr. John McDonough. Diabetes kills one person every three 
minutes and reduces life expectancy by 30 percent. The disease 
costs our Nation $98 billion annually and absorbs one of every 
five Medicare dollars. While we, at JDF, work hard to raise 
funds to support research that is leading us closer to a cure, 
we need your help. As you know, the Diabetes Research Working 
Group, established by your subcommittee, has issued a report 
which includes a plan to attack the epidemic of diabetes and 
its complications. The report also contains a specific 
recommendation for the National Institutes of Health to provide 
$827 million for diabetes research in Fiscal Year 2000, and 
that is a level supported by JDF. We seek your help in securing 
this funding, so that every parent can tell every child with 
diabetes that everything possible is being done to find a cure, 
and when we say only a cure will suffice, we speak for all of 
our fellow JDF volunteers--children and adults--who suffer from 
diabetes and who work on behalf of their loved ones.
    Mr. Chairman, with the continued support from you and the 
other members of the subcommittee, we will find that cure. 
Thank you so much for this opportunity to testify. I hope we 
will have a chance to talk soon.
    Mr. Wicker. Well, thank you very much for your testimony, 
and I can assure you that this committee shares a commitment to 
increased funding, and we share your goals. Diabetes touches 
the lives and families of most of us, if we will look closely. 
My only niece has juvenile diabetes. She is a junior in high 
school now; she is insulin-dependent. She is an outstanding 
field hockey player and a basketball player and an excellent 
student and athlete, and, yet she is threatened by this 
incurable disease. So, I have a very personal reason, as do 
many members of the Diabetes Caucus and members of this 
subcommittee, in sharing your commitment. So, we want to do 
what we can, and I will be working to obtain the necessary 
resources.
    Mr. John McDonough. Thank you very much.
    Mr. Wicker. Thank you for your testimony.
    Mr. John McDonough. Tell your niece to maintain good 
control. Together, we are going to get her the cure pretty 
quickly.
    Mr. Wicker. Wonderful.
    Ms. Allison McDonough. Thank you.
    [The prepared statement of John McDonough follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

   CENTERS FOR DISEASE CONTROL AND PREVENTION, HEALTH CARE FINANCING 
              ADMINISTRATION, AND ADMINISTRATION ON AGING


                                WITNESS

RICHARD JONES, PH.D., PRESIDENT, METROPOLITAN FAMILY SERVICES
    Mr. Wicker. Our next witness is Dr. Richard Jones of the 
Metropolitan Family Services, Chicago area, Cook and DuPage 
Counties. Good to see you, Dr. Jones.
    Mr. Jones. Thank you. Thank you, Mr. Wicker, and, Mr. 
Jackson, for providing me with this opportunity to present 
testimony. I am Richard Jones, president of Metropolitan Family 
Services. Founded in 1857, Metropolitan Family Services is the 
oldest and largest family service agency in Illinois, providing 
a comprehensive array of direct services to more than 125,000 
Chicago-land families, annually, through our 25 neighborhood 
centers.
    Over our 141-year history, we have developed a broad 
continuum of programs, including mental health services and 
family counseling, financial assistance and budget planning, 
family and legal services to the poor, and supportive services 
to older adults and their caregivers. We also address the 
important issues of school performance, domestic violence, and 
child abuse. The cornerstone of our belief is that when 
families are strong, stable, and self-sufficient, communities 
are strengthened, and all of us reap the benefits.
    While our commitment to families has remained constant 
throughout our history, the needs of families have changed 
along with the economy and our culture. In recent years, we 
have developed several model programs in response to low school 
performance, violence on the streets and in homes, and families 
struggling to provide care for their elder members.
    First, Metropolitan Family Services has begun to work with 
the Centers for Disease Control and Prevention on a coordinated 
community response to violence prevention. While still in its 
beginning stages, this innovative program would help community-
wide coalitions to develop and implement and evaluate violence 
prevention and intervention programs. Our pilot initiative is 
called South Chicago United for Non-Violence. Metropolitan 
Family Services is working with local residents, service 
providers and businesses, religious and civic leaders to help 
South Chicago to define and address its violence-related 
problems. We were pleased to host Dr. Copeland, the director of 
the Centers for Disease Control, at a community meeting just 
last week.
    In order to enable Metropolitan Family Services to continue 
this important project, we ask that the subcommittee urge the 
Centers for Disease Control to expand funding for these types 
of coordinated community violence prevention programs.
    For more than 25 years, Metropolitan Family Services has 
worked hand-in-hand with Metropolitan Chicago's public schools, 
providing services to support student achievement and readiness 
to learn, improve attendance, reduce violence, and increase 
parent involvement. As we know, young children from 
underprivileged, limited education, single-parent, and ethnic 
minority homes are much more likely to perform poorly and 
eventually drop out of school. Metropolitan Family Services has 
developed an innovative program called Jumpstart to support the 
successful transition from Headstart into elementary school. 
Teachers have reported that Jumpstart children have stronger 
communication skills and lower incidence of conflict. These are 
positive findings that families maintain and improve the gains 
achieved through the Headstart Program.
    Metropolitan Family Services requests that this 
subcommittee provide sufficient for the Office of Education and 
Research and Improvement to support the third and final year of 
this innovative program.
    And, finally, Metropolitan Family Services is working to 
support innovative community-based programs which assist 
families in caring for their senior members. As this 
subcommittee is aware, nearly one in every four households is 
involved in family caregiving to elderly relatives or friends. 
Senior citizens are also the fastest growing population group. 
It is essential that we identify best practices for communities 
and home-based care and disseminate results for duplication 
across the Nation.
    Therefore, we ask the subcommittee to direct the Health 
Care Financing Administration or the Administration on Aging to 
work with the community-based organizations to create long-term 
care systems that recognize the role of the families in caring 
for elder relatives.
    Metropolitan Family Services, again, thanks you, Mr. 
Chairman, for this opportunity to present testimony on behalf 
of the 125,000 families we serve in Greater Chicago.
    Mr. Wicker. Thank you very much for your very interesting 
testimony. I note that you have been the recipient--that your 
organization has been the recipient of a number of Federal 
awards. I am intrigued by your testimony concerning directing 
HCFA to develop community-based approach to using families for 
giving care to elderly relatives. I want to commend you for 
exploring that approach.
    Mr. Jones. Thank you.
    Mr. Wicker. And I think, certainly, long-term elderly 
care--in the form of nursing homes--is part of the mix, but to 
the extent that can facilitate families caring for family 
members, that is also very, very important, and I will speak to 
the chairman about that particular request. I note that you 
also, in addition to HCFA, you amended your testimony to 
indicate that, perhaps, another agency might develop such a 
plan also?
    Mr. Jones. We were referencing the Administration on Aging, 
because we think there might be a way to help that organization 
appreciate the fact that as we develop a continuum of care for 
older family members, that the family is an integral component 
of that continuum along with, as you referenced, nursing home 
care and other important, I think, components of that service 
network.
    Mr. Wicker. Wonderful. Well, thank you so much for your 
testimony.
    Mr. Jones. Thank you.
    [The prepared statement of Richard Jones follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                      NATIONAL LIBRARY OF MEDICINE


                                WITNESS

MARIANNE PUCKETT, ASSOCIATE PROFESSOR OF MEDICAL LIBRARY SCIENCE, 
    LOUISIANA STATE UNIVERSITY MEDICAL CENTER; CHAIRMAN, JOINT 
    LEGISLATIVE TASK FORCE, AND CHAIRMAN, MEDICAL LIBRARY ASSOCIATION 
    GOVERNMENT AFFAIRS COMMITTEE
    Mr. Wicker. Our next witness is Marianne Puckett, associate 
professor of medical library science at Louisiana State 
University Medical Center. Professor Puckett, we are delighted 
to have you.
    Ms. Puckett. Mr. Chairman, I am Marianne Puckett, associate 
professor at the LSU Medical Center and Library in Shreveport, 
Louisiana. Thank you for the opportunity to testify today on 
behalf of the Medical Library Association and the Association 
of Academic Health Sciences Libraries regarding the Fiscal Year 
200 budget for the National Library of Medicine.
    MLA is a professional organization headquartered in 
Chicago, representing 4,000 individuals and a 1,200 
institutions involved in the management and dissemination of 
biomedical information.
    AAHSL is comprised of the directors of libraries of 142 
accredited U.S. and Canadian medical schools belonging to the 
Association of American Medical Colleges.
    Mr. Chairman, first, let me thank you and the members of 
this subcommittee for your leadership in securing a generous 
increase for the National Library of Medicine in Fiscal Year 
1999. With respect to NLM's budget for the coming Fiscal Year, 
I would like to touch briefly on three issues: the growing 
demand for NLM services, NLM's outreach services, and the next 
generation Internet and its role in the delivery of the health 
care.
    It is a tribute to NLM that the demand for its services 
continues to steadily increase each year. An average of 180 
million Internet searches--30 percent from the general public--
are performed annually on NLM's Medline database. Moreover, 
medical libraries and health care professions rely heavily on 
NLM and its national network of libraries of medicine to 
deliver quality health care everyday. Simply stated, NLM is a 
national treasure.
    I can tell you that without NLM, our Nation's medical 
libraries would be unable to provide the type of information 
services that our Nation's health care providers, educators, 
researchers, and patients have come to expect. Recognizing the 
invaluable role plays in our health care delivery system, the 
Medical Library Association and the Association of Academic 
Health Sciences Libraries joins with the Ad Hoc Group for 
Biomedical Research Funding in recommending a 15 percent 
increase for NLM in Fiscal Year 2000.
    NLM's outreach programs are of particular interest to MLA 
and AAHSL. These activities, designed to educate medical 
librarians and health care professionals about information 
services NLM provides, have proven to be extremely successful 
in improving the quality of our Nation's health care. The need 
for enhanced outreach activities has grown significantly in 
recent years following NLM's decision to make its Medline 
databases available for free over the web. The Medical library 
community applauds the success of this program as well as NLM's 
Medline initiatives designed to provide the public with quality 
information on various aspects of specific diseases. In 
addition, we support NLM's new pilot project aimed at training 
public librarians on how to use the Internet to access health 
care information.
    The Environmental Health Outreach Project at the University 
of Illinois at Chicago is one of 13 successful collaborative 
projects initiated this year between the medical library 
community and NLM. These projects are part of NLM's new 
Partners and Information Access Program and are designed to 
improve the access of public health officials to health 
information. The establishment of additional programs would go 
a long way toward ensuring that every health care worker in 
America is familiar with the services of NLM. Finally, Mr. 
Chairman, we are pleased that the committee last year 
recognized the need for NLM to coordinate its outreach 
activities with the medical library community.
    As we move into the new century, the next generation 
Internet promises to revolutionize the speed and capacity of 
information technology. NGI researchers are developing a high 
performance network that will be at least 100 times faster than 
today's Internet. Mr. Chairman, we appreciate the 
subcommittee's past support for the next generation Internet. 
We are also pleased that President Clinton's Fiscal Year 2000 
budget recognizes the importance of advanced information 
technology via the Information Technology for the 21st Century 
Initiative, also known as IT2. However, we are concerned that 
despite numerous potential applications, including telemedicine 
and health professions education, the President requested only 
$500,000 in IT2 funding for NLM. In fact, the President 
recommended that NIH receive only $6 million of the $366 
million IT2 initiative funding. We believe it is critical that 
the NGI and other advanced information technology programs have 
a strong health care component. The medical library community 
looks forward to working with Congress and the administration 
to ensure that health care applications are a priority in the 
development and implementation of this new technology.
    Once again, Mr. Chairman, thank you very much for the 
opportunity to testify today.
    Mr. Wicker. Thank you very much. You mentioned three new 
initiatives that have already begun. Would your proposed 15 
percent increase allow you to expand those initiatives or are 
there further initiatives that you would like to begin with 
your increased 15 percent?
    Ms. Puckett. I think there are also plans for expansion of 
the initiative. One thing that is recent is that one of the 
initiatives is to for each regional medical library system, 
which are eight within the U.S., is to have consumer health 
coordinators for each of those regions to expand the consumer 
health initiative of being sure that the public has quality 
information. So, that would be one new aspect. Also, mainly 
just to expand most of these programs as well as to build on 
the new programs of the next generation Internet.
    Mr. Wicker. Thank you very, very much. We appreciate your 
testimony, Ms. Puckett.
    Ms. Puckett. Thank you.
    [The prepared statement of Marianne Puckett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

    NATIONAL INSTITUTES OF HEALTH, CENTERS FOR DISEASE CONTROL AND 
                               PREVENTION


                                WITNESS

BARBARA H. IGLEWSKI, PH.D., PAST PRESIDENT AND CHAIR, PUBLIC AND 
    SCIENTIFIC AFFAIRS BOARD, AMERICAN SOCIETY FOR MICROBIOLOGY AND 
    CHAIR AND PROFESSOR OF MICROBIOLOGY AND IMMUNOLOGY, UNIVERSITY OF 
    ROCHESTER
    Mr. Wicker. Next, Dr. Barbara H. Iglewski, past president 
and Chair of Public and Scientific Affairs Board of the 
American Society of Microbiology--that is a mouthful for me. We 
are delighted to have you, Dr. Iglewski.
    Ms. Iglewski. Thank you, Congressman Wicker. My testimony 
is presented on behalf of the American Society for Microbiology 
which is the largest single life science society in the world 
with a membership of over 43,000 scientists. The ASM 
appreciates the opportunity to provide the following 
recommendations on funding for the NIH and the CDC.
    First, I would like to thank this subcommittee for their 
strong support of biomedical research and infectious disease 
funding.
    The ASM concurs with congressional leaders that the United 
States is not spending enough on scientific research and public 
health. It is particularly disappointed in the 2 percent 
increase in NIH funding proposed in the administration's Fiscal 
Year 2000 budget request. Not only will this small increase 
fall far short of meeting the needs for medical research, it 
does not even counterbalance biomedical inflation. Such serious 
financial shortcomings would unquestionably have negative 
effects on both this Nation's public health and its scientific 
leadership worldwide.
    Therefore, the ASM supports a Fiscal Year 2000 
appropriation of $18 billion, the second step towards the 
bipartisan goal of doubling the NIH budget by Fiscal Year 2003.
    We are surrounded by very real benefits of a strong Federal 
commitment to medical research. Despite this positive news, 
there remains too many disturbing challenges to the health of 
an aging and an increasingly diverse American population as 
well as the health throughout the world. The ASM is 
particularly alarmed over several areas of both national and 
global importance. These include new and reemerging infectious 
diseases, antibiotic resistance, bioterrorism, and infectious 
causes of chronic inflammatory diseases and cancer. Overcoming 
each of these serious threats will require increased funding 
for NIH, especially the National Institutes of Allergy and 
Infectious Diseases and the CDC's National Center for 
Infectious Diseases.
    ASM has given voice to the alarm felt by scientists and by 
political leaders over the chilling possibility of any 
intentional release of microbial pathogens to harm humans, 
animals, and plants. National security measures against 
biological warfare must include control measures to develop new 
vaccines, new therapeutics, and new and improved diagnostic 
techniques for pathogens in advance of an emergency need as 
well as broadly based biomedical research and a new public 
health infrastructure.
    The emergence of new human pathogens, such as the 
hantavirus, and the reemergence of those organisms thought to 
be well under control, such as tuberculosis, remind us of the 
unpredictability of infectious diseases. Thirty new human 
pathogens have been identified since 1976, and we fully expect 
these grim discoveries to continue.
    The emergence of drug resistance among certain pathogens is 
alarming. Between January of 1989 and March of 1993, there was 
a 20-fold increase in vancomycin-resistant enterococci. This is 
the most common cause of hospital-acquired infections in the 
United States. Unfortunately, other commonly occurring 
bacterial, such as staphylococci and pneumococci are likewise 
becoming resistant to the antibiotics traditionally used 
against them. Among the steps needed to counteract the growing 
number of antibiotic-resistant bacteria, more support is needed 
for NIAID research leading to improved diagnostics and a better 
understanding of how bacteria become resistant to drugs and how 
diseases spread.
    It is increasingly evident that chronic diseases of unknown 
etiology are caused by one or more infectious agents. One well-
known example of this is the discovery that stomach ulcers are 
due to Helcobacter pylori. Mycoplasmas may cause chronic lung 
disease in newborns and chronic asthma in adults, and 
Psuedommas aeruginosa causes chronic lung infections in 
patients with cystic fibrosis and is the cause of death in 95 
percent of these patients. A number of infectious agents that 
cause or contribute to neoplastic diseases in humans have been 
documented in the six years. The association and causal role of 
infectious agents in various chronic inflammatory diseases and 
cancer have major implications for public health, treatment, 
and prevention.
    Even if only some cases are proven to be of infectious 
origin and effective therapies or vaccines can be developed, 
the impact on reducing health care costs would be substantial. 
Further research to clarify the etiological agent pathogenic 
mechanisms involved in chronic disease and cancer should be 
given the highest priority.
    In light of the growing issues threatening health, the ASM 
strongly urges Congress to provide $180 million to fully fund 
CDC's strategic plan.
    In summary, the long list of microbial dangers to public 
health cannot be fully described here today, yet it is 
important to emphasize that complacency can be fatal when it 
comes to infectious diseases. To counteract this deadly onset, 
the most effective approach is to improve public health 
infrastructure and expand our biomedical research capacity, and 
I thank you again for permitting me to testify.
    Mr. Wicker. Thank you very much for your testimony, Dr. 
Iglewski. I think you will agree that the members of this 
subcommittee have been very supportive of increased funding 
over the years for CDC and NIH, and I wonder if there is anyone 
in the administration who really thinks that we are going to 
appropriate only a 2 percent increase for NIH research for the 
next Fiscal Year.
    Ms. Iglewski. I appreciate that.
    Mr. Wicker. Raise your hands if you dare. [Laughter.]
    Thank you very much for your testimony.
    Ms. Iglewski. Thank you.
    [The prepared statement of Barbara Iglewski follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                          NURSE EDUCATION ACT


                                WITNESS

LOIS L. KERCHER, DNSC, RN, CNAA, VICE PRESIDENT AND NURSE EXECUTIVE, 
    VIRGINIA BEACH GENERAL HOSPITAL, SENTARA HEALTHCARE, AND PRESIDENT-
    ELECT, AMERICAN ORGANIZATION OF NURSE EXECUTIVES
    Mr. Wicker. Dr. Lois L Kercher, vice president and nurse 
executive, Virginia Beach General Hospital, where my only niece 
resides--not in the hospital but Virginia Beach. We are 
delighted to have you.
    Ms. Kercher. Thank you. Good afternoon, Mr. Chairman.
    Mr. Wicker. You are testifying on behalf of the American 
Organization of Nurse Executives.
    Ms. Kercher. I am.
    Mr. Wicker. Wonderful.
    Ms. Kercher. And, as you said, I am a nurse and vice 
president in Sentara Healthcare in Virginia. I am also 
president-elect of the American Organization of Nurse 
Executives. The members of AONE include registered nurses in 
leadership positions in all settings of health care, and it is 
our job to ensure that people in this country receive the 
nursing care they need. As stewards of the profession of 
nursing, we have come to seek your help in planning the future.
    My testimony has been submitted in writing. It reflects our 
strong recommendation that funding for the Nurse Education Act, 
or NEA, be increased by 10 percent in Fiscal Year 2000. This 
funding is needed to ensure our Nation has an adequate supply 
of nurses in the future.
    Across the country, there is growing evidence that a 
shortage of nurses has begun. You may have noticed this in 
media stories, particularly a recent article in the New York 
Times. Several months ago, a study was released which describes 
nursing shortages in hospitals across the country. The study 
was sponsored by AONE working with the Division of Nursing in 
the Department of Health and Human Services, with the American 
Nurses Association, and the American Society for Health Care 
Resources Administration. Findings of the study confirm 
difficulties in recruiting adequate numbers of nurses to work 
in hospitals. The real problem is that the demographic trends 
suggest that even greater shortages are on the horizon.
    Let me use myself as an example to illustrate this point 
even though it is going to reveal how old I am. I entered the 
profession of nursing in 1969 when I finished my basic nursing 
education; that was 30 years ago. Ten years from now, I will be 
planning my retirement. Unfortunately, I am not sure who will 
replace me in this profession, as the rates of retirement of 
nurses my age will surpass the rate of new nurses entering the 
field, and this will happen at a time when people like me, as 
we age, are going to place even greater demands on the health 
care system than are being experienced today.
    Peter Bearhouse is the doctor--who is the director of the 
Harvard Nursing Research Institute, and he reached four 
conclusions about the state of the nursing workforce. Number 
one, the age of registered nurses has advanced. In 1980, the 
average age of an employed RN was 36; in 1996, the average age 
was 42 years old. Back in 1980, 25 percent of all RNs were 
under the age of 30. Two years ago, only 9 percent of 
registered nurses are under the age of 30. Second conclusion he 
reached, enrollment in schools of nursing is down. Enrollment 
in four-year nursing programs has declined 20 percent from 1995 
to 1998. Third conclusion, there are not enough nurses in the 
workforce or in the educational pipeline to replace retiring 
nurses, and the fourth conclusion, the demand for nursing care 
will increase in the next decade. As the population ages and we 
baby-boomers retire, the demand for nursing will rise. This is 
precisely the time when the size of the nursing workforce is 
expected to decline precipitously.
    What do these findings mean? They indicate a potentially 
severe nursing shortage is imminent unless the issues are 
addressed now. NEA is a key source of Federal financial support 
for nursing education programs and nursing students. Money 
invested by this committee will pay dividends to the citizens 
of this country for years to come. We must invest now in the 
future of the nursing workforce.
    At this point, I would like to talk about another funding 
issue important to nurses, specifically support for the 
National Institute of Nursing Research, or NINR, which is part 
of the National Institutes of Health. Research done by NINR 
contributes to improving health status of patients and reducing 
costs of health care delivery. These are two very important 
objectives--improving healthy outcomes and lowering costs. 
NINR's appropriation has increased since its inception, but the 
funding base is still small, and the appropriations are 
inadequate for them to do their full scope of work. Their 
current funding level for Fiscal Year 1999 is $70 million, and 
our recommendation for Fiscal Year 2000 is to increase this 
number to slightly more than $90 million. At this level of 
support, NINR could continue important nursing research in such 
fields as improving the health status of patients with chronic 
illness. It would enable NINR to pursue research addressing end 
of life situations, and this latter subject has a major impact 
on the country's health care system and expenditures.
    This concludes my remarks. I appreciate your attention, 
and, in summary, the decisions made today regarding the funding 
of nursing education and nursing research are vital to meeting 
tomorrow's of our Nation's citizens, and we thank you in 
advance for your consideration of this recommendation.
    Mr. Wicker. Well, thank you very much for your testimony. 
Let me just say that I hope you will work more than 10 more 
years. [Laughter.]
    Ms. Kercher. I may need to.
    Mr. Wicker. Just because you are eligible for retirement 
doesn't mean that you should.
    What is the breakdown in male and female now in the nursing 
profession, do you know that?
    Ms. Kercher. Probably still 95 percent or 90 female and----
    Mr. Wicker. Ninety-five percent. Your colleagues on the 
front row are nodding. Do you get along with--I noticed we have 
two other nursing organizations. Are you all sisters in the 
bond--?
    Ms. Kercher. Oh yes, on this issue, we are united, and to 
be honest with you, there is an opportunity of recruiting men 
into the field, and I support that.
    Mr. Wicker. Yes, indeed.
    Ms. Kercher. You are welcome, as a second career, to think 
of nursing. [Laughter.]
    Mr. Wicker. I have my hands full right now. But, yes, I 
guess there are more females that are choosing a medical career 
now.
    Ms. Kercher. And many other options, and that is----
    Mr. Wicker. Rather than a nursing career, they are choosing 
to be M.D.s.
    But you have certainly outlined a compelling case 
forputting our heads together and coming up with a way to encourage 
more people to participate in the nursing field. My grandmother was a 
nurse, and I want to tell you, she retired from the fifth floor at 
Baptist Hospital in Memphis, and she worked for a good 20 years more in 
private duty and only quit nursing when she absolutely had to.
    So, thank you very much for your testimony. I find it very 
interesting, and we will look forward to hearing from some of 
your colleagues in a few moments.
    Ms. Kercher. Thank you for listening.
    [The prepared statement of Lois Kercher follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

 PUBLIC HEALTH SERVICES ACT, NATIONAL INSTITUTE OF MENTAL HEALTH, AND 
                 NATIONAL INSTITUTE OF NURSING RESEARCH


                                WITNESS

JANE RYAN, RN, MN, CNAA, PRESIDENT, AMERICAN PSYCHIATRIC NURSES 
    ASSOCIATION
    Mr. Wicker. As a matter of fact, Jane Ryan, American 
Psychiatric Nurses Association, is next. What would you add to 
what has already been said?
    Ms. Ryan. Well, I think I am probably going to reinforce 
much of what she said.
    Mr. Wicker. Wonderful. We are delighted have you.
    Ms. Ryan. Thank you. Mr. Chairman and members of the 
subcommittee, I am Jane Ryan, and I am here today as the 
president of the American Psychiatric Nurses Association which 
provides leadership to advance the psychiatric mental health 
nursing profession; to improve mental health care for 
culturally diverse individuals, families, groups, and 
communities, and to shape health policies for the delivery of 
mental health services.
    Founded in 1987, the APNA membership now comprises over 
4,000 registered nurses who are involved in mental health care. 
The largest of the psychiatric nurses organizations, APNA has 
28 regional or State chapters. Our members encompass all levels 
of psychiatric nursing practice in all settings, from the 
generalist to the advanced practice.
    The APNA is here today to request that this subcommittee 
and this 106th Congress join with us in providing leadership to 
advance the psychiatric mental health nursing profession by 
providing $316 million for the Health Professions and Nursing 
Education Programs.
    APNA has 28 regional or State chapters. Our members 
encompass all levels of private--of psychiatric nursing 
practice in all settings, from the generalist to the advanced 
practice.
    The APNA is here today to request that this subcommittee 
and this 106th Congress join with us in providing leadership to 
advance the psychiatric mental health nursing profession by 
providing $316 million for the Health Professions and Nursing 
Education Program in Title VII and VIII of the Public Health 
Services Act; $1.009 billion for the National Institute of 
Mental Health; and $90.253 million for the National Institute 
of Nursing Research.
    The $316 million needed to fund the Federal Education 
Nursing Programs must be provided, because the United States is 
experiencing the greatest shortage ever of experienced 
registered nurses and advanced practice nurses. The current and 
future health of the citizens of the United States is in 
jeopardy unless the Federal Government takes the leadership in 
advancing--in addressing the nursing manpower shortage. I 
changed my testimony. There was a typo there.
    The average age of the registered nurse is 45 years, which 
means that we are a graying profession at a time when there are 
declines in the number of students entering nursing school, and 
the nation will soon be confronted with the aging Baby Boomers. 
For your convenience, I have enclosed an article which is 
appearing--appeared in the New York Times that details the 
nursing shortage. This shortage applies to a need for more 
advanced practice nurses, who are the psychiatric nurse 
clinical nurse specialist, and the psychiatric nurse 
practitioners. The advent of managed care eliminated many 
registered nurse positions and decreased the average length of 
stay in the hospital. The outcome of this action is a much 
sicker patient who needs the expertise of the very experienced 
nurse and the advanced practice nurse.
    This situation reminds me of the days after World War II, 
when our veterans came home with emotional problems, and there 
were not enough qualified nurses to treat them. Congress, at 
that time, passed the Mental Health Act, which included NIMH 
traineeships to educate psychiatric nurses. Fifty years later, 
today, Congress is again being asked to remedy another nursing 
shortage by providing grants to educate a large number of 
registered nurses who are ethnically diverse and to provide 
grants to educate more advanced practice psychiatric nurses.
    Additional grants are also needed to educate nurses at the 
doctoral level, as they are needed to perform outcome research 
and fill the role of university faculty and mental health 
administrators.
    The APNA is joined by other members of the health 
professions and nursing education coalition in urging 
thesubcommittee to provide the $316 million needed. APNA also supports 
the professional judgement budget of $90.253 million for the National 
Institute of Nursing Research for Fiscal Year 2000. NINR is only one of 
two institutes at NIH to receive growing numbers of research proposals. 
The funding increase would permit NINR to take advantage of significant 
new research opportunities and reverse the trend of declining ability 
to fund approved grant applications. NINR is projecting that it will 
only be able to fund 19 percent of its peer-reviewed, approved 
applications in Fiscal Year 1999.
    Further, NINR has only been able to fund three psychiatric-
related studies to date.
    The National Institute of Mental Health leads the Federal 
effort to identify the causes and most effective treatments for 
mental illnesses. The landmark Global Burden of Disease Reports 
that major depression, schizophrenia, bipolar disorder, and 
obsessive-compulsive disorder are among the leading 10 causes 
of disability throughout the world, which is an immense burden 
on global health and productivity.
    In the United States, the most severe mental health 
disorders affect nearly 5,000,000 adults. In addition, some 10 
to 12 percent of children and adolescents have mental and 
behavioral conditions that, to some extent, compromise their 
function.
    The NIMH supports and conducts research focused on the 
brain and its interactions with its biological, psychological, 
and social environment. This rigorous research also underscores 
the fact that mental illnesses are real illnesses, as deserving 
of treatment and non-discriminatory insurance coverage as other 
diseases.
    Training programs are also needed to assist and extend the 
training of beginning scientists preparing for research and 
academic careers. APNA joins with members of the mental health 
liaison group in urging you to fund approximately $1 billion 
for NIMH.
    Mr. Chairman, thank you for this opportunity to discuss the 
urgent need for increased and sustained Federal support for 
programs related to psychiatric nursing.
    Mr. Wicker. Well, thank you very much, Ms. Ryan. I want to 
note for the record that I have--I have gone on record as 
officially requesting an increase for the health professions 
program that you mentioned. So I thank you for your testimony.
    [The prepared statement of Jane Ryan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                 NATIONAL INSTITUTE OF NURSING RESEARCH


                                WITNESS

BEVERLY MALONE, PRESIDENT, AMERICAN NURSES ASSOCIATION
    Mr. Wicker. And I am going to--in the interest of 
consistency, I am going to move Dr. Beverly Malone up on the 
schedule--on behalf of the American Nurses Association.
    Ms. Malone. Thank you.
    Mr. Wicker. So, if, Dr. Malone, you could come and join in 
this discussion, we will be delighted to hear from you. See, 
you did not have time to get nervous. [Laughter.]
    Ms. Malone. I am sure I did not.
    Mr. Wicker. I believe you are a Ph.D., is that correct?
    Ms. Malone. Yes, I am, sir. Good afternoon. I am delighted 
to be here, Mr. Chairman, and to have this opportunity to 
address the important issue before us. And I represent the 
American Nurses Association. We represent 53 constituent 
members. It is all 50 states, plus Guam, the Virgin Islands, 
and the District of Columbia.
    And we are very concerned about the appropriations for two 
major issues before us. One is the Nurse Education Act, which 
you have heard about and the other is the National Institute of 
Nursing Research.
    And we are concerned because we see some of the things that 
my colleagues have talked with you about already, and one of 
the major things is a shortage that we see coming in terms of 
for the nursing profession.
    We know that nurses are the quality advocates for the 
people. We are clear that that is our mission; that we are 
there to advocate for patients. And that is what we do best. 
And we are between the patient and frequently a health care 
system that, at times, is unresponsive. We are also very 
concerned that our patients are sicker than they have ever been 
before; that they come in to the hospital and they leave faster 
than they have ever left before. If you have been in one 
lately, you know exactly what I am talking about. And that 
means that it takes more--it is demanding more--out of nurses, 
and we are trying to attract them in, and we are going to need 
your help in building that attractive magnet to bring nurses 
into this profession.
    We are also concerned about the fact that this particular 
Nurse Education Act is a place where we take care of the 
culturally different, the diversity of the nursing profession. 
We attract different types of nurses to take care of a 
population that is becoming very different in the country. And 
so we need your assistance in that area also.
    Our advanced practice nurses are there, focusing on 
prevention. I do not think there are very many other 
disciplines that focus on prevention the way that nursing does. 
And we know that the health care system the way it is going 
that if we do not focus on prevention, we will just be into 
illness behavior. And we want to join the American public as 
partners in terms of the care.
    So that piece about the Nurse Education Act is very 
important to us. And we are asking for $74 million in terms of 
that for the appropriation. But a issue that sits right there 
besides that the NEA is the----
    Mr. Wicker. How does that compare with the Administration's 
request, do you know?
    Ms. Malone. I think we are asking for 10 percent and they 
ask 2 percent increase. So we are asking for a little bit more. 
The NINR is the National Institute of Nursing Research, and we 
are asking for $90.7 million there. We believe that research is 
a fundamental piece of what we are trying to accomplish in 
health care. For example, Dr, Dorothy Bruten out of Case 
Western in Cleveland, Ohio, put together a study where she 
showed that those little tiny babies--I call them two pound 
bags of sugar--in neonatal intensive care units--that if you 
put a nurse with them, advanced practice nurse, and you send 
them home, you can save thousands of dollars per day in terms 
of the dollars that go into health care settings, and so we 
know that nursing research makes a difference, and we know that 
it has to be funded. It has not been funded as sufficiently as 
it has needed to be, but we think it is time to change that. 
And so those are our two major issues. One is the Nurse 
Education Act, at $74 million, and the second one is NINR, the 
NationalInstitute of Nursing Research, at $90.7 million.
    I thank you for the opportunity to testify, Mr. Chairman, 
and I would answer any questions that you might ask.
    Mr. Wicker. Well, thank you very much for your testimony, 
and I think the three of you together have presented a very 
compelling need, which I will convey to the rest of the 
committee. And we thank you so much for your participation 
today.
    Ms. Malone. We thank you, sir.
    Mr. Wicker. Look forward to working with you in the future.
    [The prepared statement of Beverly Malone follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                     NATIONAL INSTITUTES OF HEALTH


                                WITNESS

RICHARD McCARTY ON BEHALF OF MARTIN SELIGMAN, AMERICAN PSYCHOLOGICAL 
    ASSOCIATION
    Our next witness is Dr. Seligman, testifying on behalf of 
Dr. Richard McCarty?
    Mr. McCarty. It is Richard McCarty.
    Mr. Wicker. I see. Are you Dr. McCarty?
    Mr. McCarty. Yes, I am.
    Mr. Wicker. I see.
    Mr. McCarty. Dr. Seligman actually is ill. I think he could 
use these three nurses.
    Mr. Wicker. I see. We apologize. We got a little confused--
--
    Mr. McCarty. That is okay.
    Mr. Wicker. But we wish Dr. Seligman well in his recovery.
    Mr. McCarty. I will pass this----
    Mr. Wicker. And I think you are equal to the task today.
    Mr. McCarty. I will do my best, Mr. Chairman.
    Mr. Wicker. You are testifying I believe on behalf of the 
American Psychological Association?
    Mr. McCarty. That is correct.
    Mr. Wicker. Good.
    Mr. McCarty. Mr. Chairman, I do appreciate the opportunity 
to present testimony on behalf of the American Psychological 
Association. APA has 159,000 members, and affiliates, and we 
work to advance psychology as a science, a practice, and a 
means of promoting human welfare.
    We appreciate the forceful leadership of this committee 
that resulted in last year's significant increase to the NIH 
budget. While we appreciate the difficulty of making it two 
years in a row, we encourage the committee most strongly to try 
once again to achieve a 15 percent increase for the NIH budget.
    In part, because of this committee's interest, the NIH 
investment in behavioral research has grown steadily. In the 
five years from Fiscal Year 1994 to Fiscal Year 1999, overall 
the advancement and investment in health and behavioral 
research increased by 24 percent. Unfortunately, it has 
increased at a lower rate than the overall NIH budget, which 
has expanded by 30 percent since Fiscal Year 1994. This is a 
significant gap, we submit, when you consider that over 50 
percent of the mortality in our country is linked to behavior--
tobacco use, drug and alcohol abuse, sedentary lifestyles, high 
dietary fat intake, injuries, violence. Each of these has a 
large impact on the health of our nation.
    Given the enormous impact of behavior on health, we urge 
this committee, and through you, the NIH to increase its 
investment in behavioral research and, yes, prevention.
    There are exciting opportunities in behavioral research 
that NIH is currently exploring, and because of time 
limitations, I will highlight just three of them.
    First, I want to point out the new NIDA Clinical Trials 
Network, which represents a significant, but wise, investment 
given the economic consequences of untreated drug dependence, 
estimated at about $97 billion in 1992. APA encourages the 
committee to allocate $765 million for NIDA in Fiscal Year 
2000. This will allow NIDA to begin modest expansion of its 
Clinical Trials Network, as well as continue the research that 
has made it the world leader in addiction sciences.
    Mr. Chairman, one thing that does trouble us greatly is the 
National Institute for Child Health and Human Development. For 
the past several years, it has received among the lowest budget 
increases of any NIH Institute. NICHD's leadership on matters 
of children's and women's health is a unique asset to our 
national science investment and should be treated accordingly. 
In Fiscal Year 2000, NICHD, among other things, will continue 
to collect data relating to the transition from adolescence to 
young adulthood, and this unique ADHEALTH database, as it is 
known, contains information on a broad range of health 
behaviors and health conditions. To fund continuation of this 
study and other projects adequately, we strongly recommend a 
full $915.2 million for NICHD.
    And finally, and perhaps most importantly, I want to point 
out the Substance Abuse and Mental Health Services 
Administration. They have provided innovative leadership in the 
prevention and treatment of mental disorders and substance 
abuse. We urge this committee to pay special attention to one 
initiative in particular, in the Knowledge Development and 
Application, or KDA, Grant program. And this is housed in the 
Center for Mental Health Services at SAMSA. That is a mouthful, 
but I am sure you are aware of this program.
    The program we would like to highlight is the Safe Schools 
Initiative. Mr. Chairman, I think all of us, and our families 
have heartfelt sorrow for the families of Littleton, Colorado, 
as they deal with the aftermath of yesterday's tragedy at their 
local high school. It is critical that the Federal Government 
strengthen its efforts to help communities make use of 
evidence-based behavioral programs to prevent future episodes 
of violence in our nation's schools. APA commends Congress for 
providing $40 million last year, through the KDA program, to 
``improve mental health services for children who are at risk 
of violent behavior. We urge funding of at least $40 million 
again this coming year for this initiative. In addition, we 
commend--we recommend that Congress increase the number of 
Federal agencies actively collaborating on school violence 
prevention. APA strongly believes in prevention, joining our 
nurse colleagues, in strengthening communities and in helping 
parents and schools intervene early on with children who are at 
risk of violent behavior.
    In closing, I want to let you know that APA is 
collaborating with MTV in a series on school violence 
prevention. The MTV program, Warning Signs, will air tomorrow 
afternoon at 4:00 p.m. and will be repeated. The program and an 
accompanying brochure will, we hope, help young people 
understand the warning signs of violent behavior in their 
friends and classmates as well as themselves. And we are happy 
to share copies of this brochure with you and your colleagues 
today. And thank you very much, Mr. Chairman.
    Mr. Wicker. Well, thank you. Let me just say that I think 
all Americans are devastated by what happened in Colorado 
yesterday. And while the Federal Government is not the answer 
to everything, I think we will be struggling over the next few 
days and weeks to see what can be done at the Federal level. 
How long has this Safe Schools Initiative been underway?
    Mr. McCarty. It has been in place for I believe several 
years, Mr. Chairman.
    Mr. Wicker. Several years?
    Mr. McCarty. One thing that we think it could improve this 
program is to bring CDC in as a partner. They have a tremendous 
program on violence prevention, but they are not one of the 
Federal agencies currently involved in this effort. And we 
think they could be an important partner. This, as you say, Mr. 
Chairman, is a devastating time for our country, and we believe 
strongly that outbreaks of violence like this are best 
prevented rather than turning our schools into heavily guarded 
encampments.
    Mr. Wicker. You know, I think one of the problems seems to 
be which weird behavior you take seriously and which you just 
write off as an adolescent quirk.
    Mr. McCarty. Yes.
    Mr. Wicker. I have been approached by some people who are 
interested in a program called Youth Crime Watch. I think it 
might also appropriately be called school crime watch. Is there 
a way we can educate the students who are actually hearing 
potentially troubling discussion as to what to do with that 
sort of information without being a snitch or without making a 
mountain out of a molehill? Is there a way that we can develop, 
perhaps with your help, some sort of school crime watch to 
educate our students about how they might prevent this?
    Mr. McCarty. Well, I think this program, in collaboration 
with MTV can at least go part of the way to educate our high 
school and middle school students that they can help their 
classmates and friends who are showing troubling signs. And 
while it is easy to second guess what happened in Colorado, 
certainly early indications are that there were many warning 
signs with these two young men who took the lives of some of 
their classmates and then themselves. We need to develop a 
caring community where people will take action. And we think 
collaborations, such as the one we are engaging in with MTV, 
can go part of the way. But I think it takes a concerted 
national effort, Mr. Chairman, and unfortunately I think much 
of the responsibility for such an effort would fall with your 
colleagues on this subcommittee. So, we will help you in any 
way we possibly can. Maybe this will be the last such instance 
of violence.
    Mr. Wicker. Well, we certainly hope so, but there is no 
indication of that.
    Mr. McCarty. Unfortunately.
    Mr. Wicker. As a matter of fact, the fear is just to the 
contrary. Well, thank you for your wide ranging testimony----
    Mr. McCarty. Thank you.
    Mr. Wicker. I note that you are a professor in the 
Department of Psychology at the University of Virginia at 
Charlottesville?
    Mr. McCarty. That is correct. I actually have a son at Ole 
Miss, too, which I am very proud of.
    Mr. Wicker. Well, I am delighted to hear that. I have a 
daughter, Margaret, who is a first-year at University of 
Virginia.
    Mr. McCarty. Well----
    Mr. Wicker. So, we are trading. My wife and I will be in 
Charlottesville this weekend to see her perform in a ballet. We 
are looking forward to it.
    Mr. McCarty. Well, I hope you have a nice visit, and we 
have certainly enjoyed many to Oxford.
    Mr. Wicker. Well, I also note that your governor wants to 
hold the line on in-state tuition, and I certainly hope on the 
out-of-state, he will look favorably on----
    [Laughter.]
    Mr. McCarty. I am sorry to tell you there is a five percent 
increase.
    Mr. Wicker. Oh, my goodness.
    Mr. McCarty. So we are going down for in-state tuition.
    Mr. Wicker. Thank you very much for your testimony.
    Mr. McCarty. Thank you, sir.
    [The prepared statement of Martin E.P. Seligman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                     NATIONAL INSTITUTES OF HEALTH


                                WITNESS

ALAN G. KRAUT, EXECUTIVE DIRECTOR, AMERICAN PSYCHOLOGICAL SOCIETY
    Mr. Wicker. That last little information got me all 
bumfuzzled there. Dr. Alan G. Kraut, American Psychological 
Society Executive Director. Dr. Kraut, we are delighted to have 
you.
    Mr. Kraut. It is nice to be here. I am just going to 
highlight a couple of areas of my written statement. But first, 
I want to thank you and the other members of the subcommittee 
for the extraordinary increase in NIH funding for Fiscal Year 
1999. And to let you know that as a member of the Ad Hoc Group 
for Medical Research Funding, I can report that we are doing 
everything we can to encourage a 15 percent NIH increase for 
the coming year as well.
    Within that context, my remarks today are going to focus on 
behavioral science research at NIH. I have had the good fortune 
to appear before this subcommittee on and off for more than 10 
years. And over that time, you and your colleagues in the 
Senate have repeatedly urged NIH to increase its behavioral 
science research. You have recognized that many of the leading 
causes of death and premature mortality in this country--the 
National Academy of Sciences says more than 50 percent of them 
are due to behavior. Let me just think of a few of our national 
public health problems--smoking, drinking, drug abuse, 
violence, suicide, teen pregnancy, obesity--all begin with 
behavior, but they may end with lung and heart disease, 
neurologicaldisorders, catastrophic injury, sexually 
transmitted diseases, developmental disorders, or diabetes just to name 
a few.
    What goes on in the thinking of young people that leads 
them to start drinking or smoking or taking drugs? When do we 
acquire patterns of behavior that may be with us for the rest 
of our lives? What about connections between stress and health? 
What parts of the brain are changed by behavior, and in what 
ways? How do genes interact with behavior? These are 
fundamental questions that need to be answered scientifically.
    Now, think back to the hearings you had a few weeks ago 
with NIH Institute directors and see if you can recall anything 
about initiatives to understand the behavioral origins of the 
conditions I just named. You probably won't be able to. 
Behavior is not what you hear about when you talk to most 
Institute directors, and it is not what you read about when you 
find a list of NIH priorities.
    In the April 9th issue of the Journal of Science, you may 
have seen an editorial by David Hamburg, a distinguished 
physician and the President Emeritus of the Carnegie 
Corporation, in which he described the ``enduring prejudice 
against objective inquiry into human behavior.'' But Hamburg 
also noted that just a few decades ago, conventional wisdom 
discouraged biochemistry. It was seen as a combination of weak 
biology and weak chemistry. The lesson, Hamburg says, is that 
we need to overcome--is that just as we overcame scientific 
blinders then, today we need a ``widening of our horizons to 
include neglected lines of inquiry and a commitment to the 
scientific study of human behavior.'' I second that.
    So how do we widen NIH's behavioral science horizons? Well, 
one way is to increase NIH support for training in the 
behavioral sciences. In its most recent report on research 
training, the National Academy of Sciences recommended 
increasing the size of NIH stipends and increasing the number 
of training awards in nursing research, oral health, health 
services research, and behavioral science. NIH only implemented 
the stipend increase. I ask this committee to lend its support 
to the NIAS complete training recommendations.
    I also ask that you might encourage NIH to broaden its use 
of what is known as the BSTART funding mechanism, which 
provides small starter grants to young and beginning behavioral 
scientists.
    Another way is to increase support for basic behavioral 
research, particularly at the National Institute of General 
Medical Sciences. NIGMS is the only national institute mandated 
to support research and training not targeted to disease. It 
does not now support any behavioral science, but it should in 
areas such as the fundamental relationships between brain and 
behavior, auditory and visual perception, social processes, 
basic cognition, the development of research techniques and 
methods, and the connections between mental processes and 
health.
    Finally, I ask the committee to support the activities of 
the Office of Behavior and Social Sciences Research. OBSSR has 
established groundbreaking initiatives involving joint efforts 
by many NIH Institutes. With this subcommittee's encouragement, 
OBSSR is coordinating a $10 million NIH-wide project on 
connections between mind and body. This should serve as a model 
for other joint projects with Institutes that share 
responsibility for the behavioral aspects of physical and 
mental health and disease.
    Similar initiatives are needed in other areas where 
psychological, environmental, and biological conditions 
intersect. One such issue is compliance with the medical 
regimens. And with that, I will conclude my comments. Thank you 
very much.
    Mr. Wicker. Well, thank you, Dr. Kraut. I note that you 
have testified before Congress some 22 times. Are we making any 
progress?
    Mr. Kraut. Actually, with each time, I am encouraged. There 
is a greater----
    Mr. Wicker. You are encouraged.
    Mr. Kraut. I have to tell you I can be cynical and make a 
smart alec comment, but the truth is that on the members of 
this committee, and I often testify before the National Science 
Foundation's Appropriations Subcommittee for the House and the 
Senate. There is a much greater appreciation for the role of 
research in developing national health policy and national 
science policy. So I have been----
    Mr. Wicker. An appreciation for your type of research among 
legislators and appropriators. However, am I correct that drug 
abuse, violence, teen suicide, teen pregnancy are getting worse 
in our society? And do you have an opinion about what is wrong?
    Mr. Kraut. I do. In many areas, it is getting worse. In 
fact, there was an article in the Post this morning that rates 
of cancer were decreasing mainly based on changing behaviors, 
on decreased smoking, on better exercise and better eating 
habits, but that all of it could be blown away because there is 
a seeming increase in young people smoking. There needs to be--
--
    Mr. Wicker. And what is happening in our society?
    Mr. Kraut. Well, I think there need--these are--if I can 
speak from the research side, I think we need to treat these as 
researchable questions that just telling a young person that he 
or she is at risk for cancer 30 years from now is not going to 
make it. Neither is it going to make it by creatinghorror 
stories. I do not know if you remember early on in the AIDS epidemic, 
there was a commercial that was on TV that said I would do anything for 
love, but I am not willing to die for it, and it was designed to 
promote responsible sexual behavior. Well, it turns out that that was 
not based on any research and any social psychologist could have told 
them that that kind of argument was based on activity in the 1950's and 
that behavioral science has moved much further down the road in trying 
to persuade, to develop persuasive communication techniques. Right now, 
at the National Institute of Mental Health, there is a wonderful 
program that has reduced irresponsible sexual activity, based on 
research in motivation and persuasive communication. And I think it is 
more treating these issues as responsibly scientific issues that will 
get us down that road.
    Mr. Wicker. What about scientific research, or has there 
been any scientific research as to a diminution of values 
education or values training in our schools or in our society? 
Are you aware of any such research?
    Mr. Kraut. I--I have got. It is out of my area of expertise 
to tell you the truth, so I would just be speculating on what 
values training might be doing.
    Mr. Wicker. Might be something to look at.
    Mr. Kraut. It sure might.
    Mr. Wicker. Thank you very much.
    Mr. Kraut. Thank you.
    [The prepared statement of Alan Kraut follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

  DEPARTMENTS OF HEALTH AND HUMAN SERVICES, LABOR, AND TRANSPORTATION


                                WITNESS

CHRISTOPHER P. BOYLAN, VICE CHAIR OF GOVERNMENT AFFAIRS ON THE 
    EXECUTIVE COMMITTEE OF THE BOARD OF DIRECTORS, AMERICAN PUBLIC 
    TRANSIT ASSOCIATION
    Mr. Boylan. And that is not all. That is a mouthful. 
Thanks, Mr. Chairman.
    Mr. Wicker. Delighted to have you.
    Mr. Boylan. Thank you.
    I am here on behalf of the American Public Transit 
Association, which is an international trade association, 
representing the North American Transit Association for the 
past hundred years. And folks may wonder what it is that we are 
doing here. I listened to the previous witnesses who told of a 
whole host of concerns, most of which had to do with finding 
solutions and providing dollars. And I think the thing that we 
bring to the table is through working more closely with health 
providers, human service providers and labor agencies, we might 
be able to help you find ways to use some of the dollars that 
you have a little more cost efficiently and effectively.
    Everyday millions of Americans use public transit to access 
jobs and health care. In my own system, in New York, we 
transport about 6.2 million people a day around our region, and 
that is a lot of people. We think we can even do more.
    Let me talk a little bit about the advantage our 
coordination can provide with respect to health care. In 1997, 
the Health Care Finance Administration estimated it was 
spending about $1.2 billion a year on non-emergency medical 
transportation. That is a lot of money. We think that through 
the wise use of existing public transit services, we can help 
you lower the cost or use those dollars more efficiently and 
effectively.
    You asked Dr. Kraut if Congress was having an impact on his 
issues. Through some of the legislation that has been passed 
over the last couple of years, some that came out of this 
subcommittee, the appropriations bill and also the 
transportation legislation, T-21, you have encouraged us and 
the labor and health care providers to work more closely 
together to coordinate our services. In fact, 20 percent of the 
nation's Medicaid rides are now provided on public transit, and 
there is some very good stories out there in terms of how much 
that is saving. In Oregon, about 60 percent of all Medicaid 
trips in Portland, Oregon, are provided by bus or light rail, 
and that has reduced the cost by approximately 15 percent to 
the health care providers there.
    Similar stories are found in Vermont, Rhode Island, and 
North Carolina.
    We strongly support the initiatives by DOT and HHS to 
improve coordination of transportation under social and health-
related programs, and we encourage the provisions of T-21 that 
called for planning organizations to coordinate the delivery of 
transportation services by all entities thatreceive Federal 
funds and not just the transportation providers.
    Another area where transit has made a difference is in the 
welfare to work program. We have been encouraged by the Federal 
Transit Administration to help in getting people to jobs. And 
DOT has worked with HHS and the Department of Labor on the use 
of transportation funds under TANF, welfare to work and job 
access grants program. Our industry has created an access to 
jobs task force to assess and coordinate activities related to 
welfare to work.
    In Chicago, for example, the PACE bus system, which runs in 
suburban Chicago areas, has been working with United Airlines, 
UPS, Marriott, Avon, and other employers to design routes that 
get former welfare recipients to suburban locations. And PACE 
has actually expanded that program through the use of DOT's 
Congestion Mitigation and Air Quality programs. So there is a 
lot of opportunities for us to develop synergies with other 
Federal programs through the use of the HHS-Transportation 
dollars.
    In New York, we move over 49,000 people--49,000 reverse 
commuters a day. And we have been doing more coordination with 
local DOTs, local transit operators, employers, and health care 
providers to cover work sites that were not previously served 
by transit.
    Our bottom line is that we are supportive of what has been 
going on in terms of the coordination. We ask that this 
subcommittee continue to encourage both DOT and HHS to expedite 
the joint coordination of guidelines that they have been 
working on for the last couple of years. We had hoped they 
would be out last fall. It looks like perhaps this fall. That--
those regulations would allow us to kind of provide a better 
framework for providing coordinated transportation services.
    We hope you will provide and encourage flexibility in the 
use of HHS funds for transportation costs, and that you will 
encourage health and human service providers to coordinate 
their transportation activities through the metropolitan 
transportation planning process. That is about all I have, and 
if there is any questions I could answer, I would be happy to 
do so.
    Mr. Wicker. Thank you very much, Mr. Boylan. We will be 
delighted to pursue the issue of the guidelines and inquire on 
behalf of the subcommittee about when they might be expected.
    Mr. Boylan. Terrific.
    Mr. Wicker. Thank you very much for your testimony.
    Mr. Boylan. Thank you. I appreciate it.
    [The prepared statement of Christopher Boylan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

             VOCATIONAL REHABILITATION STATE GRANT PROGRAM


                                WITNESS

BOBBY C. SIMPSON, COMMISSIONER, REHABILITATION SERVICES, STATE OF 
    ARKANSAS
    Mr. Wicker. Our next witness is Mr. Bobby C. Simpson, and 
he will be introduced by my friend and colleague, Mr. Dickey of 
Arkansas.
    Mr. Dickey. Thank you, Mr. Chairman. As Mr. Simpson is 
coming forward, I want to tell you that I am in a very 
intensive briefing next door about the Kosovo thing, and I have 
explained to Bobby that I am not going to even be here while he 
is testifying because of the nature of what we are doing. But I 
do want to introduce him, and I want to tell this committee and 
the record of what the record is of Bobby Simpson.
    He is a person who has suffered a disability, but from an 
automobile accident. He has had a choice of whether to give 
into it or fight against it. He has fought against it, and now 
is a more than capable contributor. In fact, he is excelling in 
what he is doing in my district. He lives in Hot Springs, 
Arkansas. His office is across from my office there in the Spa 
City. And he is bringing opportunities to people just like he 
did himself. He is bringing opportunities to people all through 
the district to the extent that last year, there were $39 
million earned in the first year of the conversion from someone 
who is dependent to a job, just in Arkansas. And this is 
happening all over the country. I am going to go to bat for 
him, Mr. Chairman, in our mark ups. I would like particularly 
be interested in your listening carefully, because I know how 
you feel being from Mississippi, and how you know about the 
disabled people. Bobby is a friend. He is everything that he 
has said he would do, he has done. But the main thing that we 
have in common is that we are taking part in bringing self-
esteem and independence to people who want to be wage earners, 
who want to be contributors rather than takers from our 
society.
    Bobby, I congratulate you on your life and the work that 
you are doing for us.
    Mr. Simpson. Thank you, sir. Gosh, Mr. Chairman and Mr. 
Dickey, I so very much appreciate that. I do not know if I need 
to provide any testimony after that wonderful statement. I 
certainly do appreciate it, Mr. Dickey, who is a long-time 
friend of ours and a supporter of ours and who knows the value 
and benefit of the public vocational rehabilitation system not 
only in Arkansas, but throughout the nation. That is what I am 
here to speak on behalf of today.
    I am here speaking on behalf of the Council of State 
Administrators of Vocational Rehabilitation and also the 
American Rehab Action Network. It is composed of thousands of 
dedicated men and women who are absolutely committed to the 
public vocational rehabilitation service delivery system to 
enable people with disabilities to prepare for and enter the 
world of work. That is what our business is all about. I have 
heard wonderful testimony today around a lot of programs in the 
National Institute of Health, and, you know, we are serving a 
lot of people with juvenile diabetes in assisting them in 
preparing for and entering the world of work. We are serving 
people with many different types of mental health problems, 
which enable them to prepare for and enter the world of work. 
Virtually any disability you name that can--causes an 
impediment to employment, the public vocational rehabilitation 
system in this country is working to address that through our 
State-Federal Partnership. Unfortunately, we are overwhelmed 
with increasing volumes of people who need our services and who 
need our assistance. There is well over 43,000,000 Americans 
with disabilities in this country. About 69 percent of the 
working age population of people with disabilities are 
unemployed. We need to address that, and we need to address it 
quickly.
    We have been working hard at, but we need assistance in 
order to do so. The Administration has requested $2,339,000,000 
for the Vocational Rehabilitation State Grants program, which 
is an increase of only 1.5 percent over the previous year's 
funding level, and that is required. It is a statutory 
requirement to increase funding by at least the percentage 
change in the CPI. This change does not allow for any growth in 
the program, and we are continued to be overwhelmed with 
increasing numbers of people coming into our system through the 
welfare to work program, throughtransition programs, to people 
who are benefitting from some of the valuable research we have just 
talked about who are now living and have opportunities to pursue 
productive lives.
    Unfortunately, without adequate education, training, and 
vocational rehabilitation services, these people will not have 
the opportunity to really live an appropriate and prosperous 
lives. We provide the opportunity for these folks to go to 
work.
    In this last Fiscal Year, the State Vocational 
Rehabilitation agencies around this country served over 
1,600,000 persons. We have put approximately 225,000 of those 
individuals into employment through the public vocational 
rehabilitation system. Those individuals who entered the 
workforce, those 225,000, they earned a total of $2,450,000,000 
in their first year of work alone. Those same individuals 
generated Federal taxes in the amount of approximately $690 
million in that first year of work. The vocational 
rehabilitation program in this country, through its State-
Federal partnership of Federal funds and also State matching 
dollars is really an economic investment in the future well 
being of the individuals with disabilities in this country. And 
I cannot estimate--and I cannot emphasize enough the importance 
of adequate funding in the amount of $3 billion for the Public 
Vocational Rehabilitation Program in order that we might begin 
to serve the many people with disabilities who are not able to 
access the systems of services that we provide--that simply is 
not available to them. We are only able to serve approximately 
1 in 20 eligible individuals in the public vocational 
rehabilitation program, and I hope that you will see fit to 
assist us with a $3 billion appropriation with the public VR 
program.
    You know, disability does not discriminate on the basis of 
race, sex, geographic location or economic status. If it has 
not impacted you, a close friend, or family member, it 
certainly will. So we urge Congress to assist us in assuring 
that a strong public vocational rehabilitation program is 
available so that people who experience a disability will have 
the opportunity to pursue the American dream.
    Mr. Wicker. Thank you, Commissioner. Tell me how long have 
you been disabled.
    Mr. Simpson. I have been disabled, gosh, it is some 28 
years now, a very long period of time. I had a spinal cord 
injury at the age of 18. I was very fortunate, Mr. Chairman, in 
that I was hooked up directly with a public vocational 
rehabilitation program, a strong rehabilitation counselor who 
knew what it was to deal with a disability, gave me the hope 
that I could live a productive life after medical professionals 
had told my mom and dad, you are going to spend the rest of 
your life at home with your parents or in a nursing home. 
Fortunately, through the rehabilitation system, I was provided 
a college education. My parents had very limited means. I 
obtained a master's degree. They provided me with an electric 
wheelchair, good solid counseling, a lift to go in a van. The 
rest is kind of history, sir. I have been working full-time 
since 1974, and I can guarantee you, I have more than paid back 
the cost of my rehabilitation many, many times over in State 
and Federal taxes. And I hope I have contributed something to 
the quality of life with people in my State and my country.
    Mr. Wicker. Well, your testimony very effectively points 
out the return in tax revenues.
    Mr. Simpson. Yes, sir.
    Mr. Wicker. Of these rehabilitation dollars in addition to 
the human component of the benefit of these programs.
    Mr. Simpson. Yes, sir.
    Mr. Wicker. You have received today the commitment from my 
able colleague, Mr. Dickey, that he will be an advocate on 
behalf of this program in the mark up, and that is a very 
significant commitment. So we thank you for your testimony, 
and, Mr. Dickey, unless you have a follow-up question, we will 
thank the Commissioner, and wish you well.
    Mr. Simpson. Thank you very much, Mr. Wicker. I certainly 
hope you and other members of the subcommittee will join with 
the wonderful gentleman from Arkansas, Mr. Dickey, in 
supporting the public vocational rehabilitation program. Thank 
you, sir.
    Mr. Wicker. Thank you, Mr. Dickey. Thank you.
    [The prepared statement of Bobby Simpson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

CENTERS FOR DISEASE CONTROL AND PREVENTION AND THE NATIONAL INSTITUTES 
                               OF HEALTH


                                WITNESS

LINDA L. ALEXANDER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, AMERICAN 
    SOCIAL HEALTH ASSOCIATION
    Mr. Wicker. Dr. Linda L. Alexander is next. President and 
CEO of the American Social Health Association. Dr. Alexander, 
we are glad to have you with us this afternoon.
    Ms. Alexander. Thank you. It is a pleasure to be here. I 
feel I should preface my comments by saying I am advanced 
practice nurse focused on prevention. The testimony I would 
like to provide today is provide on behalf of the American 
Social Health Association. This organization, also known as 
ASHA, is 85-years-old. And for 85 years, we have been working 
hard to fight all sexually transmitted diseases, through 
programs in education, research, advocacy, and service to 
individuals affected with STDs. We have learned a lot.
    Today, in addition to representing ASHA, I am representing 
the Coalition to Fight Sexually Transmitted Diseases and the 
National STD Action Plan. We appreciate the opportunity to 
provide the subcommittee with information about the health 
crisis caused by the skyrocketing rates of sexually transmitted 
diseases in America and to support the programs for the Centers 
for Disease Control and Prevention and the National Institutes 
of Health in STDs.
    The Coalition to Fight Sexually Transmitted Diseases 
recommends for Fiscal Year 2000 funding of $208 million for the 
STD Prevention Program at the Centers for Disease Control and 
Prevention.
    STD numbers are simply staggering. Every year, 
approximately 15.3 million Americans contract a sexually 
transmitted disease. The United States unfortunately has the 
highest rate among industrialized countries for sexually 
transmitted diseases. In one year alone, our nation spends over 
$8.4 billion to treat the symptoms and consequences of STDs. We 
will be able to significantly reduce both the health care costs 
and the illness associated with STDs, particularly for 
adolescents and women, if we take action now.
    Women, adolescents and children are disproportionately 
affected by sexually transmitted diseases. By the age of 24, at 
least one in three sexually-active people will have contracted 
an STD, and approximately 1 million women will have a severe 
case of pelvic inflammatory disease due to STDs. And each year, 
over 600 babies are born in the U.S. with congenital syphilis 
that leads to physical deformities, mental retardation and 
death.
    In the last five years, the CDC has developed innovative 
programs that have significantly reduced some STD rates and the 
associated costs to society. However, without additional funds, 
the CDC cannot establish these programs in all 50 States. I 
would like to delineate some of the specific areas of concern 
for funding.
    The first is syphilis elimination. Prevention efforts have 
eliminated syphilis from 73 percent of U.S. counties. Since 
1998, the CDC has implemented enhanced community-based 
prevention efforts to eliminate syphilis from all areas of the 
country. The STD Coalition recommends a $37 million increase to 
expand the Syphilis Elimination program, which will focus on 
regions, such as in the South, with epidemic rates of syphilis. 
Syphilis historically has peaked in 10-year cycles, with the 
last peak occurring in 1990. Today, we have a window of 
opportunity to eliminate this disease from these areas and we 
need to act now before another upsurge in the disease.
    The Infertility Prevention Program. Currently, this highly 
successful prevention program of screening for chlamydia has 
been differentially implemented in the States. Thirty States 
have screening coverage for less than 20 percent of the women 
at risk, and 20 of the States cover 45 to 50 percent of women 
at risk. These differentials affect primarily women who are 
marginalized and African American. Where it has been 
established, the program has reduced chlamydia rates by 66 
percent and decreased treatment costs by over 80 percent. The 
STD Coalition recommends a $23 million increase to expand this 
Infertility Prevention program and provide parity for chlamydia 
screening for 50 percent of women at risk in these States.
    TD Surveillance and Infrastructure Support. STD clinics all 
over the country have been forced to shorten treatment hours 
and some have even closed the doors to thousands of individuals 
at risk. We are recommending a $15 million increase to increase 
support to the States most at risk so that core STD treatment 
and prevention activities can be restored in these communities.
    STD Treatment to Enhance HIV Prevention Activities. 
Research has clearly shown that individuals infected with an 
STD are as much as 500 times more likely to acquire HIV 
infection during one encounter. In addition, States with high 
syphilis rates have higher HIV infection rates among young 
women. The STD Coalition is recommending a $15 million increase 
to provide STD screening and treatment in HIV clinics and to 
build connections with community-based organizations that serve 
populations at risk.
    Human Papillomavirus and Herpes. These are viral STDS. In a 
recent study, over 50 percent of college-age women were 
infected with human papillomavirus. What is important to note 
with HPV is that some types of this virus actually cause 
cervical cancer. Over 45,000,000 Americans are infected with 
Herpes.
    Mr. Wicker. Let me interrupt. Is human papillomavirus only 
an STD?
    Ms. Alexander. Yes, sir.
    Mr. Wicker. That is the only way it can be transmitted?
    Ms. Alexander. Yes, sir.
    Mr. Wicker. And 50 percent of college-age women screened--
--
    Ms. Alexander. Are infected with HPV. Now, only some 
strains, some types of this virus, sir, cause cervical cancer. 
But cervical cancer is a sexually transmitted disease.
    Mr. Wicker. I am astonished.
    Ms. Alexander. Yes, sir. We are having difficulty getting 
that message out. People are willing to talk about cervical 
cancer, but they are not willing to talk about the connection 
with HPV. It is one of the biggest educational challenges we 
have before us.
    Mr. Wicker. Well, unfortunately, your time has expired. And 
I have interrupted you. But let me just ask you what sort of 
job does the CDC do in quantifying the programs that work in 
this regard and discarding, if necessary, programs that have 
not been effective? Do you have an opinion on that, are you 
able to comment?
    Ms. Alexander. I have an opinion, sir.
    Mr. Wicker. All right.
    Ms. Alexander. Funds to CDC have been limited for STD 
programs and funding has generally been based on distribution 
to States because their needs are so acute. Funds have not 
generally been available to CDC to provide comprehensive 
evaluation of traditional and innovative programs that might 
offer better services.
    Mr. Wicker. Why are STDs skyrocketing in America?
    Ms. Alexander. I think there are many reasons. Primarily 
ignorance is perhaps the most important thing. Many people who 
have these infections do not know they have them. Asymptomatic 
disease states, ignorance about them, the inability of people 
to comfortably talk about these infections really compound the 
problem. And I think it is the combination of these factors 
that really lead to the epidemic rates that we are 
experiencing.
    Mr. Wicker. Well, thank you very much for your testimony.
    Ms. Alexander. Thank you, sir.
    [The prepared statement of Linda Alexander follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                                WITNESS

CONNIE M. WEAVER, PROFESSOR AND CHAIR, DEPARTMENT OF FOODS AND 
    NUTRITION, PURDUE UNIVERSITY
    Mr. Wicker. Dr. Connie M. Weaver, Ph.D., American Society 
for Nutritional Sciences.
    Ms. Weaver. Good afternoon, Mr. Wicker and members of the 
committee. Before I begin, I would like to thank members on 
both sides of the aisle who have supported a Federal investment 
in scientific research to maintain health and quality of life 
in the next century.
    American Society for Nutritional Sciences, or ASNS, is the 
principal professional organization of nutritional research 
scientists in the United States and a member of the Federation 
of American Societies for Experimental Biology, or FASEB. ASNS 
endorses the recommendation for a 15 percent increase for the 
Fiscal Year 2000.
    This increase would represent a second step toward the goal 
of doubling the NIH budget over a five-year period, a goal in 
which you and many of your colleagues have publicly supported. 
We know there are concerns from this subcommittee and the 
Congress about how another significant increase might be 
effectively absorbed at NIH. At this time, we offer some 
suggestions from a nutrition science perspective on how NIH may 
incorporate such an increase so that the funds are effectively 
managed for the best possible health research outcomes.
    Another significant increase would be most effectively 
applied by providing increased emphasis in genomics. From the 
nutrition standpoint, the areas of the genetic influence on 
nutrient requirements of individuals, nutrient-gene 
interactions and their relationship to disease fits within the 
mission of NIH. The success of NIH and other agencies to 
sequence the human genome will not only allow physicians to 
effectively target drug therapy to individuals but will also 
open the door to identification of nutrient requirements for 
individuals.
    A 15% increase will enable the NIH to make the most of 
recent discoveries, provide the foundation for foundation for 
future breakthroughs, and train young scientists who will 
prepare for new challenges. The advantage of using traditional 
diet over drugs as a means for preventing disease has several 
distinct advantages, like reducing the freedom of side effects 
in addition to lower costs. And in this new area, with foods 
targeted for health benefits, it is crucial that safety as well 
as efficacy be evaluated.
    Increased emphasis should be given to clinical research 
with a push toward getting more basic scientists involved in 
the Clinical Nutrition Research Units. Preventative dietary 
therapies and the role of nutritional support, such as 
antioxidants in severe illnesses or common disorders, such as 
obesity, hyperlipidemia and diabetes would also benefit from 
such a collaboration. Towards this goal, the development of 
interdisciplinary Basic Nutrition Research Unit system should 
be a priority at NIH for fostering interest in application of 
basic biological sciences, especially genetics and genomics to 
problems related to nutrition. Nutritional research is a cross 
cutting area that is truly relevant to all NIH Institutes. 
Inappropriate nutrition is a primary factor in unattained 
genetic development, reduced productivity, and increases 
susceptibility to diseases such as heart disease, cancer, 
stroke, liver disease and atherosclerosis, which costs our 
nation nearly $450 billion annually. My own NIH-funded research 
has led to the determination of calcium requirements for 
adolescence, the time when bones are growing the most rapidly 
and thought to be a time really effective in reducing bone loss 
and fracture later in life. This research was the basis for 
setting the calcium requirements for North America recently by 
the Food and Nutrition Board at the National Academy of 
Sciences.
    Mr. Wicker. What was it before that?
    Ms. Weaver. It went from a thousand milligrams a day to 
1,300 milligrams a day. We did not realize that you needed even 
more than they previously thought to achieve the biggest bone 
mass you could have in growth.
    Mr. Wicker. And how does one ingest that amount?
    Ms. Weaver. Well----
    Mr. Wicker. Translate that into a food.
    Ms. Weaver. Well, an easy advice would be to have a glass 
of milk with every meal, because not very many other foods have 
calcium rich sources, and too many of our kids are not eating 
in environments where they can have a glass of milk with every 
meal. They are eating out--Cokes, McDonalds--and not getting 
calcium-rich sources.
    We pledge our support to providing information and working 
with the leadership and the committee chairmen of both the 
House and the Senate to emphasize the issues we have presented 
here today. And for this increase in spending. We emphasize not 
only funding of science through NIH, but also through USDA's 
competitive grants program, and the National Science 
Foundation's plant genome project.
    In summary, I leave you with: we support the increase in 
NIH. We are not suggesting pulling support from basic sciences. 
We want the increase to build the basis of basic science, but 
addition, for special initiatives like nutrition and genomics. 
There is lots of requests that have been brought to you, some 
that seem more sexy than nutrition in many ways. But if you 
deal with a niche disease you are only solving a fraction of 
the deaths, and I--keep in mind that nutrition is an underlying 
factor in many of the diseases that lead to chronic and 
debilitation. Nutrition has the capacity to draw only on a 
number of disciplines to work towards a common problem. It is 
an intractable problem, but it is worth solving because it has 
the most capacity for return on investment.
    The American Society for Nutritional Sciences thanks you 
for the opportunity to testify before the subcommittee. I am 
happy to answer any questions you might have.
    Mr. Wicker. Do you feel that NIH is completely supportive 
of your approach?
    Ms. Weaver. I hope that they are very happy that we are 
here trying to build basic sciences and to work through the 
societies for identifying priority needs that will benefit 
society and the reduction of disease the most.
    Mr. Wicker. Back to the calcium study. What does--about 
just a little multivitamin for every child at breakfast?
    Ms. Weaver. They do not have calcium in the multivitamins.
    Mr. Wicker. They do not?
    Ms. Weaver. A lot of people think that.
    Mr. Wicker. Why not? Why not?
    Ms. Weaver. It takes so much calcium to build your large 
skeletal reserve you cannot cram enough calcium to make the 
difference in a little pill.
    Mr. Wicker. I see. Well, we still drink milk at our house.
    Ms. Weaver. Good for you. We do in ours.
    Mr. Wicker. You know your testimony goes hand in hand with 
the previous testimony about behavioral science.
    Ms. Weaver. Absolutely. Absolutely, people feel better if 
they have high nutrition foods rather than empty calorie foods.
    Mr. Wicker. Thank you very much for testimony.
    Ms. Weaver. You are welcome.
    [The prepared statement of Connie Weaver follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                      NATIONAL INSTITUTE OF HEALTH


                                WITNESS

ROBERT I. HANDIN, PROFESSOR OF MEDICINE, HARVARD UNIVERSITY MEDICAL 
    SCHOOL
    Mr. Wicker. Next is Dr. Robert I. Handin, medical doctor, 
Professor of Medicine at Harvard University Medical School; 
American Society of Hematology. Dr. Handin, is that correct?
    Dr. Handin. Yes. Yes, sir.
    Mr. Wicker. We are glad to have you with us today.
    Dr. Handin. Thank you. Mr. Wicker, members of the 
subcommittee, I want to thank you for the opportunity to 
testify today. As you mentioned, I am here on behalf of the 
American Society of Hematology. And on behalf of the society 
and the biomedical research community, I wish to thank the 
subcommittee for their strong and unwavering support of 
biomedical research. We are grateful that you have supported 
the development of a long-range plan for supporting biomedical 
research, and I want to tell you that it has had a salutary 
effect already on research. An increased proportion of the most 
worthy and promising new grant requests are now being funded, 
and Institutes within the NIH are developing new mechanisms to 
fund scientific training and clinical research.
    In previous testimony, the Society has told the committee 
how NIH-sponsored research in the area of Hematology, the study 
of blood disorders, has led to important discoveries and has 
generated new treatments and pharmaceutical products that have 
broad applicability to many human diseases. We have also 
emphasized the important synergy and cross-fertilization that 
is vital to scientific work. The Society remains firmly 
committed to broad-based support for biomedical research at 
NIH, and we will not request funding for hematology specific 
programs or request that specific dollars be assigned to any 
given disease or Institute. We remain committed to the existing 
peer review process as the best way to identify and prioritize 
scientific grants.
    The study of blood and its disorders is a very broad 
subject, and hematologists receive funding from multiple 
Institutes, principally the National Heart Lung and Blood 
Institute, the National Cancer Institute, and the National 
Institute of Diabetes, Digestive and Kidney Diseases. The 
Society would like to endorse and support the leadership of 
these three Institutes and commend them for their vision and 
superb stewardship.
    Of the many things that are being studied, I would like to 
call your attention to one interesting blood disorder called 
myelodysplasia. Formerly thought to be a rare disease, there is 
now an epidemic of this disease among elderly Americans, 
particularly individuals who have received prior treatment with 
chemotherapy or radiation for cancer. Among its victims are the 
astronomer and great promoter of science, Carl Sagan, and your 
former colleague, the Honorable Senator Paul Tsongas, who 
battled myelodysplasia along with his lymphoma. As the lifespan 
of Americans increases, this will become an increasingly common 
disorder and a new challenge for researchers. We are pleased 
that the National Heart, Lung, and Blood Institute has 
recognized the importance of this disorder and is exploring 
ways to fund new programs to unravel the mystery of this 
disorder.
    There are few things I wanted to mention that specifically 
relate to the future of research in this country. First, as 
other speakers today have mentioned, the Administration's 
proposed increase for NIH funding falls far short of the 
recommendations extant in the biomedical research community. 
And we believe, as do others, that if they were accepted it 
would stifle medical research. We want to go on record, along 
with others, as favoring a 15 percent increase, if at all 
possible, for Fiscal Year 2000. As mentioned, this would keep 
us on track towards our goal to double the amount of funding at 
the NIH and would allow significant progress in the most 
exciting and promising areas of scientific research.
    I also wanted to point out that there is a critical need to 
support the training of young investigators. They are needed in 
academic institutions as well as in the biotechnology and 
pharmaceutical industry. Their training pathway is long and 
arduous and has been interrupted by a long period of inadequate 
funding. If we are to continue to excel as a nation in science, 
a firm commitment to scientifictraining is critical.
    Thirdly, I should point out that there is increased 
interest in an area which has become known as ``translational 
research.'' This is broadly defined as the taking of basic 
science information and using it to identify and treat human 
diseases. Partnerships between industry and academic centers 
and cooperative ventures involving multiple academic centers 
are necessary for these projects to succeed, and they are very 
costly. Thus, they require special attention by the Congress. 
We do believe, however, when these studies are properly 
conceived and implemented, they may ultimately reduce the 
ultimate cost of health care.
    Although we recognize that Congress has multiple requests 
for funding and that there are many competing priorities, we 
want to emphasize that consistency is particularly important in 
the area of biomedical research. A lost research program may 
take many years to replace and in some cases may be impossible 
to recreate.
    The American Society of Hematology firmly believes that 
this is an exciting time and a productive time to do biomedical 
research. The tools and technology exist to conquer a number of 
important human ailments, and we hope that the Congress will be 
able to continue its longstanding policy of support for 
biomedical research and find the means to increase its fiscal 
support in 2000 and into the new millennium. Thank you.
    Mr. Wicker. Thank you very much for your testimony. Do you 
have an opinion as to why the Administration might have 
recommended such a small increase in NIH funding?
    Dr. Handin. I guess, I do not. I guess I would say that--
maybe--perhaps--I have two thoughts: one, perhaps they felt 
that the generous increases, had it been provided, may have 
taken care of the need, and we obviously, as you have heard, 
collectively feel that that is not so; or there may be other 
priorities that they felt were more important. And obviously, 
as practicing scientists, we feel this is for the long haul for 
even things as important as dealing with the Medicare problem, 
this is one approach that may be very useful.
    Mr. Wicker. Well, thank you for our very comprehensive 
testimony.
    Dr. Handin. You are welcome. Thank you.
    Mr. Wicker. And certainly I fully expect the subcommittee 
to come forward with a very generous mark for NIH.
    Dr. Handin. Thank you.
    Mr. Wicker. Biomedical research. Thank you so much, Dr. 
Handin.
    [The prepared statement of Robert Handin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                      NATIONAL INSTITUTE OF HEALTH


                                WITNESS

DAVID W. HELMS, CEO OF THE ASSOCIATION FOR HEALTH SERVICES RESEARCH AND 
    PRESIDENT OF THE ALPHA CENTER
    Mr. Wicker. Our next witness is Dr. W. David Helms, CEO of 
the Association for Health Services Research, testifying on 
behalf of the Association for Health Services Research. What 
can you add to what we have already learned this afternoon?
    Mr. Helms. That we are needed to get all of this good stuff 
that is getting developed by the NIH into practice.
    Mr. Wicker. Don't you like that segue?
    Mr. Helms. That was good.
    Mr. Wicker. Right.
    Mr. Helms. I do want to thank you, Mr. Chairman.
    Mr. Wicker. You have been very patient.
    Mr. Helms. For this opportunity to present testimony to you 
today on the role of Health Services Research in improving our 
nation's health. It is an honor and special privilege to be 
here today as the Association for Health Services new chief 
executive officer.
    As you may know, AASR is the only non-profit national 
professional association of researchers and policy analysts 
devoted to improving the health status of Americans through 
this research. Our organization represents universities, 
insurers, providers, major employers, health plans that both 
use and produce health services research information.
    I have spent my entire career dedicated to bringing health 
services research and data to policy makers at the Federal, 
State, and community levels, helping them make decisions about 
the organization, financing, and delivery of health care 
services. I have often worked with Federal and State task 
forces, and had the privilege of helping the State of 
Mississippi when it was reforming its Medicaid program several 
years ago. And I have also testified frequently before Congress 
and State legislatures, where I can assure that health services 
research findings have been critical in addressing pressing 
health policy problems.
    So I know first hand how valuable this research is to the 
policy process and to achieving improved health care results. 
It is crucial that we work with you and this committee to 
increase this policy relevant research base.
    Health services research is and should be viewed as a 
public good. Without the funding this committee has provided to 
the many Federal programs that conduct, use, and disseminate 
health services research information, we would not have the 
knowledge needed to make the critical health care decisions 
that affect us all.
    Health services results are increasingly being used by 
purchasers, providers, health plans to respond to our society's 
demands for increased quality, access, and reduced costs. This 
research does complement biomedical research by translating its 
promise into practice. Some may view this academic, but please 
understand that this is the informationand the tools we need to 
make sure that the best medical knowledge and technology gets applied 
directly to improve people's lives.
    Congress has relied extensively upon health services 
research findings to develop major recent health legislation, 
including HIPAA and the Children's Health Insurance Program. 
This research helps to define the problem and to assess 
solutions. We are most appreciative of the leadership this 
committee has provided to the vital role health services 
research plays in improving the quality of life for Americans.
    We have been pleased with the increased funding that has 
been provided by this committee to the agency for Health Care 
Policy and Research, the National Institutes of Health, the 
Health Care Financing Administration, and the other public 
health service agencies.
    Our written testimony indicates that AHSR is requesting a 
$19 million increase above the President's request for the 
Fiscal Year 2000 for a total of $225 million. We look forward 
to working with you and this committee to achieve this 
increase, and in thinking through how to better strengthen 
Federal health services research programs in the many agencies. 
So I thank you for this opportunity, and I am happy to answer 
any questions.
    Mr. Wicker. Well, thank you for your testimony. If you 
could just make--if you could make changes in the way HCFA 
operates, what suggestions would you have for the Congress and 
the committee?
    Mr. Helms. Well, it is an agency I have worked very closely 
with. In fact, I was the facilitator that HCFA retained to work 
with the congressionally mandated committee, CPAC, in helping 
to identify how we were going to run the Medicare plus choice 
demonstrations. And, together with the Robert Wood Johnson 
Foundation's financial support, we have just begun a new 
program called the National Health Care Purchasing Institute 
that is going to bring foundation support to try to upgrade the 
capacity of the Federal staff and the State staff that are now 
moving from regulators and bill payers into performing this 
significant new purchasing role.
    So my answer to you is that it is an easy target to pick on 
the staff at HCFA, but it is an overworked agency that is 
trying to make a profound transformation in its roles, and I 
think we need to understand the tremendous responsibility they 
have, and help give them the tools they need to do it.
    Mr. Wicker. It is a very difficult issue to get your arms 
around.
    Mr. Helms. It is. I will acknowledge that. We thank you 
very much for being with us today.
    [The prepared statement of David Helms follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                             YOUTH PROGRAMS


                                WITNESS

KENNY RUTH JONES, EXECUTIVE DIRECTOR, EAST 60TH STREET COMMUNITY YOUTH 
    CENTER
    Mr. Wicker. Our next witness is Kenny Ruth Jones, appearing 
on behalf of the East 60th Street Community Youth Center, and 
she will be introduced this afternoon by my colleague, 
Congressman Dixon.
    Mr. Dixon. Thank you very much.
    Mr. Wicker. Congressman, we are delighted to have you 
before the subcommittee.
    Mr. Dixon. Well, I am delighted to be here, Mr. Chairman. 
And the reason I am here is, as your notes indicate, that I am 
with Ms. Kenny Jones, who is the executive director of the 60th 
Street Youth Center. But more importantly, last year, when the 
issue of the Summer Jobs Program came to fruition, this woman, 
who has been distinguished not only as her work with the City 
of Los Angeles, but with the youth in general, came to my 
office; and I told her that public witnesses come to actually 
testify as it relates to the tools that she is using, in this 
case the summer youth job and their effectiveness.
    And so encouraged her to come to Washington this year. She 
does not live in my district. The program is not focused in my 
district. But as a member of the Appropriations Committee, she 
came to see me. And so I am very pleased to be here to 
introduce her to say that one of the tools that she uses in her 
youth center, which is basically a haven for at-risk young 
people is the Summer Youth Jobs, and I think part of our 
process is to hear how effective these programs are. And so it 
is very much a pleasure for me to be here with Ms. Kenny (sic) 
today.
    Ms. Jones. Thank you.
    Mr. Wicker. We are delighted to have you. Proceed in your 
own fashion.
    Ms. Jones. Thank you, Mr. Chairman, and to the subcommittee 
and also especially to Congressman Dixon. I thank you for the 
opportunity of being able to come here today. I almost did not 
make it. I had the flu, but I was so excited about coming.
    As I was introduced, my name is Kenny Jones, and I am the 
Executive Director of the East 60th Street Community Youth 
Center, which is located at 5871 South Wall Street, in South 
Central Los Angeles. Our agency provides on-going positive 
programs and activities for multi-cultural at-risk youth and 
young adults between the ages of 5 years and 21 years of age.
    We also--although it is not written--a lot of our clients 
are gang members, taggers, want-to-be's, and so forth.
    Last year, when I learned that once again the Summer Youth 
Employment and Training Program had been threatened and zeroed 
out of the budget by the Appropriations Committee, I was 
devastated. Over the past 20 years our agency has not only 
participated in this program, but I am proud to statethat my 
present staff, who are now adults, benefitted from this program also 
because their initial training in working with other youth began here 
as Summer Youth Employee. They were regular participants of the Youth 
Center when growing up.
    Now, we have been advised that there will be a Summer Youth 
Employment and Training Program this Summer. I cannot ignore 
the changes, however, we have encountered with this program. 
Over the past year, we have watched the program go from 
approximately eight weeks to six weeks.
    The explanation given to us is that it allows more youth to 
participate in the programs based on money allocated. This is 
not only absurd, Mr. Chairman, but it is unacceptable as well. 
There is absolutely no reason why funds for youth programs 
should always have to be spread so thin when America is the 
wealthiest country in the world. It is terrible that we should 
have the rest of the world see us as a country that places very 
little value, if any, on our youth and their future.
    I'm not here just on behalf of inner-city youth in Los 
Angeles. I am sure parents, grandparents, and other adults and 
youth throughout the entire United States would agree that 
whatever affects our youth affects us all, and we must stop 
ignoring their cries and struggles for survival.
    Young people today have a much greater influence on each 
other than we adults have on them. If you do not think so, look 
at the rebellious youth who comes from a middle class or 
wealthy family who subtly imitates the dress style and life 
style of gang members even to the extreme of engaging in gang-
like activities. Children, grandchildren and other youth in 
your own families are not immune to getting caught up just 
based on peer pressure.
    Youth Programs help to minimize and many times eradicate 
these kind of behaviors by filling a void for youth who just 
hang out, which makes them vulnerable for negative activities, 
eventually leading them to jails and graves. For this to 
continue to be allowed, to happen, is certainly a form of 
genocide.
    Additionally, it is not even economically feasible to 
continue to incarcerate them because we know it costs more to 
incarcerate than to educate. America is now moving forward with 
the Welfare to Work program. Once these mothers go to work, 
what do you think is going to happen to their children who are 
too old for day care?
    Without quality youth programs, such as the Summer Youth 
Program, and other programs in place, many youth are guaranteed 
to get involved in negative activities.
    Most of us have been taught that an idle mind is the 
devil's workshop. To allow young people's minds to become idle 
to a point where they self-destruct is certainly a form of 
mentacide. One of the definitions of this word according to the 
late Dr. Bobby E. Wright is a predilection for senseless 
destruction of nature and people.
    In order to avoid genocide and mentacide of our young 
people, we must have quality programs and activities in place 
at all times which definitely require on-going substantial 
funding, not crumbs from the table.
    Our youth today have been labeled as the lost generation. 
If we as adults are supposed to be responsible for them, then 
why are they lost? Who lost them? Why have they been abandoned?
    For the sake and on behalf of youth all over America-- even 
those not born yet--I humbly and sincerely come to this 
committee straight from the heart and plead to the committee to 
seriously focus on the future of our youth. Ensure that there 
will always be substantial amounts of funding in place for 
youth programs, activities, Summer Youth Program. Restore the 
hope for a better tomorrow and let the world know that we as a 
country have not thrown the babies out with the bath water. 
Thank you so much.
    Mr. Wicker. Thank you very much, Ms. Jones, for your 
heartfelt testimony. Your agency has been in existence for some 
20 years?
    Ms. Jones. Actually, nearly 30.
    Mr. Wicker. Nearly 30 years?
    Ms. Jones. Yes.
    Mr. Wicker. Are you able to track the graduates--everyone 
who has participated over time? Do you have statistics that are 
that specific?
    Ms. Jones. We do, but, Mr. Chairman, I purposely did not 
come with statistics to this meeting because many meetings that 
is all you hear are numbers. And I prefer to just come with 
what I felt----
    Mr. Wicker. I see.
    Ms. Jones. And that is let us take care of our young 
people. Let us put enough money out there that people that have 
youth programs, who are working with young people, can provide 
quality service for them.
    Mr. Wicker. Well, the reason I bring that up, and I realize 
that your time is limited in that you are testifying from the 
heart, and I appreciate where you are coming from. But you 
mentioned that there are a wide array of youth programs. And I 
do think that some of us struggle with how we should quantify 
which ones are working and which ones are not, and maybe which 
ones are working best. And I wondered if you could comment as 
to how we might make the decision here at the Federal level 
about which ones to concentrate our efforts on?
    Ms. Jones. Well, first of all, the fact that my agency has 
been around 30 years, lets you know that something is working. 
Secondly, our agency is required to give reports that specify 
quantities, so it is a matter of public record. It is also--
these reports, because we get Federal money, have to be 
submitted so there are always many ways to find out exactly 
what is happening.
    Mr. Wicker. Well, thank you so much for being with us 
today, and you have with you a very effective advocate.
    Ms. Jones. Thank you so much.
    Mr. Wicker. Thanks for your testimony.
    [The prepared statement of Kenny Jones follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 21, 1999.

                        DEPARTMENT OF EDUCATION


                                WITNESS

WILLIAM H. GRAY, PRESIDENT AND CEO, UNITED NEGRO COLLEGE FUND
    Mr. Wicker. And our final witness is a very distinguished 
member. Mr. Dixon, would you like to introduce and comment 
about our very distinguished final witness who we have required 
to wait until the very end of the afternoon.
    Mr. Dixon. He is the gentleman from Philadelphia, 
Pennsylvania, who I came to Congress with in 1978. He was sworn 
in January of 1979, and we had offices on the same corridor. 
And he became the Chairman of the Budget Committee and part of 
the Democratic Leadership. Some thought that he would 
ultimately be Speaker, but he foresaw that the Republicans were 
going to take over four years ago----
    Mr. Wicker. A very prescient man.
    Mr. Dixon. And in his great wisdom and went on to do good 
jobs and is now the President of the Negro College Fund. And 
has moved that to his neck of the woods and moved it from New 
York to Virginia or Maryland. So not only does he good things, 
but he can accommodate himself. It is my pleasure to bring to 
your attention a great man and person I consider a good friend, 
and that is the Honorable Bill--I was going to say the 
Honorable Bill Clay--the Honorable Bill Gray.
    Mr. Wicker. Well, thank you very much, Congressman, for 
those words of introduction. Mr. Gray, we are delighted to have 
you, and we are sorry that someone had to wait to be the final 
witness.
    Mr. Gray. Mr. Chairman, I understand how schedules work 
around here, and I am delighted to be the last witness because 
my experience was that the last witness gets double the time 
because they are the last witness. I want to thank----
    Mr. Wicker. Granted.
    Mr. Gray. I want to thank my good friend and former 
colleague, Julian Dixon, for that introduction.
    Mr. Chairman, members of the subcommittee, as President of 
the United Negro College Fund, I want to thank you for the 
opportunity to testify before this important committee. As the 
country's oldest minority higher education assistance 
organization, our mission is to raise critically needed funds 
to provide access to college for financially disadvantaged 
minority youth. The College Fund consists of 39 private 
historically black colleges who receive direct operating funds. 
However, we also operate over 450 successful scholarship 
programs, internship programs, research and study abroad 
opportunities for students attending public black colleges, 
Hispanic serving institutions, and majority institutions.
    UNCF also provides financial assistance to minority 
students at non-HBCU institutions, such as the University of 
Illinois, Oklahoma State University, and yes, Alcorn State 
University in Mississippi.
    UNCF also provides technical assistance programs for our 
member institutions to strengthen their infrastructure and 
administration, faculty development, and curriculum.
    Mr. Chairman, it goes without saying that America's 
marketplace is growing more diverse. Demographic trends 
indicate that by the middle of the 21st century, Americans of 
Hispanic, African, Asian, and Native American ancestry will 
constitute the majority of this nation's workforce. And, 
therefore, institutions that are good at producing outstanding 
workers are needed in our society. And we do that at UNCF 
schools and historically black colleges.
    However, most of our students come from the most 
disadvantaged families. Fifty percent have incomes under 35 
percent; 60 percent are the first in their family to go to 
college; 45 percent come from female-heads of households. Our 
graduates work in serving every State, and every city of our 
nation. And some are prominent and well known as Nobel Laureate 
Dr. Martin Luther King, Jr., or Alexis Herman, the Secretary of 
Labor under the present Administration, or Dr. Lewis Sullivan, 
the former of Health and Human Services, Dr. Walter Massey, the 
former director of the National Science Foundation under the 
Bush Administration. Our graduates are teachers, managers, 
lawyers, civil servants, and doctors serving all Americans. In 
fact, 16 of your Congressional colleagues, including the 
distinguished gentleman from Illinois, Congressman Jackson, 
have graduated from historically black colleges and 
universities.
    HBCUs are noted for their excellence. While we only enroll 
16 percent of all black students attending four-year colleges 
and universities, our institutions graduate over 30 percent of 
all African-American baccalaureate degrees nationwide. 
Historically black colleges have produced 53 percent of all 
public school teachers. Over half of all African-Americans did 
their Ph.D. undergraduate work at an HBCU; 40 percent of all 
African-American executives; nearly 50 percent of all African-
American engineers and attorneys; and 60 percent of all black 
doctors did their undergraduate degree at a historically black 
college.
    And not only are they productive and centers of excellence, 
Mr. Chairman, but our schools are educational bargains. The 
average cost of a tuition at a UNCF school is $6,100 compared 
to the national average of $13,000 for a private college. 
However, the cost is still substantially above the financial 
means of most of our students and parents. And despite this low 
cost, most of our students, 80 percent, have some financial 
need.
    Let me highlight this afternoon the College Fund's Fiscal 
Year 2000 funding priorities.
    First, strong support of the Pell Grant. We believe it 
needs a $400 increase to raise the Pell Grant to a maximum of 
$3,525, and we also support the academic achievement and Senate 
scholarships, or the Super Pell Grant program.
    Secondly, the institutional aid under Title III is critical 
for these institutions. And we recommend $80 million for Part 
A; $165 million for Part B; and $40 million for Section 326 
graduate and professional schools.
    Thirdly, the International Education. If we are to prepare 
these citizens for the global village, we support the request 
of $77.5 million coming from the International Education 
Coalition.
    Teacher quality enhancement grants. We strongly are in 
support of the increased funding for the Title II Partnership 
and Teacher Recruitment grants and the full $115 million 
requested by the Administration.
    Under TRIO programs, which are essential the disadvantaged, 
we support the Council of Education Opportunities' Request for 
$720 million. And then finally we support the $5 million 
appropriation for the Thurgood Marshall fellowships.
    Mr. Chairman, and members of the Committee, I know you have 
limited resources and competing interests and priorities, but 
in America, our future prosperity, security, and freedom 
depends upon an educated and skilled citizenry. We can change 
the world, one degree at a time. And as we like to say at UNCF, 
a mind is a terrible thing to waste.
    Thank you for your time, and thank you for theopportunity, 
Mr. Chairman, to tell you about our work and to urge these funding 
priorities.
    Mr. Wicker. Well, thank you very much, Mr. Gray, and let me 
just say that I share a great many of your funding requests and 
consider them my priorities also. You mentioned Alcorn State 
University in Mississippi. I might also mention Rust College, 
which is in my congressional district in Holly Springs, 
Mississippi, and they do an absolutely outstanding job, 
including their president, Dr. David Beckly.
    Mr. Gray. I was not quite sure whether Rust was in your 
district or out. I knew Alcorn was, at least I thought Alcorn 
was. It is the opposite way around?
    Mr. Wicker. Well, actually--it is confusing because Alcorn 
County is in my district, but not Alcorn State University.
    Mr. Gray. Well, see----
    Mr. Wicker. But Rust definitely is and they do a fine job. 
As a matter of fact----
    Mr. Gray. We will give you both.
    Mr. Wicker. Well, we all must work together.
    Mr. Gray. Yes.
    Mr. Wicker. As a matter of fact, I had one of my town 
meetings at Rust College and was very warmly received. In 
addition, the hit motion picture Cookies Fortune was filmed in 
the City of Holly Springs, Mississippi, and the local premier 
was held at Rust College, and I was their guest just a week or 
two ago.
    Mr. Gray. Well, we think a great deal of Rust College. It 
is a member of the UNCF family and its president, Dr. David 
Beckly, is the Vice Chair of the UNCF President's. And we think 
they are a critical component of educating.
    Mr. Wicker. He does an excellent job, and he also is a very 
active and important member of the community. I attended the 
United Negro College Fund Banquet in Tupelo, Mississippi, 
recently, and I can tell you that Dr. Benjamin Hooks came and 
absolutely had that audience in the palm of his hand, and was a 
very effective advocate for your organization. So, I am 
delighted to meet you. I was a staffer in the House of 
Representatives between 1980 and 1982, when you were a very 
junior member. And so, I am glad to officially meet you. I am 
glad to have you with us today. And I think we have given you a 
good nine minutes instead of five. So thank you so much, and we 
appreciate your testimony. We look forward to working with you 
in the future.
    Mr. Gray. Thank you, Mr. Chairman.
    [The prepared statement of William Gray follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

            LORAIN HEALTHCARE CONVERSION INITIATIVE PROJECT

                               WITNESSES

HON. SHERROD BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
BRIAN LOCKWOOD, PRESIDENT, COMMUNITY HEALTH PARTNERS OF OHIO
    Mr. Porter. The subcommittee will come to order.
    We begin today 2 days of hearing from our colleagues in the 
Congress. Let me apologize for starting late.
    Our first witness this morning is Congressman Sherrod Brown 
of Ohio.
    Sherrod, why don't you proceed in any way you wish?
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Chairman, thank you very much for having us today. I 
understand the traffic, and there are some security issues 
going on around here these days, I hear.
    Today, I have the honor of representing a group of citizens 
dedicated to developing the potential of a struggling community 
through the Lorain Healthcare Conversion Initiative.
    Lorain is a working-class, blue-collar, industrial 
community, the largest city in my district, struggling to 
compete in a global economy. Change in our industrial base has 
left two hospitals offering duplicative services to a 
population with dwindling purchasing power. Consolidating St. 
Joseph's hospital into the larger facility produced an 
efficient hospital system, yet it abandoned the 400,000 square 
foot St. Joseph facility in the heart of downtown Lorain, a 
neighborhood with large numbers of low-income people, high-
density population and relatively high crime rates.
    Rather than allow the abandoned site to become a vandalized 
eyesore, the Lorain Healthcare Conversion Initiative had the 
vision to redevelop and reuse the building as a nonprofit, 
multipurpose community service Center. Tenants who have already 
relocated to the facility include the U.S. Department of 
Veterans' Affairs Regional Health Clinic, the Lorain City 
Schools system and the Lorain Police Department. Tenants who 
have committed to relocating to the converted facility include 
the Lorain County Community Action Agency, the Lorain County 
Community College and the Catholic Charities Organization.
    Collectively, services will include continuing education 
focusing on technology, job training, urgent and family 
healthcare, family support services, Head Start programs, 
security and assisted-living care.
    The healthcare conversion is the result of a socially 
responsible choice on behalf of the social service community to 
integrate existing resources to prepare their clients for work-
supported self-sufficiency. These efforts represent an 
investment in social capital that would create a solid 
infrastructure for our community.
    Mr. Chairman, these facts demonstrate the community's need 
and dedication to this project, but there is a lack of adequate 
financial resources to pay for it. The funding we ask for today 
will be used for one-time expenses associated with the 
reconstruction of the current hospital complex into a tenant 
facility. One strength of the project is that the converted 
facility is almost leased to capacity, with signed leases from 
nonprofit tenants who will assume responsibility for the 
facility operating costs.
    The project has received tremendous support at all levels. 
The City and County of Lorain have endorsed the project. 
Governor Taft, Senator Voinovich, Senator DeWine also support 
it. I was pleased to host also Secretary of HHS Shalala as she 
made a visit to the site and praised the project as, quote, 
remarkable and innovative and pledged her support for the 
conversion.
    I would like to turn over the remainder of my time, Mr. 
Chairman, if I could to Brian Lockwood, President of the 
Community Health Partners of Ohio, the nonprofit hospital which 
is assisting the South Shore Community Development Corporation, 
which is a nonprofit entity established to oversee the 
conversion project.
    [The prepared statement of Representative Sherrod Brown 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Brown. Mr. Lockwood.
    Mr. Lockwood. Thank you, Congressman Brown. Your leadership 
and that of other public officials in Ohio on this issue is 
certainly appreciated.
    Mr. Chairman, thank you for providing me the opportunity 
here today. As Congressman Brown stated, I am Brian Lockwood, 
President of Community Health Partners of Ohio. As the 
organization which was forced to make the painful decision to 
close St. Joseph's Hospital, Community Health Partners is doing 
everything it can to make this conversion project a reality.
    When hospitals close down, the unused space is all too 
often either boarded up or torn down, a significant waste of 
Federal, State and local dollars and resources. In Lorain, we 
are taking a different approach. In canvassing the community 
prior to closure of the hospital, it became clear that the old 
hospital facility space presented a perfect location for the 
community to develop unique solutions to address complex and 
multi-faceted healthcare, education and job training 
deficiencies. Through reuse of this facility, Lorain is 
creating a comprehensive community-based solution to its 
problem.
    From a financial perspective, converting a closed hospital 
facility often has many advantages over building an entirely 
new facility. For example, the St. Joseph's Hospital complex 
was well maintained, met all Federal, State and local safety 
requirements and its technology infrastructure and mechanical 
systems were state of the art. As a result, converting the St. 
Joseph's Hospital facility may be accomplished for less than 
$12 a square foot, versus the $80 to $100 square foot cost of 
building a new facility.
    The St. Joseph Community Center will serve as a one-stop 
shop to address the health, education and job training needs of 
the low- and moderate-income families of Lorain County. 
Locating primary care and other health services cooperatively 
with education and social services will enhance the ability of 
the Community Center to provide for regional health indicators 
to improve.
    We believe that this single site location is the only way 
to successfully improve the health, social and economic well-
being of the region. This synergistic relationship will 
increase the ability of providers to make timely referrals for 
needed support services, provide the potential to accelerate 
the process of assisting multiple needs health clients to 
become more independent and, perhaps most importantly, simplify 
the often overwhelming task of addressing the multiple, complex 
health and social needs of community residents.
    We are fortunate to have numerous leaders from different 
agencies that have pledged to become a part of the St. Joseph's 
Community Center. While Congressman Brown was able to briefly 
touch on our current and prospective tenants, I would like to 
take this opportunity very quickly to show you how each agency 
is filling a need in the community.
    To address the loss of the main primary care provider for 
the residents of Lorain, the Family Care Center was included as 
the first tenant on the site. The Family Care Center is an 
integrated primary care health program operated on a birth to 
death philosophy. In addition to primary care services, program 
components which are made available include a drug intervention 
program, a Wellness on Wheels program, offering mobile 
healthcare services through a van delivering services 
throughout the Lorain County area, AIDS task force program and 
a Resource Center for Women and Children. The Center offers 
such services as breast cancer screenings for women, pre- and 
post-delivery education and case management services for 
pregnant single mothers age 18 and over. ElderWell is also a 
part of the Family Care Center, which targets the primary, 
specialty and long-term care needs of individuals 65 and older.
    There are also 31,000 United States veterans living in 
Lorain, many of whom are low income. As a result, the Community 
Center has joined forces with the Department of Veterans' 
Affairs at the facility for the operation of a community-based 
outpatient health Center. This location is consistent with a 
policy of the VA to locate clinics in underserved areas and to 
provide easier and less expensive access to primary care for 
veterans. The average age of the veterans living in the city of 
Lorain is 70. Many suffer from multiple health problems and 
disease. Many are in need of assisted living, mental health, 
chemical dependency services, primary care, nutrition and other 
education services such as diabetes care, hearing, et cetera.
    Given the wide range of health, education and support 
needs, the VA chose to locate at the St. Joseph Campus for 
several significant reasons, most importantly a pool of readily 
available health care expertise. The Veterans Administration is 
seeking to lease additional space for job training services for 
veterans.
    The Lorain County Community Action Agency has also 
committed to join the Center. The Lorain County Community 
Action Agency is a private, nonprofit social service 
organization serving low- and moderate-income individuals and 
families of Lorain County. The agency's expertise is in a broad 
array of social service programs including Head Start, Senior 
Employment, nutrition and transportation services, emergency 
Home Energy Assistance Program, as well as administering other 
economic development projects. The Agency has a long history of 
providing family support services and has experience 
collaborating with other community-based agencies serving 
families throughout Lorain County.
    The agency's work in, knowledge of and familiarity with the 
community provides it with an awareness of the needs of Lorain 
County and an insight into solutions for the community's 
programs.
    Lorain County Community College has also committed to 
become a major part of St. Joseph's Community Center to provide 
a continuing education outreach Center. Part of the Community 
College space will include a technology Center and computer lab 
equipped and networked to deliver computer instruction. It will 
include a telecommuting site where Internet-based job 
opportunities would be developed and promoted.
    This technology outreach Center will encourage the 
community to embrace the information age technologies and 
create an ``on/off ramp'' to the information superhighway for 
Lorain. It would also support entrepreneurial development of 
new business development and expansion.
    Other tenants include long-term acute care, an assisted 
living service, the police department and others.
    We are extremely proud of everyone who is part of the 
Community Center. Each organization has recognized that the 
proposed multi-tenant site provides them with an unprecedented 
opportunity to interact cooperatively with other providers of 
critical community health, education and social service 
providers to significantly improve the quality of life in our 
community.
    While the optimism is high, the initiative will fail if 
Federal funds are not provided this year. The cost of 
completing the conversion from hospital purposes to the 
configuration required by the tenant agencies is approximately 
$12 million. Community Health Partners, which has been 
financing the security and utilities for the 400,000 square 
foot building, cannot sustain this indefinitely.
    We are seeking a Federal cost share of $3 million from the 
Health Resources and Services Administration in the Fiscal Year 
2000 Departments of Labor, Health and Human Services and 
Education Appropriations Bill.
    Mr. Chairman, I thank you for allowing me the time to talk 
to you. I hope that you will find a way to support us.
    Mr. Porter. Mr. Lockwood, thank you for your testimony.
    Sherrod, this is an earmark, correct?
    Mr. Brown. Yes. It was authorized as a HRSA demo project. 
It would be an earmark, yes.
    Mr. Porter. Thank you both for coming.
    [The prepared statement of Brian Lockwood follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                       FEDERAL EDUCATION PROGRAMS


                                WITNESS

HON. BILL GOODLING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Porter. Our next witness is Representative Bill 
Goodling of Pennsylvania, the esteemed and admired chairman of 
the Education and the Workforce Committee.
    Bill, I understand you are going to cover everything, but 
you are also going to cover what Mike Castle would have 
covered. He is not coming. So please proceed at whatever pace 
and at whatever length you wish.
    Mr. Goodling. I will cover Mike--he is chairing a markup 
downstairs--and also Subcommittee Chair McKeon, who is 
attending his daughter's graduation in Utah today. I will cover 
all those areas.
    I thank you for the opportunity to testify. Of course, I 
want to set out our priorities as we see them.
    First, I want to talk about special ed and want to thank 
you. Even though we are only at 12 percent of the 40 percent of 
excess cost we promised, under your leadership we have come a 
long, long way. We have come from 6 percent to 12 percent.
    I would hope that we would continue funding IDEA, because 
it takes, right now, about 20 percent of every school 
district's budget to fund our mandate, because we don't send 
what we promised. So rather than talk about a myriad of new 
programs that the President ticked off in his State of the 
Union, I want to make sure that we deal with the existing 
programs and programs that work and programs where we made 
promises. That is the first on the list.
    I think it is very important that you look at what we did 
again in preventing national testing, because I noticed in the 
President's budget he sort of acts as if that goes on. I want 
to make sure that, as a matter of fact, we continue what we did 
in 1999, which was a permanent ban on pilot testing, field 
testing, implementation, administration or distribution of 
national tests unless specifically and explicitly authorized. 
That is the will of Congress. I hope that we can continue in 
that way.
    Near and dear to my heart, of course, is the fact that 
someday I hope to live long enough to see that no child enters 
first grade that is not reading ready. One of the ways we are 
trying to make sure that happens is through the Even Start 
program. We have only gotten about $46 million in new money 
over the years for the program. Yet all the results we have had 
to date, and we have a new study coming out very soon, would 
indicate that we have not only helped prevent the failure in 
first grade of a lot of students but we also help make parents 
become the first and most important teacher of the child. So I 
would hope that we would do everything we can.
    Before I leave this place, I would like to see a $600 
million program. I am going to make sure that we make it a 
permanent program. My hope when it originally began was that we 
could pick up enough community support. Unfortunately, in rural 
areas, they don't have any businesses, and so some of them who 
have had their first grant and their second grant are going out 
of business because, of course, they can't get the help to help 
support the program because they don't have any existing 
businesses as they do in the suburban and city areas. So Even 
Start is very, very important.
    You have to be very careful when you talk about ending 
social promotion. It is a wonderful term. The only problem you 
have there is either a child who enters first grade and that is 
not reading ready, they are going to do one of two things, 
either be socially promoted or they are going to fail. Both are 
devastating. So my hope is that they don't get into a first 
grade situation without being reading ready in the first place. 
Even Start can help us make sure that that happens.
    You can end social promotion, also, by stuffing them into 
special ed which, of course, as you know is very, very 
expensive and very devastating to children if they get stuck 
there and never have a chance to get out.
    Migrant ed. I always say the poorest of the poor are the 
migrant children, because no one community is paying very much 
attention about them. So our hope is that we continue our 
effort to make sure that migrant children have an opportunity 
for a decent education.
    We haven't paid much attention to Vocational Education 
recently. I hope we can take another look now since we 
reauthorized it, beefed it up, brought it into the 21st 
century. I think we now are in a position to say that they are 
entitled to some additional help.
    When we go to higher education, first of all, I would point 
out our hope is to get a $400 increase in Pell Grants during 
the 2000 academic year. As you know, this is the only hope for 
many low-income young people to ever have an opportunity for a 
higher education.
    Some of my colleagues on the committee are indicating that 
we shouldn't be out front on this issue, that it is political, 
that it takes away money from other areas. That isn't what we 
do at all. We are trying to make sure that we have a balance. 
So if we deal with Elementary and Secondary Education and Even 
Start and in Head Start and all of those programs, then we also 
shift to make sure that we can do something to help the 
children most in need who want a higher education.
    Quality teaching. Of course when we passed our higher ed 
bill last year, we tried to emphasize that. It doesn't matter 
whether you have five students in a classroom or 105 students 
in a classroom. If there isn't a quality teacher there, nothing 
is going to change. So I would hope that we would look at how 
we consolidated 15 of the existing programs and we put them 
into three grants.
    One of the things that really worries me is the 
administration's proposal to increase funding for the 
recruitment grants at the expense of the more flexible State 
grants. I would hope that you would not go down that route.
    Improving teacher quality is going to be very, very 
important. Of course, the flexibility grants help them do just 
that.
    Again, 100,000 new teachers we are finding out--as you 
know, California was way ahead of everybody on that issue. They 
spent $1 billion last year. They are going to spend $1.5 
billion this year. What they are getting out of $2.5 billion is 
mediocrity in center city Los Angeles where they need the very 
best teachers because, of course, they reduced the class size. 
Now they have got to put somebody in the classroom, and 
somebody isn't cutting the mustard, which means the most needy, 
educationally speaking, children in the country are stuck with 
mediocrity. So we hope that the flexible grants will be your 
emphasis.
    Let me very quickly turn to the workforce. Again, I am 
sorry to see the area that the President cuts is the area where 
the Congress indicated that was the most needed, and that is 
when we passed H.R. 2864 last year on a pretty overwhelming 
vote. What we said was we wanted the priority to go to the 
programs that deal with working out problems rather than with 
the punitive end. The President puts all the money into the 
punitive end rather than the cooperative end between the 
Government.
    We think of small businesses, they are struggling to exist, 
and they need the consultation grants if they are going to 
survive. They don't have a staff to tell them what they have to 
do, how they are supposed to do it and so on. They need the 
help from OSHA.
    So I would urge that you reject the President's request for 
the $10 million for DOL to study the impact of family and 
medical leave. We don't know what kind of a study we get out of 
that in-house. It is clear that the administration already 
decided the outcome of the study because, in the President's 
State of the Union Address, he claimed the current evidence 
showed how little burdensome it is to employees. You don't have 
to spend $10 million if you have already made up your mind.
    In fact, we don't have that kind of evidence. We still 
have, in particular, an awful lot of small businesses still 
trying to figure out how to deal with that particular issue.
    So let me just close, then, and tell you that my written 
statement includes a lot more emphasis on the workforce side. I 
would ask you to review that rather than try to point out any 
more individual areas.
    Again, let me thank you because, again, under your 
leadership, education has done very, very well.
    Mr. Porter. Bill, thank you for your testimony. You and I 
are very much on the same wavelength on priorities.
    [The prepared statements of Reprensentatives Bill Goodling 
and Mike Castle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. I have one question and one comment.
    The comment is that we find that the President's cuts come 
in all the things that we consider high priorities, not just in 
education but everywhere throughout the programs under our 
jurisdiction which allows him to plus up other things, knowing 
that we put them into high priorities. So we probably shouldn't 
be surprised.
    National testing. Most of this is permanent law. Is there a 
part that is still requiring the----
    Mr. Goodling. What I am saying, I think somehow or other 
you have to repeat at least in language somewhere because, as I 
indicated, the President's budget acts as if there is no 
permanent law and that he is going ahead.
    Again, my argument is, why spend $100 million to tell 50 
percent of the youngsters one more time they are doing poorly? 
Why wouldn't we spend $100 million to try to help that 50 
percent of the youngsters do better? They don't need one more 
test to tell them how poorly they are doing. They already know 
that. That is a frustrating experience for them.
    Mr. Porter. Right. While we wouldn't think we would need to 
repeat law that is permanent, we can certainly do that.
    Mr. Goodling. I think what you need to do, at least in 
report language or something, say a reminder that there is a 
permanent ban unless authorized.
    Mr. Porter. Even Start. Even Start is an authorized 
program.
    Mr. Goodling. Pardon?
    Mr. Porter. It is an authorized program, is it not?
    Mr. Goodling. Oh, yes.
    Mr. Porter. Do you know what the date of the expiration of 
its authorization is?
    Mr. Goodling. What I was referring to when I say permanent 
was at the present time it is strictly a grant program, and 
when they finish the second grant if they apply for the second 
4 years, they are finished. What is happening, in rural areas 
particularly, they have no one to help pick up the tab in 
businesses.
    Mr. Porter. I see.
    Mr. Goodling. So we need to say that there is no 8-year 
limit as far as--make it similar to Head Start.
    Mr. Porter. I see. Okay. Thank you very much for your 
testimony. We are going to do our best. We don't have our 
allocation yet, but we will be there. Thanks very much, Bill.
                              ----------                              

                                          Thursday, April 22, 1999.

              FEDERALLY QUALIFIED COMMUNITY HEALTH CENTERS


                                WITNESS

HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. Our next witness is our colleague from 
Illinois, representative Danny Davis, testifying on Federally 
Qualified Community Health Centers.
    Danny, I didn't see you in the room. I was looking out 
here.
    Mr. Davis. You had such a delegation here before me.
    Mr. Porter. Sorry, I thought you were here. It is good to 
see you.
    Mr. Davis. They brought everyone in Ohio to support that 
project.
    Thank you very much, Mr. Chairman and members of the 
committee. I am pleased to be here with you and to support some 
of the initiatives that are important for the Seventh District 
and indeed some for the Nation as a whole.
    First of all, I would like to support the urgent need to 
increase funding by $100 million for the Consolidated Health 
Centers Program, that is community, migrant, homeless and 
public housing health centers which would raise that to the 
amount of $1.026 billion for fiscal year 2000.
    I realize that I am preaching to the choir today as I come 
before this committee to discuss such an important program, 
because when it comes to supporting community health centers 
you have really put the money where the conversation has been, 
and you did that last year by approving a $100 million 
increase. Over 500 health centers received theirfirst base 
funding increase in 8 years.
    Members on both sides of the aisle on this committee have 
united to advance this program. It is a true testament to the 
important role that community health centers play in the health 
delivery of this Nation.
    However, much more work needs to be done. During testimony 
to the subcommittee earlier this year, the Health Resources and 
Services Administrator, Dr. Claude Fox, stated that, in his 
professional judgment, health centers need an additional $264 
million increase for fiscal year 2000 to maintain operations 
and to meet the growing demands for services. Appropriations 
increase for fiscal year 1999 allows the Bureau of Primary 
Health Care to provide only 25 percent of the amount needed to 
adequately fund existing health centers which are currently 
underfunded for the number of uninsured they are serving, and 
it will only permit funding for 50 of the more than 550 
requests for a new health center submitted by communities that 
do not have one.
    Dr. Marilyn Gaston, Director of the Bureau of Primary Care, 
testified before the committee earlier this year that 45 
percent of health centers have been identified as financially 
at risk, between 5 and 7 percent are close to bankruptcy, and 
another 5 to 10 percent are in severe financial trouble. 
Already, between 60 and 70 health center delivery sites have 
closed their doors, leaving patients without health services.
    Our Nation obviously is still divided when it comes to the 
delivery of health care. On one side, we see individuals with 
health insurance who do, in fact, have access. On the other 
side, we see individuals without health insurance who have no 
access. Many of these individuals become too ill to work, too 
sick to contribute, children can't learn in school no matter 
what the curriculum is because they are simply too sick to take 
advantage of the opportunities. To put a health center in every 
medically underserved community really ought to be a goal of 
this Nation.
    The problem, of course, is made even worse by the fact that 
many minority groups, African Americans, Latinos, Asian 
Americans and others, Native Americans, have even less access 
because of the communities in many instances where they live or 
because of other socioeconomic conditions and factors.
    In the Seventh District, which has 175,000 people in it who 
live at or below the poverty level, we have 22 of these centers 
spread throughout the district, 13 of which are run by Mike 
Savage and the Sinai network, who do an excellent job of 
providing care in instances where, without them, there would be 
none.
    So we simply urge you to take a hard look at the community 
health centers across the Nation; and, hopefully, we can come 
up with this money.
    In addition, we have the CORE Centers, which is seeking 
$6.9 million, which is a state-of-the-art AIDS clinic, the only 
one of its kind in the Nation that has been put together 
through a public-private cooperative. Cook County Hospital, 
Rush Presbyterian, St. Luke and private sector funding have 
brought it to the point where it is, but it really needs the 
additional money to keep going and to continue.
    We have a great project that Loyola University is trying to 
put together, teaching teachers.
    Everybody knows about the problems that the Chicago public 
school system has faced and the turnaround that is occurring. 
This project, along with its computer campus program, will 
assist in developing teachers who can meet the great needs of a 
population that is becoming more and more difficult to handle.
    So while it sounds like a great deal, Mr. Chairman, and we 
know that it is, I also know the wisdom of this committee and 
the ability that you have demonstrated to look at everything 
through glasses that see need. I thank you for the opportunity 
to testify and trust that we will be able to find some of these 
resources.
    [The prepared statement of Representative Danny Davis 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Danny, let me say that we are going to do the 
very best we can to provide the extra money for community 
health centers. We know how important it is to provide access 
to people who don't have any other way of getting access to the 
system.
    It is not the solution, though. This is taking 
discretionary money instead of money that ought to be there in 
entitlement spending to assure people that they have access to 
the system. While we are going to do our very best to keep up, 
we are way short, as you pointed out, from the demand that is 
there and the need that is there.
    I certainly agree with you that Dr. Fox is doing an 
excellent job at HRSA.
    Again, we want to provide the resources that are needed. 
But we would urge you and other Members of Congress also to 
impact the authorizing committees to tell them that they have 
got to take charge of this and provide a real way for everybody 
to have access to our health care system.
    Community health centers certainly are the front line, but 
we need a broader solution if we are going to get the job done, 
I think.
    Mr. Davis. I thank you so much, Mr. Chairman. You will 
certainly find me in support of the ideas that you have 
espoused. I am pleased to know that in Illinois, they suggest 
that the two of us are two of the individuals who really look 
at health and look at research in medicine as areas of great 
needs.
    Mr. Porter. I am glad to be on your team.
    Mr. Davis. Thank you.
    Mr. Porter. Thanks, Danny.
                              ----------                              

                                          Thursday, April 22, 1999.

            TOUGALOO COLLEGE AND OTHER HBCUS IN MISSISSIPPI


                                WITNESS

HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSISSIPPI
    Mr. Porter. Our next witness is Representative Bennie G. 
Thompson of Mississippi.
    Representative Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. Good morning.
    I am here to offer a request to this committee on behalf of 
Tougaloo College. Tougaloo College is a small historically 
black college in the State of Mississippi. It is primarily to 
enhance the master teacher training and technology programs so 
desperately needed for our State.
    Mississippi is the second poorest State in the Nation. Our 
teachers are the lowest paid in the Nation. Our students score 
the lowest on every major standardized test that is offered. We 
have a tremendous shortage of individuals even pursuing 
teaching as a career.
    But Tougaloo College historically has been a ray of hope 
for teaching in our State. The majority of the science and math 
teachers in our State have matriculated from Tougaloo College 
into that profession. What we propose to do with a $2 million 
appropriation is to enhance the ability of Tougaloo College to 
provide technology training for master teachers as well as 
becoming an educational Center to improve the teaching 
capability and applying technology.
    For some, it might sound unusual, but I can assure you that 
the majority of the students in public education in the State 
of Mississippi are African American. Yet the number of African 
American-trained teachers is disproportionate to the number of 
students. So what we have proposed is to enhance Tougaloo's 
capacity to train teachers.
    The history is there of Tougaloo. Fifty percent of the 
doctors of African American descent in the State of Mississippi 
attended Tougaloo College; 25 percent of the practicing 
dentists of African American descent attended Tougaloo College. 
It has a rich history in the sciences and math. We propose very 
simply to enhance that by the $2 million appropriation for the 
college.
    I have testimony supporting the need and other 
documentation that we have made available to the committee. 
But, as a parting note or comment, we have developed some 
relationships with some very prestigious universities across 
the country. Brown, Boston and New York universities have 
relationships of over 15 years with Tougaloo College. This $2 
million appropriation will allow us to keep this relationship 
in the math and sciences.
    So, Mr. Chairman, I ask for your favorable consideration of 
this $2 million appropriation for Tougaloo College to enhance 
its master teacher training and technology component.
    Mr. Porter. Congressman Thompson, thank you very much for 
your testimony.
    This, I assume, would be an earmark rather than an addition 
to the HBCU account, is that correct?
    Mr. Thompson. That is correct.
    Mr. Porter. Thank you very much for your testimony. We will 
do our best.
    Mr. Thompson. If not, if it can be in the HBCU account. It 
is a desperate need, Mr. Chairman. I would gladly accept any 
consideration from the committee.
    Mr. Porter. Thank you. We will do our best.
    [The prepared statement of Representative Bennie Thompson 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                   FUNDING PROGRAMS IN EL PASO, TEXAS


                                WITNESS

HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Porter. Our next witness is Congressman Silvestre Reyes 
of Texas, testifying on funding programs in El Paso, as I have 
it on my notes here.
    Mr. Reyes. Yes, Mr. Chairman.
    Thank you very much, Mr. Chairman. I appreciate the 
opportunity to be here today to solicit your support for 
funding for critical projects in my district of El Paso, Texas.
    First, I would like to address the issue of health care. 
The health care needs of the people along the U.S.-Mexico 
border are unique. If we don't address them, they will spread 
to the rest of our Nation.
    Consider these facts for a moment:
    Two of the top five States with uninsured children are 
California and Texas; and, in fact, in El Paso, 48 percent of 
our children are uninsured.
    Vaccine preventable illness rates are higher in border 
counties than the overall U.S. average.
    There are 11 million border residents. Approximately 3 
million are uninsured.
    In El Paso, more than 250,000 people living in my district 
are uninsured. That is more than 38 percent of our overall 
population.
    Every border county has a shortage of physicians. While the 
national average is 102 physicians for every 100,000 people, in 
El Paso we have 40 physicians for every 100,000 people.
    In the border region, the rate of tuberculosis is twice the 
national rate and in some cases can be as six times the 
national rate.
    The rate of Hepatitis A is three times the national rate, 
with some strains being five times as high as the overall 
national average.
    And diabetes is two to three times more prevalent among 
Mexican Americans than non-Hispanic whites and a very serious 
health challenge for border communities.
    Approximately 39 percent of border residents have incomes 
below 200 percent of the national poverty level. In El Paso, 
about 30 percent of our families are below the national poverty 
level.
    Mr. Chairman, I hope that I have made a compelling case for 
asking you to support the President's budget request of $1.5 
million for the Border Health Commission. As you know, this 
Commission was created by Congress in 1993 but was not funded 
until the 1997 appropriations year.
    Next, Mr. Chairman, there are an estimated 3 to 5 million 
migrant and seasonal farm workers in the U.S., with the 
majority residing along the U.S.-Mexico border. It is also 
estimated that over one-third are women and children under the 
age of 14.
    This migrant farm worker population has been very 
disproportionately affected and runs higher risk than the 
general population for occupational injuries, diabetes, 
tuberculosis, malnutrition, infections and even higher infant 
mortality rate. Detailed and reliable data on the demographic 
characteristics and the research on the health status of 
migrant farm workers is, unfortunately, either nonexistent or 
very woefully inadequate.
    Given the nature of their labor, migrant farm workers 
impact the lives of all Americans in our country. Therefore, I 
am requesting that $3 million be appropriated for each of the 
following 3 years, beginning with fiscal year 2000, to be 
directed to the Texas Tech University Health Science Center of 
El Paso and the University of Texas at El Paso to fund a joint 
research program that focuses on the health problems of migrant 
workers. I have submitted a letter to this committee with 
details about the research that would be done.
    Finally, Mr. Chairman, I am asking you to adequately fund 
the Trade Adjustment Assistance Act and NAFTA trade assistance 
programs. There are more than 10,000 NAFTA dislocated workers 
in my district, more than any other congressional district in 
this country. The impact of NAFTA on El Paso is very well 
documented. So I am asking you to support the President's 
request for $471 million for these adjustment assistance 
programs.
    As you can see, Mr. Chairman, your support for these 
programs is critical for the people of the 16th District. I 
want to personally thank you for supporting these very 
necessary and vital programs that are vital to the citizens 
that I represent. I thank you for your time.
    [The prepared statement of Representative Silvestre Reyes 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Congressman Reyes, the Border Health Commission 
is authorized. When you are talking about $3 million for Texas 
Tech and the University of Texas at El Paso for a health 
program for migrant workers, that would be an earmark, would it 
not? There is no authorized program there, is there?
    Mr. Reyes. That is correct.
    Mr. Porter. Thank you very much for testifying. We will 
again do our best.
    We don't have our allocation yet. We are concerned about 
that, obviously. But we are going to do our best within that.
    Mr. Reyes. We appreciate your time and any support that you 
can give us.
    Mr. Porter. Thank you so much.
                              ----------                              

                                          Thursday, April 22, 1999.

                     HEALTH AND EDUCATION PROJECTS


                                WITNESS

HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK
    Mr. Porter. Our next witness is Congresswoman Louise 
Slaughter of Rochester, New York.
    Louise, it is nice to see you.
    Ms. Slaughter. Good morning, Mr. Chairman. You have always 
been very kind to let me come before this committee. I thank 
you.
    I want to talk about some education programs, health 
education and a couple of things in our district.
    First, a request for $6.7 million for the University of 
Rochester Medical Center, to be used toward the construction of 
a $22 million state-of-the-art Emergency Department. This is a 
two-story, 105,000 square foot facility to deliver emergency 
medical care in new and innovative ways that will serve as a 
model for hospitals throughout the United States. They are also 
doing research to determine the effectiveness of the new 
methods for delivering emergency care which will be done by 
faculty physicians at the University of Rochester School of 
Medicine and Dentistry. The results of the research will be 
published in peer-reviewed medical journals and provided to 
HHS.
    Second, I would like to request $5.25 million for the 
Genesee Hospital in Rochester, to cover the shortfall between 
the costs of serving indigent clients and the Federal 330 grant 
funding the hospital receives as a federally designated 
community health Center. The mission of the Genesee Hospital is 
to provide primary care and specialty services to residents 
within the City of Rochester, with particular emphasis on 
serving the medically indigent.
    Due to dramatic declines in Medicare and Medicaid 
reimbursement, it has become increasingly difficult for Genesee 
to subsidize these operating losses. As the sole inner city, 
full-service hospital in Rochester, it is imperative that 
Genesee Hospital remain viable as the primary access point in 
the city for primary care and acute services.
    Third, I am requesting $2.75 million for the Monroe 
Community College for equipment enhancements in conjunction 
with the establishment of a $20.5 million Virtual College 
Campus Center for Community Partnerships. This funding request 
is for items such as video distribution equipment and distance 
learning systems for training at sites across the State and the 
Nation in integrated computer labs linked to campus and global 
networks. This will allow Monroe Community College to address 
the needs of the business and industry in preparing life-long 
learners for a technology-based workforce.
    They have also already gotten some requests to be able to 
try to expand into other States if they can make this a 
success.
    Fourth, and one that is very near to my heart, Mr. Chair, 
is St. John Fisher College, requesting $1.2 million to 
establish an Institute of Teaching and Learning to promote the 
training, retraining and certification of K-12 teachers.
    We have a situation in Rochester where one of our inner 
city schools was so bad, the reading scores were 45 percent of 
the State average. Indeed, the State of New York was about to 
take it over. And reading teachers from this school went to 
work with the teachers who were presently teaching reading and 
raised those scores to over 70 percent in less than 2 years.
    We think it is very important. In talking with teachers, 
the retraining of teachers who are teaching now is vitally 
important.
    Then I would like to turn to the health and education 
programs which you hear from me all the time. I have been proud 
to work very closely with you, Mr. Chairman, and it has been 
wonderful seeing over the years the amounts of money that you 
have put toward research. I tell you that every day in the 
United States, if not in the world, some patient benefits from 
the money that you put into research to treat a condition that 
they have.
    I think one of the best things that happens to us here in 
Congress is that people who never know our name benefit from 
the hard work that we do sometimes. Particularly in your case, 
what you have done with health issues is extraordinary.
    We have made some meaningful progress, obviously, onbreast 
cancer, which had no research money in the 1990s, to doing a wonderful 
job today. Eating disorders. But I would like to talk about two 
emerging health issues just briefly today.
    We are all but ignoring the number two cancer killer in our 
Nation, colorectal cancer. This insidious disease can develop 
for many years without any symptoms and claims over 50,000 
American lives every year. No one should die from colorectal 
cancer. If we can find it in its early stage, it is 90 percent 
curable.
    I was delighted to work with you last year to secure the 
language in the fiscal year 1999 subcommittee report urging HHS 
and CDC to implement a nationwide education and awareness 
campaign on colorectal cancer. In March, these agencies did 
kick off such a campaign, which will utilize many of the same 
public education tools that made breast cancer education 
efforts so successful.
    Nevertheless, we have a great deal of work to do in order 
to ensure that all Americans are aware of their risk for 
cololectal cancer and are having regular screenings. I am 
asking that you would include the same language this year as 
you did last year to help them maintain their efforts on the 
issue.
    Another issue which is rising on the Nation's health care 
agenda is microbial resistance to antibiotics. As a former 
microbiologist, this concerns me greatly. Health care 
professionals across the United States are becoming 
increasingly concerned because of the rise in the antibiotic 
resistant strains of many infectious diseases, including 
tuberculosis and staphylococcus. There have already been cases 
of infections that will not respond to any antibiotic in our 
medical arsenal. Clearly, we must take aggressive steps to 
reverse this trend before these virulent infections spread 
further.
    When the Senate Health, Education, Labor and Pensions 
Subcommittee on Public Health and Safety held a hearing on this 
issue in February, I suggested to them a three-part strategy of 
education, surveillance and research to combat microbial 
resistance. I would now ask this subcommittee to take the first 
meaningful step in this direction by strengthening our Nation's 
health infrastructure. I urge you to fully fund the 
administration's request for increased funding for the Emerging 
Infections Program at CDC.
    In addition, the currently fragmented and inconsistent 
communications among the CDC and local and State health 
authorities must be improved. I encourage you to fund upgrades 
to the Health Alert Network to ensure that the CDC has the 
ability to track emerging infections quickly and to report 
vital information back to State and local public health 
systems. I really believe, Mr. Chairman, that we can be on the 
edge of disasters.
    Turning to the issue of education, I ask the subcommittee 
to fund the 21st Century Community Learning Centers Program at 
a level of $600 million in the upcoming fiscal year. Too often 
our children are sent home to empty homes, unsupervised and 
unstimulated.
    Mr. Chairman, if we have learned anything this week from 
Colorado, we learned that these children that are disappearing 
into the shadows and children who are being left out onto the 
street every day need to be participating in activities after 
school. It is not enough that we have sports activities. That 
leaves about 90 percent of the children out. We need the 
programs to utilize their time effectively, to make sure they 
are tutored.
    We had a bill at one time to allow retired teachers to come 
back to tutor after school without jeopardizing their Social 
Security. We have to do that. These programs work. We cannot 
afford to sit by and not learn anything from the lessons that 
we have seen from Paducah, from Mississippi, from Oregon and 
now from Colorado.
    I also encourage the inclusion of $1.54 million for the 
Institute of Museum and Library Services. NEA contributes and 
the museum libraries also contribute greatly to the civilizing 
of Americans.
    But, mostly, I would like to offer a personal word of 
gratitude again to you, Mr. Chairman. I am obviously a great 
fan of yours. But your ongoing support of the education for the 
homeless children and youth program under the Stewart McKinney 
Homeless Assistance Act, this program has been phenomenal. It 
has broken down the barriers preventing homeless children from 
attending school regularly and enabled them to break the cycle 
of poverty and homelessness.
    We have heard from some who have gotten college 
scholarships. One who went to Harvard said it would not have 
happened to her had this program not been available to her to 
get her lower grade education.
    We would ask your continued support of the program for $32 
million for fiscal year 2000. I hope that we will someday see 
the end of the awfulness of homeless children living on the 
streets of the United States.
    Finally, I want to thank you for your previous support for 
the National Technical Institute for the Deaf.
    I thank you more than ever, as I always do, for your 
incredible hospitality and your kindness to us in this 
committee, Mr. Porter. It is always a pleasure to be here.
    Mr. Porter. Louise, thank you for your testimony.
    [The prepared statement of Represenative Louise Slaughter 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Thank you for your generous and very kind 
words. It was your leadership at a time when we were very 
likely to eliminate funding for the education of homeless 
children that put it back after you told me what it really 
meant and why children needed to be protected. I thank you for 
the kind words, but it was you that provided that leadership.
    I have to make one comment. I don't think you were in the 
room when we commented on this before, but you were describing 
the plight of Genesee Hospital in Rochester and the difficulty, 
of course, is that what we are ending up doing is looking to 
discretionary funds when entitlement funds aren't there and it 
won't work. There just isn't enough discretionary funds to do 
it.
    Ms. Slaughter. No.
    Mr. Porter. I think we have got to have the authorizers 
look back at the whole question of funding and the losses that 
would occur to the American people if we lose institutions like 
this that serve the neediest often in inner cities. I wish we 
could make up what is lost in entitlement with discretionary, 
but there just isn't resources to do it.
    Ms. Slaughter. I know. But once we lose these hospitals, we 
will not get them back.
    Mr. Porter. No, we won't. You are exactly right.
    Thank you for your leadership.
    Ms. Slaughter. Thank you for your time.
                              ----------                              

                                          Thursday, April 22, 1999.

                           HOMELESS VETERANS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Our next witness is Congressman Bob Filner of 
California, testifying on the subject of homeless veterans. 
Bob, nice to see you.
    Mr. Filner. Good morning. Thank you, Mr. Chairman. I know 
you have to sit through many days of this testimony. I don't 
envy your position. I hope you can find the money for all these 
wonderful things that we are doing.
    I want to move just, if I may, from homeless children to 
homeless veterans and speak on behalf of what is called the 
Homeless Veterans Reintegration Program. I will refer to that 
as HVRP.
    There is virtually no disagreement that one-third of the 
homeless men in this country are veterans and approximately 58 
percent of those are veterans of the Vietnam era. Where I live 
in San Diego, almost half of the homeless have served in our 
Armed Forces. That means, Mr. Chairman, that tonight in this 
Nation of ours, more than 275,000 veterans who served their 
country with honor will sleep in doorways or in boxes or in 
alleys and on the grates in our cities; in rural America, in 
barns and lean-tos and on the ground. This is a shameful image, 
a troubling image, but it is a reality.
    Since 1987, this HVRP program has been a modest, very cost-
effective instrument designed to help homeless veterans reenter 
and succeed in the job market. It has proven its worth. More 
than 46,000 homeless veterans have received help and support 
under this program and many were placed in jobs at a cost of 
less than $1,500 per veteran. Few government programs can claim 
to be so cost effective.
    At its fully authorized level of $10 million, HVRP is 
profoundly underfunded, and the $5 million funding level 
included in the administration budget is woefully inadequate. 
The Department of Labor estimates that $5 million will enable 
the grantees to assist more than 6,000 veterans and actually 
place 3,500 in jobs. I ask that you provide the maximum 
authorization of $10 million so that more than 7,000 veterans 
may return to economic independence.
    The National Coalition for Homeless Veterans estimates that 
more than a half million veterans are homeless over the course 
of a year. This is absolutely staggering and tragic. To limit 
funding to $10 million for the only program that focuses on 
employment of veterans makes no sense. I have introduced 
legislation which would authorize $50 million for HVRP for each 
fiscal year for the next five. The need is enormous. The need 
is real. We ought to do more.
    There is the argument, Mr. Chairman, that veterans are 
served along with the normal homeless programs that we have in 
our cities. They want to know why we need veteran-specific 
programs. I think the answer is rooted in the uniqueness of the 
shared active duty military experience, in the discipline, 
sacrifice and camaraderie associated with military service.
    When they go through basic training, young recruits quickly 
learn that their lives could some day depend on the guy in the 
next bunk and they may themselves be responsible for the lives 
of their comrades. They learn to work together if they are 
going to succeed. They will succeed as a group only if they 
have self-discipline. I think, as a result of that training, 
homeless veterans respond to and trust other veterans, and they 
succeed in programs that replicate the structure in the 
military that they are used to. I expect that the nonveteran 
homeless population might not benefit from the exact same 
program.
    In HVRP a crucial aspect is the outreach of homeless 
veteran is done by formerly homeless veterans. They are best 
able to reach out to and convince homeless vets to seek 
services and assistance. They are best able to determine what 
symptoms veterans have and how they might get a job and to keep 
a job. I think they are the best models for success.
    In a recent conversation about the importance of this, 
someone said to me, if one-third of the homeless men in this 
country spoke only Latin, would it make any sense for homeless 
providers to speak to them only in English? The answer is, of 
course not. Veterans speak the same unique language. They share 
the same unique experiences. The program is based on vets 
helping vets. It is most likely to succeed.
    America is safe and free, Mr. Chairman, only because of the 
generations of men and women who willingly endured the 
hardships and sacrifices required to preserve our liberty. I 
urge this subcommittee and our Congress to demonstrate our 
commitment to America's veterans and provide full funding for 
the Homeless Veterans Reintegration Program and help bring the 
homeless veterans truly home.
    I thank the Chair.
    Mr. Porter. Bob, thank you for your testimony.
    [The prepared statement of Representative Bob Filner 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. This program only applies to single 
individuals, is that correct?
    Mr. Filner. I think so, sir.
    Mr. Porter. If you are a homeless veteran with a family, 
you would qualify under the broader programs for families?
    Mr. Filner. I think so. I think that is correct.
    Mr. Porter. All right. Well, again, we will do our best. We 
don't, as you know, have an allocation yet. We are concerned 
about that, but we will see what we come up with.
    Mr. Filner. I know, and I have been reading comments of 
your insistence that we change the rules under which we are 
working so you can get one. I appreciate your courage and your 
leadership in this. You have a lot of backing in the Congress 
to do that.
    Mr. Porter. Let me make a comment on that since you have 
raised it.
    I have been saying publicly for some time that the 
condition of our economy, the strong growth that is there, the 
progress that we have made on the deficit and the needs that 
are there justifies our adjusting the caps to a more realistic 
level. We are already spending $20 billion above the caps as a 
result of the negotiations at the end of last year that 
declared a lot of emergencies and did a lot of forward funding. 
I don't see how we are going to be able to fashion a bill that 
can pass on the floor of the House of Representatives if we are 
going to make substantial cuts in where we are spending right 
now, given the circumstances in which we find ourselves.
    Mr. Filner. I hope you persevere in that, Mr. Chairman. I 
think the majority of Congress supports you in that.
    Mr. Porter. I think they do, too. It is just a matter of 
somebody saying, let's do it together. Thanks, Bob.
                              ----------                              

                                          Thursday, April 22, 1999.

      UNIVERSITY OF PUERTO RICO AND HISPANIC SERVING INSTITUTIONS


                                WITNESS

HON. CARLOS ROMERO-BARCELO, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PUERTO RICO
    Mr. Porter. Our next witness is Congressman Carlos Romero-
Barcelo of Puerto Rico, who has been very patient and waiting 
for many colleagues who have appeared before him.
    Thank you for being with us, Carlos.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    I want to thank you also for giving us an opportunity to 
testify here today and thank you for your interest in all the 
health issues, particularly your special interest in our 
issues.
    There are, Mr. Chairman, very important programs of 
particular significance to the U.S. citizens in Puerto Rico. I 
am pleased to have the opportunity to bring them to your 
attention as you consider the fiscal year 2000 appropriations.
    I underscore the phrase, U.S. citizens of Puerto Rico, 
because sometimes I have found, Mr. Chairman, not in your case 
but in others, Members of Congress and Members of the Senate 
who are still not quite sure that people who live in Puerto 
Rico are all U.S. citizens, that all Puerto Ricans are U.S. 
citizens.
    That shows in the programs, Mr. Chairman, the health 
programs, where the health and the lives of U.S. citizens in 
Puerto Rico are not given the same value as the health and 
lives of the citizens in the rest of the Nation. We are grossly 
discriminated against in Medicaid, where we only get one-tenth 
of what we would be getting if we were treated the same way as 
all the States are treated under the same formula. We have a 
setaside and a cap, and it is severely restricted.
    That is why these other issues are also even more 
important, even in the Children's Health Insurance Program that 
has enabled the States to provide coverage and expand health 
insurance to millions of children nationwide. Funding for 
Puerto Rico and the other territories was not included 
equitably in the first bill, the first law within the 
established formula, leaving us with an arbitrary appropriation 
that was sadly inadequate to provide for American children in 
the territories.
    Last year, we worked very hard with the White House, and 
Congress finally included an additional CHIP allotment in the 
emergency supplemental, but this formula was limited only to 
fiscal year 1999. If no action is taken to appropriate an 
additional $34.2 million for fiscal year 2000, the children in 
the territories will be refused equal participation in this 
critically important program.
    Let me just indicate that even $34.2 million gives us a 
more generous appropriation, but it still does not bring us to 
the same formula for the rest of the Nation. So still children 
in the territories are being treated inequitably and in a 
discriminatory manner. But at least if we get that, itwill be 
much better than otherwise.
    As funding for health increases nationally, I am requesting 
that a very modest portion of this funding be directed to 
investigate, to treat and educate about the growing problem of 
diabetes in the Hispanic and minority populations and 
particularly in Puerto Rico. According to the NIH statistics, 
26.1 percent is the incidence of diabetes in Puerto Rico among 
ages 45 to 74, more than one-quarter of that population. It is 
the highest in the Nation. It is the highest among Hispanics.
    A copy of the NIH report is submitted here together with my 
testimony. I ask for unanimous consent to submit that report.
    Mr. Porter. Without objection.
    Mr. Romero-Barcelo. I am requesting an appropriation of $3 
million in fiscal year 2000 to set the foundation for 
establishing a National Center for Diabetes in Puerto Rico, 
with a purpose of collecting and evaluating baseline data, 
developing aggressive treatment options and prevention programs 
and enhancing education to patients and the general population. 
It is proposed that the Center be operated as a separate entity 
within the University of Puerto Rico system but will feature a 
partnership joining Federal, State, local and community 
resources.
    As the largest Hispanic-serving institution in the Nation, 
the University of Puerto Rico is perfectly poised to ensure 
that the research can be applied within the Hispanic population 
nationally and increase the number of Hispanic principal 
investigators funded to conduct diabetes clinical research and 
thus build a competent community knowledge base in the areas 
hardest hit by diabetes.
    The havoc that diabetes creates in Puerto Rico and the 
medical cost and hospital cost for patients for all the 
complications of diabetes are enormous. To be able to 
understand this disease better, to be able to study it and to 
find ways to treat it and educate the people adequately is 
extremely important. We have to address it directly to the 
Hispanic population, which is the population with the highest 
incidence.
    I am also requesting an appropriation of $3 million to 
establish a Primate Research Center for minority institutions 
at the University of Puerto Rico. Currently, the Center has a 
federally funded Caribbean Primate Research Center. We just had 
the land transfer to the University this last week. The Navy 
finally transferred some land to the University for expanding 
the Research Center. The appropriation will enable the Center 
to expand its operations to support the enhanced education and 
training of minorities in the area of primatology research. The 
expanded scope would support a collaboration between 
historically black colleges, Hispanic-serving institutions and 
other institutions.
    I want to highlight the fact that the primate colony in 
Puerto Rico is the only colony of monkeys in the world that is 
free of any viruses; and it is free of the HIV virus, the only 
colony in the world. This makes the Center particularly 
significant as it relates to research and investigation 
programs specifically for HIV and AIDS which most 
disproportionately impact the Hispanic and the African American 
minority groups.
    In addition, I wish to thank the subcommittee for their 
support in securing a small grant of $750,000 to fund the 
Educational Linkages Demonstration Project. As a result, a 
highly energized partnership has been established between 
schools in New York and in Puerto Rico. I am requesting an 
appropriation of $7.5 million over a period of 5 years to 
expand this effort to an additional four cities where Hispanics 
are disproportionately located in the public schools.
    The National Science Foundation has a program nationwide to 
find ways of experimenting with ways to enhance the teaching of 
science and mathematics in schools. The place which has been 
the most successful is in Puerto Rico. That is why now the 
experiences in Puerto Rico, we want to translate them into 
experiences in other communities.
    Last week a video conference was held with Education 
Secretary Riley; Congressman Jose Serrano, a member of this 
committee; the President of the University of Puerto Rico, Dr. 
Maldonado; and officials from New York City public schools, 
including School Superintendent Elsi Chan; and Dr. Fernandez, 
the President of Lehman College. This was the first time ever 
when a group such as ours could address the complex issues 
affecting education within the Hispanic population and build a 
bridge from the island to the mainland, a bridge that will help 
close the gaps that exist between Hispanic students and other 
students enrolled in our Nation's schools.
    We have been dealing with bilingual education, with 
problems of dual languages for a long, long time now. I think 
we have much more experience than most other communities in the 
Nation. It is projected that, over the next decade, there will 
be major increases in the number of Hispanic children entering 
schools across the Nation. In fact, the number of Hispanic 
school age children already surpass children from all other 
minority groups. Every year, an estimated 70,000 students move 
with their families from Puerto Rico to New York City alone.
    And Congressman Serrano serves as an excellent example of 
this migration. Increased migration has not only led to 
concentration of Puerto Rico Americans in New York City, and 
particularly in the South Bronx, but the surrounding 
communities in New Jersey and Connecticut and all other urban 
centers, such as Chicago and Miami. You know, the population in 
Chicago is increasing and so is it in the Illinois area.
    Presently these communities are struggling to meet the need 
of Puerto Rican and other Hispanic students, most of whom are 
not performing at high levels. By the eighth grade, for 
example, only one-third of Hispanic children perform at or 
above the basic level in mathematics. Three-fourths of all 
white non-Hispanic children perform at or above the basic 
level. This is a substantial difference. The figures for 
science and other subjects are equally disturbing.
    In light of these trends, the demand for materials and 
qualified teachers and education strategies that are 
linguistically and culturally sensitive is particularly acute. 
In the face of these challenges, the University of Puerto Rico, 
as a part of the Statewide Systemic Initiative, has developed a 
nationally acclaimed model. The funding over the next 5 years 
will enable a demonstration in four other public school systems 
across the United States.
    I appreciate your interest, Mr. Chairman, and consideration 
of these programs that will improve and enhance the 
opportunities for minorities to participate and contribute as 
equals in society.
    [The prepared statement of Representative Carlos Romero-
Barcelo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Carlos, thank you for your testimony. You 
represent more constituents than any other Members of Congress, 
do you not?
    Mr. Romero-Barcelo. Six times more at least, without a 
vote.
    Mr. Porter. We listen carefully to what you have to say. 
And except for the first matter, which sounds to me like an 
authorizing matter, primarily, that--as I said to 
Representative Slaughter, they ought to be addressed by the 
authorizing committees because discretionary can't make up the 
shortfalls. But the other matters certainly come within our 
jurisdiction, and I was very interested particularly in your 
comments regarding the diabetes and the need for a center in 
Puerto Rico and the primate research center as well. Again we 
will be do the best we possibly can.
    Mr. Romero-Barcelo. Thank you very much, Mr. Chairman, for 
your time and your interest.
    Mr. Porter. The subcommittee will stand in recess for this 
vote.
                              ----------                              

                                          Thursday, April 22, 1999.

                  RICKY RAY HEMOPHILIA RELIEF FUND ACT


                                WITNESS

HON. PORTER GOSS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Porter. The subcommittee will come to order.
    We continue with our congressional colleagues. Congressman 
Porter Goss of Florida, who has been also very patient, and 
interrupted by a vote. Porter, good to see you.
    Mr. Goss. Thank you, Mr. Chairman. It is a pleasure to be 
here and thank you for the time. I see you have an extremely 
busy schedule. I understand you are a little behind and I 
understand why. I also understand you have a very difficult job 
of trying to deal with a lot of very worthy causes without 
sufficient resources. And I am here to add to your burden I am 
afraid, but for a very good cause, one that you are familiar 
with, I am sure.
    I have written testimony which I would ask be received for 
the record, and I would like to summarize it briefly, if that 
is permitted.
    Mr. Porter. Yes.
    Mr. Goss. The long and short of it, this is the funding for 
the Ricky Ray Bill, which has passed overwhelming by both 
Houses last year. We are asking over a period of years for $750 
million to fund this. We would obviously prefer that it all be 
done at once, which is the intent. We understand the 
constraints that we have to work under.
    We are dealing with victims. We have done three things in 
the bill. We recognized their plight. We have recognized the 
government's situation in that plight, the degree of 
responsibility, and we have signaled the need for some type of 
compensation relief. Nobody would suggest that the relief that 
this bill provides for all of these victims, which number into 
the thousands out there, we don't know exactly how many, we 
estimate between 7,000 and 10,000. And my testimony, I think, 
speaks to 7,200. I am not sure that is the final number at all. 
Regrettably many of those have died, and as we speak there are 
probably other casualties.
    This is a horrible, sorry episode that took place in the 
United States of America, because we failed to properly do our 
job with regards to the Nation's blood supply. The good news is 
that we have had lots of dialogue with the people that count in 
the executive branch and made some corrections, so that 
hopefully these things won't happen in the future.
    It is worth pointing out, I think, that other countries 
found themselves in similar positions and the pharmaceutical 
industry also has found that they need to accept some of the 
responsibility for this. So there is some potential good news 
for the victims that we are talking about. But measured up to 
the bad news that they suffered in their life from this letdown 
in our standards, in our processes, it is a small bed. 
Nevertheless, it means an awful lot to the people that they are 
counting on this.
    And we are here really to underscore the fact that we 
passed the legislation. This was strongly supported, I am very 
happy to say, with the support of so many people on your 
subcommittee, as well as our other colleagues on this side. It 
did just as well in the Senate. We are working it on the Senate 
side, as well. We are at the point now where it is time to put 
up or shut up on the relief we provided for them.
    That is essentially it. And I am happy to answer any 
questions.
    [The prepared statement of Representative Porter Goss 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Porter, I should tell you, I lost a good and 
close friend who was not a hemophiliac, but got a blood 
transfusion after having a heart attack at age 40 and died out 
at NIH trying to get through it, and it was terrible. I 
understand the problem. We will do our best to provide the 
funding.
    Mr. Goss. I appreciate that, and I am sorry that there are 
so many of those poster children. I think probably the reason 
so many supported this is because every one of us knows a 
situation like that, and has been touched by it.
    Thank you very much for the opportunity to testify.
    Mr. Porter. Thank you, Porter. Thank you very much.
                              ----------                              

                                         Wednesday, April 22, 1999.

                               EDUCATION


                                WITNESS

HON. DAVID WU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
    Mr. Porter. Next witness is Congressman David Wu of Oregon 
testifying in respect to education matters.
    David, it is nice to see you.
    Mr. Wu. Thank you very much, Mr. Chairman, and members of 
the committee. It is a pleasure to be here today as a new 
Member of the House, my pleasure to testify for the first time, 
and I ask consent that my entire statement be submitted for the 
record. I will make a few summary points concerning the 
tremendous positive effect of some specific education programs 
in Oregon and some general programs which are of national 
significance.
    First of all, in the national category, I have a very 
strong and vocal in-house advocate for Head Start, my wife 
Michelle, who has been a schoolteacher for 13 years and a Head 
Start teacher for the last 7 years at the Creston Annex in the 
Portland Public Schools. And while we have countless examples 
of the success of Head Start across America, only about one-
third of eligible children are enrolled, and in Oregon only 29 
percent are enrolled and it is primarily because of a lack of 
Federal funding.
    I know that there is widespread bipartisan support for Head 
Start, and I would like to just encourage this committee to 
move toward full funding as strongly and as quickly as 
possible.
    Secondly, at the national level, I would encourage this 
committee to build on a down payment made last year to put 
100,000 additional qualified teachers in the classroom to 
reduce class size. Class size is a very significant issue in my 
congressional district, and I believe across the country. It 
would permit not only better teaching to be done for all 
students, but also permit the special needs of students who 
need special attention to be addressed and perhaps head off 
some problems in our public schools before they become more 
severe.
    Of a very specific nature in projects in my congressional 
district, I would like to address two of those, both are at 
Oregon Health Sciences University, but at different campuses. 
And the first is a national demonstration project in healthy 
aging. It is a $2 million request for a demonstration project 
to serve Northwest Oregon and Southwest Washington, 
specifically the elderly population. It is a program which 
would integrate nurses, specifically geriatric nurses, with 
specialty physicians in a model which promotes healthy living 
and by tailoring programs and promoting out of institution 
healthy living, and providing primary care services.
    This would increase patient participation, reduce 
hospitalization and hopefully save on Medicare costs in the 
long term. I think this is a very worthy investment for the 
long term as a demonstration project.
    Secondly, a vaccine and gene therapy project at a primate 
research center which is now the west campus at Oregon Health 
Sciences University, and that is to help a gene facility or 
gene therapists work side by side with immunologists to solve 
the largest challenges associated with gene therapy techniques 
that we face today.
    This would increase research capacity in an existing 
building, build out of a third floor of additional space to 
provide for enhanced research capability in this very important 
developing field, and I might add that this project enjoys the 
bipartisan support of my friend and colleague, Greg Walden, 
from the Second Congressional District of Oregon.
    And I thank you very much for this opportunity to present a 
couple of specific projects and a couple of national programs.
    [The prepared statement of Representative David Wu 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. David, thank you for your testimony. What is 
the principal city in your district?
    Mr. Wu. Portland.
    Mr. Porter. I was going to assume that, but I didn't know 
why I assumed that. And Oregon Health Sciences University is in 
Portland?
    Mr. Wu. Yes, it is. Portland is divided between the First 
and Third Congressional Districts in Oregon, and downtown 
Portland and all the western portion of Portland is in my 
congressional district. I would like to say the mouth of the 
Columbia River, but Brian Baird may have a few things to say 
about the northern half of the mouth of the Columbia River.
    Mr. Porter. I see. We will do our best. And certainly Head 
Start is a very, very important program for, as you mentioned, 
both Republicans and Democrats and we do our best to provide 
funding. Thank you for testifying.
    Mr. Wu. Thank you for your kind consideration, Mr. Chairman 
and members.
                              ----------                              

                                         Wednesday, April 22, 1999.

         JOB CORPS TRAINING AND TELEMARKETING FRAUD PREVENTION


                                WITNESS

HON. BOB WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Porter. Next our colleague from Rhode Island, 
Congressman Bob Weygand.
    Mr. Weygand. Thank you, Mr. Chairman. I would ask that my 
full statement, as well as a newspaper article be submitted for 
the record, and I will be brief and summarize my comments if 
that is okay.
    Mr. Porter. Sure.
    Mr. Weygand. Thank you, Mr. Chairman. It really is two 
issues that I want to talk about today, one that has tremendous 
bipartisan support and has to do with Job Corps.
    Job Corps training centers throughout the country have been 
very, very successful in taking particularly inner city youth 
and at-risk children and getting them back into a setting that 
provides them with structure for full employment, gives them 
the kind of training, the assistance that they often need and 
has been extremely successful. Unfortunately, there were 
actually four states that did not have any Job Corps training 
centers throughout the country, Rhode Island, Delaware, Wyoming 
and New Hampshire. And last year, with the assistance of this 
committee and the administration, we are able to provide 
funding for three of those four states. And those three states, 
Wyoming, Delaware and Rhode Island, are moving forward on 
creating new Job Corps centers.
    As a matter of fact, in our state, we are taking a 
dilapidated older school setting that was for mentally 
handicapped and retarded children and turning it into a Job 
Corps center, reuse of government property in a very good way, 
but also a way that would be productive.
    I am requesting, if we can, to continue to follow the 
administration's request of full funding of $1.347 billion this 
year. That is what is in the administration's request, it is in 
the budget agreement or resolution as we have it right now. And 
I forwarded just last week a letter to this committee signed by 
76 members on both Republicans and Democrats, the largest 
number of people who have ever supported such a funding to this 
committee.
    So I ask your support for that, because I think in doing 
so, we are not just simply supporting centers, but supporting 
that at-risk children that really do need the support and 
critical support and makes them really productive members of 
society.
    The second issue is one that is near and dear to my heart, 
and I am sure there are anecdotes and stories each one of us 
can tell about telemarketing scams and frauds that occur to 
senior citizens, particularly.
    Throughout the country, we heard them from California to 
New York to Texas to Maine, problems with telemarketing fraud, 
particularly with unsuspecting senior citizens, and the 
problems that they have in detecting what is truly a fraud.
    Just 3 weeks ago in my hometown, an 81-year-old retired 
schoolteacher, with only about $40,000 worth of life savings in 
the bank, received a phone call about a prize from what 
seemingly was a very respectable company out of Canada. A 
number of phone calls later, she was awarded ``a prize of 
$98,000,'' but in order to claim her prize, she had to pay the 
upfront taxes of around $28,000.
    Well, she got another few phone calls that seemed all very 
good, all very authentic, and she thought that they indeed had 
won a prize and at 81 years $98,000 minuses taxes sounded 
pretty. She paid the $28,000 in upfront ``taxes'' that she had 
to pay only to find out that there was no prize at the end of 
the rainbow there, she got scammed. It happens in Rhode Island. 
It happens in New York. It happens in California. It happens in 
Florida. It happens all over the country.
    What we have requested, and we have gotten tremendous 
support from the administration, is to provide a mere $10 
million to do education and prevention of this kind of fraud 
with senior citizens through senior centers and through the 
kinds of agencies that exist out there already. There is 
authorization allowed already under the Older Americans Act in 
two different section that provides for education awareness, to 
prevent exploitation of seniors under the OlderAmericans Act, 
there is two sections, Mr. Chairman, both under title III, which is 
Support of Services for Senior Centers, it is section 321, as well as 
the section 271 of the Older Americans Act.
    So we have places in two locations for authorization 
already, but there is no specific money for this. I am asking 
simply for $10 million additional above and beyond what is 
presently in the administration's budget, to begin a prototype 
program throughout the country to make seniors more aware of 
what the scams are out there, to prevent the kind of 
telemarketing fraud that is out there, so good telemarketers 
don't get hurt, but also the senior citizens don't get hurt.
    While it is only a small amount of money, it is an 
important amount of money, Mr. Chairman. And I would ask for 
support, and I thank you for your indulgence and your attention 
to this matter.
    Mr. Porter. Bob, we certainly share your putting Job Corps 
at a very high priority and, in fact, in most years, we have 
done better than the administration has suggested in this 
account, because we think it is a program that really gets 
results for people that are very highly at risk, and we are 
going to do our best there.
    That is a terrible story. I had not realized that the Older 
Americans Act provides authorization for that. We will do our 
best to look into that and see what we can do to help.
    Mr. Weygand. As a matter of fact, I think I sent a letter 
last year, because that question came out whether we really had 
authorization, and we do have it. There is a fit for it. And I 
said, Mr. Chairman, these cases happen throughout the country. 
A lot of times it is not the $28,000, a lot of times it is the 
knock on the door for 25 or $50, it is the phone call about 
something special, it is the examples I have had in my own 
district, someone calling up and saying they are from the IRS, 
you made an underpayment of $42.15, you need to send it in 
right away to prevent any kind of penalty and interest.
    And unsuspecting seniors pay that $25 or $30, and they 
don't tell their neighbors because they are embarrassed. They 
don't tell their friends about it, because they are at an age 
where they really want to not feel awkward about it, and they 
don't know. And it is amazing how many times it recurs and 
recurs and recurs.
    When I heard about this situation 3 weeks ago, I had been 
repeating a story about one that happened in Florida about 3 
years ago. It was the same kind of thing. Supposedly Ed McMahon 
was going to show up on this person's doorstep. And they paid 
much more money than that. They had paid, I thought it was $75- 
or $78,000. And Ed McMahon never showed up.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Bob.
    [The prepared statement of Representative Bob Weygand 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 22, 1999.

                 SECTION 8002 OF THE IMPACT AID PROGRAM


                                WITNESS

HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. All right. The next witness is Congresswoman 
Sue Kelly of New York. Sue, it is always good to see you.
    Mrs. Kelly. I am always here, too.
    Mr. Porter. You are.
    Mrs. Kelly. Thank you very much. I really do thank you. 
With your permission, I would like to have my full statement 
just inserted in the record.
    Mr. Porter. It will be received.
    Mrs. Kelly. I just wanted to say that I am back again 
because we have not yet worked out a permanent resolution for 
impact aid on the section 8002 program. As you well know, I 
represent a school district in Highland Falls-Fort Montgomery 
in Orange County, New York. This school district is the school 
district at West Point.
    And so when I say that, you think about the people who are 
living, teaching and working at West Point, and you think about 
the military salaries and you will understand why when I say 
that 93 percent of this township, this town is literally 
surrounded by the river, and the Federal Government and the 
state park, 93 percent of it cannot be on the tax rolls.
    And the rest of it is heavily impacted by the depressed 
salaries of the military. This is not a wealthy area, and they 
cannot support anything more in terms of taxes. The school 
district was going steadily downhill, and what has happened is 
in the past, you have found, somehow, I don't know how you have 
done it, but they are so grateful, you have found the method to 
be able to fund this school district at a reasonable level. 
Without the funding, they would be forced to close down.
    I just want to tell you that this year, I am coming back 
with a success story. They have been able to hire new teachers. 
They have got professional development going for both their new 
and their old teachers. They have hired a new social worker, 
and the impact of that has been a reduced amount of drugs in 
the schools. There have been increased, very effective drug 
interventions. So that really was something that I am very 
excited about.
    And this past weekend, I bring a message to you from a 
teacher who I saw this past weekend, who said, please, go to 
Congress and thank everybody who was able to help us fund our 
school district, because we are doing so much better now. It is 
a different atmosphere. There is new tile on the floor. There 
is now paint on the walls. The kids feel good. The teachers 
feel good. And in the schools, it is interesting, in their high 
school yearbook, these kids under ``what is new for the year,'' 
this is what they are talking about, the tile on the floor, the 
fact they have got new paint in the classrooms.
    They are no longer using 25-year-old textbooks as they were 
last year and the year before. They have got some new textbooks 
in this school. These kids need your support. They need this 
section 8002 of impact aid. Thank you very much. I will answer 
any questions if you have any.
    [The prepared statement of Representative Sue Kelly 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Sue, educate me a little bit, does this 8002 
apply only to your school districts there, or is it also 
applicable to let's say Annapolis and Colorado Springs and 
others?
    Mrs. Kelly. No, it applies to a number of school districts. 
As a matter of fact, I would urge the subcommittee to ensure 
that 8002, any increase that you can give us, would be spread 
fairly throughout all of the impacted communities so that every 
single one of the land impacted communities receive the funding 
that they need, because I know that we just can't exist without 
it. And I am sure that there are other school districts that 
are just as heavily in need of section 8002.
    Mr. Porter. Sue, we are going to do our best. This is a 
high priority for the subcommittee. It always has been.
    Mrs. Kelly. Great, thank you very much.
    Mr. Porter. Thank you for coming to testify.
    Mr. Hoyer. Do you know how much money they get?
    Mrs. Kelly. Quite frankly, I am not sure how much money the 
whole section 8002 or----
    Mr. Hoyer. The school system?
    Mrs. Kelly. My school system gets about a little over a 
million dollars from section 8002. They could not raise that in 
land tax. It just would not be possible. The school would 
close.
    Mr. Hoyer. Right. Thank you. Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Hoyer.
    Mrs. Kelly. Thank you.
                              ----------                              

                                         Wednesday, April 22, 1999.

                  SCHOOL MODERNIZATION AND CLASS SIZE


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Porter. Our next witness is Congressman Darlene Hooley 
of Oregon.
    Ms. Hooley. Mr. Chairman, and other members, first of all, 
thank you for your incredible patience for listening to all of 
us come in and ask for programs that we think are important. 
And as I am listening to those people that testify in front of 
me, I mean you deal with issues, this committee deals with 
issues that affect peoples lives every single day, and you do 
some very, very important work on this committee.
    I want to talk about a couple of general issues, and then I 
want to talk about a couple of specific issues.
    The first issue I want to raise is I hope we would look at 
the classroom size and school modernization. You know, this 
country, when we have a crisis, has always stepped forward and 
said we are going to deal with a crisis. And we really have a 
crisis with school facilities and classroom sizes that are just 
too large.
    I am a former teacher. I know what it is like to have 38 
and 40 students in a classroom. And I know what it is like to 
have a small number of children in the classroom, and I can 
tell you the difference between a classroom of 30 and a 
classroom of 18 is enormous in what you can do for those 
children.
    There was an engineering study that came out last year that 
talked about our public schools and the crisis we are in in 
school facilities. I went into a school that is not even a bad 
school, in terms of school facilities, and, yet, when I saw a 
classroom of eight children that we were trying to help them in 
reading that was actually a closet with mold on the walls and 
mold on the floor and no ventilation. And again this isn't the 
worst school.
    First graders in a trailer that had no facilities for 
bathroom or handwashing and facilities where they could eat 
lunch so they would have to walk from the trailer over every 
time they needed to go to the bathroom, wash their hands, go 
get their lunch, and then they would have to go back across 
open land when it rains a lot.
    The classrooms I was in that day and, again, a school that 
wasn't the worst school, by any stretch of the imagination, we 
would not want to work in those facilities. And yet we keep 
talking about children are our priorities. And at some time I 
think we have to put our money where our mouths are.
    Another issue that I know you have been, Mr. Chairman, very 
supportive of and again I think it is incredibly important, and 
that is trying to increase the funds for NIH. And I am happy to 
work with the committee in any way I can to see what we can do 
to try to increase that funding.
    Another program is that you funded last year, and there are 
lots of success stories for this, and that is the Child Care 
Access Means Parents in School Program, which allows students 
that are trying to go to school help with their childcare.
    And let me just say Oregon is a small state, but let me 
tell you the successes. We have had 250 students that are 
accessing that program. We are trying to get additional money 
from the state this time. It has meant the difference of 
whether those 250 parents can go to school, they couldn't do it 
without that.
    We have a waiting list of 900. And the reason it is only 
900 is they stopped taking names on that list a year ago. So it 
is--and it is hard to wait to go to school, you know, if you 
are trying to finish out your junior or senior year, because 
you simply can't afford the daycare or the childcare.
    You appropriated 5 million last year, it is authorized up 
to 45 million, I would hope that we can increase that and do 
some matching funds with states to try to make those dollars go 
as far as we can. I think it is a wonderful way to be able to 
help people so they can help themselves by getting an 
education.
    And then, finally, two small projects in my district. One 
of my counties is a small, rather poor district. They are the 
poorest county in my district. They have a wonderful museum 
that we used to take our children to all the time. It is in the 
old courthouse. Part of the problem is, they don't have room 
for displays, they have a problem with handicap access. They 
really don't have space for school children coming in.
    It is a wonderful cultural educational facility and it is 
the only one in this county, I mean other than the schools. And 
the community has rallied behind moving this facility. They now 
have 56 acres that they have purchased, and they are trying to 
get this museum off the ground. The community again has rallied 
behind it, but again it is a very poor community. And we are 
requesting $2\1/2\ million for that program.
    And, lastly, at Oregon State University, we have a national 
family policy assessment center, and what they do, they look at 
programs that help prevent problems for children and families. 
And what they are now trying to do is design some kind of an 
accountability system. I mean we are all looking for how can we 
make sure that the programs that we do enact work.
    And so they are trying to look at the social issues and how 
do we measure those social issues, how do we measure programs 
so we can hold communities and institutions accountable for the 
monies that they get. And they are hoping that this will help, 
obviously, everyone across the Nation. And they are asking for 
$2.5 million for that program.
    Anything you can do, anyway that I can work with you, I 
would be happy to do that. And thank you so much for your time.
    Mr. Porter. Thank you for coming to testify. The President 
in this year's budget has put the school construction issue 
over in Ways and Means. It was here, but his suggestions is now 
put it to the authorizing committee. So I would suggest that 
you impact their decisions. We are going to have some kind of a 
tax bill, I think, and that would be----
    Ms. Hooley. I would be happy to do that.
    Mr. Porter [continuing]. Their opportunity to address that 
issue. Thank you.
    Ms. Hooley. Thank you so much.
    Mr. Porter. I am sorry, Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. However, I, too, want 
to thank you for your testimony. But, however, the teachers, 
the funding for the additional teachers would come from this 
committee. And if we are going to reduce classroom size, we 
need more classrooms and we need more teachers. So that piece 
of it does spring from here.
    And I thank you for advocating the modernization, because 
children are so smart, they get the message. If we tell them 
education is important but send them to schools in the 
conditions that you described, they don't think we think it is 
so important.
    Ms. Hooley. Absolutely. And I will guarantee you they pick 
that up that fast.
    Ms. Pelosi. That fast. And, of course, in light of what 
happened in Colorado, I do believe there are lots of issues. We 
can take up mental health issues, et cetera. But smaller 
classes, as we have been told here, teachers can detect things 
early and can be helpful.
    Ms. Hooley. Kids are dying for attention.
    Ms. Pelosi. For attention. Thank so much.
    Ms. Hooley. Maybe that is not an important word, dying for 
attention, but they are.
    Ms. Pelosi. They are. Thank you for bringing your 
experience as a teacher to this committee. Thank you.
    Mr. Porter. Thank you, Ms. Pelosi.
    [The prepared statement of Representative Darlene Hooley 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 22, 1999.

                             HEALTH ISSUES


                                WITNESS

HON. BILL TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Porter. Our next witness is Representative Billy Tauzin 
of Louisiana. Billy, thanks for coming to testify.
    Mr. Tauzin. Thank you, Mr. Chairman. Let me say, Mr. 
Chairman, that all of us are commenting about how glad we are 
that young Ms. Hoyer looks more like her mother. Is this bring 
your daughter to work?
    Ms. Pelosi. Grandmother.
    Mr. Hoyer. He is right. I think he knows his stuff. This is 
my granddaughter but she does look extraordinarily like her 
mother.
    Mr. Tauzin. Welcome. It is good to see a young girl. It is 
a good day to get out of school, too. I am pleased to have a 
young lad with me who also got a day off of school today. And 
you met him last year, Mr. Chairman, young Keith Andrus is a 
victim of Friedreich's Ataxia, which is a subject of my 
conversation with you today primarily. And Dr. Bronya Keats is 
the head of the center in Louisiana that--I guess the first 
thing I want to say is thank you.
    Your stewardship, your support means we have this center in 
Louisiana for a disease that is particularly associated with 
Cajuns, 2\1/2\ percent times the national average along with 
Usher Syndrome, a terrible disease for which there is no cure 
yet, that afflicts young people.
    It lowers the life expectancy. It means by the time they 
reach their young adult ages in the 20s that they are 
wheelchair bound, debilitates them and destroys their muscle 
over the life of this disease. Young Keith is the son of my 
office manager Rachel Andrus, who is here today with her 
husband.
    She has been with me since 1976, when I was in the 
Louisiana legislature, Steny, just like you served here in 
Maryland. And young Keith is a great example of the courage of 
these young people who suffer with the disease for which we yet 
don't have a cure and which they daily pray along with their 
parents and so many of us that geneticists will eventually 
discover a cure.
    With the help of this subcommittee, your stewardship, Mr. 
Chairman, last year we established the center in Louisiana. Dr. 
Bronya Keats is in charge of that center. And Governor Foster 
has now committed the resources of the state to assist it and 
he is assigning, not only space, but facilities and a faculty 
from LSU and appropriate state assistance for the center.
    And, you know, of all the money we spend, let's take about 
a million dollars to get it started, and we are requesting a 
million two to keep it going, keep this work going. It is 
already showing incredible benefits as it is reaching out and 
involving more and more people in the community health centers 
with an attack on this problem and a recognition that, in fact, 
if we work hard enough at it, as you heard from NIH, that 
interesting and very exciting studies are beginning to identify 
the genetic source of this disease, and one day, we know, 
before it completely debilitates my young friend, Keith, we are 
going to find a cure and we are going to reverse his damage.
    But it is going to be because of your commitment and the 
commitment of this subcommittee and Congress to make and insure 
centers that we established in Cajun country works. This is a 
disease that of course doesn't just affect Cajuns, it affects 
people all over America. We have examples in my written 
testimony of young people who appeared before this committee 
and presented to you visual evidence of this disease and how 
awful it is.
    But it just happens to afflict Cajuns at 2\1/2\ times the 
national average. And Rachel just happened to find a Cajun here 
in Washington, D.C., not even knowing he was of French descent, 
and because they both have the recessive genetic material, 
Keith is now afflicted with this disease. And he will tell you 
with all the bravery that he has in his heart that we are going 
to beat this thing, but it is going to be because of your help.
    So I am here today to join 170 members who have signed a 
letter saying please keep the community health centers going 
strong, they mean so much of a difference in bringing health 
care to vulnerable areas of our society and to more rural areas 
like I represent. Without community health centers people would 
not have health care.
    And secondly, to ask you to continue to support and fund 
the work of the center in Louisiana in this incredible effort 
to this rush, this urgent rush to find a cure for the young 
people like Keith, who has already been afflicted by this awful 
disease and others who came before him, Mr. Chairman.
    [The prepared statement of Representative Billy Tauzin 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Billy, thanks for your testimony. This 
subcommittee does put community health centers at a very high 
priority. We know that they often are the only access to our 
health system for many people, and we are going to do our best 
to provide additional funding there.
    As you said, we have had several public witnesses on 
Friedreich's Ataxia last week. And they, together with your 
testimony, certainly brought home to us what we need to do in 
this area.
    Mr. Tauzin. I think you have a 15-year-old from Illinois, 
young sisters 8 and 12 from Connecticut. It is a disease across 
the country. And so it has no special reference to any one of 
us except that Cajuns for some reason, genetically, are more 
prone to it than anyone else so it is special to me, as you 
know, because of my Cajun heritage.
    Mr. Porter. I should tell you that the witness from 
Illinois came in, and her concern was not only with the 
disease, but how the public schools treated her. And I think 
that alerted all of us here on the subcommittee as to the need 
to make certain that schools understand this disease and the 
special needs of children who are afflicted by it.
    Mr. Tauzin. You know, when you last saw Keith he wasn't 
wearing a body brace. Today he comes with a body brace. We can 
see it, you know, damaging his young frame already. And I know 
he is going to be, as he goes through school, you know, 
obviously in need of some special attention from time to time, 
and I think that is very good to focus on.
    Part of what the center does, and Dr. Keats will tell you, 
is in public education. It is in teaching people about this 
disease at home, making them aware of it so they recognize it 
and hopefully encouraging others such as school personnel to 
take these children into account.
    Mr. Porter. Keith, we are going to do the best we can to 
address the needs of people like you that have been afflicted 
by this disease. And hopefully we are going to put the 
resources that will lead to a cure and sooner rather than 
later. And, Dr. Keats, thank you for being with us as well.
    Dr. Keats. Thank you.
    Mr. Porter. This is a very high priority for the 
subcommittee, and we are going to do the best to provide that 
funding. Thank you, Billy.
    Mr. Tauzin. God bless you, sir. Thank you. Thank you all.
    Mr. Porter. The subcommittee stands in recess until 2:00 
p.m.
                              ----------                              

                                          Thursday, April 22, 1999.

      CLOSE UP FOUNDATION AND HEALTH CARE FINANCING ADMINISTRATION


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Porter. The subcommittee will come to order.
    We continue our hearings on our colleagues in the Congress.
    I am pleased to welcome Congressman Doug Bereuter of 
Nebraska to testify regarding the Close Up Foundation.
    Doug, good to see you.
    Mr. Bereuter. Thank you, Chairman Porter. I would like to 
submit my whole statement for the record.
    There is very little, Chairman Porter, that I can tell you 
about the Close Up Program that you don't already know because 
you have been a long-term supporter. You understand, like I do, 
that it is an outstanding education program that brings 
students from across the country in for one week of experience 
here that I think makes them more likely to be active and good 
citizens. Their school life in high school and college is more 
likely to be, I think, more meaningful because of this 
experience.
    Last year, under your tight budget constraints, I know you 
had to slice the request in half. The request that I am 
supporting is for $2 million.
    Having told you that, I don't think that there is anything 
I could tell you--let me just try one fact that I think is 
impressive. Over about 500,000 students that have been brought 
in now by Close Up over the years, incredibly 100,000 of those 
participants received full or partial fellowships.
    The Federal component, the Ellender grants, provides a 
small part of that assistance, but it is an important part. I 
think the request last time was for $3 million, cut back in 
half to $1.5 million. The request we are putting before you 
today, which I am strongly endorsing, is for $2 million.
    The only reason I am coming before the committee, because 
you know about it, is to show you that I think it is important 
enough to spend my time as a minimum to come here and say this 
is a program that I think is the best education program that 
brings Americans of any age to the Congress, to the Nation's 
capital to learn about government. That is why I am here.
    Mr. Porter. Doug, we all agree with you and think this is a 
very important program. We are going to do the best that we can 
to provide the funds that you want.
    Mr. Bereuter. Thank you very much.
    Mr. Porter. Thanks.
    [The prepared statement of Representative Doug Bereuter 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

           MEDICARE AND HEALTH CARE FINANCING ADMINISTRATION


                                WITNESS

HON. PETE STARK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Congressman Pete Stark of California.
    Mr. Stark. Mr. Chairman, if I may just associate myself 
first with the remarks of my colleague from Nebraska. I, too, 
am a supporter of the Close Up Foundation and 51 years ago this 
August came here under the auspices of the American Legion to 
do much the same, sat in the Rose Garden and listened to Harry 
Truman in August of 1948 tell us he hoped to see our whole 
group back again next year. We were such wise guys. We 
snickered. But it was a fascinating experience then. I know it 
is for the youngsters today.
    I am here on another matter, and that is the appropriation 
for HCFA. They are requesting $70 million more than last year. 
Their budget includes $194 million of user fees that I don't 
suspect they are going to get, and they recognize that, and 
they think they can exist. They are only requesting 15 new 
employees that will be used for a nursing home initiative which 
I think we feel is necessary in policing the quality of nursing 
homes. A 10-year freeze at a time when we are pushing more 
changes.
    I just came from a hearing that Chairman Thomas has called 
on why isn't the appeals process being speeded up for people 
who have regional denials of care under Medicare, and then we 
have national decisions as to whether we are going to have 
colorectal screening or whether we are going to have 
mammograms. We have loaded a lot on their plate.
    I don't think we can properly ask them to continue to do 
more so that our own district offices aren't flooded with 
complaints from senior citizens. We have already had to buy 
into an 800 number to explain the new Medicare choice. Where 
you and I get a long booklet for our Federal employee health 
benefits that we have to get our staff help us to understand, 
my mom has to call an 800 number when she can get to the phone 
in her nursing home to find out what Medicare choice means to 
her and doesn't mean. We are going to hear a lot about that.
    I would remind the chairman that until 1994 but during the 
period of two Republican Presidents, when Bill Gradison was my 
ranking member and I was the chair, on a bipartisan basis we 
supported appropriations for HCFA. We felt that their 
efficiency in managing Medicare of less than 2 percent is a 
standard which has never been met, inside the government or 
out, for administering a program. But we can only squeeze that 
so far.
    As the program grows with additional benefits--I think 800 
million pieces of paper are collected and we do have admittedly 
14 percent of improper payments, whether those are all crimes 
or not, some are mistakes, some are the providers' mistakes--I 
think that we may be somewhat penny wise and pound foolish. I 
think funding--some full funding for them, given the budget 
constraints that I know you have to operate under, will be 
dollars well spent.
    I would like to submit my complete testimony for the 
record.
    I do represent all of the minority members of the Ways and 
Means Subcommittee and Congressman Cardin, who is very active 
with us in this issue. I thank the Chair for indulging me.
    [The prepared statement of Pete Stark follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Pete, I know you know that we think it is a 
very high priority as well. We wish the President had submitted 
a budget, because he knew very well he wasn't going to get user 
fees and everybody knew it.
    Mr. Stark. I think you are right.
    Mr. Porter. That reflected what the needs are at HCFA.
    And yet, as you point out, the money is needed, well spent, 
efficiently spent and a very important program. I have been 
saying for some time, we need to adjust the caps. We can't do 
the things we need to do without making some adjustment in 
them. I wish on a bipartisan basis we would just do that, do it 
right now and get it done. Because I don't think there is a 
Member of Congress that doesn't believe that that is what we in 
the end will do.
    Mr. Stark. Mr. Chairman, I anticipate, not happily 
necessarily or any more than you might, seeing a large 
reconciliation bill coming at me late this year because of our 
inability to bell the cat and take the caps off. It is in 
anticipation of that that I hope you will be at the table when 
that is written. I think I will be.
    Mr. Porter. I don't want to take them off. I want to raise 
them slightly to reflect the realities of our situation.
    Mr. Stark. I would encourage you in that. Anything that we 
can do, and I am sure that Chairman Thomas would concur in 
this, to provide you information on both their performance and 
things that we have asked them to do for us and prospectively 
the sorts of jobs that we have assigned to them, we would be 
happy to do. Thank you very much.
    Mr. Porter. Thank you.
                              ----------                              

                                          Thursday, April 22, 1999.

                       POLYCYSTIC KIDNEY DISEASE


                                WITNESS

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Porter. Next, we are pleased to welcome Congresswoman 
Karen L. Thurman of Florida.
    Karen, nice to see you.
    Mrs. Thurman. Thank you. Good to see you, too.
    I might introduce Ms. Leonard here who has come with us as 
our daughter of the day.
    Mr. Porter. Oh, all right.
    Mrs. Thurman. My daughter is a little older and in college, 
so we just adopted one for the afternoon, but she was kind of 
excited about being here.
    I am not going to take a lot of time. I have testified 
before this committee so many times on this PKD issue. As you 
know, we have sent a letter with about 20 other Members from 
Congress that are also very interested in this issue.
    I want you to know that you have been the most adamant 
supporter we have had. You have been excellent on this issue.
    I just want to give you one statement here by Gary Striker, 
the doctor and recently retired head of the Kidney, Urology and 
Hematology Division of the National Institutes of Health, where 
he stated that, in his judgment, PKD should receive a 50 
percent increase per year for the next 3 years because the 
scientific momentum in finding a cure and treatment is 
unprecedented.
    I know that we don't earmark, but I know that we have had 
some fairly strong language in the bill in the past. I just 
hope we can continue that. I hope that we can increase this 
because we do think we are in an opportunity that we really 
could do something.
    If you look at it both from the perspective of the patient 
who has the disease and then from probably the one we less like 
to talk about, when anybody is sick but the money issue that we 
deal with at the Federal level and the cost for either dialysis 
or transplantation, which is the only two things we can do to 
keep people alive in these situations, that--certainly that is 
an outcome that is a benefit to all recipients of any kind of 
care from our health care system, because it just means more 
money for us to be able to give to other people if we can do 
this.
    I just wanted to let you know that I have not given up my 
fight, and I have appreciated your commitment on this. Thank 
you so much.
    Mr. Porter. Karen, you have been a great leader on this. I 
tell you what you do, you prepare some language, and we will 
work with you on it and see if we can continue to push.
    Mrs. Thurman. Thank you. And thanks for being here today. I 
know a lot of people could get out of town, go home and get out 
of the mess for tomorrow. We really appreciate the fact that 
you have taken the time to listen to us.
    Mr. Porter. And thank you for being here today.
    [The prepared statement of Representative Karen Thurman 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                          CLOSE UP FOUNDATION


                                WITNESS

HON. XAVIER BECERRA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Our next witness is Congressman Xavier Becerra 
from California, testifying regarding the Close Up Foundation.
    Mr. Becerra. Mr. Chairman, thank you. Certainly you would 
have more members if we weren't already out of session, I would 
imagine, right?
    Let me thank you for taking the time. I did submit some 
written testimony. I will just be brief in my remarks.
    The Close Up Foundation, which I know you are very well 
aware of, has done a tremendous job of bringing a lot of 
Americans, new Americans, young Americans into Washington, D.C.
    There is a particular program that you are probably 
familiar with, the Allen J. Ellender Fellowship Program, which 
has helped a lot of lower income Americans; and from someone 
who comes from California, Los Angeles, it is tough to find a 
lot of our youth making it all the way to Washington, D.C. 
Those who happen to live within a shuttle's trip of Washington, 
D.C., have a chance to experience the D.C. experience much more 
than some of us from California. But with the funds that Close 
Up has made available, we have had a chance to bring in some 
people that have never traveled outside of our own States.
    I know for a fact some of the kids in my congressional 
district--and I have got a district that on average has a lower 
income than some of the other districts in America--it has been 
a tremendous asset to have a chance to bring them in, to just 
see the eyes just open up and glow from some of these kids who 
have never been out of the State of California to see 
Washington, D.C.
    The Program for New Americans, which was instituted 
recently, which allows a lot of kids who come from immigrant 
backgrounds who are just fortunate to be in this country, to 
give them that opportunity to experience Washington, D.C., is 
something spectacular, as well. The Ellender Fellowship, as you 
probably know, has been around for a little while; Close Up 
since 1971. Half a million kids have been helped as a result of 
Close Up. The Ellender Fellowship has helped about 100,000 
lower income students.
    We are talking about students who truly are low income. You 
talk about a family income of something around $18,000, where 
there is a family of four, something that most of these kids 
would never be able to afford to do, to come to Washington, 
D.C.
    It is an important program. It has been reduced over the 
years, but there has been support within this committee and the 
Congress to at least continue seeing Close Up function here in 
Washington, D.C., and the Ellender Fellowship also continue.
    My request is just that we continue to give young people 
the chance to experience Washington, whether they come to work 
here in the future or not, just the chance to see this place. I 
had never been here until I was a grown-up. There is nothing 
more profoundly affecting the human spirit when it comes to 
what it means to really be American until you come to 
Washington and you see the Capitol, you see the White House, 
and all of a sudden the perspective becomes a little clearer.
    I am here to just ask that the committee continue to do the 
good work it has done in the past, to continue to support the 
Close Up Foundation, and in this case the Ellender Fellowship 
Program, to just do its utmost to try to continue funding for 
the fellowship. Because what it does is it gives a lot of those 
Americans who very much strive for that American dream to 
really recognize what it means to be an American and to succeed 
in America.
    With that, as I said, I think I am speaking to some of 
those who have been the most supportive of some of these 
efforts to help our youth become productive Americans in the 
future.
    Mr. Porter. Xavier, Doug Bereuter was here just a few 
minutes ago. That makes it bipartisan. Everybody agrees that 
these are wonderful programs. We are going to do the best we 
can to provide funding. Thank you for being here. Thank you for 
your testimony.
    Mr. Becerra. Thank you very much.
    [The prepared statement of Representative Xavier Becerra 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                  ELLENDER FELLOWSHIP/CLOSE UP PROGRAM


                                WITNESS

HON. DONALD M. PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Porter. Congressman Don Payne of New Jersey on a 
similar subject.
    Mr. Payne. Thank you, Mr. Chairman.
    It seems that we certainly have bipartisan support; and it 
is not unusual that, when a good cause comes, many people come 
forth to talk about it.
    But I would also like to say that I have known the 
importance of the work of the Close Up Foundation and the Allen 
J. Ellender Fellowship Program. This is really my first time 
coming to speak for the Close Up Program, but I have 
participated, I have had many, many students from my town 
participate in the Close Up Program.
    I am a former high school history teacher, and I don't 
think there is anything as important as this program to teach 
youngsters by their actual involvement in government. I also 
serve on the Subcommittee on Early Childhood, Youth and 
Families, so I have had the privilege of working with a number 
of my colleagues to ensure that the American educational system 
provides the best education for all kids.
    This program, the Close Up Foundation, really gives 
youngsters from all cultural backgrounds, from economic 
backgrounds, the opportunity to see how government functions. 
We find that young people in many instances when they don't 
understand things, they don't deal with them properly. By them 
coming here, listening to leaders in our government, meeting 
other young people from around the country, I can't think of a 
program that is more deserving.
    As you may know, the program suffered from cuts in fiscal 
year 1994 when the program was funded at $4.2 million. It was 
dropped in 1995 to $3.0, and it was slashed to its current 
level of $1.5 million in fiscal year 1996. So these cuts, about 
a 46 percent drop, are very devastating to a program of this 
nature.
    As my previous colleague mentioned, the fact that there is 
a new phase of the program that includes immigrant students, to 
really give them the opportunity, the New Americans Program--at 
one time, there were 234 schools involved in 1995-96. Last 
year, we only had 66 programs, a direct reflection of the 
reduction in the funding.
    And so I know that, knowing you, I know that if it were 
just for you to put your signature on something, it would be 
done automatically. But I know that there are competing 
interests, there are competing programs, and tough decisions 
have to be made. But we urge you in your capacity to take all 
of our appeal into consideration, and hopefully we can see that 
this program is given its just due.
    Thank you, Mr. Chairman.
    Mr. Porter. Don, thanks very much. You guys are ganging up 
on me here--Republicans, Democrats, right, center, left. Thank 
you for coming to testify. I am getting the message here.
    Mr. Payne. All right. I am the left. Maybe I will let a 
righter come in.
    Mr. Porter. I think that might be the case here.
    [The prepared statement of Representative Donald Payne 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                          CLOSE UP FOUNDATION


                                WITNESS

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA
    Mr. Porter. Don Young of Alaska.
    Mr. Young. Thank you, Mr. Chairman.
    I enjoy the privilege of appearing here because my staff 
has done an excellent job of preparing a written statement, if 
I can submit it for the record.
    Mr. Porter. Absolutely.
    Mr. Young. I would ask unanimous consent.
    Mr. Porter. Please proceed.
    Mr. Young. I will try to make it as brief as possible.
    I can only echo what the last two speakers have spoken 
about, about the importance of the Ellender Fellowship Program 
and the Close Up Foundation.
    I would say right now, more than at any other time, this 
Congress should be bringing more young people to Washington, 
D.C., to understand what we are about, what we are doing. I say 
this because, of course, of an incident that happened yesterday 
in Colorado. I believe that it is an example where if we have 
more exposure, more understanding, we have less violence in our 
society.
    Secondly, I would suggest that in my State we have had over 
10,000 new Alaskans, students come down under the Close Up 
Program. The results have been phenomenal as far as interest in 
local government and, of course, in the national arena, too. I 
tell them right up front that I would be deeply pleased if one 
of those people in the Close Up Program would end up eventually 
being the congressman for all of Alaska because of the exposure 
that occurred down here in Washington, D.C.
    I would also like to suggest, and I know you have a 
terrible responsibility under our cap system and the amount of 
moneys that can be spent, but put this in perspective of what 
we are doing overseas today and the amount of moneys now that 
are being spent. More than that, I can't think of a better way 
for the young people to get a greater grasp of why we are doing 
it than if they were exposed in Washington, D.C., by talking to 
the leaders and by talking to their congressmen and by being 
exposed to the workings of this body.
    So the Close Up Program has been, to me, one of the 
greatest successes. I have been involved with this program from 
the very conception. I have helped raise money on the private 
sector for this program.
    I am hoping that the Congress can see the wisdom--I know 
you would if you possibly could in all your power--the wisdom 
to not only fund at a higher level than was funded last year 
but even a greater level so we can expose these young people to 
I think the greatest democracy in history.
    With that, Mr. Chairman, I hope--I sounded like the left, 
but I am really the right. I am the right track on this issue.
    Mr. Porter. I thought it was terrific. I am convinced.
    Don, thank you. That was a very eloquent statement. We are 
going to absolutely do the best we can.
    Mr. Young. Thank you, John.
    Mr. Porter. The subcommittee will stand briefly in recess.
    [Recess.]
    [The prepared statement of Representative Don Young 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

               CENTERS FOR DISEASE CONTROL AND PREVENTION


                                WITNESS

HON. BERNARD SANDERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VERMONT
    Mr. Porter. The subcommittee will come to order.
    Our next witness is Congressman Bernie Sanders from 
Vermont, testifying regarding CDC. Bernie.
    Mr. Sanders. Thank you very much, Mr. Chairman. One of the 
few times in my life I haven't had to wait. This is very 
exciting.
    I think you are familiar with the Cancer Registries Bill. 
It was something that I got passed in 1991. Essentially, what 
it does and why it is important and why some people at the time 
thought it was the most important cancer prevention legislation 
that we could pass is that, up until that time, it did not 
provide us--we did not have national information as to who was 
coming down with cancer, where they were living, where they 
were working. That is very valuable stuff for cancer 
researchers to know.
    If we know that in one section, one county in a State, 
breast cancer is much higher than it is elsewhere, it gives 
researchers the opportunity to say, what is happening in that 
county? If California has a higher or lower level of a type of 
cancer than Vermont has, we then look and try to understand 
what the causes of that are.
    Before this, we really did not have that broad, national 
legislation so that we could look at 50 States and get an 
understanding of what is going on. So I think the researchers 
see this as a very important piece of legislation.
    It was signed in October, 1992, by President Bush. 1994 
marked the first year of appropriations. What we are here today 
to ask for is increased appropriations.
    I don't have to tell you--I know that you have been working 
hard on this issue--cancer is an epidemic. I am sure you have 
been to these meetings--with breast cancer survivors, for 
example, and it breaks your heart. We are making some progress. 
We have got a long way to go.
    I think if you check with the authorities, you will find 
that this is a successful program, it is working well, it needs 
additional funding. We want 50 strong State registries, because 
you can learn what is happening from what is happening in 
Vermont. We learn what is happening to you.
    There is still enormous questions regarding cancer that we 
don't have answered. I think good data will help us.
    I know you have been supportive in the past. We would ask 
you to take a good, hard look at what we are requesting and 
give it support.
    Mr. Porter. Bernie, we will do our very best. You are 
exactly right. I think this is a very important piece of 
legislation, and we want to provide the funds to make it work. 
We will do our best.
    Mr. Sanders. Mr. Chairman, thank you very much.
    Mr. Porter. Thank you very much.
    The subcommittee will stand in recess.
    [Recess.]
    [The prepared statement of Representative Bernard Sanders 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                       POLYCYSTIC KIDNEY DISEASE


                               WITNESSES

HON. SHELLEY BERKLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEVADA
DON JACOBS
    Mr. Porter. The subcommittee will come to order.
    Our next witness is Congresswoman Shelley Berkley of 
Nevada, testifying in respect to polycystic kidney disease.
    Ms. Berkley. Good afternoon, Mr. Chairman and members of 
the subcommittee. Thank you for allowing me to speak today in 
support of increased funding for programs dedicated to kidney 
disease research.
    Today I urge you to support a 15 percent increase for NIH 
and, more specifically, a 15 percent increase for NIDDK. As the 
wife of a nephrologist, this issue hits home with me. I hear on 
a daily basis both the heart-wrenching stories of those 
suffering from kidney disease and also the difficulties of 
doctors who lack much-needed funding to complete research. I 
hope my testimony today will convey to you just how critical 
this funding is, not only to my constituents in southern Nevada 
but to your constituents as well.
    Chronic renal disease is a major health problem in the 
United States. However, many Americans do not realize just how 
many lives this disease destroys. It is estimated that 12.5 
million Americans have lost at least 50 percent of their normal 
kidney function. And end stage renal disease, ESRD, in which 
patients have complete or nearly complete permanent kidney 
failure, affects another 280,000 Americans.
    To make matters worse, these numbers are growing. In 
Nevada's First District, the numbers have increased 2\1/2\ 
times over the past 10 years. In Chairman Porter's home State 
of Illinois, the number of ESRD patients went from 5,800 in 
1986 to over 14,000 in 1997. In Wisconsin, Ranking Member 
Obey's home State, ESRD patients jumped from almost 2,000 in 
1986 to over 5,000 in 1997.
    But numbers alone are not enough to explain the hardship 
caused by renal disease.
    I would like to introduce Mr. Don Jacobs and his wife 
Becky. I have known Mr. Jacobs since high school days. They are 
from Las Vegas, Nevada. They have flown in to share their 
difficult experiences with kidney disease.
    Don suffers from diabetes, the number one cause of kidney 
disease, and he is also legally blind, one of the serious 
complications of this disease. Several times a week, every 
other day, Don is forced to undergo dialysis to survive. 
Despite the daily challenges, Don is a successful producer of 
the television show Entertainment Tonight. He has come here to 
help educate Congress on the need for increased and sustained 
Federal funding for kidney disease research.
    [The prepared statement of Representative Shelley Berkley 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Berkley. Don, would you care to say a few words about 
living with kidney disease?
    Mr. Jacobs. Basically, I have lived my life every other 
day. Every other day we do home hemodialysis, which is kind of 
rare. My wife operates the machine. We have one at home. I 
usually go on around 1 o'clock in the afternoon. I am on there 
for 4\1/2\ hours every other day. I am completely wiped out 
after that, and I go to bed.
    It is very difficult running my business, to start with; 
and Entertainment Tonight has been very understanding, 
Paramount Pictures. They just go with the flow. But it is 
tough.
    But to me research is where the funding really needs to be 
stronger, because the amount of money--Medicare pays for the 
dialysis. Medicare pays for everybody's dialysis. And the 
amount of money they are spending on dialysis is a lot. If they 
could find cures and get the people off dialysis, let alone the 
humanitarian aspect of it, financially it just makes sense. I 
think research really needs to be strongly funded.
    In diabetes and kidney, there are so many people that are 
living with it, but you don't feel bad when you have diabetes 
the first couple of years. About 10 years in, my eyes went. I 
went blind, and my kidney failed in the same week in March of 
1995. That was a bad week. It has been better since. But you 
live with it. Or you die. You make the choice, too. I had to 
make a conscious choice whether I wanted to go on. There are 
people who do not want to do dialysis and just stop. About 3 or 
4 days later, it is done. It is a life choice.
    Without the support of my wife, I would be dead right now. 
She has just been wonderful. She operates the machine. She has 
no medical training, but she trained in this particular 
machine. It is real nice doing it at home. Ten percent of 
kidney patients that do dialysis in the Center are in the 
hospital because of infection, because you have a room with 40 
people, with veins open; and it just spreads. In 4 years I have 
never had an infection because I do it at home. So the home 
dialysis has worked out real well for me.
    I can still do business, kind of. Sometimes I get a little 
rheummy when I am on the phone and on the machine at the same 
time. It is tough, but it can be dealt with.
    And the blindness, the same thing. It can be dealt with. A 
lot of people go, oh, I would never want to be blind. It can be 
dealt with. It is not easy, but it can be dealt with.
    Ms. Berkley. Although Don is the only patient in my 
district, I expect to see the numbers of persons suffering from 
kidney disease rise dramatically in southern Nevada over the 
next several years.
    Not only do I represent the fastest growing seniors 
population in the country who more than any other group suffer 
from higher rates of diabetes, but I also represent a large 
minority Native American, Hispanic and African American 
populations who suffer disproportionately from diabetes, the 
number one cause of ESRD.
    More studies also need to focus on dialysis, and let me 
emphasize dialysis is not a cure for kidney disease. This life-
extending process is strenuous, expensive and comes with severe 
dietary and life-style restrictions, as Mr. Jacobs as 
heretofore testified. Similarly, the formation of a special 
emphasis panel for clinical nephrology, analogous to panels 
formed for clinical oncology and clinical cardiovascular 
sciences is an idea that deserves serious consideration in the 
funding.
    To meet the challenges of the 21st century, researchers 
acknowledge that we cannot simply rely on computers or a few 
select leaders to develop cutting-edge technologies. The future 
state of renal research rests on our ability to invest in the 
most important aspect in any field of medicine, people.
    The pool of expert MD scientists is dwindling at a rate 
that cannot be ignored. I am hopeful that doubling the NIH 
budget over the next 4 years as called for by many of my 
colleagues on both sides of the aisle can and will be achieved. 
Chronic renal failure requires our serious and immediate 
attention. Millions of Americans, like Don, face a gradual 
decline in their quality of life, because of kidney disease. 
But each day, Americans across the country courageously march 
on in this battle against this debilitating disease.
    I urge my colleagues to support them so that we may some 
day find a cure. And I want to thank you for this opportunity 
to have appeared before the subcommittee. I look forward to 
working with you to cure this life-threatening disease. Prior 
to testifying orally, I submitted written comments that are a 
bit more extensive.
    Mr. Porter. Congresswoman Berkley, thank you very much for 
your testimony. I have to say, Mr. Jacobs, that you are a man 
of great courage. My wife has diabetes. She was diagnosed about 
2\1/2\ years ago, and she is not obviously anywhere near that 
10-year period, but you can--the words that you said about it 
starting and not seeming so bad, but getting infinitely worse 
as time goes on is obviously----
    Mr. Jacobs. You just don't know.
    Mr. Porter [continuing]. Is obviously a truth that people 
with diabetes have to face, and I admire the way you persevered 
despite the affliction you have.
    I have a manufacturer in my district of home dialysis 
equipment, so I have been out to see what it can do, and how 
you use it. I have to say it is very impressive technology that 
allows people to carry on, as you are doing, at home and get 
the treatments that they need.
    We are going to do everything we can to provide that 15 
percent increase. It is going to be tough because of the way 
the budget is structured, but we are going to get there. So I 
am glad you are going to help us.
    Ms. Berkley. Well, Chairman Porter, please call upon me, 
anything that I can do to help in this effort. I have only been 
married 3 weeks----
    Mr. Porter. Three weeks.
    Ms. Berkley. Three weeks, but the courtship consisted 
primarily of reading HCFA regulations and touring dialysis 
units and I have become quite knowledgeable on these medical 
areas.
    Mr. Porter. Okay, you are on congressional expert on 
nephrology.
    Ms. Berkley. I am rapidly becoming that. And the stories 
that Larry comes home with are gut-wrenching stories. These 
people need our help. They need it now. And in the long run, it 
will save millions and millions of taxpayers dollars.
    Mr. Porter. Oh, absolutely. What you said about this being, 
I say often, this is the best spent money in all of 
government----
    Ms. Berkley. Yes.
    Mr. Porter [continuing]. Because it pays for itself 
thousands of times over easily. And it is wonderful that you 
are here to advocate for people like Mr. Jacobs and others 
afflicted with the effects on their kidneys of disease.
    Ms. Berkley. Well, thank you very much for taking the time 
to listen to us.
    Mr. Porter. Congratulations on your recent marriage.
    Ms. Berkley. Thank you very much.
    Mr. Jacobs. Thank you.
                              ----------                                


                                          Thursday, April 22, 1999.

     HIV/AIDS PROGRAMS AND 21ST CENTURY COMMUNITY LEARNING CENTERS


                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. Our next witness is Congressman Joseph Crowley 
of New York.
    Mr. Crowley. Thank you. Let me state for the record I am 
only married 6 months, if that makes any difference. I 
appreciate the opportunity.
    Chairman Porter, I want to thank you and the Subcommittee 
on Labor, Health and Human Services, and Education 
Appropriations for giving me this opportunity to testify about 
the; 21st Century Community Learning Centers program proposed 
by Community School District 30 in Queens, New York. I also 
will touch on the problems we face in Queens and the Bronx with 
AIDS and the good work by Steinway Child and Family Services, 
Inc. to address this serious health problem.
    Our communities and schools are facing the fact that most 
families need to have two parents working full-time to provide 
for their children. This leaves as many as 15 million school-
age children without supervision from the time school ends 
until the time their parents arrive home from work.
    After school programs provide school age children whose 
parents both work a supervised environment, providing 
constructive activities. Such a structured setting makes these 
students less likely to use alcohol, drugs and tobacco, commit 
crimes, receive poor grades and ultimately drop out of school. 
No one in my district or in the Nation wants to see children go 
home to empty houses or apartments or, worst yet, to succumb to 
antisocial activities on our streets.
    The 21st Century Community Learning Centers program allows 
schools to address the educational needs of its community 
through after school, weekend and summer programs. After school 
programs enable schools to stay open longer, providing a safe 
place for homework centers, mentoring programs, drug and 
violence prevention programs and recreational activities.
    Additionally, after school programs enhance learning, 
increase community responsibility and decrease youth crime and 
drug use. I fully support increasing the fiscal year 2000 
funding for the 21st Century Community Learning Centers program 
to enable more schools to provide this much needed service to 
our communities.
    In my congressional district, Community School District 30 
is proposing a comprehensive program to address this problem of 
unsupervised school-aged children, and I urge your approval of 
this innovative approach.
    Community School District 30 is a proactive district 
dealing with rapidly growing enrollment, educating many low-
income students and operating at 109 percent of capacity. The 
school board consistently strives to increase the educational 
effectiveness of their schools through updating their resources 
and implementing new programs.
    Over the past several years, the school district has 
applied for two Technology Innovative Challenge grants. While 
they received a positive response, their application was a 
finalist the past 2 years. They did not get grant funding. 
Without assistance for their budget, School District 30 could 
not implement these important programs.
    Community School District 30's after school program would 
create five 21st century community learning systems based in 
the district's five intermediate schools. While the 
intermediate schools would be the hubs for the programs, 
numerous specialized activities would be taking place at the 
elementary schools throughout the district.
    This program would serve 30,000 kindergarten through eighth 
grade students. Additionally, 60,000 community members would be 
served through activities and programs offered by the community 
centers. Of those students, 80 percent are low-income and 25 
percent have limited English proficiency. The after school 
program will operate from 3:00 p.m. through 9:00, Monday 
through Friday, during the school year, and from 10:00 a.m. 
through 8:00 p.m. during the months of July and August.
    The School District 30 has reached out to the organizations 
and businesses in the area to make a true community center. 
They have formalized partnership agreements with LaGuardia 
Community College, Queens Child Guidance Center, Boys and Girls 
Club of Queens, Central Park Leadership Program, Pediatrics 
Asthma Center, Good Will Industries, EPIC, Every Parent 
Influences Children, Inc. and the Museum of Contemporary Art. 
By working with community organizations and businesses, School 
District 30 will have a comprehensive center offering 
everything from literacy classes to parenting workshops to 
science and art appreciation programs.
    I fully support Community School District 30's endeavor, 
and I am asking you and the committee to ensure the 
implementation of this outstanding program. I do not want to 
see this outstanding program fall victim to lack of funds. As a 
Congress, we have committed to protecting and helping our 
children, and this program would do just that. Therefore, I am 
respectfully requesting that $250,000 be set aside in fiscal 
year 2000 appropriations for the after school program of 
Community School District 30 in Queens, New York.
    Now, I just want to move on to a more tragic topic, the 
problem of AIDS and HIV in our communities. We all know the 
battle we face against HIV and AIDS--HIV, the virus that causes 
AIDS. In 1998, the Centers for Disease Control reported that 
665,357 persons were living with the AIDS virus and CDC 
estimates that between 650,000 and 900,000 Americans live with 
the HIV virus. Sadly, so far, 401,028 individuals have not 
survived their battle with AIDS. However, we allknow that due 
to lack of reporting or lack of knowledge on the part of individuals 
and states that these numbers are low representations of the actual 
number of those living with HIV and AIDS.
    In New York, the crisis is particularly acute. In 1998, 
there were 129,545 reported AIDS cases and 80,408 reported AIDS 
deaths. New York City AIDS cases represent over 85 percent of 
the AIDS cases in New York State and 17 percent of national 
total, with 109,392 AIDS cases, and 67,969 AIDS-related deaths 
as reported in 1998.
    My own congressional district spans two boroughs in New 
York City with rapidly growing AIDS cases. In the Bronx, the 
Pelham and Throggs Neck area covered by the 7th Congressional 
District has reported 3,045 AIDS cases and 1,957 deaths due to 
the AIDS virus in 1998.
    In Queens, a borough with a rapidly-growing population, 
there are 6,962 AIDS cases and 4,082 known dead from AIDS-
related causes as reported in 1998. Sadly, this horrible 
disease has disproportionately affected minorities. The 
majority of individuals living with AIDS in New York City are 
people of color. African Americans are more than 8 times as 
likely as whites to have HIV and AIDS, and Hispanics are more 
than 4 times as likely.
    The most stunning fact that I have read comes from the U.S. 
Department of Health and Human Services in October of 1998, 
when they reported that AIDS is the leading killer of black men 
aged 25 to 44 and the second leading cause of death for black 
women age 25 to 44. Together black and Hispanic women present 
one-fourth of all women in the United States, but account for 
more than three-fourths of all AIDS cases amongst women in our 
country.
    I know we are making progress, Mr. Chairman. The number of 
AIDS cases reported each year in Queens and the Bronx is on a 
decline. This is in large part due to the bipartisan commitment 
by the House of Representatives to funding research at NIH and 
programs throughout the Department of Health and Human 
Services.
    Now that we have had breakthroughs in treatment of HIV and 
delaying the onset of full-blown AIDS, we must concentrate more 
of our efforts on prevention and treatment programs. These 
programs are especially important for minorities who so 
disproportionately are affected by this disease.
    In my district, there is an organization that is actively 
reaching out to the community, both in treatment and services 
for AIDS sufferers and preventive education for the community. 
Steinway Child and Family Services, Inc., serves many areas in 
Queens that are devastated by high incidences of AIDS. The 
majority of these people are low-income minorities who have 
historically received little, if any, assistance due to low 
levels of funding.
    Steinway's CAPE program, case management advocacy, 
prevention and education, offers services to people who have 
contracted HIV, increases general public awareness of the 
methods of HIV transmission, and provides targeted outreach 
services to people considered at risk. Steinway's scattered 
site housing program locates dwellings in Queens for homeless 
persons with AIDS and their families.
    It is currently the largest program of its type in the 
country. I toured Steinway's facilities on April 7th of this 
year and was impressed by the quality of their programs and the 
commitment of a diverse staff. Mr. Chairman, I requested that 
$50,000 be set aside in the Health and Human Services fiscal 
year 2000 appropriations to help Steinway expand their CAPE 
program. In doing this, we can help extend the lives of many 
people living with HIV and prevent other youth from contracting 
this deadly virus.
    Mr. Chairman, I request that you include in the official 
hearing record this article that I have with me, from the New 
York Daily News about Steinway and my visit to that facility.
    In conclusion, I would like to thank the subcommittee for 
their consideration and for allowing me the opportunity to 
testify about these two remarkable programs and particularly 
you, Mr. Chairman, for taking your time to be here today. And 
it has probably been a very long day for you.
    [The prepared statement of Representative Joseph Crowley 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Thank you for your testimony, Congressman 
Crowley. Joe, we all have somebody else's district, whose 
district.
    Mr. Crowley. Tom Manton.
    Mr. Porter. Tom Manton. I was trying to consider who that 
might be.
    Mr. Crowley. Noting by the list you had today, you are 
probably doing that quite often in terms of the freshmen that 
are testifying.
    Mr. Porter. Both the 21st Century Learning Centers and HIV/
AIDS programs are very high priorities for the subcommittee, as 
you say, on a bipartisan basis, and we are going to do the very 
best we can to do what you want us to do.
    Mr. Crowley. I know you will. I appreciate that. I 
appreciate all of your efforts and the subcommittee's efforts 
as well. Thank you very much.
    Mr. Porter. Thanks so much.
                              ----------                              

                                          Thursday, April 22, 1999.

                     CONGRESSIONAL DIABETES CAUCUS


                               WITNESSES

HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
HON. GEORGE R. NETHERCUTT, JR., A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF WASHINGTON
    Mr. Porter. Next we have a panel of the Congressional 
Diabetes Caucus represented by Congresswoman Diana DeGette and 
Congressman George Nethercutt, and we are pleased to see both 
of you.
    Mr. Nethercutt. Thank you, Mr. Chairman. Mr. Chairman, 
thank you very much for welcoming us on behalf of the Diabetes 
Caucus. I feel like we have been here before and had the same 
discussion, but it is none the less important now than it was 
then. It is extremely important, we feel, that this 
subcommittee, as it has in the past, address the issue of 
diabetes research funding, especially consistent with the 
Diabetes Research Working Group recommendations.
    I have a prepared statement, I think that the committee has 
it, so I will just summarize very quickly and say this. Two 
years ago when Elizabeth Furse and I presented an approach to 
the committee to fund the Diabetes Research Working Group, you 
and the subcommittee were extremely cooperative and generous in 
putting in the funding so that the research working group could 
conduct its services, and we think that those services have 
been very productive and fruitful and they have come up with a 
very good report. So we thank you as a partner in this effort. 
I know the pressures you are under as an appropriator, I do 
certainly, and I know your subcommittee especially has a 
challenge this year to make it all fit together.
    I think it is clear, as I listen to the former speaker talk 
about numbers, diabetes is extremely critical in terms of the 
incidence of it in our country and around the world; 16 million 
in America, and 135 million worldwide have diabetes. The Kosovo 
situation causes us some concern as a caucus to be sure that 
those poor people who are leaving Kosovo have diabetes 
supplies, and we are working on that, among other things, to 
try to be sure that their needs are met in a pressure 
situation.
    So we think it is all the more important that we try to 
fund adequately research efforts to cure this disease, and I 
know you and the subcommittee will do your very best. We just 
want to urge again how important it is to us in the caucus. We 
have had I think 270 Members, Democrats and Republicans, write 
you and your subcommittee in support of the Diabetes Research 
Working Group.
    So I thank you for the time to appear here today, Mr. 
Chairman, and wish you well in your deliberations on the 
subcommittee and hope that you will do all you can for 
diabetes.
    Mr. Porter. Thank you.
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Chairman, thank 
you for having us back again today. I think that when we 
briefed this committee earlier this month on the findings of 
the Diabetes Research Working Group, your questions were really 
well placed about why this funding and why now.
    For the record, let me just mention a couple of statistics, 
which I know you personally are all too well aware of. Diabetes 
currently affects an estimated 16 million Americans. It is the 
sixth leading cause of death due to disease in the United 
States and the third leading cause among some minority groups.
    It costs the Nation over $105 billion annually, and, 
frankly, with the aging of the baby boom population, the costs 
will only continue to go up. Since I have been working as 
cochair of this caucus, I have heard many heart-breaking 
stories, but I think the worst story I heard was by a woman 
named Pam Fernandez, who is 38 years old. She is younger than 
I. She has had diabetes since she was a child, and she went 
blind at age 21 from diabetes.
    But what was worse, she then lost a kidney to diabetes when 
she was in her late 20s. But what was even worse was she lost 
her brother at age 32 because of complications of diabetes. 
Most Americans don't believe that we have these kinds of side 
effects now because of insulin, but the truth is, insulin gets 
Type 1 diabetics and some Type 2 diabetics only so far.
    What we really need to find for this disease is a cure. And 
the exciting thing about the Diabetes Research Working Group 
report is, as you know, it really gives us channels of 
research. In the past so often what happened was NIH money just 
blindly went out there for research, and people followed 
whatever paths that they could find.
    I had a very illuminating visit to the Jocelyn Research 
Center at Harvard during the recess, and what struck me the 
most about those researchers is no matter what other 
interesting things they find while they are using their NIH 
money to do research, they give those other interesting things 
to other scientists; they focus on diabetes research. And many, 
many of the diabetes researchers throughout the country feel 
that if we make this $827 million commitment to diabetes 
research funding, we will cure Type 1 diabetes and perhaps Type 
2 diabetes within my child's lifetime and your relative's 
lifetime.
    That is why Congress' leadership in this is so important, 
and that is why we believe this committee should have a strong 
focus on appropriating the money so that this research can be 
conducted. Again, Congressman Nethercutt and I really 
appreciate your leadership in this area and the leadership of 
the rest of the committee. And, again, you have both of our 
testimony. But we believe we have got the direction now and we 
can find a cure. Thank you.
    [The prepared statements of Representatives George 
Nethercutt and Diana DeGette follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Well, George and Diana, we appreciate your 
leadership on this. You are the ones that are out in front and 
doing wonderful things to advance the cause. We were just out--
we took the whole subcommittee out to NIH to the campus in 
Bethesda on Tuesday morning, and the first presentation--they 
had 5 different presentations, but the first one was by Francis 
Collins at the Human Genome Research Institute and what he was 
focusing on was finding the genetic bases for diabetes and 
doing a genealogical study of where it occurs in families and 
following it through, and it was fascinating the great progress 
that they are making and how optimistic he and the others were 
that they would be doing exactly what you said, finding a cure 
for the disease, and how close they feel that they are to 
making real progress.
    So obviously we need to get them the resources they need to 
do that. And while it is going to be a very, very tough year 
from a budgetary standpoint, we are going to do our very best 
to do what you want us to do and what we want to do as well. 
Thank you for coming to testify.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you very much.
                              ----------                              

                                          Thursday, April 22, 1999.

                          SCHOOL CONSTRUCTION


                                WITNESS

HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. Next is Congressman Jerrold Nadler of New York.
    Mr. Nadler. Thank you, Mr. Chairman, and thank you for 
changing the appearance time to accommodate a sudden 
development in my schedule.
    I want to thank you for the opportunity to testify before 
you today. I strongly support school modernization and 
construction initiatives, and I urge you to fund these 
initiatives at least at the level requested by the President, 
$22 billion for interest free bonds to build and renovate 
public schools.
    It is imperative that we help local school districts 
improve their educational facilities and keep up with 
skyrocketing school enrollments. This crucial issue, which is 
impeding the ability of America's children to focus on their 
education, needs to be addressed immediately.
    I will submit a copy of the statement, and I won't read the 
full statement. But let me say that the GAO says $112 billion 
is needed nationwide in order to provide adequate conditions 
for our schools. One out of every three schools in America 
needs extensive repair or replacement.
    In my City of New York alone, just in the city, 270 schools 
are in need of new roofs. More than half of our schools are 
over 55 years old, and a quarter of the city's schools still 
have coal burning furnaces. These facts are astonishing and, 
except to the coal miners in Pennsylvania, totally 
unacceptable. As Members of Congress, we would not accept these 
conditions for ourselves, and we shouldn't accept them for 
America's children.
    I urge this committee to support the administration's 
fiscal year 2000 budget proposal of $22 billion for interest 
free bonds as a start of building and renovating America's 
schools----
    Mr. Porter. Congressman Nadler, we don't have jurisdiction 
over that subject matter this year. That would be over in Ways 
and Means, because it is a tax break in effect, that it is not 
appropriated dollars, it is----
    Mr. Nadler. Does that also go for the Qualified Zone 
Academy Bond Program, which I was also going to mention? It is 
also over at Ways and Means?
    Mr. Porter. Yes. We did have it here until the President's 
budget suggested a different approach this year, and it 
basically has gone from our jurisdiction to Ways and Means.
    Mr. Nadler. Well, I am sorry you lost the jurisdiction, as 
I am sure you would have given it appropriate and proper 
consideration.
    Mr. Porter. Well, Bill Thomas is going to--I am not sure--
excuse me, not Bill Thomas--I am not sure whose jurisdiction it 
is over there. But I think----
    Mr. Nadler. We will communicate with them.
    Mr. Porter. Yeah, I think you should impact their decisions 
on these things, because there is going to be a tax bill and 
they could address it, and I think there is a willingness to do 
it as well.
    Mr. Nadler. Thank you very much. We will do that.
    Mr. Porter.  Thank you.
    [The prepared statement of Representative Jerrold Nadler 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 22, 1999.

                               PELL GRANT


                               WITNESSES

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. BERNARD SANDERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VERMONT
    Mr. Porter. I would ask Jim McGovern and Bernie Sanders--I 
have John Lewis on this list also. Are we going to wait or do 
you want to proceed?
    Next we are pleased to welcome Congressman James McGovern 
of Massachusetts and again, Congressman Bernie Sanders of 
Vermont testifying on Pell Grants.
    Mr. McGovern. Thank you, Mr. Chairman. I appreciate the 
opportunity to address this committee on an issue that is very 
important to me, Pell Grants. And I would like to ask the 
Chair's permission to enter the testimony into the record 
submitted by John Lewis----
    Mr. Porter. Yes, it will be received.
    Mr. McGovern [continuing]. Who has also been a very strong 
supporter of Pell Grants.
    [The prepared statement of Representative John Lewis 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. McGovern. It is a bit humbling to come before this 
subcommittee because the chairman, as well as other members of 
the committee, have fought for education funding year after 
difficult year, and your leadership deserves recognition. And I 
want to thank the subcommittee for reversing the long trend in 
the erosion of the value of the Pell Grant by increasing 
appropriations over the past 2 fiscal years.
    I believe that I am addressing a subcommittee, many whose 
members share the concerns that Bernie and I are going to 
express today; however, it is my belief that the Congress still 
has much to do in order to restore the purchasing power of the 
Pell Grant.
    Mr. Chairman, along with my colleagues, Mr. Sanders and Mr. 
Lewis, on March 3rd, I introduced H.R. 959, which would 
increase the maximum Pell Grant award to $6,500, the level 
where Pell Grant funding should be if the program had retained 
its original value. Over 60 of our colleagues have joined us in 
supporting this bill. To raise the Pell Grant to this level 
would require an additional $10.8 billion per year, a 
substantial amount of funds that only serves to underscore how 
far behind we are in fully funding the Pell Grant program.
    When we introduced our bill, we appealed to the House 
Budget Committee to support these increases in the Pell Grant 
program by substantially increasing the education account for 
all education funding, K through 12, and higher education for 
fiscal year 2000 and beyond. The budget resolution approved by 
the House sadly failed to do this.
    I, therefore, come before this subcommittee today with a 
far more modest proposal, to increase the Pell Grant maximal 
Pell Grant award level from its current fiscal year 1999 level 
of $3,125 to the amount of $3,525. This is an overall increase 
of $400 for the maximum award level that would require an 
increase approximately of $1.3 billion from the fiscal year 
1999 appropriation. This is also about 894 million more than 
the President's budget request for fiscal year 2000 funding for 
the Pell Grant program.
    The Pell Grant program is often called the cornerstone of 
Federal assistance for financially needy students, but it is 
more than that. It is the major Federal grant program for 
higher education. Nearly 4 million students received Pell 
Grants for academic year 1998 through 1999. Their average 
family income was about $14,500. It has been my privilege and 
pleasure to meet with many of students and their families from 
my district and my home State of Massachusetts.
    Mr. Chairman, there is no argument within this subcommittee 
on whether the Pell Grant program is a good or a bad program. I 
think you and everybody agrees it is not only a good program, 
but a critical one. I am here to urge you not only to consider 
the President's request for increased Pell Grant funding, but 
to go even further in bringing the Pell up to the level where 
it should be and needs to be. The increase is supported--this 
increase is supported by all the major education associations, 
some of whom are here today. the Association of Jesuit Colleges 
and Universities have a representative in the audience here 
today, and many of these associations have testified before you 
over the past days of public hearings.
    It is supported by the business community, by police 
officers, social service organizations, and the students and 
families of my district and my State and I am sure from your 
district and your State as well. And I don't pretend that the 
work of this subcommittee is easy when it comes to drafting 
this particular appropriations bill. I realize that funding and 
offsets are difficult to find.
    In addition to the Pell Grant program, many other higher 
education programs like Perkins loans and TRIO and graduate 
assistance programs also need to be substantially increased. I 
also firmly believe that we need to make investment in 
education America's number one priority and we cannot afford to 
take money from K through 12 programs to pay for higher 
education funding, nor can we sacrifice higher education 
funding to fund essential elementary and secondary school 
programs.
    I would be happy to work with the chairman and members of 
the committee to try to identify ways to make these funds 
available, and I am sure I speak for my colleagues, Mr. Sanders 
and Mr. Lewis as well.
    If I might take just one more moment, Mr. Chairman, I also 
want to extend my personal appreciation to the United Negro 
College Fund President Bill Gray, who yesterday testified, not 
only in support of increased Pell Grant funding, but also for 
funds to initiate the academic achievement incentive grant 
program, which is a program near to my own heart.
    And I would also like permission to submit for the record 
additional testimony regarding two initiatives that are in my 
district seeking HHS funding and which your staff has the 
testimony for. So thank you.
    [The prepared statement of Representative James McGovern 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Those would be received in the record. Bernie.
    Mr. Sanders. Thank you again, Mr. Chairman. And with your 
permission, I would like to present my paper to the staff. You 
have a difficult job, and I think Jim and I recognize that the 
people come before you with some very important proposals and 
there is not an unlimited sum of money.
    Let me just briefly pick up on what Jim was saying and say 
this. I suspect that you are aware that in a global economy we 
are competing against countries in Europe, which charge 
virtually no tuition and no expense for college education in 
their countries. You are aware of that throughout Europe, 
Scandinavia. I was in Denmark recently. They have a very strong 
educational system. It costs nothing to go to college in 
Denmark. Until recently England gave out stipends to their 
students.
    I happen to think very strongly that education is an 
investment, not an expenditure. I think it deals with a whole 
lot of other problems, not only in higher education. When you 
have kids in the fourth grade who are low-income kids who do 
not believe they are ever going to get to college, that impacts 
their attitude towards education in the fourth and fifth grade. 
If they know that if they do their work well, there is money 
available for them to get to college, you have a profound 
impact on them when they are in the fourth and fifth grade. So 
this is important stuff.
    I would be not honest to tell you that I hope the day will 
come where college education is available to every man, woman 
and child in this country, regardless of the income. I think 
Jim and I, as he indicated, have supported doubling the Pell 
Grants, and I don't hesitate for a moment to do that. I think 
that is a good priority. What we are asking today is far more 
conservative.
    What is going on now is that because of limited sums of 
money, it turns out that 54 percent of Pell Grant recipients go 
to families with incomes of less than $10,000. Those are the 
very poorest people in our country, and I am not arguing with 
that. But I don't have to argue with you to tell you that 
people making 20- or $30,000 a year are also having a terribly 
difficult time affording college. You know kids in your 
district who leave college or graduate school are 30, 40, 
$50,000 in debt.
    So the issue now of expanding appropriations for Pell 
Grants means that we increase the individual grant and we also 
open it up more to the middle class. Now how did you go about 
doing that? And I speak only for myself, I don't know if Jim 
wants to associate himself with this. But I think it would be 
unfortunate if we rob Peter to pay Paul. I mean Pell Grants are 
very important, other educational programs are also important, 
and I am not here to get involved in that discussion.
    I would urge you very strongly. I think you will have 
support from the American people, and I think you will have 
support hopefully from the President. I know for me and for 
many of us, break the budget cap, come up with some realistic--
I mean when we are talking about--I don't want to get into a 
polemical debate--when we are talking about $1.7 trillion in 
proposed tax breaks over the next 15 years, the idea of putting 
more money into Pell Grants I believe right now will receive 
popular support throughout this country, I would hope in the 
White House and I expect by many Members of Congress.
    You are sometimes asked to do impossible tasks. We asked 
you 5 minutes ago to fund the Cancer Registry, which is 
terribly important. We are asking you right now to fund the 
Pell Grant program. There is a limit to what you can do with 
the cap that you have, and I would hope that you will present a 
responsible bill which will begin addressing some of the very 
serious problems facing this country, including Pell Grants. 
And if you go above the cap, go above the cap and many of us 
will support you doing that.
    [The prepared statement of Representative Bernie Sanders 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. McGovern. Mr. Chairman, I do want to associate myself 
with the remarks of Mr. Sanders.
    Mr. Porter. Every bit of it?
    Mr. McGovern. Every bit of it, every word.
    Mr. Porter. I would agree with almost all of it, except 
when he said it doesn't cost anybody in Europe anything to go 
to school. Obviously, it costs a lot to go to school. They just 
pay it a different way.
    Mr. Sanders. That is obviously right.
    Mr. Porter. First of all, let me say that, on a bipartisan 
basis, members of the subcommittee are very strongly supportive 
of raising Pell Grants. Let me express a grant concern I have 
because our intention in doing that every year is to expand 
access so that people like the ones you are describing can get 
a chance to go to school.
    The difficulty has been, and I am going to take this moment 
just to bang on the table a little bit and say, that what 
happens is that tuition rises to meet it. Tuition last year--
the last reporting period--I am not sure it was last year--
tuition costs rose about twice as fast as inflation in our 
society.
    Now it doesn't do any good for us to put more money into 
Pell Grants if it is simply going to be siphoned off with 
higher expenses. So somehow the institutions of higher learning 
in our country have to do their part to help get access for 
people who need access to the educational system and not simply 
absorb the money that is provided by the taxpayers.
    So I would like to work with you on finding out a way that 
we can do this so we are getting more--we are trying to pay for 
it.
    Breaking the budget caps--I have been saying publicly, 
Bernie, for months now that we have to adjust the caps to 
reflect the realities of where we are and what we need to do. I 
have to say that nobody's been particularly listening. We can't 
break the budget caps by simply writing a bill that goes over 
them, because that leaves a point of order to lie against 
anything that we do. And you can't--under the Budget Act, you 
can't succeed.
    However, we could, if we set our minds to do it, and the 
President might be forthcoming on this, and that is make an 
adjustment in the budget caps, put it in the supplemental, pass 
it now so that we are all on the same wavelength and allow us 
to pass a bill. Believe me, I don't think that I can draw a 
bill under the budget caps that I can even pass in my own 
subcommittee.
    Let us face it, we are already spending $20 billion more 
than where the budget caps would have us spend. So if I have 
got an allocation that I think I would get under the budget 
resolution that is passed, I am going to have to cut $5 billion 
of spending in my bill, cut $5 billion.
    How am I going to cut $5 billion of spending and pass the 
bill? I am not going to be able to do it, because this economy 
is performing extremely well. We are way ahead of where we 
thought we would be in this time, in terms of bringing the 
deficit under control. We have costs in Kosovo that are huge 
and getting larger every day, and we simply are going to have 
to deal with reality.
    So I agree with what you are saying. We need to deal with 
this up front now and not put it off until sometime later in 
the year.
    I doubt if there is any Member of Congress, maybe a few, 
who believe that we will in the end not adjust the budget caps. 
We will. We have to. So let us work and see if we can get this 
thing done honestly, upfront and directly. I think the American 
people would definitely understand, frankly. So I guess I am 
agreeing with you.
    Mr. Sanders. Please don't hesitate to call us on, let us 
work together on that.
    Mr. McGovern. I am not here to defend the colleges and 
universities and their tuition, because I do agree that they 
need to do more to try to help work with us to make college 
education more accessible. But I will tell you that in my State 
of Massachusetts there are a number of schools that are taking 
some pretty dramatic steps which deserve to be highlighted and 
applauded, trying to provide education to people who otherwise 
would not be able to afford it.
    And I do want to agree with one principle. I think it 
should be what Bernie outlined, and I think it should be a 
principle that we could all agree on. I really do think that 
every single person in this country who wants a college 
education who can get into college should be able to get one, 
and they should not not go because they don't have the 
resources to be able to afford it.
    And we may not get to the point of where it is totally 
subsidized--and I am not even making that case here today--but 
we should be able to make sure that the access is there. And, 
quite frankly, in too many cases, and I see it every week when 
I go home, the access is not there, the people just can't 
afford to go.
    Mr. Porter. I think we all are on the same wavelength on 
that. Thank you both very much.
                              ----------                              

                                          Thursday, April 22, 1999.

                          IMPACT AID COALITION


                               WITNESSES

HON. LEE TERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA
HON. JOHN THUNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    DAKOTA
HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    DAKOTA
HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Porter. Next, we have a panel on Impact Aid Coalition, 
Congressman Lee Terry of Nebraska, Congressman John Thune of 
South Dakota, Congressman Earl Pomeroy of North Dakota and 
Congressman, Chet Edwards of Texas.
    Thank you, gentlemen. Good to see all of you. Thank you for 
being here. Please proceed.
    Mr. Thune. Well, I am not shy. I will begin, Mr. Chairman.
    Thank you for your indulgence in sitting through a lot of 
testimony today, and I appreciate your allowing us to testify 
before your subcommittee on something that is very important to 
me and to the students of my State of South Dakota and that is 
the Impact Aid Program.
    Last year, this vital education program provided 74 percent 
of the funds used to educate federally connected students in 
South Dakota. It is safe to say that my congressional district, 
which is the entire State of South Dakota, relies heavily on 
the Impact Aid Program to provide a quality public education to 
its students.
    I would like to share with you the impact the program has 
had on three of the school districts in my State that rely on 
this program. As you know, the Impact Aid Program makes 
distinctions among types of students and where they live, 
whether they are military, Native American, or students 
federally connected through the occupation of a parent.
    South Dakota is unique in that it has all three types of 
students. Not only is it home to Ellsworth Air Force Base, home 
of the B-1 bomber, but nearly \1/3\ of the State is held in 
trust by the Federal Government for American Indian tribes. 
South Dakota is also home to the Black Hills National Forest 
and Badlands National Park, as well as thousands of acres of 
Federal grasslands.
    The military significantly impacts the western half of 
South Dakota through Ellsworth Air Force Base, located near 
Rapid City. Ellsworth Air Force Base has the second largest 
installation of B-1 bombers in the Nation. That is a tremendous 
presence for a rural State like South Dakota. Ellsworth is one 
of the largest employers in South Dakota, employing near 4,000 
people on base and supporting 2,000 other jobs throughout the 
region.
    Education for all the children associated with the base is 
provided through the Douglas School District. Half of the 
district's 2,400 students are children who live on or have 
parents working at Ellsworth, which qualifies the district for 
additional funds through its designation as a heavily impacted 
district. Without Impact Aid, the school district could not 
afford to educate these children.
    By far the largest population of federally impacted 
children in South Dakota are those residing on or near Indian 
reservations. South Dakota is home for seven different American 
Indian tribes.
    You may already know that two of the Nation's most 
impoverished counties are in South Dakota. They comprise the 
larger portions of the Rosebud and Pine Ridge Reservations.
    The unemployment, poor health conditions and visible 
poverty on these reservations is staggering. For many children, 
education is the only hope they have of escaping this 
continuing cycle of poverty.
    As you well know, the Federal Government made, through 
treaties with the Indian nations, a promise to educate Indian 
children. Although the Bureau of Indian Affairs supports some 
reservation schools, most schools on reservations rely on local 
taxes. Without Impact Aid, we cannot live up to our promise to 
give these children hope.
    I am extremely proud of the schools in South Dakota. My 
family recently moved back to South Dakota so our two daughters 
could attend public school there. The parents, teachers and 
administrators of our State truly have the best interests of 
our students in mind. Without Impact Aid funding, the quality, 
education for thousands of students like them would undoubtedly 
be sacrificed; and I don't want to see that happen. I commend 
the teachers and the administrators in South Dakota who prove 
year after year they have make scarce dollars go such a long 
way.
    Mr. Chairman, the Impact Aid Program is worthy of your 
attention. In South Dakota, funds from this program have meant 
the difference between bankruptcy and keeping schools open for 
another year. I respectfully request that this subcommittee 
show teachers and administrators and students their support by 
providing $944 million in funding for the Impact Aid Program.
    In addition, I would request the subcommittee include the 
pilot program for heavily impacted districts in the Labor HHS 
Ed appropriations bill again this year. Over 20 school 
districts across the Nation and eight in South Dakota are 
considered to be heavily impacted by the presence of the 
Federal Government. This designation qualifies them for 
additional Impact Aid funds. Last year, the omnibus 
appropriations bill included a provision to significantly 
expedite the payments to these districts.
    The administrators of heavily impacted districts in South 
Dakota have let me know through letters, phone calls and visits 
how pleased they are with the new payment system. The pilot 
payment system gave them the ability to meet their budgetary 
obligations instead of scrambling for loans to cover teacher 
salaries and operating costs as they have in years past.
    The Impact Aid Program was created by the Federal 
Government to reimburse school districts for the tax revenue 
lost due to a Federal presence. It is imperative then for the 
Federal Government to live up to its responsibility to these 
Federally impacted school districts. The Federal Government 
presence has not diminished from when the program was created. 
In fact, the need is the greater than ever.
    I again request that you fund the Impact Aid Program at 
$944 million and help ensure that the great teachers and 
administrators in South Dakota and across the Nation can 
continue to provide a great education to our students.
    Thank you for your consideration.
    Mr. Porter. Thank you, John.
    The prepared statement of Representative John Thune 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Terry. I will go next.
    Thank you, Mr. Chairman.
    I share today with the other witnesses this very strong 
belief in the importance of the Impact Aid Program. This is 
truly ``dollars to the classroom'' in its purest form. Funds 
are allocated to schools based on the formula. Local officials 
then decide how to spend the funds for their students.
    And, by the way, I represent the Second District of 
Nebraska, which is the home of Offutt Air Force Base. That 
employs a few more people than Mr. Thune's base in South 
Dakota, about 14,000 families, one of the largest on-base 
housing developments, and heavily impacts the Bellevue School 
District, to the point where the burden is on those that live 
outside the district, and they can't absorb this type of a 
loss.
    So I join my colleagues in seeking your support for Impact 
Aid funding the full $944 million in fiscal year 2000.
    I also want to bring to your attention, use this 
opportunity, to discuss some problems with the administration 
of the Impact Aid Program, just to lay that out. Impact Aid is 
not an education program in the normal sense. It is actually a 
revenue sharing or tax reallocation or I call it in lieu of tax 
payment. But Impact Aid has suffered within the Department of 
Education from low priority and sloppy administration.
    Let me highlight to you for some of the those problems.
    The budget is the first problem. When Impact Aid competes 
for funding with substantive education initiatives, it comes 
out at the bottom of the priority list. The President's fiscal 
year 2000 budget recommends cutting Impact Aid $128 million. 
This recommendation is unconscionable. Many of these school 
districts have no choice but to absorb that loss if Congress 
does not ride to the rescue as it has done in the past.
    The second problem is a lack of leadership. A part-time 
administrator heads the Impact Aid Program at the Department of 
Education. Only one-fifth of the individual's time is actually 
spent on Impact Aid.
    Program administration is the next problem, and it can only 
be described as abysmal. Some school districts were still 
waiting for fiscal 1999 funds 6 months after they were 
appropriated last October and 18 months after the Department 
had most of the data needed to perform the required 
calculations.
    Chronic computer breakdowns, data entry errors and 
incorrect calculations often delay the processing of Impact Aid 
grants to schools. The Department of Education's computers 
often are not compatible with the Treasury Department's system 
that issues these payments or even with other Education 
Department computers.
    For example, in Santee, Nebraska, an Indian tribe was 
initially ruled ineligible for Impact Aid this year because its 
percentage of qualifying students was too low. The only problem 
was the Department had entered the student body size as being 
more than 8,000, rather than the correct total of 400.
    Errors such as this means that the school systems must do 
without while waiting for their funds. They may have the right 
to borrow the funds and pay interest or, even worse, deplete 
their general treasuries. That is wrong.
    The private National Association of Federally Impacted 
Schools, NAFIS, makes Impact Aid computations more quickly and 
accurately than the Department of Education. They successfully 
do it in a month or two, in a fraction of the time that the 
Department of Education is able to do it.
    Mr. Chairman, I believe this must change. I believe what 
should be changed is the entity that administers the program. 
That is why I have introduced H.R. 1206, the Impact Aid 
Revitalization Act. This bill transfers Impact Aid Program from 
the Department of Education to the Treasury. Let us move it to 
an agency that is not predisposed against it.
    Mr. Chairman, what is more important than the quality of 
life of our military families and the education of their 
children? Those in our Armed Forces, as well as Native 
Americans, need to know that the Federal Government is doing 
right by the school systems that teach their children.
    Impact Aid is a commitment that we must keep, and I am 
hopeful that the authorizing committee will move it to a better 
home and will fully fund it for our children.
    With your approval, I would like to submit for the hearing 
record some information highlighting specific school districts 
that use Impact Aid.
    Mr. Porter. That will be received.
    Mr. Terry. Thank you, Mr. Chairman.
    Mr. Porter. Thank you.
    [The prepared statement of Representative Lee Terry 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Pomeroy. Mr. Chairman, I have considerable appreciation 
of the frustration Mr. Terry speaks of.
    There is one thing I would observe as terribly right about 
Impact Aid being under the Department of Education. That is, it 
is under your subcommittee, your leadership as chairman of this 
subcommittee, and long before you were chairman, relative to 
adequate Impact Aid funding was extremely important.
    The White House, the majority, the minority, all of us like 
to talk about new programs for education. It is not quite so 
much fun to talk about simply committing hard-pressed dollars 
into the existing commitments of the Federal Government 
relative to public education in this country, and that is 
Impact Aid. Because, after all, when the Federal Government has 
property that isn't generating property tax base locally for 
the funding of schools, we just simply have to take care of it 
here. That has not always been done very well.
    I want to particularly point your attention to the 
construction component of the program, which I think is in the 
most dire shape of all, section 8007. This section years ago, 
late in the 1980s, was funded at about the $18-20 million range 
annually. It was whacked back to $7 million, about $8 million, 
the better part of the decade of the 1990s and has languished 
at that low level ever since. Last year, $7 million was 
appropriated; and two senators were able to earmark about half 
of it to build new schools in their area. Clearly, the mob that 
left was woefully inadequate for the challenges of our schools.
    I have got a couple of real glaring situations I would like 
to point out to you.
    In Grand Forks, we have air quality issues on the schools 
located on the Grand Forks Air Force Base that present very 
serious ventilation issues. These were schools constructed in 
the late 1950s when the bases were built, not substantially 
rehabbed since. It would cost $800,000 just to address the air 
quality issues.
    In North Dakota, they are regulating heat in these schools 
by leaving the windows open on a winter day. Let me tell you, 
you leave the door or window open on a winter day in North 
Dakota, you are not getting even heat in the room. It is a 
terrible situation, but that is the way they are forced to try 
and deal with it. $800,000 to fix in just one school--the 
entire school district gets $40,000 under this program as one 
of the most heavily Impact Aid schools in the country.
    Another one, leaving a picture is a thousand words. We have 
a 90-second video illustrating the problem of Cannonball 
Elementary, a school on an Indian reservation. It is a public 
school, but there is virtually no private property tax base 
available for the funding of this school. Here is the situation 
at this school on the reservation property.
    Mr. Chairman, I have been in that school. They are 
beautiful children and very, very dedicated teachers. I have a 
longer version of that video I would like to submit for the 
record.
    Clearly, it is an exasperating situation for all concerned. 
We owe those kids a good deal better than that.
    I will be introducing, along with Congressman Hayworth, and 
Senators Bachus and Hagel, a separate Impact Aid construction 
program.
    Section 8007 funds have simply been spread way too thinly 
to adequately address the urgent construction needs. It is one 
area where usually, if you get a problem like that in your 
district, somehow you can figure out somewhere, some Federal 
programs something to fix it. We have looked everywhere. 
Basically, it just comes right back to the fact that this is an 
Impact Aid school; the construction account for Impact Aid has 
ceased to be adequately funded more than a decade ago; and, as 
a result, we have a deteriorating situation.
    Perhaps the very worst thing about that video is that it is 
not a stand-alone problem that we need to address. It is, I 
believe, reflective of Impact Aid school construction issues 
generally.
    Thank you for listening, Mr. Chairman.
    Mr. Porter. Thank you.
    [The prepared statement of Representative Earl Pomeroy 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Edwards. Mr. Chairman, thank you for allowing this 
panel to come speak to you about the Impact Aid Program. I 
welcome the opportunity to speak with my colleagues who 
together represent well over 100 members of the bipartisan 
Impact Aid Coalition now.
    The single most important thing, I would say or any of us 
have said together, is very simple. It is, thank you for what 
you have done. 1.4 million children--aside from everything else 
you have done in education, they are getting a much better 
education today than they would have gotten without your 
leadership. That interprets into over 17 million children, if 
you include the children at those same schools that benefit.
    You know, it has been said that one person with courage 
makes a majority; and never has that example been more true 
than your leadership on this subcommittee for the program of 
Impact Aid. And we all want to continue to say thank you and 
never take for granted the hard work it has taken and the tough 
decisions you have had to make to make that possible.
    I agree with many of Mr. Terry's concerns about the 
Department of Education. I have even met with the woman since 
hearing your first testimony--met with the woman who oversees 
the program, and I hope we can straighten up the 
administration.
    I would say to my friend, and we have not talked about this 
at length, my personal opinion, the Treasury, Postal 
Appropriation Subcommittee would not have nearly the commitment 
to education that this subcommittee and its leadership has had, 
and we can work on the administration. It is the 
appropriation--good administration without the dollars doesn't 
accomplish a lot. But I think you are raising these problems in 
a way that no one has in recent years. It is going to really--
whether your bill passes or not, it is going to help the 
improvement of the administration of the program; and I look 
forward to working with you.
    Mr. Chairman, I would say two things perhaps. I would say I 
don't think any of us should ever take for granted that there 
is an easy faucet that funds the kinds of dollars you put into 
Impact Aid. And I believe every year we all ought to stop and 
think, is the group we are trying to help really deserving the 
support in light of our problems?
    And others have spoken eloquently about the needs of Native 
Americans. I speak as a representative of the largest Army--
populated Army installation in the world, and I can tell you 
those school districts already charge a dollar and a half for a 
$100 evaluation for their property taxes. Without Impact Aid, 
that would up another 84 cents. It legally couldn't happen in 
Texas.
    The bottom line is you would undermine the education--our 
Congress would undermine the education of thousands of military 
children if we ever did away with the Impact Aid Program. I 
don't know how we put a price on the sacrifices made by 
military children and their parents. You know, how do you put a 
price on a kid having to move 10 or 12 times sometimes before 
they graduate from high school and having to move right before 
their senior year? And how do we put a price on a kid who is 
not wondering about what he is going to do this weekend but 
whether his mom, who is serving in Bosnia today, is going to 
make it back alive or not?
    I saw a young girl who saw her mother for the first time 
through teleconferencing just recently--the first time in 2 
months. I guess the truth is we can't put a price on that. 
Thank goodness, with your leadership, we have borne the cost-
sharing of giving those children a quality education.
    And I thought a lot, since seeing this young girl and 
meeting her and watching her talk to her mother and watching 
their interaction, you know, what is it that I want to tell her 
mother while she is away doing her duty for her country? And I 
think it would be, while you are doing what our country has 
asked you to do, you are serving your Nation, we are going to 
see that your daughter back home gets a first-class education. 
What a wonderful gift, not full repayment, but what a wonderful 
gift to people who have been willing to give so much to us.
    And I know I am preaching to the choir when I talk about 
these things, because of your leadership on this. No one of us 
in this panel can begin to match your record of what you have 
done.
    And so I will end as I began. Thank you on behalf of all of 
us for what you have done.
    And I am sorry, one other brief, technical note. The 
section F program pilot program I think has worked tremendously 
well, and I never knew how difficult it was to try to manage a 
large military installation area school district. But the 
forces being deployed and going off and training and the 
remaining spouse--a young wife at 20 takes their child 
somewhere--or 25--takes their child home. It is hard to plan 
ahead for your budget. If you add to that Impact Aid money in 
the past, before this program to heavily impact the districts, 
sometimes doesn't come for a year or a year and a half, 
literally we were paralyzing administrators and school boards' 
abilities to plan for those children's education.
    So thank you for what you did in the bill last year. I 
think it has been tremendously successful. Heavily impacted 
schools I think are almost unanimous in their appreciation of 
how well this has worked. And I hope we can continue that in 
this legislation.
    Mr. Porter. Well, Chet and all of you, thank you for the 
generous words. As you know, this is enlightened self-interest 
that leads me to----
    Mr. Edwards. Very enlightened.
    Mr. Porter [continuing]. Agree with all of you.
    I have in my district the largest primary naval training 
facility in the world--you wouldn't think so on Lake Michigan, 
but we do--with probably 30,000 people on the base at any one 
time. And section F, it is interesting because this is 
certainly a bipartisan--you know, there is two from each, on 
this panel, but this is a bipartisan matter.
    I was a minority member of this subcommittee when my school 
district in North Chicago outside the Great Lakes Naval 
Training Center was actually--it actually filed for bankruptcy. 
It was that bad. And Bill Natcher, who absolutely hated putting 
authorizing language on his appropriation bill, allowed me to 
write section F and to put it into the appropriations bill as 
permanent law, which was just amazing.
    And we addressed that problem. The school district is 
healthy now; and, as a result of the testimony of this panel 
and others regarding the administration of the program, I think 
we have managed to turn around the delays that we have seen in 
the payouts. And we will continue to work on that.
    I say often, and I would say again, even though 
appropriators don't like to say they would give up 
jurisdiction, this program ought to be an entitlement program. 
This is a program where there is obligation of the Federal 
Government to pay. And not whether we have the allocations that 
we can do it. It ought to be simply mandatory payment every 
time; and, unfortunately, it isn't.
    Lee, let me ask you, I have suggested, and you are correct 
that, obviously, it is an Education program that is kind of an 
orphan over in the Department. And I have suggested that what 
it really ought to do is move over to the Armed Services 
Subcommittee. Because most of, if not all, certainly, but a 
large proportion of the children who are served by the program 
are children of military personnel; and the Defense Department 
ought to be concerned about the quality of life of their 
personnel and their offspring. They don't seem to want to write 
it.
    Why did you use Treasury and what do you think you can 
accomplish with them?
    Mr. Terry. The efficiency of an agency that would simply be 
the check-writing entity and then use the private entity of 
NAFIS to do the administrative aspects of it.
    But I have to agree with you. In that respect, Mr. 
Chairman, I was actually surprised when I learned the details 
of this program, that it wasn't under the Armed Services, that 
it was under the Department of Education, and then more 
frustrated when I learned the problems of the administration of 
the program, as well as the yearly battles.
    And not only is it a nonpartisan effort joined with you in 
this committee in trying to do the right thing here and ride to 
the rescue, but, unfortunately, it has been a battle with a lot 
of different administrations, too. So, you know, the first part 
of your comments are right at home, too.
    Mr. Porter. I suspect most of you were in the room when I 
was talking to the last panel about budget caps.
    Mr. Terry. Yes.
    Mr. Porter. But I will repeat. I will not be able to 
perhaps even mark up a bill if we don't make some reasonable 
adjustment in the caps, because we are spending so much more 
than the caps allow us to spend this year. We are about $20 
billion above the caps, and we would have to make $5 billion of 
cuts. I don't know--I could make $5 billion of cuts, but I 
could never pass the bill.
    And I will just urge all Members of Congress to take a very 
hard look at this. And while it is wonderful to stand on 
principle that we have put into the law, we have already 
breached it, unfortunately. We have breached it and called a 
lot of things emergencies, we forward funded a lot in the final 
negotiations between the White House and the Congress last 
year, and we are so far above the caps that saying we are going 
to stick with them makes it impossible to pass legislation. And 
under those circumstances, I think discretion, being the better 
part of valor--I am not sitting here saying, let us remove the 
caps. I am simply saying, let us adjust them in accordance with 
the realities of our economy and the great progress on the 
deficit and in accordance with the needs that we face in 
programs just like this one.
    Mr. Pomeroy. Mr. Chairman, I don't think there is much 
served by all of us operating under a fiction that we are going 
to actually produce an appropriations bill under this budget 
until the revenue estimates come out in July, and we will go, 
oh, boy, we have a little more room to work. We are going to 
waste about 3 months.
    I think you have been a leader in being candid, basically 
telling it like it is, and I think we can save some productive 
time in this Congress if more of us, both parties, followed 
your example on that one.
    Mr. Porter. Earl, let me say one other thing--two points.
    The first one, yes, we can get an allocation, not be able 
to even mark it up in subcommittee or, if not in subcommittee, 
not in full committee or if in full committee like last year, 
it would never go to the floor. I am here because I believe in 
democracy. I believe that the Congress has a right to shape the 
bill. And I don't want to be czar of these three departments in 
terms of their funding on the House side and Arlen Specter the 
same on the other side. I want Congress to deal with this and 
have a chance to amend and shape it and put the bill where it 
ought to be.
    Secondly, and Senator Stevens said this very well as we 
began the negotiations last year on this omnibus bill. He said, 
it isn't right that any administration sit there at the table 
with the legislative branch and draw the legislation. That is 
not our system. They are to act on what we offer them. They are 
not to shape the whole thing.
    And he said, it is just absolutely wrong. It is not our 
system. We ought to send up bills. If the administration 
doesn't like them, veto them, fine; and we will work with them 
after that.
    But to have them sitting at the table is just not the 
system that was devised by the founders of this country. It is 
wrong, and it should never happen again. I guarantee you that 
if we stick with this fiction at this point we are going to be 
sitting at the table on three or four of the major bills at 
least and doing the same darn thing we did last year.
    It is wrong. It is not democracy. We ought to be honest 
enough to look at this thing and say, let us do what is right 
now and get the thing addressed.
    Mr. Edwards. Mr. Chairman, if I can say in a 
bipartisanmanner, someone who voted for the 1997 budget bill, we ought 
to be willing to accept heat on both sides of the aisle. And I, as my 
colleague has said, admire your courage in speaking out and telling 
what I think is the truth that people will recognize either today or in 
the months ahead.
    And I just have to add to that note and then I will be 
supportive of that effort under your leadership. I have to add 
that this century, as we are about to finish it, this will be 
the last--I guess the first budget of the new century, in 
effect. I think it will be known as a century that put a man on 
the moon. But I think, more important than that, it will be 
known as a century where the life expectancy of a human being 
born in this country will have increased by an entire 
generation.
    And what an incredible accomplishment if you have been at 
the first of this century predicting we could--through health 
care research and private-public sector cooperation, we would 
increase one's life expectancy to the point of maybe I will be 
able to meet my grandchildren as an older pappa. I don't know 
how you put a value on that.
    So I want to express my thanks for what you have done on 
that. The health and education together, you don't get anything 
more important than that. And, for those reasons, I will gladly 
support you in your effort.
    Mr. Porter. Can I add one other thing, please----
    Mr. Edwards. Yes.
    Mr. Porter [continuing]. And that is this. When we are 
talking about adjusting the caps, we are talking about an 
adjustment at the margin that probably would be less than 2 
percent of the total spending for the Federal Government. We 
are spending $1,800 billion a year roughly, and we are talking 
about perhaps--with the $20 billion that is already being 
spent, we are probably talking about $30 or $33 or $34 billion. 
The President's budget is 13 above that.
    So let us say we are talking about $13 billion. That is a 
lot of money, but it is less than 2 percent of the money that 
we are spending. So the argument is very much below the margin 
in the first place.
    The second point I didn't make earlier, but I do want to 
make, is that if we don't adjust the caps now to reflect an 
honest position that each side, the Republicans and Democrats, 
Congress and the White House can accept, we will end up in this 
negotiation without any limit. There won't be anything to 
restrain. And Members will say, we have been here; we have been 
working at this thing a long time; we want to go home. And the 
President says, we want more money, more money; and there will 
be no restraint.
    We will simply end up breaking the caps at what everybody 
wants to spend on their favorite program. That is what happened 
last year. We can't allow that to happen again. We have got to 
have a ceiling that we can live with and is realistic and then 
work within that to provide the priorities.
    Thank you. Thank you for being here, thank you for 
listening, and thank you for your leadership on this issue.
                                          Thursday, April 29, 1999.

                  CHILDREN'S BRAIN DISEASES FOUNDATION

                                WITNESS

DR. J. ALFRED RIDER, M.D., PH.D., PRESIDENT
    Mr. Cunningham [presiding]. Good morning. The hearing is in 
session. I would like to first welcome all of the guests. We 
will have Dr. Alfred Rider, M.D., representing Children's Brain 
Diseases Foundation, come up first.
    Then I would tell all the witnesses, you come all this way 
and you have 5 minutes. I understand that. I have testified 
myself, and wish I had more than 5 minutes.
    As you can see, we have a lot of witnesses, and we will try 
and keep this moving. We have a vote this afternoon which I 
have to participate in, on the supplemental for Kosovo. We are 
going to try and keep that going.
    I see there are some old-timers here who have testified 
before, Doctor. You will be able to submit your entire 
testimony for the record. That will go into the actual 
Congressional Record, and Members have access to read that for 
individual items. So if you want to add things to it, you will 
have until close of business today. My boss here just told me 
that we can do that.
    With that, Dr. Rider, you are recognized for 5 minutes.
    Dr. Rider. Thank you, Mr. Cunningham. I am Dr. J. Alfred 
Rider, president of the board of trustees of the Children's 
Brain Diseases Foundation. I have with me today Mr. Michael 
Joyce, a member of our board of trustees, his wife, Rosemarie, 
and their twins, Ian and Joey, who have an infantile form of 
Batten disease.
    I am speaking on behalf of the Children's Brain Diseases 
Foundation and thousands of children and their families who are 
affected by Batten disease. Specifically, I would like to 
address the need for continued funding at the previous 1994 
level, plus an increase amounting to approximately 4.1 percent 
since then or a total of $3.6 million. This is less than the 
approximately 6 percent increase that the NINDS has received 
yearly during this same time.
    Batten disease is a neurological disorder affecting the 
brains of infants, children, and young adults. It occurs once 
in approximately every 12,500 birth. There are approximately 
440,000 carriers of this disorder in the United States. It is 
the most common neuro-genetic storage disease in children.
    The major impetus to research occurred as a direct result 
of the perseverance and interest that began to achieve fruition 
in 1991 when, for the first time, this committee directed the 
National Institute of Neurological Disease and Stroke to expand 
its research in this direction.
    As a consequence, they actively solicited research grants 
and established a special Batten disease grant review 
committee. A significant increase in money was spent on Batten 
disease research. For example, in 1994, $3.27 million was 
spent. As a direct result of this, monumental efforts have 
occurred.
    In 1995, the gene defects for the infantile and juvenile 
forms were identified; in 1996, the gene for the late classical 
infantile form was identified. Finally, in 1997, the single 
protein that is absent in late infantile form has been 
identified. It is now possible to make an absolutely definitive 
diagnosis and determine carriers in all three childhood forms 
by a simple blood test and to prevent the disease by genetic 
counseling, including in vitro fertilization.
    In spite of these unprecedented major significant 
breakthroughs, the NINDS has shown a steady decrease in funding 
for Batten disease since 1994. In 1998, they spent only $1.5 
million. This represents a decrease of 51 percent. We are at a 
loss to understand this and afraid that this trend may cast a 
damper on the whole research process. It is obvious that with 
less money available for research, less research will be done.
    Much still needs to be done. The exact enzyme defects 
resulting from gene abnormalities must be determined; further 
research by gene replacement and/or specific enzyme therapy and 
possibly pharmaceutical agents. We are cognizant of the 
difficulty in getting funds for research. However, the amount 
requested is a small price to pay to solve a disease which 
wreaks havoc on the victims and families and is draining our 
national resources by approximately $700 million per year.
    Specific recommendations: We suggest that the following 
wording similar to that which we recommended last year be used 
in this year's appropriation bill, quote, The committee 
continues to be concerned with the pace of research in Batten 
disease. The committee believes that the institute should 
actively solicit and encourage quality grant applications for 
Batten disease and to take the steps necessary to assure that a 
vigorous research program is sustained and expanded. The 
committee has requested that $3.6 million within the funds 
available to the NINDS be spent on Batten disease research. 
This represents an average yearly increase of 4.1 percent since 
1994. I thank you very much.
    Mr. Cunningham. Thank you, Dr. Rider. We went out to NIH 
just last week and one of the exciting things they are doing is 
looking at the genome studies, to where it took mother nature 
millions of years to put together not only different genes but 
orders of them and the identification. Like you say, now at 
least they can mark it and see a possibility.
    Once a child is in the mother's womb, can they determine 
that there is a problem?
    Mr. Joyce. Yes, they can. Because we have the genetic 
defect, people can make that decision but the probability of 
folks--like my wife and I, we had no idea that we were 
carriers. Dr. Rider had a son that has since died from the 
disease. He never knew that he was a carrier, either.
    This is the 10th year that we have come up on the Hill 
pleading for money and we have been successful in the past and 
some years we haven't been. We are back again because--to give 
you a visual impact of this disease.
    When we first came up here, Ian and Joe walked into this 
room, could talk to you, could see. Within 2 years, they are 
like they are now, which they have been for almost 9 years; 
totally unable to do anything. This disease, if the research 
progressed, they could actually treat the disease. The 
scientists recognize that.
    It could be like a child with diabetes, they could actually 
stop the progression of the disease. That is why we are 
continuing our plea to continue to make sure that NINDS keeps 
emphasis on research on this and continue not just getting the 
genetic defect, which means that parents that are known 
carriers then can decide whether or not to let the baby go to 
full term and then be afflicted with the disease, but rather, 
even if a child is born with the disease they can actually be 
treated.
    Mr. Cunningham. I want to thank you for coming. Like I have 
said, this is my first year on the committee. I know that 
Chairman Porter personally takes a look at literally each 
ofthese, and I know that he will be active on it. Thank you very much.
    Mr. Joyce. Thank you, Mr. Cunningham.
    Dr. Rider. Last year, Mr. Porter said--when we told him we 
were down 10 percent, he said we will look into this. This year 
we are down 50 percent, so I think it is time somebody really 
looked at it and put a word into the NINDS.
    Mr. Cunningham. Yes, sir, Doctor.
    Dr. Rider. Thank you, sir.
    [The prepared statement of J. Alfred Rider, M.D., follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 29, 1999.

                   FSH (FACIOSCAPULOHUMERAL SOCIETY)


                                WITNESS

ELIZABETH CONRON, FOUNDING MEMBER
    Mr. Cunningham. I would like to go out of order. I see my 
colleague from California, Mr. Sam Farr, from Carmel-Monterey. 
He represents California's 17th District. I represent 
California's 51st District. It is almost at the other end of 
the State.
    Sam, I understand you have a witness you would like to 
introduce.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Like you, I am a new Member of appropriations and haven't 
gotten on this committee, but I come to you as a Member of two 
other subcommittees. I want to thank you for giving me this 
opportunity to introduce to you a really remarkable person. 
Elizabeth Conron is the daughter of a constituent of mine, Dr. 
Bill Lewis. I got to know Dr. Bill Lewis in a medical situation 
because he saved my life. I was in a horrible automobile 
accident where a cement truck hit the Volkswagen that I was 
driving, and I woke up several days later in the hospital 
having been saved by her father.
    Ironically, I find myself now being able to repay a favor. 
I think that is important. I want to repay that by strongly 
urging this committee to help save the life of Elizabeth and 
others like her who suffer from FSH.
    FSH is a debilitating version of muscular dystrophy and it 
gradually destroys a person's ability to use their muscles at 
all. There is a lot of research that has been done but not 
enough of that research has been able to find a cure or a 
prevention.
    The problem is that, and why this committee is directly 
affected, NIH solely ignores this disease, even though it is 
the third most common form of muscular dystrophy. Most of the 
research has been underwritten by private donations and 
foundation grants, and despite the very limited dollars in 
research on this disease, what is known is that this disease is 
housed in the fourth chromosome. Without more in-depth study 
and scientific research, it will be difficult to progress much 
further in finding a cure or a prevention.
    So, Mr. Chairman, I ask you to listen to Elizabeth's story. 
She is a talented person who has not let this disease 
debilitate her spirit as it has debilitated her body. Please do 
what you can, and I will work with you in urging our colleagues 
to help her and others like her. Thank you.
    Mr. Cunningham. Thank you, Sam. Elizabeth.
    Mrs. Conron. Mr. Cunningham, it is a pleasure to be here 
this morning. I am Elizabeth Conron of Danville, California. I 
am a founding member of the FSH society who has FSHD. 
Facioscapulohumeral disease, or FSHD, is an inherited or 
spontaneous neuromuscular disorder affecting one in 20,000 
people, and it is the third most prevalent form of muscular 
dystrophy.
    FSHD causes progressive and severe loss of skeletal 
muscles, and it may be the only dystrophy where the gene has 
not been identified. FSHD can happen to any of us. I was 
diagnosed at Stanford at the age of 16, but I remained 
physically active until 22. I was once an avid snow-skier and a 
competitive gymnast. Today, I walk only short distances with 
assistance. FSHD has attacked my major muscle groups. My feet 
and calf muscles have atrophied so that I stand on the outside 
of my ankles. My hip muscles have weakened so that I can no 
longer rise from a sitting position without assistance and 
great body contortions. The arch in my back is so severe that 
it can form the letter C.
    I cannot raise my arms above my shoulders. My right hand 
has weakened, and feeding myself is now difficult and I must 
learn to be left-handed. My once big and friendly smile has 
been replaced with weak and crooked lips. To close my eyes at 
night, I tape weights to the tops of my eyelids. My joints are 
swollen and my bones feel as though they are rubbing together. 
This is a painful and disabling disease. One by one, we 
surrender ourselves to wheelchairs.
    My sister, brother, mother, two aunts, and six cousins have 
FSHD. In 1995, I earned a law degree and three American 
jurisprudence awards. Writing was so difficult for me that I 
had to type my exams. When the elevator in the building broke, 
my classmates would carry me up the stairs and this was very 
humiliating.
    I have two children, 4-year-old Caroline and 2-year-old 
William. My husband and I agonized over the decision to have 
children. They are adorable, and I am a good mom. But the 
uncertainty that FSHD brings to the future of entire families 
is underestimated, and it can mean the end of a family line. 
FSHD deprives my family of some basic joys. Caroline and 
William must climb into my lap so that I can drape my weakened 
arms around them. I cannot ride a Ferris wheel with my 
children, supervise them in a swimming pool, or walk along a 
beach with them. Simply combing Caroline's hair or peeling an 
orange for William are difficult tasks.
    As soon as I make necessary adaptations, I weaken again. I 
pray that God will stop FSHD in my body. I have bruised, cut, 
and torn most of my body from falls. I taught Caroline at age 
2\1/2\ to dial 911 and say, mommy fell and won't wake up. 
Without a cure for FSHD, I will continue to weaken. Please help 
me fight this disease now. If you had FSHD, you would fight to 
defeat it too.
    I am a good person. I did not deserve a lifetime of FSHD. I 
want to walk with dignity, catch William as he comes down a 
park slide, button Caroline's dress, and hold my husband in my 
arms, and I want my smile back.
    Thanks largely to Mr. Porter's efforts, the NIH funding has 
grown. FSHD research through NIH has not benefited even with 
congressional report language. We have met withthe NIH, 
testified before Congress, and FSHD funding has gone down.
    Our situation worsened in 1997 and 1998 when congressional 
directives to the NIH regarding FSHD have been ignored or no 
response given. In 1999, no mention was made of FSHD in the 
draft of the NINDS' neuroscience at the New Millennium. The 
NINDS has one grant directly titled for FSHD, and the NIAMS 
currently has nothing.
    Mr. Chairman, it is heartbreaking that FSHD, a neurological 
disease almost exclusively musculoskeletal in effect, cannot 
gain support from the very institutes that have the word 
neurology and musculoskeletal in their names.
    We have come before you in 1994, 1995, 1997, 1998 and again 
this year. In 1994, the NINDS and the NIAMS funded $300,000 to 
$500,000 on FSHD and are today funding less than $250,000.
    I lost my ability to rise from sitting in 1994; to climb 
stairs in 1995; to drive my car without adaptation in 1996; to 
walk in 1997; to get up after falling in 1998; and it is now 
1999. I must move from the home that I love due to a lack of 
progress on FSHD research.
    When will the NIH take responsibility for FSHD research? 
Mr. Chairman, you trusted that the IOM and the NIH would set 
its priorities correctly. We were forced to give testimony from 
the back of the room at the IOM because it is not wheelchair 
accessible.
    Mr. Chairman, the NIH is not listening to Congress or the 
scientific community and patients regarding FSHD research. Mr. 
Chairman, we request that an amount of not less than $5 million 
and not more than $10 million be earmarked for FSHD research. 
We know that this committee does not like to earmark. The 
record of 5 years indicates that the NIH is ignoring 
congressional direction and scientific opportunities. 
Earmarking appears the only way to get the NIH's attention.
    I am submitting a longer statement from the FSH Society for 
the record.
    [The prepared statement of Elizabeth Conron follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Conron. Mr. Chairman, again thank you for allowing me 
to testify this morning.
    Mr. Cunningham. Thank you, Mrs. Conron. I want to tell you, 
you have a beautiful smile.
    Mrs. Conron.  Thank you very much.
    Mr. Cunningham. Like I said, this is the first year on the 
committee, the first time I have heard this. You hear these 
things and your heart goes out, and everything.
    Mr. Farr. Yes.
    Mr. Cunningham. I had prostate cancer this year and it is a 
war. I was shot down in the war, and this is a war against 
another enemy, and I know you are fighting that enemy as tough 
as you can.
    I think most of us in a very bipartisan way want to 
increase the NIH funding in these specific things. I will do 
everything I can.
    Mrs. Conron. Thank you.
    Mr. Farr. Thank you.
    Mr. Cunningham. Thank you Sam. Thank you, Elizabeth.
                              ----------                              

                                          Thursday, April 29, 1999.

                 NATIONAL NEUROFIBROMATOSIS FOUNDATION


                                WITNESS

DR. FRED L. MATHEWS, O.D., OPTOMETRIST
    Mr. Cunningham. I see Mr. Fred Upton, my colleague. I call 
him ``upchuck.'' Got to have a little levity in these committee 
hearings. He is a representative from the Sixth District, and 
my colleague would like to introduce Dr. Fred Mathews.
    Mr. Upton. I would, Mr. Chairman. I appreciate your 
leadership and your service on this very important 
subcommittee.
    Mr. Porter, Mr. Obey, other Members have really been 
instrumental as we have seen the war fight to try and increase 
the NIH budget. As a Member of the Health Subcommittee on 
Commerce, it is under our jurisdiction to try and help as much 
as we can, and I know that as we battle this, one of the goals 
that our Republican colleagues have, and Democrats, too, this 
has been bipartisan, is to try to double the NIH budget over 
the next 5 years.
    We took some good steps this last year, and we hope that 
the budget process will allow us to do the same as well.
    I have a very good friend here with me today, and his wife 
as well, Dr. Fred Mathews, who has been a leader in the fight 
on trying to find a cure for neurofibromatosis. He has been 
instrumental in terms of the national organization, and very 
sadly he has been a leader as it has impacted his own family.
    We have been successful with Mr. Porter in the past. We 
know that there has been a long practice opposing earmarks for 
specific disease groups; and through Mr. Porter's leadership, 
we have been able to get report language to try and give a 
directive to the NIH to make sure that this is a priority. We 
look forward to doing that again, assuming that the practice 
and tradition of the subcommittee continues that they do not 
earmark funds.
    I know that as we embark on this battle to try and solve, 
whether it be this disease or the disease groups that the woman 
who just testified earlier about, prostate cancer, others, that 
we do have to enlarge the NIH budget. Our government does a lot 
of good things.
    Defense is one of them. I am proud to be a strong supporter 
of our defense, but health care and finding a cure for these 
disease groups is another one that really--our country is the 
only one that has fought this battle and come up with the 
cures.
    As I look at diseases like neurofibromatosis, I know that 
with a little infusion of money, in fact, we can find a cure 
and make sure that families like Dr. Mathews' and other 
families will not ever again be impacted with a disease group 
like this. I appreciate your leadership, and I would like to 
welcome my friend, Dr. Mathews, at this time to make a 
statement as well.
    Mr. Cunningham. Grandfather Mathews, Dr. Mathews.
    Mr. Mathews. Thank you, Congressman Upton, and thank you, 
Mr. Chairman.
    I am here today because my beautiful granddaughter, 
Allison, has neurofibromatosis, a not so rare and devastating 
genetic disorder. In 1994, Allison was 4 years old when I first 
asked her parents about some spots on her skin. I had assumed 
that these were simple birthmarks. This is the first time her 
parents had shared the terrible truth with me that she had 
neurofibromatosis or abbreviated called NF.
    I am an optometrist in a small town in Southwestern 
Michigan. I have practiced there for 47 years. Even though I am 
not a medical doctor, I have better than a layman's knowledge 
of general medical problems. However, I had never heard of NF.
    Immediately I began to research NF. I called research 
centers. I called the National Institutes of Health. I linked 
up with the National Neurofibromatosis Foundation. My testimony 
today has the blessing of that fine organization.
    There is no way to describe the despair and hopelessness 
that families experience when faced with the fact that a child 
or a grandchild has an incurable disease. My research left my 
wife and me panic stricken.
    Here is a short version of what my research revealed. NF is 
the most common neurological disorder caused by a single gene. 
At least 100,000 Americans have NF. This makes NF more 
prevalent than cystic fibrosis, hereditary muscular dystrophy, 
Huntington's disease, and Tay Sachs combined.
    NF causes tumors to grow anywhere on or in the body. NF can 
lead to disfigurement, blindness, deafness, skeletal 
abnormalities, tumors, loss of limbs, malignancies and learning 
disabilities.
    The terrible disfigurement is why NF has erroneously been 
confused with the so-called ``elephant man'' disease.
    NF affects both genders, all races, and ethnic groups 
equally. NF research in 1994, when I first learned of my 
granddaughter's problem, had begun about 9 years earlier. The 
gene causing NF had just been discovered.
    My personal research did reveal some good news for my 
family and me. My granddaughter had the NF1 gene rather than 
the NF2 gene. With the NF2 gene, the tumors and other bizarre 
disorders can start soon after birth. NF1, however, which my 
granddaughter has, sometimes does not manifest serious problems 
until puberty or beyond.
    I also learned from Peter Bellermann, President of the 
National NF Foundation, and the world's greatest crusader to 
find a cure for NF, that researchers are hopeful of finding a 
cure in 10 to 145 years. Simple mathematics told me that this 
might be too late for my granddaughter and thousands of kids 
like her who are living with this time bomb.
    I also learned that the researchers believe that the 
projected time for a cure could possibly be cut in half if more 
research dollars were available. I am grateful that this 
committee and the Congress did respond to our plea and did 
appropriate significant new funds for NF research.
    In 1995, Chairman Porter also added language to the 
appropriations bill which expressed to NIH the commitment of 
this committee for accelerated NF research.
    Because of this committee, the Congress, the NIH, the 
National NF Foundation, and many dedicated researchers, our 
Allison who is now 9 years old has had a chance to avoid the 
ravages of NF. We are thankful and hopeful but still very 
apprehensive.
    The time clock is still running rapidly. Research has been 
extremely successful, but it has a long ways to go to find a 
cure. The National NF Foundation and I urge that the language 
which has been in the appropriations bill for the past 4 years, 
expressing this committee's commitment to NF research, be in 
the fiscal year 2000 bill.
    In my opinion, Mr. Chairman, no expenditure by the Federal 
Government is more rewarding, more needed and more appropriate 
than research for dread diseases, including NF.
    As a grandfather of a little girl with one of these dread 
diseases, I feel anxiety, frustration but also hope, knowing 
that the timetable for a cure of NF and other diseases is 
almost solely again dependent on the willingness of the 
Congress to recognize medical research as its number one 
priority. That is why, Mr. Chairman, we strongly support a 
significant increase in funding for the National Institutes of 
Health medical research.
    With the NIH as the quarterback, the greatest hope we have 
for finding a cure for NF and all other dread diseases lies 
with this committee and the NIH.
    Mr. Chairman and Members of the committee, on behalf of the 
National Neurofibromatosis Foundation, as well as the thousands 
of children and adults with NF, I thank you and my Allison 
thanks you.
    [The prepared statement of Dr. Fred L. Mathews follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. Thank you, Dr. Mathews. One of the 
advantages of being on this committee now is that I hear of 
diseases I never knew existed. As a matter of fact, the three 
that I have heard of this morning, I never knew they existed. I 
think part of the problem is that most Americans don't know 
about it unless that particular disease affects you or your 
family. So it is enlightening and I thank you.
    Mr. Upton. Thank you. Thanks, Duke.
                              ----------                              

                                          Thursday, April 29, 1999.

                     AMERICAN SOCIETY OF NEPHROLOGY


                                WITNESS

DR. WILLIAM BENNETT, M.D., PRESIDENT, AMERICAN SOCIETY OF NEPHROLOGY 
    AND HEAD OF THE DIVISION OF NEPHROLOGY AT THE OREGON HEALTH 
    SCIENCES UNIVERSITY
    Mr. Cunningham. Dr. William Bennett, please.
    Dr. Bennett, President of American Society of Nephrology, 
the head of the division of Nephrology, Oregon Health Sciences 
University, representative of the American society. Dr. 
Bennett, you are recognized for 5 minutes.
    Dr. Bennett. Mr. Cunningham, thank you very much for 
allowing me to testify. You have given me a tough act to 
follow.
    I am Dr. William Bennett. I am president of the American 
Society of Nephrology and professor of medicine at Oregon 
Health Sciences University in Portland.
    The ASN represents over 6,500 physicians and scientists who 
are committed to finding a cure for kidney disease. On behalf 
of the ASN, I would like to thank the subcommittee for the 
opportunity to testify in support of a 15 percent increase in 
the NIH funding and specifically a 15 percent increase for the 
National Institutes of Diabetes, Digestive and Kidney Diseases.
    Chronic kidney disease is a major health problem in the 
United States. It is estimated that 12.5 million Americans have 
lost at least 50 percent of kidney function by current data. 
The economic costs of this kidney disease is staggering. 
Furthermore, end stage kidney disease, that is kidney disease 
that is severe enough to require dialysis or transplantation, 
is a permanent condition affecting 305,000Americans, and most 
importantly the majority of them are funded by medicare.
    Over the past 10 years, the number of patients in the 
United States with this chronic kidney disease and end stage 
kidney disease has doubled. While chronic kidney disease has a 
devastating reach that affects all Americans, certain 
populations are affected disproportionately.
    In 1997, African Americans represented 30 percent of 
patients requiring dialysis or transplantation while only 
making up 12.6 percent of the U.S. population. Native 
Americans, Hispanic, and Pacific Islanders also have been found 
to suffer disproportionately high rates of terminal kidney 
failure.
    Although no dollar amount can be affixed to human 
suffering, it is useful to investigate the economic data that 
are available to quantify the financial costs of this end stage 
of kidney disease. The most recent data come from the United 
States Renal Data System, a report compiled by HCFA and the 
NIDDK.
    Estimated direct payments for these 305,000 individuals, by 
public and private insurance, was $15.64 billion in 1997. Of 
this amount, the Federal Government provided approximately 
$11.76 billion, or 75 percent of the total, primarily through 
medicare.
    Diabetes is the most common cause of end stage kidney 
disease. It can be found most commonly, as I said, among Native 
Americans, African Americans, and Hispanics.
    The next most common cause is high blood pressure, or 
hypertension. This, as I said before, disproportionately 
affects African Americans.
    The NIDDK and our society, in conjunction with five other 
kidney societies and the patients' group, convened a renal 
research retreat in December in this city. More than 100 renal 
researchers were brought together from around the country for a 
two-day retreat.
    Our priorities for funding are in the written testimony, 
and I am not going to go through them today. But the knowledge 
made available by the human genome project that you referred to 
before, should define the genetic programming for renal 
diseases and open the door for unique links between genes, 
disease, and cures.
    Each working group at our retreat identified the workforce 
and training needs in determining the success or failure of 
research. Chief among these research needs, in addition to the 
research dollars, are the scientists to do the research. 
Because of the NIH funding over the last decade, as opposed to 
this decade, or the last 10 years as opposed to this 10 years, 
we have lost a generation of research scientists. So we have a 
dearth of individuals who can translate this research, exciting 
as it is, to the bedside.
    We have worked with Congress to introduce a bill in this 
Congress outlining some specific remedies to training and 
workforce problems in kidney disease and other underserved 
disciplines for translational research.
    A kidney education project similar to what has been 
established for cholesterol, called the Kidney Disease 
Education Project, should mimic the campaign for cholesterol 
awareness.
    Efforts need to be made to educate the public and the 
profession about the prevalence and the early diagnosis and 
treatment of kidney disease. As you indicated before, education 
is paramount.
    So as a result of this, the ASN is hopeful that a doubling 
of the NIH budget over the next 4 years, as called for by many 
Members of Congress on both sides of the aisle, can and will be 
achieved.
    Thank you very much for the opportunity to testify to this 
problem. Thank you very much.
    [The prepared statement of Dr. William Bennett, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. Thank you, Dr. Bennett. Thank you for your 
patience. We had two other Members come in.
    In the area of diabetes, there is one individual that I 
think enlightened most of us on the Republican side, and I 
don't know what different people think. He is a hero of mine, 
but former Speaker Newt Gingrich, he is the one that pushed 
doubling of the NIH budget. As a matter of fact, he introduced 
me just last Friday to Mary Tyler Moore, who is diabetic, and 
he now sits on the Children's Diabetic Foundation for Juvenile 
Diabetes.
    We have a disease like diabetes that gets a lot of 
attention, and I know myself that a lot of these other diseases 
that I am hearing, I know they don't get as much attention. I 
am in a quandary on how we earmark or tell NIH to do this or 
that. They are the doctors. They are the professionals. I don't 
know what we need to do.
    I will tell you a little quick story. Three months ago, 
after I started reading up about diabetes, I heard about 
kidneys and problems that you have and losing your sight 
because of the blood vessels and you lose the feeling in your 
feet. I woke up one night and my right foot was numb and my toe 
hurt and I looked and it wouldn't go away. I said, oh, my God, 
I have got diabetes.
    I told the doctor and he said, do you realize how many 
diseases when we are going through training that we think we 
have? Just the doctor put in a shoe insert and it went away.
    Dr. Bennett. I have had all of those diseases.
    Mr. Cunningham. I know. We empathize with you, Doctor. I 
know diabetes is a terrible problem. A lot of it can be helped 
with proper diet, especially in children's diabetes and 
juvenile diabetes.
    Dr. Bennett. We have good treatments now to prevent the 
progression of kidney disease. We just need to educate people 
about them and make them available.
    Mr. Cunningham. We have been chastised on the Republican 
side for putting too much money into NIH. I don't think anybody 
in this room would agree with that.
    Dr. Bennett. I certainly wouldn't.
    Mr. Cunningham. Thank you, Doctor.
                              ----------                              

                                          Thursday, April 29, 1999.

                   AMERICAN PUBLIC HEALTH ASSOCIATION


                                WITNESS

DR. MOHAMMED N. AKHTER, M.D., MPH, EXECUTIVE DIRECTOR
    Mr. Cunningham. Dr. Mohammed Akhter, Executive Director, 
American Public Health Association.
    Dr. Akhter.
    Dr. Akhter. Thank you, Mr. Chairman. Good morning.
    My name is Mohammed Akhter. I am the Executive Director of 
the American Public Health Association.
    I would like to briefly thank you for your leadership and 
also Members of the committee for the leadership last year for 
raising the funds----
    Mr. Cunningham. You will have to thank John Porter for 
that.
    Dr. Akhter. I certainly will. I have a message to go out to 
him--for raising the funds for the public health related 
activities last year and investing in public health. We hope 
this year again you will continue that tradition.
    I want to be very specific and address five areas of the 
public health funds that you all are considering this year, Mr. 
Chairman.
    I start with the CDC's preventive block grant. This is the 
only money that goes to the States, where States can develop 
their program based upon their own needs. The President's 
budget has cut the money out of this program, and we hope that 
you all will restore that funding so that we can continue to 
carry out the activities based upon the local priorities that 
each of the States might have.
    The second area, Mr. Chairman, I want to quickly run by is 
that the bioterrorism is real. The threat internally from any 
enemy, local, domestic, or foreign, coming in and spreading a 
disease is truly here; and we in public health community are 
not quite ready for it because our infrastructure isn't 
designed really to identify a new disease that might appear 
suddenly.
    For us to identify, to inform, to treat, and then do the 
follow-up before other agencies enter into the field, is very 
limited at this time. So we recommend that the budget for 
bioterrorism be increased so that we have $263 million next 
year for bioterrorism so we can protect our citizens from the 
domestic threats.
    The third area I want to emphasize is the National Center 
for Health Statistics. This is a place where you collect all 
the data from the Nation, where we see whether we are getting 
better in certain areas or what is happening to our people, and 
this helps us to set priorities and it helps us to plan for the 
future.
    There is an increase in the President's budget of $15 
million and we would very much respectfully request that you 
continue to pursue that increase as the budget process moves 
forward.
    The Centers for Disease Control in Atlanta is one of the 
premier public health facilities in the world. It does terrific 
scientific research. It is the other arm of the National 
Institutes of Health. It does research on prevention of 
diseases, and together the National Institutes of Health and 
the CDC are the main focus in the world in the health 
development.
    The CDC's lab, where they do the research work, the 
buildings were built in 1940. Eighty-five percent of that lab 
does not have new electrical connections, all the monumental 
things. The plaster is falling off. We have world-renowned 
scientists doing the work there. It can't continue like this. 
We need to help CDC, and I would very much like you, 
personally, to visit CDC and see what conditions these world-
renowned scientists are working in to protect the health not 
only of the American people but people all over the world.
    My next area of interest this morning is dealing with 
health professionals, and I know you are interested in the same 
area. The budget the President has proposed, the health 
professionals budget, training budget, has been cut, 
particularly in two areas, primary care and public health 
training. These are two areas where there is still manpower 
shortage areas in this country, and we still need those dollars 
to be able to train public health professionals to work in the 
underserved areas, particularly where the minorities live in 
our country.
    Last, but not least, is the area of substance abuse. 
Substance abuse, mental health diseases, are the root causes of 
many of our social problems and public health problems, 
including violence, sexually transmitted disease, HIV/AIDs. 
This is an area where we have not paid much attention in the 
past. We want now for you to really support the increased 
budget of $3.1 billion for this agency. This agency, for the 
first time, is doing the reviews to see what works in the 
community in prevention, and then is filling the gaps.
    There is a huge gap between what we know--both mental 
health and substance abuse are both treatable diseases at a 
very reasonable cost--and what we are doing out there, Mr. 
Chairman. Investment in this arena will pay off in the long 
run, not only in a better society, better health of the people, 
but also saving the future cost to our people.
    In conclusion, Mr. Chairman, I would like to say this to 
you: We can go disease by disease, body part by body part 
funding these programs in public health or we could make a long 
range commitment to double the budget of public health. Just 
like today's bill that you are going to be voting on, this is 
the internal defense of the United States. Hopefully you will 
consider one day doubling the budget of public health for 
protecting the health of the American people.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Mohammed Akhter, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. Dr. Akhter, not one of these days, I think 
it is on the minds of most all the Members, and we understand 
there is a war.
    With the substance abuse, I know myself, a lot of people 
want to put it into rehabilitation. To me, that is like 
treating whooping cough after you have it instead of trying to 
prevent from getting it. I would rather prevent people from 
getting it than having it. To me, the resources need to go 
prior to the rehabilitation. It doesn't mean that we don't have 
rehabilitation.
    My own son went through drug rehabilitation. As a matter of 
fact, he is in jail now for selling marijuana. He is 27 years 
old, first time he has ever been in trouble, but I understand 
those kinds of problems.
    I do have a very disdained fear of terrorism. The Osama Bin 
Ladens, the problems we are going through now in Kosovo, I 
think is as much a nuclear device as bioterrorism. You look at 
the trolley in Japan, where it was already used, and there are 
those kinds of folks that will use that. The immunizations, I 
know that we have tried to put a little bit of money into that, 
but we are not prepared public healthwise for like Ebola or 
anthrax or those kinds of things that happen. I know that is 
one of the things that really scares me. I am on the defense 
committee.
    Thank you for your testimony.
    Dr. Akhter. Thank you, Mr. Chairman, for recognizing both 
threats external and internal to our people. Thank you for the 
good work you are doing.
    Mr. Cunningham. Maybe I can come to Atlanta when the Padres 
are beating up on the Braves.
    Dr. Akhter. You have the invitation. Thank you.
                              ----------                              

                                          Thursday, April 29, 1999.

                     UNITED DISTRIBUTION COMPANIES


                                WITNESS

WALLACE E. ZEDDUN, VICE PRESIDENT, WISCONSIN GAS COMPANY
    Mr. Cunningham. Mr. Wallace Zeddun, Vice President, 
Wisconsin Gas Company, on behalf of United Distribution 
Companies, UDC. Mr. Zeddun.
    How come they don't give me all these Irish guys?
    Mr. Zeddun. It is a tough one.
    Mr. Cunningham. I am going to tell Chairman Porter the next 
time he asks me to chair his committee I want the people to 
come up where we increase the budget, not where we decrease the 
budget.
    Mr. Zeddun. That would be nice.
    I appreciate the task that you, Mr. Cunningham, and your 
committee Members have in trying to sort through these 
priorities, because the testimony that we have heard is 
compelling, and I think all of these programs are very 
compelling.
    Mr. Cunningham. Can you speak a little more into the 
microphone.
    Mr. Zeddun. I think, I like the last speaker's comment that 
this is the internal defense of our country, and I do think we 
need to put a lot more priority in all of the programs, 
including the one that I am about to support, because I think 
it also has a great deal of justification and serves a very 
real and pressing need in our country.
    My name is Wally Zeddun and I am the Vice President with 
Wisconsin Gas Company. My company is headquartered in 
Milwaukee, Wisconsin. We serve about 535,000 customers 
throughout the State of Wisconsin; 92 percent of those 
customers are residential. About 80,000 households, or about 
160,000 people, in that customer base are low income.
    I represent today the United Distribution Companies. It is 
a coalition of companies that provide natural gas service 
primarily in the Northeast and Midwest. We are very concerned 
that low income customers in our areas of the country have 
access to energy so that they can provide heat to their homes 
during the severe weather that we usually experience.
    Low-income energy assistance has been an important 
cornerstone of our ability to provide that service, and of the 
customers to obtain it, and it will continue to be even more 
important as we transition in the future through welfare reform 
and deregulation.
    I am here today to request that we have an appropriation of 
$1.319 billion for fiscal year 2000 with a similar advance 
appropriation. I would like to really make two points about the 
program today for your consideration.
    One is that the need for this program still exists just as 
it did in the 1970s when it was created and, two, that this is 
really an investment in the future, in the future of some of 
our citizens in their ability to lead adequate lives.
    First, let us look at the need in terms of how itcompared 
in the early 1970s. In taking a look at the legislative history, what I 
have found is that there was a statement that energy prices in that 
time period had increased 293 percent, meaning that the average low-
income energy expenditure per household was 18.4 percent of their 
disposable income. That is after tax for the rest of us. In other 
words, 18.4 percent of their take-home income was being spent on 
energy.
    Many households were experiencing expenditures of in excess 
of 30 percent. If we look at today, the statistics would 
indicate that the mean expenditure for energy for households is 
15.2 percent. That means half the households, low-income 
households in the country, are paying more than 15 percent of 
their disposable income for energy. That equates almost 
identically to the early 1970s.
    There are approximately 3 million low-income households who 
pay more than 25 percent of their disposable income for their 
energy needs, also equating almost to where we were in 1970. 
Six point six million households spend more than 15 percent of 
their disposable income in order to secure the energy they need 
to survive either through winter or hot summers.
    In 1998, because of the funding limitations on this 
program, only 4.3 million households were served. So we have 
several million households who are severely at risk because of 
the fact that they do not have the funding needed to secure the 
basic energy. This is a basic need. We are not talking about a 
frill. We are talking about basic needs to have heat or cooling 
during very extreme periods of weather that happen in the 
country.
    We also look at LIHEAP as an investment in the future. I 
think, if you look at one of the hot issues right now, and my 
State is leading, is welfare reform. We are trying to reverse 
five generations of experience in welfare. As people transition 
from welfare to work, what we are finding is that they are 
getting to jobs roughly $6.90 an hour, 30 hours a week, no 
benefits. That still puts them below the poverty level for the 
most part. In fact, the Children's Defense Fund, in one of 
their recent reports on the early findings on family hardship 
and well-being, have indicated that during the period 1998 only 
one-sixth of the people who are new earners were in jobs above 
the poverty level.
    That means five-sixths of people who were new earners in 
jobs during that period of time were below the poverty level. 
So what we are doing, in effect, is creating a lot of working 
poor. This program is one of the few that addresses, beyond 
welfare, the working poor. And I think that is very important.
    The Children's Defense Fund also reported the children 
living in extreme poverty increased from 6 million in 1995 to 
about 6.4 million in 1998.
    These people who are transitioning from welfare still have 
the need to have essential services. Without LIHEAP they will 
not have the ability to secure it. They will incur increasing 
debt loads and may be forced to go back into welfare instead of 
trying to continue on and transition out.
    These are all transitionary programs. People need to 
experience--to develop a track record of work experience and 
develop skills before they are going to be getting the kind of 
paying jobs that have benefits and the capability to afford 
these programs.
    One of the other things that happens is that the 
transitionary program helps people who drop into poverty. There 
is a misconception, I think, for some people that energy 
assistance really helps people who are on poverty all the time.
    Two-thirds of the people who get benefits from energy 
assistance are either working poor or elderly. There was a 
recent report in the Washington Post, March 21, 1999, that 
basically provided some research from people from Washington 
University and Cornell that said by age 65, 50 percent of all 
Americans will have spent at least one year in poverty. That is 
a pretty dramatic statistic from my viewpoint.
    What energy assistance does is allows people who drop into 
poverty to get some help to get that basic service that they 
need and not incur a significant debt load, because what has 
happened in the past is things like utility bills become a very 
significant debt-load for people who drop into poverty. They 
may have to declare bankruptcy.
    If you are talking about seniors particularly, that is a 
very difficult thing for them to do. So it is a transitionary 
program that helps take care of intermediate short-term needs. 
People don't stay on this program a lot, but they come in and 
out of it and that is one of the misconceptions. It is an in-
and-out type program.
    The last point I would like to make----
    Mr. Cunningham. Doctor, if you could wrap up.
    Mr. Zeddun. The last program is deregulation, which is 
starting in this industry. Really, the way to look at this is 
if you look at a small town that has all good paying customers 
and lots of income and a city that has lots of low-income 
customers who cannot afford to pay, if you are a marketer 
coming in to sell gas, which one is going to get the most 
attractive services and prices?
    Every State that I know that is looking at how to deal with 
making sure that low-income customers have service during 
deregulation use energy assistance as a cornerstone of that 
effort. Without that cornerstone, I think the building will 
collapse.
    Thank you very much.
    [The prepared statement of Wallace Zeddun follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. Thank you, Mr. Zeddun.
    I helped write a lot of the welfare bill. The average was 
16 years, like you said 5 generations. The average welfare 
recipient was 16 years. It became a way of life.
    I feel in the future we are going to have less and less and 
less on welfare because people are going to prepare themselves 
instead of saying there is a big cash cow out there, I am just 
going to go on welfare. We hope we can increase the education 
system so people will have better tools to do that.
    I had a doctor that came in my office and had a lady with a 
12-year-old girl. She had just gone through her third menstrual 
cycle and the mom wanted to know what was wrong with her 
daughter; she couldn't have a baby. She had a 13- and a 14-
year-old girl. Each had children. I mean, that kind of no hope 
for the future whatsoever I think replaces some of the things 
that you are seeing, because I think in the future without 
having--by putting responsibility on people and giving them the 
tools, that we are going to see this go away.
    Mr. Zeddun. I agree with you.
    Mr. Cunningham. Not go away but it will be less.
                              ----------                              

                                          Thursday, April 29, 1999.

                   INTERSTITIAL CYSTITIS ASSOCIATION


                                WITNESS

MERRI MARDEN McNEIL ACCOMPANIED BY J.T. McNEIL
    Mr. Cunningham. I understand Representative Delahunt from 
the Tenth District of Massachusetts would like to introduce 
Mary McNeil, volunteer for interstitial cystitis. Thank you for 
coming.
    Mr. Delahunt. Thank you, Mr. Chairman. I appreciate you 
taking the time and listening to this testimony, which I know 
that you and the committee will pay special attention to.
    Mary Martin McNeil is a life-long resident of my hometown, 
which is the city of Quinzy; her son, who is my pal by the way, 
and my special pal.
    Mr. Cunningham. I can see why.
    Mr. Delahunt. He received a trophy from me yesterday 
because he has done extraordinary work in going around and 
raising private money for research for this particular 
disorder.
    I don't know if he knows this but--what grade are you in 
now, J.T.?
    Mr. J.T. McNeil. Kindergarten.
    Mr. Cunningham. Kindergarten. My wife is an elementary 
schoolteacher so I know.
    Mr. Delahunt. Well, he is in kindergarten, I understand, at 
Saint Agatha's Parochial School.
    Is that true, J.T.?
    Mr. J.T. McNeil. Yes.
    Mr. Delahunt. Do you know that your congressman went and 
was graduated from Saint Agatha's Parochial School?
    Mr. J.T. McNeil. Yes.
    Mr. Delahunt. So we are really special, and he really is my 
pal, Mr. Chairman.
    Mr. Cunningham. Would you be my pal?
    Mr. J.T. McNeil. Yeah.
    Mr. Cunningham. Okay.
    Mr. Delahunt. I think you are going to hear a very 
compelling story from his mother.
    I should also recognize that his brother, Nicholas, is also 
here, standing in the back, along with his dad.
    These are very, very special people, not only because they 
live in the city of Quinzy, which by the way, Mr. Chairman, you 
might not have known, is the only city in this country that has 
produced two presidents. So we are proud of the city of Quinzy, 
and I am really proud of my special pal.
    Mr. Cunningham. There is something even more important 
about the city. It has more Irishmen per capita.
    Mr. Delahunt. I am glad that you know that, Mr. Cunningham. 
People ask me oftentimes, what is the percentage of Irish of 
the city of Quinzy? I said I didn't know there were anything 
else up there.
    But, anyhow, J.T. McNeil is here with his mom, and again I 
am really proud to introduce his mother.
    J.T., you have made a real impact on your Congressman. So I 
will see you later.
    We have a markup down in the Judiciary Committee going on 
right now so I am going to excuse myself, but thank you so 
much.
    Mr. Cunningham. Thank you for coming up and introducing 
them.
    Mrs. Merri Marden McNeil. Thank you.
    Mr. Cunningham. You can chime in any time, J.T. I tell you 
what, instead of Mr. Chairman, you just call me ``Duke.'' Okay?
    We are buddies now. Is that a deal?
    Mr. J.T. McNeil. Yeah.
    Mr. Cunningham. You speak right up into the microphone.
    Mr. J.T. McNeil. Hi. My name is J.T. McNeil. I am 5 years 
old. I have IC. I need your help to find a cure. Thank you.
    Mr. Cunningham. Thank you, J.T.
    Mrs. Merri Marden McNeil. Mr. Chairman and Members of the 
committee, thank you for allowing me to share with you the 
story of my family and how the chronic bladder disease 
interstitial cystitis, IC--that is how we abbreviate it so it 
is not such a tongue twister--has deeply affected our lives.
    I would first like to start by thanking the Members of this 
committee for their commitment to medical research. I hope that 
after hearing the story of my son, you will see fit to continue 
to expand your support for the National Institute of Diabetes, 
Digestive and Kidney Diseases, the NIDDK, the division of the 
National Institutes of Health that is responsible for bladder 
research.
    My name is Mary Martin McNeil and, as Mr. Delahunt said, I 
am a life long resident of Quinzy, Massachusetts. My husband, 
Jerry, and I have two sons. Our son Jerald, J.T., McNeil was 
born July 12, 1993. He loves aliens, tennis, and telling jokes.
    In February of 1998, J.T. was diagnosed with interstitial 
cystitis. It took approximately 2 years and several visits to 
physicians for J.T. to finally receive a definitive diagnosis 
of IC.
    IC is a debilitating disease of the bladder. The best way I 
can convey to you what this means is to explain what I see my 
son endure on a daily basis. A regular day for J.T. varies. He 
can have a severe sore throat, headaches, burning when he 
urinates, abdominal pain, urinary frequency, sometimes up to 
40, sometimes, a day when he is more symptomatic, or he can 
feel fatigued after only minimal activity.
    Many nights he sleeps with a hot water bottle to ease 
bladder pain. Many days he has to stop off playing with his 
friends because his bladder hurts. This is difficult for him as 
he lives with one of his friends, my 3-year-old son Nicholas.
    Urinary frequency and urgency are all part of IC. When 
people with IC need to use the restroom, they need to use it 
right away. Not urinating when needed, causes J.T. a great deal 
of pain and discomfort. Telling him to wait a minute when he 
asks permission to use the restroom is the equivalent of asking 
you to hold a lit match in the palm of your hand for a minute.
    Just imagine how terrible it would be at 5 years old to ask 
permission from your kindergarten teacher to use the restroom 
and have her forget about your IC and deny your request.
    Most people with IC try to follow a low acid diet, which 
helps with some of their blurring bladder pain. The most 
difficult part for children is it cuts out so many childhood 
favorites, fruits and juices. It means no chocolate, no pizza, 
and the list goes on. This also means having to give away half 
of your Halloween candy.
    J.T. has adjusted to these things but, of course, he has 
days when he complains of how unfair it is. On one of these 
occasions, I told him I wished that I had IC instead of him. He 
took my hand and said he didn't wish the disease on anyone. 
These are brave words considering what he goes through on an 
average day.
    J.T. went all out for the Interstitial Cystitis 
Association's raffle for research that helped to fund the 
Interstitial Cystitis Association's pilot research program. He 
was one of the top five sellers of tickets this year.
    Mrs. Merri Marden McNeil. The pilot research program 
provides grants for new IC research projects up to $10,000 
each. The program has now funded over $500,000 in IC-related 
research projects. Such projects allow researchers to gain 
preliminary data so that they can take their findings to the 
NIH for further funding.
    Federally-funded research on Interstitial Cystitis began in 
1987. In 12 years the IC research community has made tremendous 
progress bringing the prospects of a cure or cures closer with 
each new discovery. The results of this research have 
cultivated international awareness of IC in a medical community 
that was slow to recognize the disease prior to 1987. Thanks to 
the support of the members of the committee for IC-specific 
research, promising and substantial advances were achieved in 
basic science research, the IC database from 1992 to 1997 and 
the IC clinical trials group from 1998 to present, with a 
limited amount of IC funding at the NIDDK.
    However, the need for further IC research is critical. The 
February, 1999, issue of the Journal of Urology reported that a 
recent study funded by a grant from the NIDDK found the 
prevalence of IC to be more than 50 percent higher than 
previously reported in the United States. This means that 
approximately 700,000 Americans suffer from IC.
    Please support the recommendation by the Interstitial 
Cystitis Association for a $6 million investment in IC-specific 
research in the areas of basic science and epidemiology. This 
year when my son blew out his birthday candles, he wished for a 
cure for his bladder disease. When I was his age, I wished for 
a bike. Thank you.
    Mr. Cunningham. Thank you.
    And, J.T., thank you for coming before the committee; and I 
see you have a very good friend that gave you an award. I want 
you to thank God every day for two things; one that you are 
Irish, and the second that you have such a good mom and good 
dad that love you very much. That is very, very important. 
Thank you for coming.
    Mr. J.T. McNeil. You are welcome.
    Mrs. Merri Marden McNeil. You are welcome.
    Mr. Cunningham. J.T., there are only two kinds of Irish: 
Those that are and those that want to be.
    [The prepared statement of Dr. Vicki Ratner and Nancy 
Taylor follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 29, 1999.

                       HELEN KELLER INTERNATIONAL


                                WITNESS

JOHN PALMER, PRESIDENT
    Mr. Cunningham. Mr. John Palmer, President, representative 
of Helen Keller International. Mr. Palmer.
    Mr. Palmer. Thank you very much, Mr. Cunningham. I 
apologize for not being Irish.
    Mr. Cunningham. You could be a wannabe.
    Mr. Palmer. I am a wannabe and admirer thereof. And I also 
want to thank you for the opportunity to speak to the committee 
on behalf of Helen Keller International.
    I am appearing today to ask the committee to take action 
concerning the alarming issue of poor adolescent vision and its 
effect on student academic performance.
    Accompanying me is Ms. Meredith Tilp, the Vice President of 
our ChildSight program.
    Helen Keller International is a United States based private 
voluntary organization once guided by and now dedicated to the 
spirit of Helen Keller. It has been a world leader in blindness 
prevention and the rehabilitation of the blind since 1915.
    In the United States, Helen Keller International is working 
through its ChildSight program to solve youth vision problems 
in five low-income locations around the country. Mr. 
Cunningham, Helen Keller International's ChildSight program has 
committed to alleviating the burden to education of poor 
vision.
    ChildSight's mission is to improve vision and educational 
performance of junior high school students who live in urban 
and rural poverty. There are an estimated 7 million junior high 
school students in the United States, 25 percent of whom live 
in California, who need basic vision screening. Of those 7 
million, approximately 2 million require corrective eyeglasses, 
25 percent.
    If a child cannot see properly, he or she cannot take full 
advantage of one of America's most valuable resources, the 
public education available in our schools. And without a proper 
education, a child is less likely to become an adult who makes 
responsible, informed choices.
    Poor vision cuts across racial, geographical and religious 
lines. We all know someone who, if not for prescription 
glasses, you and me included, would not be able to see clearly. 
But adolescents are particularly susceptible to the negative 
effects of poorer vision. It is at this time in life that eye 
problems begin to surface for most students. It is also during 
adolescence that classroom learning becomes more intensely 
focused for preparing a child for adulthood.
    An estimated 25 percent, one out of every four of these 
young adolescents, cannot properly read a book or see a 
classroom blackboard. There must be a solution that is cost 
effective and wide ranging and accessible to all children in 
need.
    ChildSight, Helen Keller International's first domestic 
program in the over 58 years of our history, is that solution. 
ChildSight draws together existing community resources to 
provide no-cost vision screenings and free eyeglasses to 
students living in urban and rural poverty.
    This innovative, community-based health intervention is 
offered in the schools and it seeks to improve not only the 
vision but also the educational performance of junior high 
school students. Helen Keller International currently operates 
ChildSight programs in New York City, in Newark, Baltimore and 
Los Angeles and will soon open one in Cleveland.
    In these communities, ChildSight staff work with school 
officials and parents. Junior high school students ages 11 to 
14 are screened with a vision chart. Those students who fail 
the exam receive eyeglasses. I might add they are designer 
quality eyeglasses, prescription glasses; and they receive 
these glasses the very day of their examination. There is no 
wait. We are able to provide the vision testing for less than 
$8.50 a student, and we are able to provide prescription 
eyeglasses custom made for the student in the school for under 
$25, about $22 at this point.
    Here are some pictures that we have brought with us of 
students who are learning with their eyeglasses. One photo was 
taken of a student in Newark, New Jersey, the other in Los 
Angeles, California. The benefits of ChildSight areimmediate. A 
child puts on a pair of glasses, he walks back into the classroom, and 
he can see properly. And proper vision opens the door to education. 
With good vision, students become more confident in their ability to 
learn and actively participate in the classroom.
    Interestingly, in a survey of school teachers in New York 
City, 53 percent of the teachers witnessed improvement in 
grades, 75 percent witnessed an improvement in class 
participation, 51 percent saw an improvement in quality or 
frequency of homework handed in, and 69 percent witnessed a 
positive change in the behavior of their students.
    With additional resources, modest resources, we can attack 
the vision problem that creates so many difficulties for young 
students in our school systems. I would ask the committee to 
consider recommending at least $1 million in fiscal year 2000 
appropriations to be used as a demonstration project for this 
already field-tested program.
    The demonstration project would create and expand vision 
screening and eyeglass distribution programs for the poorest 
junior high school students throughout our Nation.
    Mr. Cunningham, I think we would agree the American people 
do not want the students to be kept from learning due to the 
easily prevented cause of good vision. I hope you will join 
with Helen Keller International as we seek solutions to vision 
problems for our children in the United States, and I thank you 
for your consideration.
    Mr. Cunningham. Thank you, Mr. Palmer.
    [The prepared statement of John Palmer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. I was a pilot. I had 20/20 vision. I have 
20/20 in this eye still, but I took a bungee cord in an airport 
in this eye, and they put four stitches in it, and that is the 
reason why I wear the glasses. And for a while I only had sight 
in one eye. So having that sight and losing it, I understand 
the value of sight even more. I took it for granted.
    I saw a movie--I didn't know you were going to be here--
just the other night about a woman that had never seen before; 
and she went to Sweden, got an operation, and I thought how 
wonderful it would be. And I think everybody in the room thinks 
if you couldn't see and then to have that world opened up to 
you, what a wonderful thing it would be.
    Or a child in their education studies, and I focus a lot on 
education, too. And I know if you can't read, which is--
literacy is one of the biggest issues that we have, I think, 
for young children should help. So thank you.
    Mr. Palmer. Thank you.
    Mr. Cunningham. Thank you for testifying.
                              ----------                              

                                          Thursday, April 29, 1999.

                AMERICAN GASTROENTEROLOGICAL ASSOCIATION


                                WITNESS

RALPH GIANNELLA, M.D., PRESIDENT-ELECT, AMERICAN GASTROENTEROLOGICAL 
    ASSOCIATION, AND THE DIRECTOR OF THE DIVISION OF DIGESTIVE DISEASES 
    AT THE UNIVERSITY OF CINCINNATI
    Mr. Cunningham. Dr. Ralph Giannella--is that pronounced 
right?
    Dr. Giannella. Giannella.
    Mr. Cunningham. Another Irish guy--President-elect, 
American Gastroenterological Association and the Director of 
the Division of Digestive Diseases at the University of 
Cincinnati. Doctor.
    Dr. Giannella. Mr. Chairman, my name is Dr. Ralph 
Giannella. I am a professor of medicine at the University of 
Cincinnati School of Medicine, and I direct the Division of 
Digestive Diseases. I am also the incoming President of the 
American Gastroenterological Association, the AGA, which 
represents over 10,000 gastrointestinal physicians and 
scientists who are involved in research, clinical practice, and 
education on disorders of the digestive system.
    It is our privilege to testify before the subcommittee and 
to provide you with an update on the current status of 
federally-supported digestive disease research in the areas in 
need of more intensified activity.
    Firstly, the AGA would like to commend you, your committee, 
for your fine work with respect to maintaining, through the 
generous funding of the National Institutes of Health, 
America's leadership position in global biomedical research.
    Last year's NIH appropriation reflected your willingness to 
invest in programs which will yield monumental dividends in the 
years ahead in terms of reduced illness and suffering and 
diminished health care costs. We urge you to continue on this 
course.
    We join the biomedical science community in recommending 
that funding for the NIH and its component NIDDK, National 
Cancer Institute, and NIAID programs receive funding increases 
of 15 percent above last year's levels.
    In our testimony submitted for the record, we have detailed 
the very substantial strides that have been made in many of the 
most troubling programs associated with gastrointestinal 
illness, especially areas of colorectal cancer, hepatitis C, 
and motility disorders. Funding at recommended levels will 
enable us to maintain our progress in ameliorating these 
diseases.
    The AGA also applauds the subcommittee and Congress 
generally for their heightened awareness of food- and water-
borne illnesses. In our statement, the AGA would like to stress 
the importance of augmenting the research effort in food-borne 
pathogens.
    You may know the numbers. Food-borne illness costs our 
country 5 to 6 billion dollars in health care costs and lost 
productivity each year. These illnesses afflict up to 33 
million Americans each year, resulting in approximately 10,000 
deaths. Outbreaks, unfortunately, are increasingly 
commonplace--E coli spread through swimming pools in Chicago or 
ground beef in Nebraska, salmonella outbreaks in Chicago 
transmitted through milk and Cryptosporidium infections in day 
care centers.
    Congress has responded appropriately with legislation in 
funding aimed at preventing bacteria from entering our food and 
water supplies through enhanced inspection programs. However, 
we need to recognize that food and water supplies can never be 
made entirely safe. Indeed, in this troubled world, precious 
little could be done were the United States to be the object of 
a deliberate bioterrorist attack on the Nation's food or water 
supply.
    While prevention-oriented initiatives are important, 
treatment for those who do get sick once tainted food or water 
is consumed is essential. We must focus now on research that 
results in better understanding and treatment for food-borne 
illness so that we can learn to blunt and avoid the devastating 
complications.
    The AGA and the American Digestive Health Foundation have 
committed funds to the NIDDK to work in partnership to 
establish and implement a request for application focused on 
food-borne illness research. But our effort will not be enough. 
Most biomedical research currently being performed has focused 
on the kidney, where few people are afflicted but the mortality 
rate is high. We need to intensify research on areaction of the 
gut to food-borne pathogens.
    Stopping the disease when it is initially confined to the 
gut would prevent the devastating complications like kidney 
failure. We need to better understand how these food-borne 
pathogens damage and affect the gut and understand 
contamination and transmission patterns and how the toxins get 
out of the gut to damage the risk to the body.
    Our goals should be the discovery of effective treatments, 
vaccines and substances that bind with the toxins to prevent 
the illness. Only with an intensified effort, meaning higher 
funding for digestive disease research, will our Nation's 
physicians be able to provide effective care that these 
unfortunate victims of food-borne illness disease deserve.
    In conclusion, Mr. Chairman, I want to urge you to continue 
your enlightened support to provide a 15 percent increase for 
the NIH and to maintain the commitment towards a doubling of 
the biomedical research budget over the next several years.
    With regard to food-borne illness research, however, we 
urge you to provide funds and the report language necessary to 
accelerate NIH's support down this neglected path. The AGA 
recommends that Congress encourage the NIH and others 
conducting food-borne illness research, like the U.S. 
Department of Agriculture and the CDC, to redirect their focus 
to concentrate more intensively on a better understanding of 
the disease in the gut and developing effective treatments.
    Thank you very much for your attention and for the 
opportunity of testifying before the subcommittee.
    Mr. Cunningham. Thank you, Dr. Giannella.
    [The prepared statement of Dr. Ralph Giannella, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. I had a Mrs. Rudolph in my district who 
lost her daughter to the E coli. And she came to me and said, 
Duke, we prayed for our daughter to die. She was in so much 
pain. And she started these safe tables. Her priorities 
stopped--I don't know if you are familiar with it or not.
    Dr. Giannella. I am.
    Mr. Cunningham. But it is not--even before--this is my 
first year on the committee, but even before that I supported 
not only the research but the regulations to try and help in 
that particular area. Last month, I had someone come to me with 
a new machine that radiates all beef products that go through 
it, that potentially has the ability to stop E coli and the 
fecal material on it and kill it. So I empathize with you. 
Thank you, Dr. Giannella.
    Dr. Giannella. We appreciate your concern. Thank you.
    Mr. Cunningham. I will tell you, being of Italian 
background, Vita Fossella, our latest member from New York, his 
grandfather's name is O'Riley. His wife's name is Mary Pat. 
Both are 100 percent Irish. So I gave--there is a chance for 
you. Because I gave Vito Fossella an Irish flag at our 
convention, our Republican convention, and told him that he 
should give this to his children, since they are 75 percent 
Irish and only 25 percent Italian.
    Dr. Giannella. Twenty-five percent goes a long way, though.
    Mr. Cunningham. Thank you. She has the flag today.
                              ----------                              

                                          Thursday, April 29, 1999.

                 NATIONAL ALLIANCE FOR THE MENTALLY ILL


                                WITNESS

LAURIE FLYNN, EXECUTIVE DIRECTOR
    Mr. Cunningham. Laurie Flynn, Executive Director, 
representing the National Alliance for the Mentally Ill. Laurie 
Flynn.
    Ms. Flynn. Thank you very much, Mr. Chairman. I am pleased 
to be in like Flynn this morning.
    I am Laurie Flynn, the Executive Director of the National 
Alliance for the Mentally Ill. NAMI is a national grass-roots 
family and patient organization with over 200,000 members 
located in all 50 states, the District of Columbia and Puerto 
Rico; and all members of NAMI, like my own family, know the 
impact of serious mental illness directly in our own lives.
    Mr. Chairman, research has proven that brain disorders, 
serious mental illnesses are treatable. The current success 
rate for treating schizophrenia is 60 percent. The success rate 
for bipolar disorder has risen in recent years and now 
approaches 80 percent. For major depression, the most common 
serious mental illness, the rate has now climbed to nearly 65 
percent.
    These advances in treatment would not have been possible 
without substantial investment in biomedical research directed 
to understanding the most complex organ in the human body, the 
brain. We very much appreciate at NAMI the tremendous support 
we have had over the years from Mr. Porter and members of the 
subcommittee.
    In 1999, we are facing the close of the Decade of the 
Brain, and so we believe it is important to put into 
perspective the gains we have seen in brain science, gains that 
have benefitted people with serious brain disorders, including 
my own daughter. We also need to plan effectively for the 
future gains that are necessary. The brain regions involved in 
these serious mental disorders, the molecules that are at the 
root of the terrible symptoms, the genes that lead to 
vulnerability to these illnesses remain to be fully probed.
    Many people with severe mental illnesses find only 
incomplete relief from their symptoms, and long-term disability 
is still far too common. For bipolar disorder, or manic 
depressive illness, treatment does work for many, but not for 
all and not for all symptoms. Individuals with obsessive 
compulsive disorder still often fail to achieve much gains from 
current treatment. For adolescents and children, matters are 
much worse, because we still know so little about the illnesses 
as they emerge during development, and we know even less about 
how to effectively and safely treat them.
    Mr. Chairman, it is important to recognize the impact of 
mental illness on American society. The national need for 
severe mental illness research is most effectively demonstrated 
by terrible statistics. Suicide is the eighth most common cause 
of death in this country and the fourth most frequent cause of 
life lost for persons under age 65. Rates are increasing among 
young men and the elderly. As it stands, 30,000 Americans will 
die by suicide this year. Most of these individuals have a 
serious mental illness.
    The most severe mental illnesses are those that are so 
devastating to families and their loved ones. Schizophrenia and 
bipolar disorder disproportionately lead to suicide. Ten 
percent of the 2 million U.S. citizens with schizophrenia take 
their own lives. About half will make a severe suicide attempt 
at some point during their life. Fifteen to 20 percent of the 2 
million Americans with bipolar illness will die by suicide.
    These are truly frightening statistics. That severe mental 
illness research ought be a priority for our Nation is 
demonstrated by data recently made available by the World 
Health Organization and the World Bank.
    And I would point out that the World Bank is not a mental 
health advocacy group. They took a hard look at the impact of 
diseases worldwide and found that severe mental illnesses, 
major depression, bipolar disorder, schizophrenia and obsessive 
compulsive disorder account for four of the top ten most 
disabling illnesses in the world. That is nearly half of all 
the disabling illness in the world. These brain disorders 
currently account for an estimated 20 percent of all disability 
when viewed across all diseases and injuries.
    Mr. Chairman, we applaud the subcommittee's leadership in 
supporting increases for the National Institutes of Health. 
NAMI urges the subcommittee to follow the recommendations of 
the scientific community and the Ad Hoc Group for Medical 
Research Funding and increase overall funding for NIH by $2.3 
billion for fiscal year 2000. Such an increase would put NIMH 
near the $1 billion mark for the first time and would allow 
them to fund 754 new and competing grants.
    This success rate is important to the hope we carry for 
research and represents a major advance over the President's 
disappointing proposal which would permit only the smallest 
increase for NIH in the past 2 decades and would not allow the 
research that we hope for to continue at the rate that science 
tells us it can be productive.
    Increased resources are not the only objective for the NIH. 
We believe that better accountability is also essential. So 
NAMI urges you to press the NIH to invest their resources 
according to public health needs as well as scientific 
opportunity, as the Institute of Medicine report from last year 
recommended.
    NIH must balance its investment among diseases so that the 
most disabling and costly illnesses facing the Nation are 
appropriately prioritized. Research at the National Institute 
of Mental Health offers tremendous opportunities and is crucial 
to some of the most disabling illnesses facing this Nation.
    Mr. Chairman, I want to take a moment to share the----
    Mr. Cunningham. You can wind up. The time is over.
    Ms. Flynn. Let me then move on and speak briefly to the 
importance of community-based care, which is funded at the 
Substance Abuse and Mental Health Services Administration, and 
especially call your attention to a proposed increase in the 
mental health block grant, which we very strongly support in 
view of the gaps in our treatment system, visible in our 
communities, and especially focusing on targeting that grant 
towards programs of assertive community treatment that reach 
out with comprehensive care to the most vulnerable and disabled 
individuals, including those who have dual disorders of 
substance abuse and mental health and those who are homeless.
    This we think will be a very important public health 
measure aimed at some of those who are most devastated by 
mental illnesses.
    Mr. Cunningham. We will submit your entire testimony for 
the record for you.
    Ms. Flynn. Thank you very much.
    Mr. Cunningham. Thank you.
    [The prepared statement of Laurie Flynn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. We did meet a young lady that has 
schizophrenia at NIH last week----
    Ms. Flynn. Excuse me. I didn't realize you were addressing 
me.
    Mr. Cunningham. With the medicine--she is now a productive 
member. She is working. One of the problems is that sometimes 
they forget to take their medicine. Because the disease 
itself----
    Ms. Flynn. That is true.
    Mr. Cunningham. I think it is sad what happened in Colorado 
last week, and I can't still understand how a young man of that 
age would--especially two would go in and do something like 
that. There has got to be some mental problem that would cause 
anyone not only to do what they did but to then to take their 
own lives as well. So it is----
    And the last thing I would say is that mental health--I 
will tell you what had an impact on me. There was a lady I 
wanted to strangle. Her name was Nurse Ratchett in One Flew 
Over The Cuckoo's Nest, and I still remember that, and I was a 
kid when I saw it. And those kinds of things bring pretty bleak 
images.
    Thank you for your testimony.
    Ms. Flynn. If I can--just to pick up on your onecomment--
let you know the impact that mental health research has and pick up 
your story of visiting the young woman with schizophrenia. My own 
daughter will receive a Master's Degree next month----
    Mr. Cunningham. I have to move on.
    Ms. Flynn. She has been clearly a sign of the success and 
impact that this research that the subcommittee has supported 
can have. So we thank you.
    Mr. Cunningham. Congratulations.
    Ms. Flynn. Thank you very much.
                              ----------                              

                                          Thursday, April 29, 1999.

             NATIONAL FEDERATION OF COMMUNITY BROADCASTERS


                                WITNESS

CAROL PIERSON, PRESIDENT AND CEO
    Mr. Cunningham. Carol Pierson, President and CEO of 
National Federation of Community Broadcasters. Carol, welcome.
    Ms. Pierson. Thank you. Thank you for providing me the 
opportunity to appear before the subcommittee regarding the 
appropriation for the Corporation for Public Broadcasting.
    As the President of the National Federation of Community 
Broadcasters, I speak on behalf of 150 community radio stations 
across the country. NFCB is the sole national organization 
representing these stations which provide service in the 
smallest communities of these country as well as the largest 
metropolitan areas. Nearly half of our members are rural 
stations and half are minority controlled stations.
    Community radio fully supports $350 million for the 
Corporation for Public Broadcasting in fiscal year 2002. 
Federal support distributed through CPB is an essential 
resource for rural stations and for those stations serving 
minority communities. These stations provide critical, 
lifesaving information to their listeners, yet they are often 
in communities with very small populations and limited economic 
bases so that the ability of the community to financially 
support the station is insufficient without Federal funds.
    In larger towns and cities, sustaining grants from CPB 
enable community radio stations to provide a reliable source of 
noncommercial programming about the communities themselves. 
Local programming is an increasingly rare commodity in a Nation 
that is dominated by national program services and concentrated 
ownership of the media.
    On community radio stations, localism is alive. In Chicago, 
WRTE provides Spanish language programming to the neighborhood 
of Hillson, training high school students in radio skills. On 
KILI in Porcupine, South Dakota, you hear morning drive 
programs in Lakota. Throughout the California farming areas, 
Radio Bilingue programs five stations targeting low-income farm 
workers, and on WWOZ you can hear the sounds and culture of New 
Orleans throughout the day.
    We are very, very pleased with changes CPB is implementing 
in the way grants are made to stations. CPB's new policy 
targets rural radio for significant increases in funding 
beginning fiscal year 2000. This recognizes the critical 
service these stations provide with limited local resources.
    We very much appreciate the Appropriations Committee report 
language on the importance of rural and minority radio.
    I also commend CPB for the leadership it has shown in 
fostering the programming services for Latino and Native 
American listeners. Satelite Radio Bilingue provides 24 hours 
of programming to Latino stations in the United States, in the 
same way American Indian Radio on Satellite or AIROS is 
distributing programming for the Native American stations. 
There are now over 30 stations controlled by and serving Native 
Americans, primarily on Indian reservations.
    NFCB thanks the subcommittee and particularly Chairman 
Porter for the support of the supplemental appropriation to 
replace the public radio satellite capacity. As you know, the 
timeline for this replacement was suddenly moved up when the 
Galaxy IV satellites spun out of control. The Public Radio 
Satellite System is a critical link for public radio stations 
to distribute important national and regional programming. The 
Satelite and AIROS services uses satellite, as do many 
independent radio producers and the major public radio 
networks.
    It is important that $48 million in funding is committed 
now, as recommended by the House, so that a new agreement can 
be negotiated by this summer.
    Finally, community radio supports funding for conversion to 
digital broadcasting by public radio and television. The 
television conversion process is already having an impact on 
public radio stations, even though a digital standard for radio 
has not been adopted.
    As television stations increase the space they need on 
their towers, radio stations who rent space are losing their 
leases. We need emergency funding to help public radio stations 
who lose their tower space do the necessary engineering studies 
and move to new tower locations.
    The administration's proposal of $450 million for digital 
conversion assumes that all of the funding to the Public 
Telecommunications Facilities Program, or PTFB, will be for 
digital conversion. This would mean no funding for radio's 
current needs. We are concerned that the level of funding in 
the administration's proposal will not be sufficient to cover 
the ongoing needs of the system and the costs of converting 
both public television and public radio.
    This is a period of tremendous change. Digital is 
transforming the way we do things. New distribution avenues are 
changing how we define our business. The concentration of 
ownership in commercial radio makes community radio more unique 
and more important as the local voice than ever.
    During this time, the role of CPB as a convener of the 
system becomes even more important, and the funding it provides 
will allow the smaller stations to participate as we move into 
a new era of communications.
    Thank you very much for the support that you have given to 
public broadcasting, and I appreciate the opportunity to speak 
to you today for community radio.
    Mr. Cunningham. Thank you.
    [The prepared statement of Carol Pierson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. I had a young African American come to me 
just last month in San Diego who said one of the problems was 
frequencies, that they couldn't get a frequency. Is that still 
a problem?
    Ms. Pierson. It is. There are a number of possibilities 
that are out there in some of the new ways of getting 
programming out by satellite or through the Internet.
    Mr. Cunningham. Maybe you can submit to my office just some 
of the problems with the frequency. Because in San Diego it is 
a problem.
    Ms. Pierson. I will be happy to. It is a big problem.
    Mr. Cunningham. And I notice one shortage. You mentioned 
all of these minorities things. You didn't have any Irish music 
in public broadcasting.
    Ms. Pierson. On community radio, you will hear quite a bit 
of Irish music. Thank you.
    Mr. Cunningham. Thank you.
                              ----------                              

                                          Thursday, April 29, 1999.

         COALITION FOR HERITABLE DISORDERS OF CONNECTIVE TISSUE


                                WITNESS

HARRY C. DIETZ, MD, ASSOCIATE PROFESSOR OF PEDIATRICS, MEDICINE, 
    MOLECULAR BIOLOGY AND GENETICS, NEUROSURGERY, JOHN HOPKINS 
    UNIVERSITY SCHOOL OF MEDICINE; AND CHAIR, PROFESSIONAL ADVISORY 
    BOARD OF THE NATIONAL MARFAN FOUNDATION
    Mr. Cunningham. Dr. Harry Dietz, Associate Professor of 
Pediatrics, Medicine, Molecular Biology and Genetics, 
Neurosurgery, Johns Hopkins University School of Medicine; and 
Chair, Professional Advisory Board of the National Marfan 
Foundation.
    Dr. Dietz. Thank you.
    Dr. Dietz. Mr. Chairman, the members of the Coalition for 
Heritable Disorders of Connective Tissue thank you for this 
opportunity to provide testimony in support of the budget for 
the National Institutes of Health and specifically for the 
National Institute of Arthritis, Musculoskeletal and Skin 
Diseases.
    Connective tissue is the material between cells of the body 
that gives the tissues form and strength. The complexity of 
connective tissue is underscored by the fact that our Coalition 
represents hundreds of distinct disorders. The collective 
responsibility to this group of patients is underscored by the 
fact that literally millions of Americans are affected by 
connective tissue disorders.
    We are grateful for this committee's history of support for 
research on these and other genetic disorders. At this time, 
however, there are no simple diagnostic tests, few effective 
therapies and no known cures. Additional funding for research 
is urgently needed.
    Many of these disorders are relatively rare and seem 
unfamiliar and strange. We can all conceptualize a disease 
called Marfan syndrome that causes the lenses of the eye to 
shift out of place, the bones to overgrow, causing skeletal 
deformity and aorta to enlarge until it tears.
    A greater depth of understanding is needed, however, to 
appreciate our desperate call for increased research funding. 
Consider a woman who first learned of Marfan syndrome after her 
young son collapsed at the bus stop due to a tear in the aorta. 
She subsequently lost two of her siblings to this disease.
    Consider a young man who simultaneously learned of the 
birth of his son and the death of his wife, due to rupture of 
the aorta during labor. Now visualize about 50,000 similar 
stories in the United States alone and begin to understand 
Marfan syndrome.
    The Coalition for Heritable Disorders of Connective Tissue 
provides a single voice for multiple volunteer health advocacy 
organizations. Members include individuals with Ehlers-Danlos 
Syndrome, a family of disorders characterized by loose joints, 
fragile skin and blood vessels and abnormal wound healing. I 
think of a young man with a severe variant being told that he 
will die due to rupture of a blood vessel and that surgical 
repair is futile because his tissues will fail to hold 
stitches. With each disorder there are faces and stories of 
pain and courage and the need for hope.
    The chondrodysplasias comprise a group of disorders united 
by an abnormality of skeletal growth and maturation. The 
ectodermal dysplasias include over 150 disorders characterized 
by an abnormality of tissue that comprises the skin, teeth, 
hair and sweat glands, among others.
    Epidermolysis bullosa is a group of blistering diseases 
that disproportionately affect young children. Manifestations 
range from mild blisters to severe scarring with loss of 
fingers and limbs and ultimately death.
    Osteogenesis imperfecta is characterized by brittle bones 
that may fracture in the absence of apparent trauma.
    Individuals with pseudoxanthoma elasticum experience 
progressive calcification of elastic fibers leading to visual 
loss, skin changes and vascular insufficiency.
    Stickler syndrome can include visual loss and deafness and 
severe early arthritis.
    All of these individuals give freely of themselves to 
facilitate research, despite the knowledge that any meaningful 
advance may not occur in time to relieve any of their daily 
burden. Research offers hope.
    Finally, the Coalition also advocates for millions of 
Americans with common abnormalities of connective tissue, 
including those with isolated aortic aneurysm and 
osteoarthritis. About 2 percent of individuals in this country 
will die from aortic aneurysm, and the majority of us will have 
arthritis in late life.
    In 1990 and again in 1995, NIAM sponsored conferences 
focused on heritable disorders of connective tissue. Their 
value was tremendous, allowing for review of research 
directions, establishment of priorities and the development of 
critical interdisciplinary collaborations. We eagerly 
anticipate new advances of the third conference to be held in 
the year 2000.
    The Coalition strongly endorses the establishment of 
scientific research centers focused upon the study of 
connective tissue disorders. Such centers will allow for the 
targeted recruitment of geneticists, biochemists and cell 
biologists that contribute their expertise to a common problem. 
These centers will attract a critical mass of patients with 
rare disorders, providing a first opportunity for definitive 
clinical investigation. These events will advance the pace of 
basic science discovery and its translation from the lab bench 
to the patient bedside.
    The Coalition supports the Ad Hoc Group for Medical 
Research Funding in their request to sustain the current 
momentum of medical research. The President, the Congress and 
the American people must continue the commitment of last year 
to double the NIH budget by 2003. The Coalition supports an 
appropriation of $18 billion for fiscal year 2000, the second 
step toward this bipartisan goal.
    The funding of biomedical research is more than an abstract 
investment in America's future. It will improve the quality of 
life of each American. Thank you.
    Mr. Cunningham. Thank you, Dr. Dietz.
    You said one thing that I think ought be the theme of every 
witness I heard today that struck a note--pain, courage and a 
need for hope. That should be a battle cry.
    Thank you for your testimony.
    [The prepared statement of Harry Dietz, M.D., follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, April 29, 1999.

                  DIGESTIVE DISEASE NATIONAL COALITION


                                WITNESS

MAURICE CERULLI, M.D., PRACTICING ACADEMIC GASTROENTEROLOGIST AT 
    BROOKLYN HOSPITAL, AND CHAIRMAN OF THE DIGESTIVE DISEASE NATIONAL 
    COALITION'S PUBLIC POLICY COMMITTEE
    Mr. Cunningham. Dr. Cerulli, practicing academic 
gastroenterologist at Brooklyn Hospital and Chairman of the 
Digestive Disease National Coalition's Public Policy Committee. 
Doctor.
    Dr. Cerulli. Good morning, Mr. Cunningham, and members of 
the subcommittee staff. Thank you for the opportunity to appear 
before you today to discuss the Federal Government's support 
for digestive disease research and prevention programs at the 
NIDDK, the NIAID and the CDC.
    I am Dr. Maurice Cerulli, a practicing academic 
gastroenterologist at the Brooklyn Hospital Center and Chairman 
of the Public Policy Committee of the Digestive Disease 
National Coalition.
    Founded in 1978, the DDNC is a voluntary organization 
comprised of 22 professional and patient organizations. The 
Coalition has as its goal a desire to improve the health of the 
millions of Americans who suffer from both acute and chronic 
digestive disorders.
    These diseases are responsible for 50 million doctor 
visits, 10 million hospitalizations, 230 million days of 
restricted activity, and about 200,000 deaths. The human 
suffering cannot be quantified. The estimates of fiscal costs 
are $107 billion per year.
    I would like to highlight six areas of specific research 
from my written testimony.
    Endoscopic research. At the DDNC, I am the representative 
of the American Society for Gastrointestinal Endoscopy, the 
ASGE. The DDNC strongly supports advanced funding for 
endoscopic research at the NIDDC. Endoscopic procedures allow 
us to diagnose and treat many digestive disorders with 
minimally invasive methods.
    One of our DDNC members, the Center for Ulcer Research and 
Education in California, has pioneered with others endoscopic 
therapies that permit qualified endoscopists to diagnose and 
treat bleeding ulcers, avoiding surgery.
    The National Polyps Study funded by the NIH and DDC 
component societies proved that colonescopic surveillance to 
remove polyps can reduce the risk of colon cancer by 90 
percent. The ASGE, with funding from the American Digestive 
Health Foundation, is setting up a computer network to conduct 
100 centers and endoscopists for outcome studies.
    We are involved in research into the association between 
gastroesophageal reflux disease, GERD, and esophageal cancer, 
as well as GERD-induced asthma, which may occur in up to 50 
percent of adult asthmatics. We look forward to working with 
the NIDDK to expand their endoscopic research programs, and we 
encourage the subcommittee to support this important effort.
    Colorectal cancer prevention. Colorectal cancer is the 
number two cause of cancer deaths after lung cancer. Colorectal 
cancer affects women and men about equally. It can be 
prevented. According to CDC estimates, we can reduce the deaths 
attributed to this cancer by 50 percent if all people at risk 
were screened. A recent GAO report, however, indicated that 
only about one out of eight eligible Medicare beneficiaries 
took advantage of this screening benefit available to them.
    The DDNC encourages the subcommittee to provide CDC with $5 
million, an increase of $2.5 million, in fiscal year 2000 for 
the CDC educational program for colorectal cancer screening.
    CDC officials have told me that we are 15 years behind 
breast cancer screening, a very successful program, which is 
funded in over $150 million per year.
    Hepatitis research and prevention. Hepatitis B vaccination 
programs are saving young lives, but preteens and teens who are 
not covered under the original program are at risk. Therefore, 
the DDNC supports the expansion of the CDC's vaccination and 
educational programs for hepatitis B.
    Hepatitis C afflicts 4 million Americans, and it is the 
leading cause of liver transplants. We have available two drug 
regimes currently which result in, at best, a 40 percent 
response rate after up to a year's worth of therapy. We ask 
that the subcommittee continue its strong support for hepatitis 
C research at the NIDDK and the NIAID.
    Inflammatory bowel disease. In 1998, the FDA approved a 
unique drug which controls a basic mechanism in the inflation 
of Crohn's disease. The DDNC encourages the subcommittee to 
continue its support of IBD research at NIDDK and NIAID.
    Irritable bowel syndrome is a chronic complex of intestinal 
disorders causing severe abdominal symptoms. The DDNC 
encourages the NIDDK to expand its IBS research portfolio.
    Food-borne illnesses usually attack the digestive system. 
We applaud the Congress for increasing recognition of the 
problems associated with food-borne illness. However, while 
prevention-oriented initiatives are important, policymakers 
must also focus on treatments for those who get sick once 
tainted food is consumed. Accordingly, we encourage Congress to 
appropriate funds for food-borne illness research and NIDDK and 
NIAID.
    In conclusion, Mr. Cunningham, I would like to take a 
moment to thank the retiring director of NIDDK, Dr. Phillip 
Gorden, for his years of service at NIH. The DDNC has enjoyed 
working with Dr. Gorden over the years, and we wish him well in 
the future.
    Once again, thank you very much for the opportunity to 
testify today on behalf the Digestive Disease National 
Coalition. I would be pleased to answer any questions that you 
or your colleagues may have. Thank you.
    Mr. Cunningham. Thank you, Dr. Cerulli.
    [The prepared statement of Dr. Maurice Cerulli, M.D., 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cunningham. I have a constituent, Rolf Benischke, who 
was a kicker for the San Diego Chargers, and he had a 
colonoscopy many years ago, right after he had to stop kicking 
for the Chargers, and now he is fighting hepatitis. And I don't 
know the status, but in fact your testimony made me think, I am 
sorry I didn't have him come back and testify. But I know he is 
going through a real battle.
    Hepatitis is very, very serious. People don't realize the 
problems that you have. And I will tell you, when you talk 
about a beautiful guy, as far as a good father and husband and 
stuff like that, and he is fighting this at the same time.
    So thank you for your testimony.
    Dr. Cerulli. Yes, sir, anyone who has transfused before 
1992 is at risk; and, unfortunately, that was his problem.
    Thank you for your attention, sir.
    Mr. Cunningham. Thank you.
    The committee will be adjourned until 2:00 p.m. With 
Members of Congress' testimonies. Thank you.
                              ----------                              

                                          Thursday, April 29, 1999.

                      CONSOLIDATED HEALTH CENTERS


                                WITNESS

HON. EVA M. CLAYTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Porter. The subcommittee will come to order. We 
continue our hearings with our colleagues in the Congress.
    We are pleased to welcome Congresswoman Eva M. Clayton of 
North Carolina, who will testify on Consolidated Health 
Centers.
    Mrs. Clayton. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I am pleased to provide the 
subcommittee with testimony in support of the urgent need to 
increase funding by $100 million for the Consolidated Health 
Centers program to $1.026 billion for fiscal year 2000.
    Mr. Chairman, you deserve much recognition for your strong 
leadership in providing health centers with a $100 million 
increase last year. You have a true appreciation for the 
tremendous work performed by health centers in the communities 
which they serve. But we have much more work to do.
    During testimony to the subcommittee earlier this year, the 
Health Resources and Services Administrator, Mr. Claude Earl 
Fox, stated that in his professional judgment health centers 
needed a $264 million increase in fiscal year 2000 to maintain 
operations and to meet growing demands for services. The 
appropriations increase for fiscal year 1999 allows the Bureau 
of Primary Health Care to provide only 25 percent of the amount 
needed to adequately fund existing health centers, which are 
currently underfunded for the number of uninsured that they are 
serving, and it will only permit funding for 50 of the more 
than 550 requests for a new health center submitted by 
communities that do not have one.
    The reason I am here today is because nearly one in five 
North Carolina residents, 18 percent, have no health insurance. 
Forty-three million Americans lack any health coverage 
whatsoever, and the vast majority of them cannot afford to pay 
for needed care themselves. The number of uninsured Americans 
is growing at a rate of more than 100,000 per month. Studies 
have shown that this number could reach 50 million or more over 
the next 5 years. Their families cannot afford to pay doctors 
to comfort a sick child, nurse a frail elder or heal a family 
breadwinner.
    What can we do? How can we guarantee the gift of health and 
hope to all Americans?
    The answer is that we must continue investing in health 
centers. Nationwide, there are 981 community, migrant, homeless 
and public housing centers serving over 2,500 communities 
across America. Together, these health centers care for over 10 
million children and adults in each State, Commonwealth and 
Territory, and the District of Columbia. For over 30 years, 
health centers have provided the prenatal care mothers need for 
a healthy baby, the immunizations children must have to go to 
school, and the primary care for adults to stay healthy for 
work. They have a long track record of controlling costs, 
providing access to quality care, retaining health 
professionals where they are most needed and empowering 
communities to develop long-range solutions to their health 
needs.
    For just 76 cents a day in Federal grants, health centers 
can provide primary and preventive care to an uninsured person. 
That small investment pays off by reducing expensive and 
inappropriate care. Every grant dollar invested in health 
centers saves $7 for Medicare, Medicaid and private insurance; 
$6 through lower use of specialty and inpatient care; and $1 
from reduced use of costly hospital emergency rooms.
    Eleven health center sites serve low-income, uninsured and 
other vulnerable populations in North Carolina's First 
Congressional District, which I serve. From the urban areas of 
Fayetteville, Rocky Mount, and New Bern to rural towns along 
Albemarle Sound, health centers provide 158,355 clinic visits 
to 46,390 patients. These are patients who would not get care 
without their local health centers; 17,493 are wholly uninsured 
and 9,880 rely on Medicaid coverage.
    In many towns in my district, there would be no doctor 
available for anyone if there were no health centers.
    Like many health centers nationwide, the ones in my 
district and throughout the State not only provide quality 
care, but they also serve as engines for economic development. 
They provide jobs and generate new investment into isolated 
rural areas and underdeveloped urban communities. These centers 
represent an important service industry in the State. Health 
centers in my district provide 232 jobs to their communities.
    In 1998, health centers in my district generated more than 
$13.9 million in economic activity, many times more than the 
$5.3 million in Federal grant dollars they received. But they 
need more resources to fulfill their mission as the number of 
uninsured continues to rise and Medicaid revenues are 
stagnated.
    As you consider the fiscal year 2000 appropriations, I urge 
you to provide $1.026 billion, a $100 million increase above 
current funding levels, for the Consolidated Health Center 
program. Health centers can provide an entire year of primary 
and preventive care to an uninsured patient for an average of 
just $280 in Federal support.
    A $100 million increase will allow health centers to care 
for an additional 350,000 uninsured patients. Since health 
centers have seen an additional 1 million uninsured patients 
over the past 3 years, the increase would provide the minimum 
needed to serve the tide of uninsured patients seeking care.
    Mr. Chairman, I know that you and members of the 
subcommittee have a very difficult task ahead of you this year 
because of the strict limits on available funds. However, you 
should view health center appropriations as an investment. It 
is an investment that will return a healthier nation with equal 
access to care for all Americans, urban or rural, rich or poor, 
insured or uninsured, black and white.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Eva Clayton 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Representative Clayton, as you know, we have 
put this at a very high priority and will continue to do that.
    Mrs. Clayton. Thank you.
    Mr. Porter. I might also say we are very impressed with the 
work Dr. Fox is doing and we want to help him as much as we 
possibly can.
    I would like to be able to solve the access problem through 
funding for community health centers. The problem is too big 
for that. It has to be solved not with discretionary dollars, 
but with mandatory dollars, and so I am lobbying you to talk to 
Ways and Means to take up this issue seriously.
    There is a terrible access problem in our country, and if 
we didn't have community health centers it would be infinitely 
worse. Luckily we do. We are going to give them all the support 
we can, but we need a broader solution than just that funding.
    Mrs. Clayton. Well, I will pledge my support and would like 
to work with you in addressing the Ways and Means to consider 
that.
    Mr. Porter. Thank you. We will do our best.
    Mrs. Clayton. Thank you.
                              ----------                              

                                          Thursday, April 29, 1999.

     THE YOUTH LEADERSHIP INITIATIVE AT THE UNIVERSITY OF VIRGINIA


THE KRASNOW INSTITUTE AND THE CENTER FOR FAMILIES AND SCHOOLS AT GEORGE 
                            MASON UNIVERSITY


                               WITNESSES

HON. VIRGIL H. GOODE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF VIRGINIA
HON. THOMAS M. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Porter. Congressman Virgil Goode, Jr., testifying on 
George Mason University and the University of Virginia.
    Mr. Goode. Thank you, Mr. Chairman.
    Mr. Chairman, thank you very much for this opportunity to 
express my support for the requests for $1.5 million in fiscal 
year 2000 for the University of Virginia Center for Government 
Studies' Youth Leadership Initiative.
    I would like to express my strong support for funding for 
the Youth Leadership Initiative, a program based at the 
University of Virginia Center for Governmental Studies. The 
University of Virginia Center for Governmental Studies is 
seeking $1.5 million in fiscal year 2000 under the education, 
research, statistics and improvement program administered by 
the Department of Education.
    I believe that the Youth Leadership Initiative is a worthy 
program, and I hope that it can be funded within the framework 
of a balanced budget.
    The Center for Government Studies was established by Dr. 
Larry Sabato, a nationally known political scientist. The 
Center is a public/private partnership that has raised over a 
million in private contributions and has a half-million in 
funding from the State of Virginia.
    The Youth Leadership Initiative, for which the Center is 
requesting these funds, seeks to increase political 
participation in America and to prepare our youth for an active 
role in our democracy. The Youth Leadership Initiative helps 
students study the demographics of a constituency, conduct 
political polling and voter analysis, prepare policy platforms, 
organize political debates, run mock campaigns and elections, 
and analyze election results.
    In addition, the Center for Governmental Studies will also 
be developing a comprehensive Youth Leadership Initiative 
source book to serve as a clearinghouse of proven political 
learning methods which teachers can easily incorporate into 
existing curricula. Youth Leadership Initiative is working to 
hone the model in Virginia and make it available to schools 
nationwide by 2004.
    I recognize the difficult work that your subcommittee and 
the full committee has done and I would be grateful for any 
consideration that you could show to this request. I would add, 
in my opinion, that I think the Youth Leadership Initiative, 
through the national mock elections, will increase young 
people's participation in elections in 2004.
    Thank you.
    [The prepared statement of Representative Virgil Goode 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Representative Davis.
    Mr. Davis of Virginia. Let me just add that Dr. Larry 
Sabato, who heads this area, has a button that says, ``Politics 
Is a Good Thing.'' He actually has kids wearing that, if you 
can believe that, on our campuses.
    Larry was an undergrad at the University of Virginia when I 
was in law school there. He went on to become a Rhodes scholar, 
and now Dr. Sabato heads this. He has written books nationally 
on campaign financing and on other aspects of the American 
political agenda.
    I would associate myself with the words of my colleague and 
would ask unanimous consent that my entire statement be put in 
the record.
    Just to be brief about it, the one thing I like about this 
program is that the State of Virginia has contributed greatly 
to this and they have raised over a million dollars in private 
funds, so we would be complementing State and private efforts 
at the same time. But we hope to make this a national center.
    I also want to just speak briefly for two other requests we 
have. One is for the Krasnow Institute at George Mason 
University where we have requested report language to establish 
a receptive language disorders research center at their 
institute. Scientists and educators at the Krasnow Institute 
for Advanced Studies are using the latest neuroscience 
discoveries to help youngsters with severe reading deficits, 
thus making immediate practical applications of the Institute's 
research at the intersection of neuroscience, computer science 
and cognitive psychology.
    The team at Krasnow is addressing a problem that affects 
millions of adults in the U.S. workforce, using recent findings 
that suggest a problem in the neurological wiring that slows an 
affected individual's ability to process sounds. By using a 
series of intense computer-driven interactive games, speech 
sounds are slowed and ineffective brain pathways are rewired 
during each therapy session.
    At Krasnow, adolescents with such learning deficits are 
being treated with two computer-driven programs designed to, in 
effect, rebuild the disturbed brain architecture. The therapy 
is noninvasive and yet holds the promise of providing a cost-
effective solution to a modern crisis. I think this is unique 
in studies in American universities.
    Finally, for George Mason we have requested $1.5 million 
over 3 years to establish a Center for Services to Families and 
Schools. University psychologists would work with both school 
systems and school psychologists and directly with children and 
families.
    My entire statement here, I will put in the record and not 
take any more of the committee's time, but I appreciate the 
opportunity to be here, Mr. Chairman.
    [The prepared statement of Representative Tom Davis 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. The two of you are my two Virginia Congressmen, 
so I am going to do the best I can to do what you want us to 
do. Thank you both very much.
    Mr. Davis. Thank you very much. Let's quit while we are 
ahead.
    Mr. Porter. The subcommittee will stand in recess.
                              ----------                              

                                          Thursday, April 29, 1999.

                    RICKY RAY HEMOPHELIA RELIEF FUND


                                WITNESS

HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA
    Mr. Porter. The subcommittee will come to order. We 
continue our hearing with Congressman J.D. Hayworth of Arizona.
    J.D., it is good to see you.
    Mr. Hayworth. Mr. Chairman, it is a pleasure to be here 
with you. In stark contrast to the way Washington often works, 
it is so nice to be able to step in technically 2 minutes ahead 
of schedule, at least on my personal schedule, and I thank you 
for your generous indulgence. I would also like to thank all of 
those gathered here in this very important subcommittee.
    Mr. Chairman, I am pleased to testify before you in support 
of funding the Ricky Ray Hemophilia Relief Fund at $750 million 
for fiscal year 2000.
    Along with the 329 of my colleagues in the House and 
Senate, I cosponsored the Ricky Ray Hemophilia Relief Fund in 
the 105th Congress. As you no doubt know, this legislation 
provides compassionate payments of $100,000 to eligible 
individuals or their families who have contracted HIV from 
tainted blood products.
    This measure passed both Houses by a voice vote and on 
November 12, 1998, the President signed this legislation into 
law as Public Law 105-369.
    Unfortunately, the President has failed to provide funding 
for the relief fund in his fiscal year 2000 budget request.
    I come before you today, Mr. Chairman, on behalf of these 
individuals and their families. My only wish is that a brave 
young man from Chandler, Arizona, could be here with me today 
to stress the importance of this funding for these families.
    Jeremy Storms was a courageous young man born with 
hemophilia. He contracted the HIV virus through a tainted blood 
transfusion. Through all of his difficulties, Jeremy and his 
family found the time to travel to Washington and share their 
story with Members of Congress.
    I am sad to have to pass along to the committee that in 
1996, Jeremy Storms passed away at age 15. But Jeremy did not 
die in vain. He wanted to ensure that other families suffering 
from this tragedy would not also have to endure the same 
tremendous financial and emotional hardships.
    With yearly medical costs of over $150,000, the Storms and 
countless other families have been financially devastated. The 
single payment of $100,000 to these families only provides a 
small portion of relief to their financial burden and loss, and 
yet it is important that we provide this assistance as a way to 
own up to the government's culpability in the contamination of 
the blood supply. Indeed, providing $750 million to the Ricky 
Ray Hemophilia Relief Fund is a fitting tribute to families 
like the Storms, who have lost so much and continue to suffer 
as a result of the tainted blood products that were more 
prevalent before there was a full appreciation of the threat 
posed by the AIDS virus.
    Mr. Chairman, again on behalf of Ricky Ray, the Storms and 
thousands of other families who have suffered from this 
tragedy, I would like to once again express my gratitude to you 
personally for allowing me this opportunity to highlight the 
importance of the Ricky Ray Hemophilia Relief Fund; and I would 
urge my colleagues to support $750 million for the fund for 
fiscal year 2000 as a way to help families deal with a 
situation that is clearly not their fault.
    [The prepared statement of Representative Hayworth 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. J. D., we certainly agree with you that this is 
a very high priority.
    You are correct, the President put no money in his budget 
for it. We don't know yet what we are going to have to work 
with because we don't have an allocation. It may turn out that 
we have to do this over a period of years rather than all in 1 
year. We will do our best to have some funding there and 
address this.
    I agree with you, the equities and the losses are certainly 
demanding of our attention here, and we will do our best to 
comply.
    Mr. Hayworth. Mr. Chairman, I just thank you for all the 
work you do. I often joke with many constituents who come to 
see me. There is a little truth in humor. I say that I will 
never have good looks or money, but I pray daily for the wisdom 
of Solomon. It seems that many of these decisions in terms of 
funding priorities and so many challenges and so many worthy 
causes and so many concerns we have--you have my admiration and 
my respect for having to come to grips with the challenges 
confronted, especially when sadly the executive branch really 
fails to follow the law in this case.
    I just want to thank you again and thank the subcommittee. 
We very much appreciate your concern and we certainly 
understand the challenges that are confronted by the 
subcommittee and by the Congress in general.
    Mr. Porter. Thanks, J. D.
    Mr. Hayworth. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, April 29, 1999.

                  SERVICES FOR CHILDREN WITH HIV/AIDS


                               WITNESSES

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Porter. Our next witness is our colleague, 
Congresswoman Sheila Jackson Lee of Texas.
    Nice to see you.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
commend you and the committee for all of the good works that 
you have done, particularly for such a difficult area, a 
people-needs area. So I would first like to acknowledge the 
work of this committee and thank you for that work.
    This afternoon, I want to speak briefly about children 
living with HIV/AIDS.
    As an aside, Mr. Chairman, I just returned from Africa. I 
think the request for AIDS in that instance, or AIDS prevention 
treatment, would more appropriately come under foreign 
operations, but in any event we are finding out more and more 
the devastation of AIDS inasmuch as the trip produced 
statistics that would show us that between 2005 and 2010 there 
would be 40 million children in Africa that will be orphaned by 
the devastation of AIDS, either one parent or two parents. 
That, of course, we will need to address in any event in a 
global way of helping them in prevention and treatment.
    It brings me home to the United States, and as well, to my 
own community, Houston, to say to you that AIDS, HIV/AIDS still 
impacts our children, both children who are affected by it and 
infected--affected, meaning with their parents or their 
custodial guardian having it.
    It has reached epidemic proportions in the African American 
and Hispanic communities. AIDS is the leading cause of death 
among black males ages 25 to 44 and is the second leading cause 
of death for black women in the same group. Almost two-thirds 
of the AIDS patients between 13 and 24 are black.
    Hispanics represent only 10 percent of the population, but 
represent more than 20 percent of the new AIDS cases. The Asian 
and Pacific Islander American, Native American populations are 
also disproportionately affected.
    AIDS is increasingly becoming an epidemic of people of 
color. Texas was fourth among the top ten States with the 
highest AIDS cases in the country. Houston is seventh out of 
the top ten cities, with 16,048 cases of AIDS infection.
    When the Ryan White treatment dollars were passed, I noted 
that Houston at that time was 13th on the list. We have 
certainly benefited from those treatment dollars.
    In my district, there is an organization by the name of 
Loving Arms Foundation that has been serving the AIDS community 
since 1993. Loving Arms works to improve the lives of HIV/AIDS-
infected children and their families through counseling, legal 
advice, emotional and pastoral support and day care. The Loving 
Arms Day Care, founded by Ms. Audrey K. Gassama, is Houston's 
only nonprofit child care facility for children with HIV/AIDS. 
It serves infants and children up to age 12. This day care has 
10 staff members and 20 volunteers.
    The Loving Arms Foundation has received assistance before 
for AIDS services for children and their families. They 
received $200,000 from the Housing and Urban Development 
program through the HOPWA program to build apartment units for 
families living with AIDS on public assistance, so the children 
can stay with the families and not be separated, and have 
support services.
    In order for the Loving Arms Day Care to continue its low-
cost or no-cost day care services, which means that the 
children, either HIV positive or living with affected persons, 
can come to this day center and not be stigmatized, and their 
loved ones or their adults can have means of employment.
    I ask that this committee authorize a $500,000 
appropriation for this important organization. Along with day 
care services, the Loving Arms Foundation provides legal 
services and these programs are vital to this community and 
need to be continued.
    Loving Arms is a nonprofit service provider for a 
vulnerable population. It has no bars on who it takes in terms 
of racial definition. Children with AIDS have special needs and 
they need caring personnel that are sensitive to their illness.
    I am quite familiar with this institution inasmuch as I 
spent time volunteering there sometimes myself, but as well 
have seen them operating in a loving manner with children. They 
stay open on Christmas, on holidays. They are a place of refuge 
for people in need.
    We all are aware of the great devastation that AIDS has had 
on this country. We must provide care for children whose lives 
have been so negatively affected by HIV/AIDS infection.
    Mr. Chairman, I started by saying how appreciative I was of 
the work that you do. I imagine that everyone or most of us who 
come have some searing need. I could go on to talk about the 
needs of our children in mental health services. I think you 
will hear from me in just a few minutes, in the backdrop of 
Littleton, Colorado, in the backdrop of so much school 
violence, about a circumstance we have had. But in this 
instance, the particular agency I am speaking of deals a lot 
with the preschool child, the child that is the age of zero to 
10, when children are most vulnerable.
    It is very important, giving them assistance with the legal 
services, because it helps determine who the guardian is, 
whether the parent is in jail, and how we can best provide them 
with the services that they need.
    I hope the chairman and this committee, with all of the 
requests that it has, would give my request consideration.
    [The prepared statement of Representative Jackson Lee 
follows:]
    Offset Folios 1437 to 1444 Insert here

<SKIP PAGES = 008>

    Mr. Porter. Ms. Jackson Lee, we will do our very best. 
Thank you for coming to testify.
    Ms. Jackson Lee. Thank you.
                              ----------                              

                                          Thursday, April 29, 1999.

                        COMMUNITY HEALTH CENTERS


                                WITNESS

HON. MICHAEL E. CAPUANO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Porter. Our next witness is Congressman Capuano of 
Massachusetts, testifying in respect to community health 
centers.
    Mr. Capuano. Thank you, Mr. Chairman.
    Mr. Chairman, I will be brief. I know that you know this 
issue as well as anyone, but just to remind you because I know 
you have an awful lot on the plate, community health centers 
provide health care mostly in rural and in poorer urban 
communities because they are not well serviced by hospitals. 
They have to actually fill a hole, is really what it is all 
about.
    Community health centers, because of a variety of ways that 
the Federal programs have worked, are in much, much deeper 
trouble than they were a few years ago, not the least of which 
is--the least of which reason is, the increase in people who 
are uninsured looking for services, and they fall to community 
health centers. That is their mission.
    As I am sure you know, many of the community health centers 
across this country have been finding it a lot more difficult 
to stay in business in the last few years.
    I understand very much all the pressures you have on you 
for many different requests, but I do believe most of us here 
think that health care is an important issue, probably one of 
our top priorities. One way or the other we can argue about how 
to fix it. Who knows how to fix? I hope you will find a way to 
fix the whole thing.
    In the meantime, I look at this as a way to plug a hole 
that has been created, mostly because of our difficulties in 
finding an overall solution. It may take us time to do that. I 
think we all understand that. In the meantime, however, I don't 
think anyone wants people to go without health care, and this 
particular issue is important to all of us and I appreciate you 
listening to my comments.
    Mr. Porter. Thank you. That was excellent testimony. I 
might say, Eva Clayton was here earlier to testify on community 
health centers and others have been as well, and we put them at 
a very high priority in the subcommittee because we know, as 
you have just said, how important they are to people, 
particularly to those who don't have any other access to our 
health care system.
    I would like to tell you that I could solve this problem 
with discretionary dollars. You and I both know that this has 
got to be solved, the access problem has got to be solved 
through mandatory dollars through the Ways and Means Committee. 
So we are going to do our best, the best we possibly can, to 
provide additional funds for community health centers, 
understanding that they are doing exactly what you said, and 
that is they are providing a stopgap before we can solve the 
problem more broadly.
    They are absolutely needed and they are going to be a very 
high priority for the subcommittee.
    Mr. Capuano. Thank you very much, Mr. Chairman. I 
appreciate your comments and your continuing efforts.
    Mr. Porter. Thank you very much.
    [The prepared statement of Representative Michael Capuano 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. The subcommittee will stand in recess.
                              ----------                              --
--------

                                          Thursday, April 29, 1999.

                      RURAL HEALTH CARE COALITION


                               WITNESSES

HON. JIM NUSSLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF IOWA
HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Porter. The subcommittee will come to order. The next 
two witnesses are Congressman Jim Nussle of Iowa and 
Congressman Mike McIntyre of North Carolina, testifying in 
respect to rural health.
    Gentlemen.
    Mr. Nussle. Thank you so much, Mr. Chairman. First, let me 
apologize for being tardy. Maybe you have been running into 
that problem today with the early session anyway.
    Mr. Porter. You are a minute early, actually.
    Mr. Nussle. Oh, really? Well, that is good.
    First, Mr. Chairman, let me just say thank you. We have 
some prepared remarks that we can put in as part of the record, 
but let me just say thank you because every year I have come 
before this subcommittee to testify as one of the co-chairs of 
the Rural Health Care Coalition. We not only have found the 
subcommittee to be very responsive in their listening and in 
their concern, but also in their deeds as well.
    Last year, we came before you with a concern involving 
critical-access hospitals, and the chairman and the members of 
the committee and the Congress heard that concern, as I am sure 
you knew it as part of your representation of your own 
district, but heard that concern, funded it; and we appreciate 
that support. Certainly that is one of the areas that we are 
looking at.
    Basically, what I am coming to talk to you about today is a 
whole host of areas that certainly we would like some 
attention. As we have talked about in years past, the Medicaid 
and the Medicare laws certainly have a primary function when it 
comes to dealing with much of the rural health care concerns. 
Many of the problems that we face in rural areas are directly 
tied back to some of the concerns within Medicare and Medicaid. 
However, there are a few targeted areas that we wanted to visit 
with you about. Certainly critical-access care is a very 
important one.
    The other thing that we wanted to be able to do today, too, 
is to talk a little bit about the community health centers. I 
have a community health center that serves actually an urban 
area within my very rural district. Ron Kemp there, the 
administrator, has been in to visit me a number of times. I 
have been to visit him.
    We have asked for an increase in the community health 
centers because of the need that we feel it meets, and that is 
serving people who are kind of in between the cracks. They do a 
tremendous job with little resources in a demand area that 
continues to grow, so just to put a plug in for the community 
health centers across the country.
    With that, and without the necessity for introduction, Mr. 
Chairman, we have a new cochairman of the Rural Health Care 
Coalition for this year. As you know, we are a bipartisan 
coalition of 150 representatives, and Mike McIntyre has been 
kind enough to take on that duty. He came as well today to 
advocate, and we appreciate the chance to do just that.
    So I will turn it over to Mike.
    Mr. McIntyre. Thank you very much, Jim. It is a pleasure to 
be with you today, gentlemen.
    We wanted to emphasize three of the critical programs that 
are so important in rural America. We know, as so often we talk 
about back home, how important health care is and will be a 
front-burner issue here in Washington. But we realize that the 
rural areas are the areas that have such a crying need.
    Three of those specific areas that we want to make sure are 
not forgotten in the appropriations process and in the debate 
about adequate and good health care include the National Health 
Service Corps. Now, this is an opportunity for scholarships, 
for future practitioners, to attract them to rural communities. 
I can say that in my very rural county of Robeson County, North 
Carolina, in the rural area that I serve, which is Southeastern 
North Carolina, basically from the Fayetteville-Fort Bragg 
area, Southeast toward Wilmington and the coast. Between 
Fayetteville and Wilmington it is all farms and swamps.
    We have a network of rural hospitals, very small 
communities, that depend a lot on the National Health Service 
Corps. We are asking for an appropriation of $155 million which 
would be to help attract health care professionals to come and, 
as they so often do, give them an incentive to stay in the 
area.
    I can speak from personal experience. My next-door neighbor 
was a radiologist who came to my hometown of Lumberton on a 
National Health Service Corps scholarship, and now 20 years 
later he is still there and is one of the leading radiologists 
in the fight against breast cancer in our area.
    We are one of the few places in North Carolina that 
actually--we only have four towns in North Carolina that have 
the mobile mammography unit, and he helps run that.
    This is a crisis. We have 115 doctors in North Carolina who 
located in rural areas because they were recipients of the 
National Health Service Corps scholarship.
    The second area that I wanted to touch on is the Rural 
Hospital Flexibility Grant Program, which is more commonly 
known as the Critical Access Hospital Program.
    The recommendation that we would request is $25 million. As 
my good friend, the cochairman, just mentioned a few moments 
ago, you were kind enough last year to fund this at $25 
million.
    This is a two-prong program that allows, first of all, a 
Medicare hospital reimbursement aspect and then the other 
aspect is the grant program that would be funded to help these 
critical access hospitals.
    Now, these are hospitals that are on the first line of 
defense, that reach the folks who can be literally hours away 
from a regional hospital or medical center, and that can go and 
get the type of primary care and, most importantly, 24-hour 
emergency care that literally means life or death if they can 
get that critical access care.
    So we are talking about the most fundamental life-and-death 
issue you can talk about, is when someone has cardiac arrest or 
has an emergency or an asthmatic attack or any number of things 
we can think of; or a child who may have had an accident or a 
senior citizen, if they can even get to a Critical Access 
Hospital.
    The third area I wanted to touch on in our brief time is 
the Telemedicine Grant Program. I think by what I have already 
described to you, you can see that while the $50 million we are 
requesting for telemedicine helps integrate the networks, the 
providers that can offer primary care and acute services. I 
myself was present with an elderly African American woman in 
the little town of Faison, North Carolina, in northern Duplin 
County, which is quite as rural as you can get, who was being 
examined by a doctor at East Carolina Medical Center up in 
Greenville, North Carolina, and she would have never had that 
opportunity to get the type of care because, number one, 
transportation is a big problem, and then number two, we don't 
have the kind of medical specialists that will go to the rural 
areas, quite honestly, which is why the National Health Service 
Corps is the otherpart of that equation, to help with that 
situation.
    Where we don't have the doctors, my hometown hospital in 
Lumberton, North Carolina, has a great opportunity with Duke 
University, which is right at--100 miles away, to work on 
pediatric cardiology programs. By reaching down into the 
southeastern and central part of North Carolina, it literally 
ministers to families who would have no opportunity, no way to 
be able to access that type of care in a practical manner, many 
of whom are blue collar or farm workers and who don't have the 
access to that type of care because of where they live or 
because they don't have the transportation opportunity.
    So our request in telemedicine, our request in Critical 
Access Hospital for the funding grants and our request for the 
National Health Service Corps all are of dire need and great 
necessity in rural America, and we appreciate your 
consideration.
    [The prepared statement of Representative Mike McIntyre 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Nussle. Mr. Chairman, I have submitted, or we have 
submitted as a coalition, letter of recommendations. All of 
these recommendations are contained in that letter, dated March 
26th. I believe you have a copy. If not, we can provide a copy 
for the committee.
    With that, we appreciate your time. We are open for 
questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Gentlemen, on community health centers, we have 
always put this at a very high priority and have plussed up the 
account greatly in the last 4 or 5 years. Assuming we have a 
good allocation, we will do so again.
    Jim, we can't solve the problem of access with 
discretionary dollars, we really can't. All of us have got to 
get on the backs of our fellow members at Ways and Means and 
have them address access, because community health centers 
can't do it alone. They are kind of a stopgap here where people 
really need the help. We need to put more resources into them, 
but I am afraid the problem is much larger.
    I would like to say I have rural areas in my district. I am 
afraid your advocacy is pure because I don't; there is no 
enlightened self-interest interest here. But we have Henry 
Bonilla, Jay Dickey, Roger Wicker and a lot of members who, of 
course, do, and put it at a high priority and have been very 
good advocates on the subcommittee for rural health programs.
    We will do our best. We will absolutely do our best. We 
know how important it is. I have seen a demonstration in the 
inner city of Chicago at a community health center of 
telemedicine that I thought was just tremendously impressive.
    Mr. McIntyre. Yes.
    Mr. Porter. There are so many interesting, effective things 
going on in medicine that couldn't go on with the kind of 
technology we used to have, that can go on today, and it is 
amazing what you can do.
    Mr. McIntyre. It really has made a difference.
    I will also be happy to submit a written statement today if 
you would like to have that.
    Mr. Porter. We would be pleased to receive it. Thank you.
    Mr. Nussle. Thank you.
    Mr. Porter. Let's go off the record.
    [Discussion off the record.]
                              ----------                              

                                          Thursday, April 29, 1999.

                    LYME DISEASE AND CROHN'S DISEASE


                                WITNESS

HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. Back on the record.
    Next we have the Congressional Caucus for Women, and we are 
pleased to welcome our colleague, Sue Kelly of New York. I do 
not have, Sue, what you are going to testify in respect to, so 
please just proceed in any way you would like.
    Mrs. Kelly. Well, first of all, I want to tell you every 
time I come before you, Mr. Chairman, I listen to the pleas of 
other people. There are so many things, so many pieces of this 
budgetary puzzle that you have to put together. My hat is off 
to you. I don't know how you make these decisions, because they 
are so important.
    They are so valuable to so many people. I think there are 
probably so many of us asking for things, so I hope you will 
understand that I am here as a part of the Congressional 
Women's Caucus because we are here asking for things that are 
of importance to women and children.
    We are going to testify on quite a wide range of things. 
However, I do want to say that my cochairman of the Women's 
Caucus, Carolyn Maloney, is not going to be able to testify 
today and she has notified me of that fact because she is going 
to a bill-signing at the White House. She asked me to relay 
that to you and mentioned that she would like to speak with you 
on the floor of the House about the issues that she was going 
to testify about, with your permission.
    Mr. Porter. Fine.
    Mrs. Kelly. First of all, I want to just speak about two 
health priorities that are especially important to me. The 
first is Lyme disease and the second is Crohn's disease. Lyme 
disease is a disease that knows no bounds and is indiscriminate 
in choosing its victims.
    Last year, the reported new cases of Lyme disease hit an 
all-time high of 18,000.
    Mr. Porter. Representative Kelly, I have just been informed 
I have a full committee vote across the hall.
    Mrs. Kelly. We will wait.
    Mr. Porter. We are going to have to stand in recess for 
just a minute. I will go over and vote and be right back. The 
committee stands in recess.
    [Recess.]
    Mr. Porter. The subcommittee will come to order. Please 
proceed, Mrs. Kelly. Thank you.
    Mrs. Kelly. Thank you. I was talking about Lyme disease. 
The CDC acknowledges that the actual number of cases is 
probably three to five times higher than the 18,000 new cases 
that were reported. It is difficult to diagnosis.
    My husband has had it five times. I have had it five times. 
Most of the horses in our area have Lyme disease. I come from 
the epicenter of Lyme disease. Treated early, with antibiotics, 
if it is detected, it can be completely wiped out, and for most 
cases there are no subsequent problems.
    Unfortunately, lots of cases go undetected and result in 
chronic and acute headaches, and arthritis, nervous system 
problems, and cardiac abnormalities. It is estimated that Lyme 
disease costs society $2.5 billion a year in diagnosis and 
treatment costs, as well as lost wages and productivity.
    In order to stop the spread of Lyme disease, we have to do 
a couple of things. One is that the U.S. needs to expand its 
educational efforts on several fronts. Programs have to be 
funded that will aid public health officials to use new risk 
assessment approaches to boost their Lyme disease surveillance 
and education programs.
    If people know how to prevent Lyme disease, we can go a 
long way toward helping to stamp it out. Further research is 
necessary to enable us to better understand how to control 
these tick-borne diseases.
    What we have learned, alarmingly, is that they have 
identified three different types of things that cause Lyme-type 
diseases, in addition to one that is very well-known, Rocky 
Mountain spotted fever, which comes from a different type of 
tick. These diseases, the tick-borne diseases across the United 
States, are on the increase.
    The CDC is currently funding $2.7 million in research 
projects. The NIH, though, has not allocated any funding at all 
towards controlling Lyme disease or any tick-borne disease in 
general. In fact, the fact that we know very little about tick-
borne diseases means that--that is why I am here, because I 
feel very strongly that we must get the money into the research 
and development of ways to control not only the diseases that 
ticks carry but control the ticks themselves. The funding is 
urgently needed.
    Recently, the FDA approved a vaccine for Lyme disease 
called LYMErix, and now we have a first step, but unfortunately 
the vaccine is not a panacea. It doesn't protect from other 
tick-borne diseases. It is only 50 percent effective, and it is 
not effective at all in children. It cannot be used in children 
and people over 60.
    Although the vaccine was developed in the private sector, 
with the concerted effort of both public and private 
partnerships, we hopefully can once and for all stop tick-borne 
diseases soon because we are very close to it.
    The second disease I want to address is Crohn's disease. As 
you know, Mr. Chairman, Crohn's disease is an inflammatory 
bowel disease, IBD, which along with other related diseases 
called colitis is an incurable disease.
    There are an estimated 1 million people in the United 
States who suffer from Crohn's and colitis. It has a wide array 
of symptoms, and the number of those who are afflicted, again 
are not always diagnosed because symptoms are somewhat 
difficult to diagnosis.
    Two weeks ago, this subcommittee heard testimony from the 
immediate past chairman of the Crohn's and Colitis Foundation 
of America, Scott Allswang. The organization has a strong 
cooperative relationship with NIH's National Institute of 
Diabetes, Digestive and Kidney Diseases, but there are only two 
organizations that work specifically on these diseases. As it 
is a genetically linked disease, both organizations are funding 
genome research projects to try to isolate the genes 
responsible for Crohn's.
    Scientists are discovering many factors in the immune 
system that play a role in the development and progression of 
IBD, but I know all too well it can't come too soon. One of my 
family members has Crohn's disease. If we want to find a cause 
and a cure for IBD, we have to continue to support the National 
Institute of Diabetes, Digestive and Kidney Diseases' endeavors 
towards this end.
    Last year, under your leadership, Congress provided this 
Institute with a 14 percent increase in funding. This year, I 
respectfully request a very small amount of an increase, but I 
do respectfully request a 15 percent increase in funding, and a 
corresponding increase for all of the Institutes, if that is 
possible.
    In addition, as the detection of IBD and Crohn's disease is 
so often overlooked, I respectfully request that the CDC 
undertake a nationwide surveillance program to determine 
exactly what the true prevalence of this disease is. Working 
together, I think they can educate doctors and patients about 
the diseases while the researchers are working towards a cure 
and treatment.
    I know it is not the practice of this committee or Congress 
to earmark money for specific disease research within NIH, but 
I would respectfully request that continued support of research 
on both Lyme disease and Crohn's disease be included in the 
report language.
    They are orphan diseases that affect many people and they 
are forgotten and they are not diagnosed. For those people who 
are afflicted with them, it is not something they can easily 
forget. They have to live with it daily.
    I thank you very much for providing this time for me and 
for the other members of the Congressional Women's Caucus who 
will speak on other issues that they are interested in and that 
we feel that the Women's Caucus as a whole would like to 
promote before this committee. Thank you for allowing me this 
time.
    [The prepared statements of Representative Sue Kelly 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Sue, I think you have put your finger on two 
very important concerns, and we will work with you to provide 
language in the report on both Lyme disease and Crohn's 
disease.
    My executive director, now retired, has Crohn's disease, 
and I know the effects and how bad it can be.
    Where did you get the piece of information that says NIH is 
conducting no research on Lyme disease?
    Mrs. Kelly. That came to me, I believe, either from the 
Lewis Calder Institute (LCI), which I represent or the American 
Lyme Disease Foundation. LCI is doing seminal research on Lyme 
disease in my area. They are the institute that has isolated a 
number of these things and are working on it. I am not sure, 
but I believe that that is where we got that.
    Mr. Porter. I do not believe that is correct, but I will 
check it out and get back to you on that. We think there is 
substantial research going on, but I can't sit here and 
absolutely say that, so I want to check with NIH and make sure.
    In either case, we will put language in the bill. We will 
work with you to provide that.
    Mrs. Kelly. I thank you very much. I have spent a lot of 
time in hospitals with family members on these two diseases. I 
appreciate it. Thank you.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.
    And thank you, Congresswoman Kelly.
    Mr. Chairman, this is a great day for our subcommittee when 
the members of the Women's Caucus come before the subcommittee. 
Unfortunately, at the same time, we have the full committee 
meeting on the Kosovo supplemental and many of us have 
amendments dealing with humanitarian needs, women as victims of 
rape, nutritional, all kinds of things in addition to our 
military.
    The chairman, respecting the schedules of our colleagues, 
graciously proceeded with this so that you could be on the 
record. I spoke to each one, Mr. Obey, Mr. Hoyer, on our side 
and I know the gentleman has spoken to his colleagues, and 
everyone is sorry that we have to be in there instead of in 
here. Believe me, this is more pleasant duty.
    I would like to commend you for your testimony, 
Congresswoman Kelly; Lynn Woolsey for what she is coming in to 
talk about, ergonomics and some needs particular to her area, 
as well as the osteoporosis and related bone disease 
initiative.
    Congresswoman Sheila Jackson Lee has been a leader on the 
children's mental health issue, especially important in the 
wake of what happened in Colorado. Thank you for your 
leadership there, Congresswoman.
    Eleanor Holmes Norton, prevention efforts and Lifelong 
Improvements in Food and Exercise, so important, among other 
issues that you have taken the lead on; Congresswoman McCarthy 
for her leadership on the breast cancer issue, for one issue; 
many others.
    But your testimony for breast cancer research, your support 
is so important to us; Connie Morella, always a leader on the 
women and AIDS issue, among others.
    I am just highlighting a few things because time would not 
allow, and then Carolyn Maloney, who is not with us, for 
Parkinson's disease research and other issues here, and Juanita 
Millender-McDonald for her relentlessness on behalf of HIV/AIDS 
and how it impacts the African American community, and other 
issues I know she is here today for.
    I know Lois Capps is interested in the mental health issue 
as well. I don't know if she will be joining you, but I will 
convey this testimony to our colleagues. It is just that this 
is an emergency bill and requires our emergency attention that 
we are not all here. I am going to have to run out and do my 
amendment in a moment.
    I did want to put on the record how important the work the 
Women's Caucus does is, how it is, for us, the best documented, 
most enthusiastic, broadest base of support for the issues that 
we hear about here. Thank you for your leadership, each and 
every one of you, jointly, severally and collectively on these 
issues. So thank you so much. It is important to us.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Pelosi.
                              ----------                              

                                          Thursday, April 29, 1999.

                   CHILDREN'S MENTAL HEALTH SERVICES


                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Porter. I will recognize people in the order in which 
they arrived, unless you have a different way you would like to 
proceed.
    All right. Congresswoman Sheila Jackson Lee for the second 
time, this afternoon.
    Ms. Jackson Lee. Thank you very much. Again, let me thank 
Congresswoman Pelosi for her leadership. I indicated when I 
first came how much we appreciate this subcommittee and the 
work that you do, you-all have done. Let me thank my colleagues 
in the Women's Caucus, our chairperson, Carolyn Maloney, and 
our vice chairman, Juanita Millender-McDonald for, again, their 
untiring efforts and commitment to what is so vital in this 
country dealing with women's issues and dealing with children's 
issues.
    Mr. Chairman, I come today representing our working with 
the Congressional Women's Caucus and, as well, the Chair of the 
Congressional Children's Caucus to speak on children's mental 
health and to ask this committee to help us as you have helped 
us in the past.
    Needless to say, so many of us have been reminded of the 
tragedy of a child who has not had intervention at an early 
stage. We will never know the full story of the tragedy of 
Littleton, Colorado. We have had over a year to analyze the 
other tragedies that have occurred on school campuses. In fact, 
Mr. Chairman, I think you just look at your newspapers over the 
last 48 hours to a week, all over the country to see what we 
call a copycat.
    How can we find out what is going on in the minds of 
children? Is a copycat phenomenon something that is dealing 
with the need for mental health services or is it something 
else? In any event, this is a backdrop for asking this 
committee to consider strongly the need for more mental health 
services for our children.
    Although, as a country, we often focus on children who are 
at risk for trouble or those children who are already troubled, 
all children need access to mental health services. And the 
best way to treat children is to intervene at an early stage 
before the lack of services results in something tragic.
    It is estimated that two-thirds of all young people are not 
getting the mental health treatment they need. When children's 
mental health needs are not met, young people often get caught 
in the child protection resources or child protection agencies 
of the juvenile justice system.
    I can certainly say that for my local community, almost 60 
percent of teenagers in the juvenile detention have behavioral, 
mental or emotional disorders. I speak to many of my teachers 
who are assigned to the alternative classrooms and trying to do 
something with children who may have behavioral problems.
    The difficulty, of course, is that there is no treatment to 
help as they are isolated in different classes. We have already 
mentioned the Colorado circumstance. As adolescence is a 
confusing time for many young people, the adults that are part 
of their lives need to be keenly aware of changes in behavior 
or attitude that may indicate the possibility of poor mental 
health.
    We also need to be aware of the various services that are 
available to treat young people. According to the American 
Psychological Association, teenagers who have suffered from 
past victimization are more likely to exhibit certain signs of 
mental illness. For example, the perpetrators of the recent 
school shootings indicated that being teased and feeling like 
outcasts were the cause of their actions.
    Just think, and this is not to cast blame, if we had a 
system in place, a guidance system, a school nurse that had 
those resources for mental health intervention what could have 
been avoided. The impulse to commit violence by these teens is 
likely to have been the result of some mental health problems 
or mental illness.
    Between 9 and 13 percent of children ages 9 to 17 have 
serious mental or emotional disturbances and a significant 
number of children have needs that do not meet the clinical 
definition of a serious mental illness. There are 13.7 million 
or 20 percent of America's children are diagnosable mental or 
emotional disorder. And we know that the Mental Health 
Association of America has been active in this.
    Mr. Chairman, I am asking for support for the National 
Mental Health Association's Children's Mental Health Services 
Program that provides grants to public entities for 
comprehensive community-based mental health services for 
children with serious emotional disturbances.
    Last year, Mr. Chairman, I believe we got an extra $11 
million. I have visited these centers. What they do is they 
don't just treat the child, they treat the family. The addicted 
mother, whether it is drugs or alcohol, the abused mother, who 
then results in a child who is ultimately a pregnant teenage 
mom. It is a cycle. And I have seen the value of embracing the 
whole family.
    The Children's Mental Health Services Program only serves 
34,000 children today, and I ask that the committee authorize 
$88 million in order to expand it into more States. It is not 
even in the 50 States, if you can imagine. It is in an isolated 
group of States only because we didn't have the money.
    Finally, Mr. Chairman, I would like to raise the question 
of the school-based mental health initiative, another program 
of the children's mental health services that needs funding to 
improve school-based mental health services. And I don't 
believe we should consider that being a busybody or intervening 
in what parents should take care of. I think we are helping 
because children go to school like we go to work, and they 
spend a lot of their time at school.
    I would ask that this program receive $60 million in 
appropriation funding in order to provide that early risk 
assessment. I will close, Mr. Chairman, by saying to you, in 
the Juvenile Consequences Bill of last week, we marked up in 
subcommittee in Judiciary, I added an amendment that would 
provide in that legislation an authorization legislation, the 
opportunity for risk assessment and intervention in the 
juvenile justice process.
    It doesn't answer all of the questions, because it means 
you are already in the system, but that should complement what 
we can do for children who are not in the system. Somewhere or 
another, we have to get to the source and the core of what is 
happening to American children. I am saddened. I am confused as 
an adult, but I want to help. And I hope that we can provide 
some resources to be able to begin to address this issue. I 
thank you.
    [The prepared statement of Representative Sheila Jackson 
Lee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Ms. Jackson Lee, it is a terribly, terribly 
important issue. In fact, there is an amendment being offered 
right now in full committee across the hall by Mr. Obey, and I 
am going to have to go across the hall briefly. I am sorry. I 
thought we might be able to complete this. But obviously it is 
something we take at a very high priority.
    Ms. Jackson Lee. I thank Mr. Obey in his absence.
    Ms. Woolsey. Mr. Chairman, would you like us to come back 
another day, would that be better for us?
    Mr. Porter. I don't think so, I think it will take just a 
minute or two, but let me go see. I am not certain at this 
point. So we are going to have to briefly stand in recess. If 
you can't stay, we will certainly reschedule.
    Ms. Woolsey. No, this is about you.
    Mr. Porter. The full committee is meeting and we had 
permission to meet as a subcommittee, but obviously there are 
problems. The subcommittee will stand in recess.
                              ----------                              

                                          Thursday, April 29, 1999.

                             WOMEN'S CAUCUS


                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Mr. Porter. The subcommittee will come to order. I 
apologize to all of you. I managed to--since this is on women's 
issues, I managed to bring my wife back with me, Kathryn.
    Ms. Woolsey. Thank you for sharing him with us.
    Ms. Jackson Lee. Nice to see you.
    Mr. Porter. Our next witness is Congresswoman Juanita 
Millender-McDonald of California.
    Ms. Millender-McDonald. Yes, thank you. And thank you so 
much, Mr. Chairman. I say this in the presence of Mrs. Porter, 
you have been one of the most sensitive chairman I have had to 
come before to request funding. And I appreciate your 
sensitivity and certainly appreciate your having the Women's 
Caucus come before you today.
    We know the importance of what is going on across the 
aisle, across the hall. But you are again so sensitive that you 
want us to come before you and talk about the issues that are 
critical to us.
    I am also happy to see so many of our Members here today, 
as the covice-chair of the Women's Caucus, I send the regrets 
of our cochair, Carolyn Maloney, she is at the White House now 
trying to deal with other issues. And she regrets that she 
cannot be here.
    Mr. Chairman, you know that every year since 1996, I have 
asked this subcommittee to increase funding for HIV and 
AIDSresearch, education, and treatment. I have also testified on behalf 
of the National Marrow Donor Program, telemedicine, and other critical 
women's health issues. I join many of our colleagues today and ask you 
for the necessary funding for breast and cervical cancer research, 
screening and treatment, as well as for the lesser known silent killers 
of women, such as fibroid tumors and lupus.
    But in the interest of time today, I will focus on AIDS. 
And I ask that you carefully review the Women's Caucus letter 
that outlines all of our top concerns. Mr. Chairman, I 
appreciate again how you and former Congressman Stokes, 
Congresswomen Pelosi and DeLauro, have been really stalwart in 
your leadership in providing the type of audience for us to 
come before you today and to talk about the funding that is so 
necessary and especially for minorities.
    And you have always seen to it that the funding is there 
for the minorities as well as others. I appreciate the funding 
that you had in your last budget for the group in my district 
for the telemedicine. However, with African Americans still 
accounting for 56 percent of all reported HIV cases, I ask you 
to fund first the CDC prevention initiatives, with at least the 
$667 million requested by President Clinton, the Ryan White 
CARE Act at President Clinton's level of $1.5 billion, and 
Title I of the Care Act with $521 million.
    The AIDS Drug Assistance Program under Title II is close to 
the $500 million as fiscally possible. Title III of the CARE 
Act with $130 million, because I feel particularly strong about 
this program because 80 percent of these clinics have incomes 
300 percent below the poverty level, and 25 percent of them are 
women of childbearing years.
    We do recognize that the HIV and AIDS victims, especially 
in the African American community, are the women between 25 to 
44. And this is a drastic disease that has just crippled our 
community. And last, but mostly not--certainly not least, I ask 
that you fund NIH HIV/AIDS research with $2 billion.
    I know that you must meet strict budgetary caps this year, 
and I am committed to these caps. But I encourage you to take 
innovative steps to ensure that all necessary human services 
are provided to those in need. The Faces of AIDS Stamp Act, 
which I cointroduced with Dr. Tom Coburn, is an example of a 
creative way in which we can fund AIDS education and research 
in a fiscally responsible way that does not affect the 
budgetary caps.
    This bill has been submitted along with numerous others 
that have over 100 sponsors on that bill. We certainly hope 
that this and other important issues that come before your 
committee today will be given strong consideration, Mr. 
Chairman, because it is critical, it is important to the women 
and children of our country. I thank you so much for this time.
    [The prepared statement of Representative Juanita 
Millender-McDonald follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Representative Millender-McDonald, we have 
consistently put AIDS prevention, AIDS treatment, AIDS research 
at a very high priority.
    Ms. Millender-McDonald. Yes, sir, you have.
    Mr. Porter. We take a great deal of pride that we have 
exceeded the President on Ryan White every year, I think.
    Ms. Millender-McDonald. You certainly have.
    Mr. Porter. I know we have. Ms. Pelosi has been a wonderful 
leader on all of these aspects of AIDS. We consider it as 
something that must be done, and I am certain we are going to 
do it again. The thing you said about the caps, you said you 
supported them.
    Ms. Millender-McDonald. I am committed to that.
    Mr. Porter. I don't support them myself.
    Ms. Millender-McDonald. I see.
    Mr. Porter. I want you to know. I frankly think, I have 
said this publicly for a long time and tried to get the budget 
resolution reflected, I think we need to make a reasonable 
adjustment in the caps.
    Ms. Millender-McDonald. I see.
    Mr. Porter. I think it is going to be very difficult for us 
to pass any of these bills--we are already, as of last year's 
negotiations, spending $20 billion above the cap level this 
year.
    Ms. Millender-McDonald. Oh, my.
    Mr. Porter. How are we going to possibly make $20 billion 
worth of cuts with the demands of Kosovo facing us, with high 
priorities like the ones you just mentioned.
    Ms. Millender-McDonald. This is very true.
    Mr. Porter. And with an economy that is expanding much more 
rapidly than anybody had expected. So it seems to me that some 
reasonable adjustment should be made. I have not succeeded in 
convincing anyone of that. But I would hope, frankly, that the 
President might be willing to sit down with congressional 
leaders and work something out now, rather than to leave this 
to the end of the process where everything is in chaos and 
everything is up for grabs.
    It just seems to me that all of us can face this issue 
honestly and make a reasonable adjustment that we can live 
with.
    Ms. Millender-McDonald. You know, Mr. Chairman, I have 
always been open and amenable to any reasonable types of 
adjustments that must be made. And certainly you have been a 
reasonable person. So I will follow the lead of the 
chairpersons and the leadership of the House in trying to find 
the commonality of funding that is so critical to the programs 
that we are putting before you. And I thank you again.
    Mr. Porter. Thank you very much for your testimony.
                              ----------                              --
--------

                                          Thursday, April 29, 1999.

               LIFELONG IMPROVEMENTS IN FOOD AND EXERCISE


                                WITNESS

HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS FROM THE DISTRICT OF 
    COLUMBIA
    Mr. Porter. Eleanor Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Chairman, let me begin by thanking you for receiving 
the Women's Caucus. as a member of the Caucus since coming to 
Congress in 1990 and a former chair, I can say to you that the 
opportunity of the women Members of Congress to appear before 
your subcommittee and the way you have received them is one of 
the high points of each session for women Members of Congress.
    We all are very appreciative of the way this committee has 
viewed our women's issues. I want to thank you as well, Mr. 
Chairman, for some commendable attention the subcommittee has 
already paid to the issue I bring before you today.
    I am very concerned about overweight and inactivity 
resulting in lethal new life-style habits, especially among 
women and children, but, actually, to be found in every age 
group in ways we have never seen before in this country. I am 
asking you today to build on the modest program that has been 
funded for CDC in the past, where they have done a public 
information program in a few States, to start a major national 
initiative.
    You can call it what you would like, liking acronyms 
myself, I would call it LIFE, Lifelong Improvements in Food and 
Exercise. Mr. Chairman, there is a major health care crisis 
building up right under our noses among all of us and among the 
youngest of us, and it is getting worse the further down the 
age scale we go.
    In the last 15 years, obesity, here I am not simply talking 
about overweight, but obesity where you are 30 pounds 
overweight, has increased by 50 percent among adults and 100 
percent among children and adolescents. And that is just 15 
years. I believe you have before you a map. I would like my own 
colleagues to see this map.
    Looking--I would suggest we look at 1991 and 1997, because 
some States did not report in 1987. And you will see that in 
1991, we are still in this decade now. There are only five 
States that reported less than 10 percent obesity and almost 
all showed 10 to 15 percent, and now in 1997, almost all States 
or most States are showing 15 percent or more obesity.
    This is rapidly galloping health care problems, and unless 
you are going to deal with it by putting everybody on some kind 
of a cholesterol medicine, which is going to cost us an arm and 
a leg, or high blood pressure medicine, it seems to me that it 
would behoove us to begin a modest, modest in cost, national 
effort now to prevent these efforts by encouraging people to 
make small changes in their life-style.
    This is the Women's Caucus, so I emphasize women today, but 
I want to indicate that there is no age group from the youngest 
children to older people who are not ensnared in this problem. 
Women are not ensnared, and I don't know if it is because women 
are not encouraged to engage in athletic activity as often as 
men, but 50 percent of women over 20 are overweight.
    If you are overweight already in your 20s, you are on your 
way to being obese. And I don't know if you look at the streets 
the way I do, but I look at my own African American community, 
where the problem is worse among women, where the majority of 
women are overweight. And I see girls, teenagers and young 
women in their 20s, what I can only call wobbling down the 
street.
    Now, if, in fact, you are that kind of overweight, when you 
are supposed to be young and active, by the time you get as old 
as I am, you are going to be hopeless, and most Americans 
simply aren't aware. Fast food and all the advertisement for 
fast food, computers, I regret to say because they keep you 
sedentary, cable, have all had a major effect on us without our 
even recognizing what they have done to our bodies.
    And for women, we see in almost all age groups that women 
are 10 percent more overweight than men, until they get to be 
very old women. Perhaps, many men are not living as long and 
the women who are are not as likely to be overweight.
    I have in my testimony figures, amazing figures, and I 
won't recount here, except to say that it is in the youngest 
adults that the problem is worse. The increases are gigantic, 
if you look in the 10-year period both the men and the women, 
the women are over 50, the men are close to 50 percent just in 
increases in weight.
    We are supposed to see improvements in the health care. 
Here is where it is going in the opposite direction, the 
younger you are, it looks like the more at risk you are. Nearly 
80--now, why is this? Now, nearly 80 percent of young people 
consume too much fat.
    One-third of people 12 to 21 do not regularly engage in 
exercise. And part of the reason for that is another amazing 
statistic, as far as I am concerned, is as recently as 1991, 42 
percent of schools had some kind of daily physical education 
exercise that is 42 percent, close to half. Today that is down 
to 27 percent in 1997, and I am not sure why.
    Schools have essentially said, physical education isn't 
worth it. So unless a child or the child's parents are self-
motivated those children don't have access to what probably you 
and I, Mr. Chairman, have access to, at least some mandatory, 
physical exercise that inculcated some of these habits, 
perhaps, in us. And, of course, these habits carry over into 
adults.
    And looking at today's adults, leave aside what these young 
people will have, 60 percent of today's adults engage in almost 
no physical activity, at least not enough to have any of the 
necessary health benefits. For women, I am truly concerned, 
because you would think that the concern to look good might 
have had the effect of encouraging women to do better. But, in 
fact, women are doing worse consistently and more than 3 
million women are at least 100 pounds above their recommended 
body weight.
    These life-style habits and these figures are responsible 
for the fact that today, both women and men die more of 
cardiovascular disease than any other disease, but among the 
other diseases that could be directly affected by life-style 
changes are high blood pressure, cancer, diabetes, arthritis, 
and the list goes on.
    Mr. Chairman, what I am asking the committee to do is to 
build upon something you have done in past years, you have 
funded CDC at about $2 million annually to do public education 
campaigns.
    I recommend that you increase that to $15 million and ask 
CDC to do four specific things: To design and launch a 
comprehensive nationwide program of physical activity and 
obesity prevention programs; to test further practical 
intervention strategies in work sites and communities; to 
coordinate communication campaigns, and that is the kind of 
work they have already begun but only in a few States; and 
finally, to educate health professionals so when you go toget 
your physical, the doctor has spent some time, perhaps less time 
prescribing something, to mitigate some terrible chronic health style-
related problem that you have and more time literally prescribing 
things that are doable that can reduce some of these health effects.
    I would also ask that the CDC actually study the results, 
that is to say, they are very good at studying and measuring so 
you can see which kind of programs should be spread nationally. 
A $15 million investment, considering that we are talking about 
billions of dollars in health care costs, not to mention 
millions of lives that could be saved, and the baby boom 
period, when all of this is going to pile in on us and on our 
health care system, it seems to me to be modest indeed.
    I believe that overweight and inactivity are creating their 
own special health care crisis, we see it in especially in 
women and children. It is universal by age group, by race, by 
background, and you will see by this map, by state, I ask you 
to begin a new program, I would call it LIFE, to change 
lifelong life-style habits that can dramatically improve the 
Nation's health.
    And I thank you, Mr. Chairman.
    [The prepared statement of Representative Eleanor Homes 
Norton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Congressman Norton. First of all, I looked 
around the room to make certain that there was no one who was 
obese, and there is no one in this room that is obese.
    Ms. Norton. Mr. Chairman, you keep running back and forth 
to vote, so----
    Mr. Porter. I think it is rather amazing that when you look 
at the map, this is about the same time frame when we have 
learned that high fat diets and lack of exercise are two of the 
major items not only in heart diseases but in many of the 
diseases that afflict human beings, and that knowledge is out 
there. People do generally know this.
    The difficulty is, I guess, that they haven't developed the 
right habits. One of the things that we have been working on is 
working with a number of health groups to get these habits 
ingrained in our children because if you start young people off 
with the right habits, generally they will last, as you 
mentioned in your testimony, throughout their lifetime.
    And it is very interesting. I said to the staff about 2 or 
3 weeks ago what I would really like to do is--if we have the 
resources, is to give not $15 million to CDC but $100 million 
to CDC to get on television where people are. That is where 
their attention can be reached, in prime time and on children's 
television and with the kinds of life-style messages that might 
change their habits early and maybe that is giving up on our 
present generations.
    But if you don't turn things around with the younger 
people, you are exactly right, they are going to end up, not 
just overweight, but obese. And with that comes all the health 
care problems and all the health care expenses to correct those 
problems. That could be headed off by a good healthy life-style 
at a very young age and throughout lifetime. So I like your 
program a lot.
    Ms. Norton. Thank you very much, Mr. Chairman. You have 
just, you know, planted an idea in my head. If CDC got some $15 
million or whatever amount you deem appropriate, it might 
leverage that amount with the private sector to say would you 
go on TV with me, because what they see on TV, of course, are 
beer ads, ads for McDonalds and other things. I mean those are 
irresistible ads. If you look, you almost have to turn away not 
to get hungry.
    And if these very same advertisers would team up with them 
to put more money in, we might be able to do exactly what you 
say. Mr. Chairman, I do believe that the reason, you pointed up 
an irony that I had not, in fact, noted, all of this 
information is out there, it is everywhere, it is on the 
Internet, you can't pick up something without reading it and 
yet these matters are--these habits are growing worse.
    It does say to me that people need guidance. They need 
focus, they need concentration, and they are not going to do it 
on their own; and that is why I would very much recommend that 
we start them off and maybe we can get--we can be the pied 
pipers and start something happening here.
    Mr. Porter. Absolutely. It is amazing, if you look at what 
the food processing industry has done recently, almost every 
processed food has come, you think, out with a lower fat 
content and all of them trying to get below 30 percent. And a 
lot of people I know read the labels faithfully, and if they 
aren't down there, they don't buy. And yet here this problem 
has gotten worse, it is hard to explain.
    Ms. Norton. One thing CDC might do with any appropriation 
they might get is to help us understand the real cause here. 
Given the effects you have described, going in opposite 
directions, what is it that causes people in the face of 
information about early death and disease to continue? Knowing 
more about the causes of the continuing behavior, we could zero 
in on doing something about it.
    Mr. Porter. I think a lot of people, and this is just--
obviously I don't know the answer to that--but it seems to me 
that again, your testimony puts your finger on it. There is a 
lot of entertainment out there one way or the other that we sit 
in front of our TV sets, we sit in front of our computer 
screens, life comes to us through electronic media, instead of 
our getting out and participating and getting out the door and 
doing things.
    And I think the people who get out the door and do things 
are much less likely to be afflicted with obesity than those 
who have life come to them through those kinds of 
entertainments, if you want to call them that. And it is just a 
thought. But I think we ought to find out what is causing this 
because it has gotten much, much worse. And it is amazing it 
has gotten much, much worse in a time when it should have 
gotten much, much better. Thank you for your testimony.
    Ms. Norton. Thank you very much, Mr. Chairman.
                              ----------                              

                                          Thursday, April 29, 1999.

  OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION, CENTERS FOR DISEASE 
CONTROL AND PREVENTION, AND NIH OSTEOPOROSIS AND RELATED BONE DISEASES 
                        NATIONAL RESOURCE CENTER


                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Congresswoman Lynn Woolsey of California.
    Ms. Woolsey. Thank you, Mr. Chairman, and thank you for 
sticking in here with us today when you have got so much to do. 
I have submitted my full statement to make this much shorter. 
But I have three issues facing women that I would like to talk 
to you about today. The first one is an issue that, although I 
know Congresswoman Pelosi is interested in everything we are 
talking about today, but she is particulary interested also in 
the Occupational Safety and Health Administration and their 
current programs, working on ergonomic standards.
    And currently OSHA is working to propose and finalize 
ergonomic standards to perfect employee and workplace injuries 
and to protect employees from these injuries. One of the 
reasons it is so important to those of us who are talking about 
women today is that women are significantly affected by 
ergonomic injuries. In fact, they are 34 percent more apt to be 
afflicted with an ergonomic injury than any other worker.
    So, therefore, I am requesting from this committee that 
OSHA be allowed to continue with its science-based workplace 
protections, and safeguard all workers, including working 
women, to protect them and their health, and to reduce business 
costs.
    Next, I am requesting that the subcommittee direct the 
Centers for Disease Control and Prevention, CDC, to provide 
$250,000 within available funds to work with the Marin County, 
California Department of Health and Human Services. That is my 
district, just north of the Golden Gate Bridge across from San 
Francisco.
    My district wants to conduct a community health service to 
evaluate why that area of the country has the highest 
percentage of breast cancer in the San Francisco Bay area, 
possibly in the entire United States.
    Finally, I am requesting language that would earmark a 
million dollars within available funds for the second phase of 
the National Osteoporosis Education Campaign for Women aged 45 
to 64, through NIH osteoporosis centers. I have been short on 
all of this. I want you to get going, but I want you to know 
how much I appreciate what you have done. And it feels so good 
to be able to ask for something from somebody who actually 
listens and thinks about it. So thank you.
    [The prepared statement of Representative Lynn Woolsey 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Congresswoman Woolsey, I appreciate your 
testimony. On the ergonomics question, as you may know, this 
subcommittee put a prohibition on funding for promulgation of 
such a regulation twice. Last year, we came to an agreement 
that the subcommittee would no longer do that; and it is a 
matter, however, since the regulation is very close to being 
promulgated, I feel certain that the bill may well be used as a 
vehicle by someone at the full committee level or at the floor 
level to raise the issue again.
    So I would say it is likely that the issue somehow will be 
brought before the Congress broadly, but I can assure you that 
language on this subject will not be contained in our bill as 
we mark it up. That is by agreement of both sides.
    Ms. Woolsey. I am on the Education and Workforce Committee, 
I had 20 years of the human resources profession. It is my 
issue, I worked in manufacturing. It is a real issue. It must 
be addressed. And every time we get good science to say that 
that science is not good enough, because I don't like what it 
says, is not what we should be up to.
    Mr. Porter. Well, an amendment to prohibit funding for that 
purpose is an amendment that would be an order even though it 
in effect is an authorizing provision. But it would be an order 
to stop the funding and, again, I can assure you it won't be 
here, but I expect it will be somewhere along the line.
    Ms. Woolsey. You can expect some loud voices on the other 
side, too. Thank you, Mr. Porter.
    Mr. Porter. I can imagine. Thank you Congressman Woolsey.
    Representative Connie Morella of Maryland.
    Mrs. Morella. Would you like to do her first?
    Mr. Porter. I am going in the order in which you arrived. I 
know you went out and came back.
                              ----------                              

                                          Thursday, April 29, 1999.

                         BREAST CANCER RESEARCH


                                WITNESS

HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Porter. Representative Carolyn McCarthy of New York.
    Mrs. McCarthy. Thank you very much. I now promise to be 
extremely short myself. I thank you for your indulgence with 
all of us. Working with the Women's Caucus I think is one of 
the pleasures of being here in Congress, because we are all on 
the same page on all of the issues.
    Mr. Chairman, I am here again to thank you for certainly 
being the champion of having the money for cancer research. It 
is funny, I think if each and every one of us sat here it is 
probably our area that has the highest rate of breast cancer 
which is probably a fairly sad statement, the women of Long 
Island. We are up to 127 women out of over 100,000.
    We, as the women of Long Island, feel that it is our 
environment that is having some link, because we have certain 
breakouts in certain areas and being that our water comes from 
an aquifer, we are positive this is where it is.
    Going back a few years, Congress was gracious enough to 
have the money to do a research program on Long Island and that 
result should be out next year. But we are asking you--and I 
know this is tough, too, and we talked about the caps, but we 
are asking for the $750 million for research on NIH.
    And I am hoping that somehow we will be able to find it. 
Maybe Congress should take out tickets for the lottery, it 
might be a little bit better for us, but this is a 
serioussubject. I am due for my mammogram next month. And even though I 
am a nurse and even though I take the right precautions, I am always 
petrified and I am.
    You sit there and you wait for that mammogram to come out, 
and you wonder am I going to be the person this time. It is an 
issue that affects women, but it also affects families. So I 
hope the consideration will be there for you to fight again for 
us for the funding. I know it is going to be hard. But I happen 
to believe all the issues that we talked about today looking at 
things holistically, the money we save in the long run for all 
the things that we are asking, really does save this government 
a lot of money, and especially as we get older.
    I don't have to convince you, I wish I could convince a 
number of my colleagues that there is so much we can do and 
really save money in the long run for our children and our 
grandchildren, and hopefully our economy will stay strong. But 
I thank you for your consideration.
    [The prepared statement of Representative Carolyn McCarthy 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Carolyn, I certainly agree with you. I think 
money for medical research, and I know Connie agrees as well, 
money for medical research is probably the best spent money in 
terms of efficiency. You want to talk just about efficiency, 
because the health care cost savings are tremendous from 
discovery. So we think it is an investment, a real investment. 
And we are going to do our best to again be there.
    Mrs. McCarthy. Thank you.
                              ----------                              

                                          Thursday, April 29, 1999.

                CONGRESSIONAL CAUCUS FOR WOMEN'S ISSUES


                                WITNESS

HON. CONNIE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Porter. Representative Connie Morella.
    Mrs. Morella. Thank you, Mr. Chairman.
    You are a hero of mine, you are a hero of NIH. I must also 
commend your staff. They do a terrific job of always being 
there and adding support. But you just have been great. And you 
are one of the top congressional supporters of NIH, and they 
love you there, too.
    I have a long testimony, which is submitted for the record. 
And so I am just going to highlight just some of those issue 
areas. You know them very, very well. For instance, you know 
the past history of women's health research at NIH and that 
finally in 1990, we got the Office of Research on Women's 
Health. We have had the same director there from the beginning, 
Dr. Vivian Pinn, we can be very proud of the work she has done.
    So, Mr. Chairman, I am asking that you continue your strong 
support for the Public Health Service Office on Women's Health. 
The NIH Office on Research on Women's Health and other offices 
of women's health within the PHS agencies. Also with women in 
AIDS, since 1990, I have sponsored legislation for research and 
prevention dealing with women in AIDS. And I certainly thank 
the subcommittee for the inclusion of report language for the 
past 7 years, urging NIH, the Centers for Disease Control and 
Prevention, and other agencies to increase their activities on 
HIV and women. You know, it is the fourth leading cause of 
death among young women, and actually even though, the rate of 
fatalities has gone down among those who have AIDS, for women 
it has gone up, and adolescents it has gone up.
    I particularly appreciate your continued support for the 
development of the microbicide to prevent the transmission of 
HIV and sexually transmitted diseases at a level of $50 
million.
    It is critical that women have an inexpensive and easy-to-
use method of HIV, STD prevention that they can control with or 
without their partner's knowledge. Also I urge the subcommittee 
to provide adequate NIH funding for the Women's Interagency HIV 
Study, the natural history study of HIV in women, and urge 
increased funding for prevention, research, and care.
    I certainly commend you for the increases in research, 
prevention, and the CARE Act in the fiscal year 1999 budget, 
and hope this momentum can be continued.
    I want to mention STDs, including HIV infection, are among 
the most serious health risks to adolescents. Fourteen million 
new STD cases occur in the United States each year. It is 
roughly 80 times the number of new cases of tuberculosis, HIV 
and AIDS combined. Twenty five percent of these cases occur in 
teens, and that means one in eight teens are infected with an 
STD.
    It is pretty mind boggling. So I urge the subcommittee to 
fully fund the infertility prevention program that is 
administered by the Centers for Disease Control at $60 million 
to reduce the severe and costly burden of STD-related 
infertility particularly among young women.
    Also, the establishment of demonstration projects to 
provide integrated communitywide approaches to STD/HIV 
prevention and pregnancy prevention among adolescents, 
including coordinated planning efforts across the disciplines, 
focusing on adolescent issues.
    On another subject, osteoporosis has been mentioned time 
and time again. And I know that we now have it included in 
Medicare. And Mrs. Maloney is probably going to mention that 
also, but I want to point out that the costs incurred due to 
the 1.5 million annual fractures are staggering at $13.8 
billion or $38 million each day and that is in 1995 dollars. 
Osteoporotic fractures costs the Medicare program 3 percent of 
its overall costs.
    The Public Health Service Office on Women's Health is going 
to launch the national osteoporosis prevention education 
campaign this year with funding that was provided last year. 
Additional funding is requested through the Centers for Disease 
Control and Prevention for continuation of this education 
initiative.
    And there is another initiative that would 
provideadditional funding for the National Osteoporosis Prevention 
Education Campaign, and that would be through the NIH Osteoporosis and 
Related Bone Diseases National Resources Center and that would educate 
women, between the ages of 45 and 64, about their risk factors.
    I found out through sponsoring a health clinic here last 
year, because I had the osteoporosis bill that became part of 
Medicaid that I have osteoporosis, so many people just don't 
know that they do have it. And I think that, you know, dealing 
with particularly younger women and women who are in that 
``risk-age category'' is very important.
    I also want to just comment on the National Breast Cancer 
Coalition. It has recommended $175 million for breast cancer 
research at NIH in fiscal year 2000. And on behalf of the 
women, you heard some testimony today, the women who live in 
fear of this disease, I certainly urge the subcommittee to 
continue its strong commitment that you have shown in that 
regard.
    People don't talk that often about women and alcohol. But, 
you know, the death rate of female alcoholics is 50 to 100 
percent higher than male alcoholics. And we encourage the 
subcommittee to increase the amount of funding for research on 
alcohol abuse and alcoholism among women, fetal alcohol 
syndrome, fetal alcohol effect. When you consider what this 
does to mental retardation of children and the entire ripple 
effect of consequences, then we really should be paying 
attention to it.
    I also want to--now I am going to jump violence against 
women. I urge you to provide the full funding for the Violence 
Against Women Act Program, particularly the shelters for 
battered women and children, and that national hotline, 
Domestic Violence Hotline. These programs are critical in the 
fight against family violence and literally provide lifelines 
to families in crisis.
    I hope that you will be able to fund the shelter programs 
at 120 million, hot line at 1.2 million in this next fiscal 
year. I put legislation into reauthorize for another 5 years, 
because, you know, the 1994 Violence Against Women Act will be 
expiring. I also hope that CDC's Violence Against Women 
initiative can be funded at 11 million, which will enhance the 
services by providing more assistance to women in existing and 
underserved locations and evaluation programs, training in 
promising practices, and providing high-quality data at 
national and State levels.
    Just two final brief sentences. One million dollars for the 
Women in Apprenticeships in Nontraditional Employment Act, it 
really pays off, it really does. It was introduced into law in 
1992, I had the bill in doing it. And it has really made a big 
difference. I can give you all kinds of statistics on how it 
has opened the minds, it has helped employers, labor unions to 
be able to expand. Many of the areas that we used to consider 
nontraditional no longer are nontraditional because of devices 
like that.
    And then Campus-Based Childcare Program. We put in the 
higher education bill the idea that you could have some 
subsidized childcare programs on college campuses, but I would 
like to ask this subcommittee to consider appropriating $45 
million in the Labor, Health and Human Services and Education 
Appropriations Bill for that fiscal year 2000 Campus-Based 
Childcare Program.
    You know, when you think about the fact that it can help 
get women off welfare. It can help train people for our 
technological society. We know that two-thirds of the new 
entrants into the work force are going to be women and 
minorities starting next year, and nothing more precious than 
taking care of children.
    I tried to condense, but you can see, your subcommittee to 
me is the most important committee in Congress. You deal with 
so many facets of what is critical to illustrious citizenry and 
human beings. And so I thank you.
    [The prepared statement of Representative Connie Morella 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Congresswoman Morella, we thank you for your 
testimony. You have been a leader on so many of these areas 
that you have mentioned. I know very well that the violence 
against women programs, you were so outspoken when we were 
forced to make very serious cuts in our budget. You told us we 
were doing the wrong thing. And we listened finally, and they 
are there because of your intervention. So we are obviously 
going to do everything we can possibly can.
    One of the things you mentioned, I mentioned earlier when 
we had the NIH directors before us, we spend more than twice as 
much money on drug abuse research, drug research, that is 
illegal drug research, than we do on alcohol research. And yet 
alcoholism is a much more widespread prevalent problem in our 
society. It affects so many families, it takes away so many 
hours of work. It leads to domestic violence and child abuse 
and the like, and we don't do nearly enough in this area.
    We had a young investigator, a Chilean woman, as a matter 
of fact, who was part of our panel with the Noble Laureates who 
was doing research into the effects of alcohol, and what might 
be developed to offset it. And it seems to me we don't do 
nearly enough in this area.
    Mrs. Morella. You are absolutely right.
    Mr. Porter. And I was not aware that women died at much 
higher rate than men do from the effects of alcoholism, I was 
not aware of that at all.
    Mrs. Morella. Many years ago I did a research paper, this 
was long before I came to Congress, and this was on women and 
alcoholism. And I am no expert on women and alcoholism. This 
indicated that there were also two strata of women, there is 
the woman who is on the pedestal, she is the quiet drinker she 
drinks in the closet, and because she has got enough money she 
is sustained so she can hide this whole concept that she 
drinks. And the other one is the boozey lady, you know, that we 
put down on a lower echelon.
    But it just is very interesting tracing the fact that we 
never paid much attention to women in alcoholism. And when I 
talk to young kids in schools, and we talk about drugs and 
whatever, it is alcohol, it is alcohol, more than the other 
drugs.
    Mr. Porter. And alcohol often gets you into other drugs.
    Mrs. Morella. Yes.
    Mr. Porter. It is sort of the gate, the gate to illegal 
drugs even though it is legal. Thank you for your testimony. We 
will do our best.
    Finally, but not least, I believe, is your title cochair?
    Mrs. Maloney of New York. Yes, my good friends from----
                                          Thursday, April 29, 1999.

 PARKINSON'S DISEASE RESEARCH FUNDING, FUNDING FOR DIOXIN AND WOMEN'S 
 HEALTH RESEARCH, TITLE IX, TITLE X, AND CHILD CARE DEVELOPMENT BLOCK 
                                 GRANT


                                WITNESS

HON. CAROLYN MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Porter. Cochair of the Congressional Caucus for Women, 
Representative Carolyn Maloney of New York.
    Mrs. Maloney of New York. Thank you, Mr. Chairman, for 
being here and for all that you have done to help people. I 
just came from the White House where there was a bill signing 
for the EdFlex bill, with Congressman Castle and Roemer, which 
was truly a fine example of a bipartisan effort to actually 
preserve old values with new ideas and move forward with 
education.
    I have testimony from my friend and colleague, Louise 
Slaughter, who is in the hospital. She had intended to testify, 
she is undergoing an operation. She focuses on research and 
menopause, eating disorders, DES, and colorectal cancer in 
women and female genital mutilation. I would like to put her 
testimony into the record.
    I hope that the committee will put a tremendous focus on 
what we do in response to what happened in Littleton, Colorado. 
Maybe it is more research on the effects of alcoholism, mental 
health, after-school programs, mentoring programs. We have to, 
in a bipartisan way, come forward with some response.
    I pick up my daily paper from my home city, New York, and 
find out that there are attempts in this city to copy what 
happened there. Thankfully it was stopped, but you are reading 
about it across the country. Something is awfully wrong, and we 
need leadership coming not only from the local areas, but from 
your committee and Congress.
    I hope that my colleague and friend from New York, Sue 
Kelly, and the other members of the Women's Caucus will join in 
a series of hearings where we reach out in our own communities 
to get some ideas. But I think that a portion of our budget has 
to be directed to guidance counselors through some type of 
matching programs, to localities, for a creative response to 
what is happening.
    We need leadership. Something is wrong in this country, and 
we have got to stop it. And you have got to be part of the 
solution.
    Mr. Porter. Congresswoman Maloney, I certainly agree with 
you. The full committee is meeting across the hall on the 
supplemental. And our colleague, Dave Obey, brought up an 
amendment on this subject without, I might say, letting me or 
anyone else know he was going to do it. I think he obviously 
put his finger upon, as you are saying, a subject that we are 
not doing well at all in addressing.
    I think all of us ought to take some time and think through 
this as to how best we can accomplish this. I don't think we 
can do it without hearings. I don't think we can do it simply 
by pushing more money into existing programs. Existing programs 
obviously are not doing very well. And I think that it should 
be an extremely high priority.
    This is the last afternoon of our regular hearings, but I 
think it would be very probative if this subcommittee held a 
special hearing on violence among the young. We do fund a 
number of the programs that are in place right now, and we 
ought to ask ourselves what we can do much better to stop these 
kinds of effects like Littleton and others that have occurred 
in our society.
    We would like you to sit in on this if you would like to.
    Mrs. Maloney of New York. I think that oftentimes women are 
the solution to problems, certainly problems in the home, and 
with my dear colleague, Sue Kelly, maybe we would officially 
petition you to see if the Women's Caucus could join you 
officially as part of these hearings. And, also, as part of 
this, we should go back to our localities and just listen, 
listen to the parents, more women are working, they are 
spending less time with the children. And we have to really 
address this. It is just heartbreaking what is happening.
    Back to my prepared testimony, which I will put in the 
record, and ask you to read in detail. But so much of it 
focuses on the health-related, as my dear colleague, Connie, 
was testifying on, whether it is breast cancer research or 
osteoporosis, often comes back to the National Institutes of 
Health. And any dollar spent on research is a dollar well 
spent.
    The President has called for a 2 percent increase to the 
overall budget of the National Institutes of Health. I 
understand our colleague, Chairman Young, has called for a 15 
percent increase. In the true spirit of bipartisanship, I 
support the Chairman's mark on that. I think that we need to 
put more money into research and into trying to find solutions 
to problems.
    I particularly am interested in Parkinson's disease, in a 
bipartisan spirit, we have formed a bipartisan Parkinson's 
Disease Caucus. In 1997, Congress authorized $100 million in 
new funding for research focusing on Parkinson's; however, the 
NIH has been broadly interpreting this and saying that they are 
spending this money when reports are coming back to us that 
they are not.
    I hope the committee, and this won't cost you anything, 
because it has already been authorized, will include report 
language to ensure that true Parkinson's focused research 
continues. There will be a bipartisan letter from the caucus 
coming to you on it. It is of personal great interest to me 
since my father, as we speak, is dying of Parkinson's. And we 
have a number of colleagues in Congress who have this terrible 
disease.
    I would like you and the committee to consider report 
language in the appropriations bill in regard to a bill that I 
put in with Sue and others called the Tampon Safety and 
Research Act. And this calls upon NIH to conduct research on 
dioxin and other toxins and additives in tampons to determine 
the extent to which these additives may pose health risks 
related to cancer and other related diseases.
    Right now, very similar to the tobacco situation, all of 
the research is done by the manufacturers. Then they say, their 
research is ``proprietary,'' no one can see it. And they say 
that their research shows that there is no health risk. 
Meanwhile, college students write to me, doctors write to me.
    There have been reports, my own staff got internal 
documents from one of the producers where it is, in fact, a 
health problem. Due to the fact that 53 percent of the 
population in America uses this product, in a very absorbent 
way, that can be extremely detrimental to their health, that 
this type of relationship, seeing the relationship 
betweendioxin and tampons, just put in report language. When the NIH is 
looking at cancer and all of these other related diseases to just take 
a look at it and a product used by so many people, that is alleged by 
some doctors to cause Toxic Shock Syndrome and other diseases. We 
should at least have some independent research not from the 
manufacturer who is making money off of the product. There has been no 
independent research done on it.
    I would also like to request that the committee fund the 
administration's request of $240 million for Title X, a 
publicly funded family planning program. And it does many very 
good things, and I have it all outlined there.
    But I would like to add is a bill that is coming out of 
International Relations, it was reported out by Tom Campbell to 
fund the United Nations International Family Planning at $20 
million. Last year it was totally deleted from the budget.
    If you read the reports from Kosovo, it is the UN family-
planning unit that is there delivering the babies, providing 
health care, providing help to the people. They are assisting 
the refugees. They are the only ones in there with the family 
planning health care of the women. We should be supporting it. 
I think that a very Republican idea is burden sharing, getting 
other countries to pay for the efforts to solve a problem.
    We do through USAID fund family planning, but it is 
unilateral. We are the only ones in there. With the U.N., over 
189 countries are involved, they are paying their share. 
Believe it or not, the developing countries are putting more in 
than the developed countries because they are the ones who need 
the help. We know population is growing at a 98 percent 
increase in Asia and South America, the population is growing, 
not America--and unlike Parkinson's and cancer and Toxic Shock 
Syndrome and other things, which we don't have an answer to, we 
have the answer to the population.
    We have the answer, and that is United Nations family 
planning. It is good investment for the future of our country, 
whether it is an economic benefit for the stability of other 
countries, the benefit of preserving the environment. It is a 
good investment every way you look at it, and it should be 
funded.
    My dear friend and colleague, Christopher Smith, is opposed 
to this, but the language is very clear that it does not fund 
abortions in any way, shape or form. It is a good investment, 
it broadens other dollars; and we should, in a bipartisan way, 
be supporting the administration's request on that.
    Title IX is very important to me. I have seen such a change 
in my life with the young girls going into sports, having 
improved self-esteem, not to mention the admission to college 
and college scholarships and everything else. And I think we 
should do everything to protect Title IX. I just think it is 
terrific. And the President--and I have a long statement I am 
not going to give it all to you, but he requested $7.3 million 
to provide for enforcement of Title IX.
    As you know, the name of the game is enforcement; if you 
don't enforce the law, then it usually doesn't happen. And I 
just feel that it has changed opportunities for women 
dramatically.
    The last time I participated in a formal event with my dear 
friend and colleague, Bella Abzug, she honored the new young 
women leaders from across America. And one of the things that 
struck me at this event is that they were all athletes, every 
last one of them, but, of course, they were leading whatever it 
was. But it showed the connection between leadership and the 
ability to participate in sports.
    It was not an opportunity that I had growing up, there were 
no sports opportunities for women. I went to the public school 
system, there were no sports for women, no sports in college. 
Title IX has changed that. It is an important program, and one 
we should support for our young women and men in the future.
    I think you have been a great chairman. And I think you 
have honestly approached problems and tried to solve them in 
the best spirit of public policy. And I thank you for that. 
Putting public policy ahead of all other considerations, which 
is what we should all be doing. Thank you.
    [The prepared statement of Representative Carolyn Maloney 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Porter. Carolyn, thank you. I listened to, I think it 
is eight members of the Women's Caucus, and I hadn't heard 
anybody say a word about Title X, and I was beginning to get 
worried that this wasn't going to be part of any health 
messages today, because I think this was one of the most 
important programs, along with international family planning, 
that we can fund. And these are, of course, programs where we 
have had tremendous fights almost every year.
    I will say on the record that I used to be convinced that 
the people who were opposed to abortion, which I respect, were 
not opposed to family planning, but I think many of them are 
just as opposed to family planning as they are to abortion.
    And I don't understand that or respect it. It seems to me 
that is how you avoid abortions, unwanted pregnancies is by 
responsible parenting and planning your family. We don't have 
jurisdiction over the U.N. program, but I am the senior 
Republican on the Foreign Operations Committee where we do have 
jurisdiction. And, of course, Congressman Smith, whose views on 
abortion, again I respect, I don't agree with them, but I 
respect them, he has targeted U.N. FBA, I think very 
erroneously. I don't mind targeting China, but I do mind 130 
other countries that receive U.N. FBA funding getting pulled 
into an argument they don't have anything to do with.
    We have managed to lose the leadership that we once had 
worldwide on family planning and population problems for the 
wrong reasons, for no reasons. And I think these programs are 
very, very important. I am going to do the best I can to fund 
both Title X and international family planning in the other 
subcommittee.
    Mrs. Maloney. We tried to divide up categories so we 
weren't repeating the same thing.
    Mr. Porter. Right.
    Mrs. Maloney. I just want to add one thing, because I find 
it fascinating, that builds into what you are saying. I had the 
honor of being a delegate for our country to the World 
Conference at The Hague on Population and Development. One of 
the papers I saw there was what the private sector was doing 
for population planning.
    I was amazed that some of the greatest minds, both from the 
conservative and the liberal area, are funding population as 
their top philanthropic area. It shows that they see, number 
one, it is a problem that we have a solution to, that we can do 
something about it, and that the long-term economic and 
environmental and just humanitarian concerns of our countries 
and others are directly tied to family planning.
    Buffett has publicly said that he will leave his entire 
fortune to it. Turner has funded it to the hundreds and 
hundreds of millions of dollars. Gates has put in hundreds and 
hundreds of millions of dollars, and the Rockefeller Foundation 
has been a leader in this field for decades.
    It is like the great entrepreneurial minds have figured out 
this is the problem we should be working on and they are 
putting literally billions into it. Yet, the United States 
Government totally walked away from any commitment, which is 
burden-sharing.
    I don't like to use the word ``burden-sharing,'' because it 
is not a burden to help empower better health care in 
countries, but it does share the dollars in a more cost-
effective way than trying to do it by ourselves.
    Then they will fund it for the U.S. to do it by themselves, 
but not with the U.N., which does not make sense to me.
    Mr. Porter. I certainly agree with you. It is very 
fortunate that some of the European countries, particularly 
Scandinavian countries, Japan and others, have been very 
forthcoming and provided a fill-in for what the United States 
should have been doing, doing far more than we had been doing. 
To me, it is one of the most important problems.
    I frankly wasn't aware that there is so much private 
philanthropic money.
    Mrs. Maloney. The reason I mentioned it to you was I was 
stunned when I saw the names involved in funding this, because 
it was like the frontiersmen in the Internet and all the new 
ideas. Gates and Rockefeller and all these great entrepreneurs 
have picked this area to direct their dollars to, understanding 
that it has major implications for the future of the world and 
the future of America.
    Then one of the things that is so great about it is that we 
have the solution. We know what to do. Unlike so many problems 
where we don't even have a solution, we know what to do. It is 
whether or not we have the will to do it.
    I feel very strongly about it, especially seeing what is 
happening in Kosovo, the suffering that is taking place, and 
they are like the only ones in there trying to help with the 
women and family situation there.
    Mr. Porter. We will do the best we can on all the issues 
that you have raised. Thanks for testifying.
    Mrs. Maloney. Thanks so much.
    Mr. Porter. The subcommittee will stand in recess subject 
to the call of the chair.
    [The following testimonies were submitted for the Record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 O R G A N I Z A T I O N A L I N D E X

                              ----------                              
                                                                   Page
AIDS Action Council..............................................  1008
AIDS Policy Center for Children, Youth and Families..............  1020
Air Force Sergeants Association..................................  2862
Alzheimer's Association..........................................   970
American Academy of Dermatology..................................  3439
American Academy of Family Physicians............................    79
American Academy of Neurological Association.....................  1463
American Academy of Ophthalmology................................   303
American Academy of Orthopedic Surgeons..........................    44
American Academy of Otolaryngology, Head and Neck Surgery, Inc...  1045
American Academy of Pediatric Dentistry..........................   416
American Academy of Pediatrics...................................   981
American Academy of Physical Medicine and Rehabilitation.........  1479
American Academy of Physician Assistants.........................  3136
American Association for Cancer Research.........................  1063
American Association of Anatomists...............................  1395
American Association of Blood Banks..............................  3003
American Association of Colleges of Nursing......................  1134
American Association of Community Colleges.......................  1077
American Association of Dental Research..........................   449
American Association of Dental Schools...........................   428
American Association of Immunologists............................  1659
American Association of Nurse Anesthetists.......................  2777
American Association of School Administrators....................  1115
American Association of University Health Science Centers........  1277
American Cancer Society..........................................   569
American Chemical Society........................................  3229
American College of Cardiology...................................  3197
American College of Preventive Medicine..........................  2960
American College of Surgeons.....................................  1294
American Dental Association......................................  1165
American Dental Hygienists' Association..........................  3109
American Diabetes Association....................................  1176
American Educational Research Association, American Psychological 
  Association....................................................   387
American Foundation for AIDS Research............................  1314
American Gastroenterological Association.........................  2438
American Heart Association.......................................  1145
American Indian Higher Education Consortium......................  2995
American Liver Foundation........................................  1186
American Lung Association and American Thoracic Society..........   588
American Museum of Natural History...............................  1859
American Nurses Association......................................  1955
American Obesity Association.....................................  3182
American Optometric Association..................................  2816
American Organization of Nurse Executives........................  1931
American Physiological Society...................................  3071
American Psychiatric Association.................................  1626
American Psychiatric Nursing Association.........................  1941
American Psychological Association...............................  1972
American Psychological Society...................................  1989
American Public Health Association...............................  2396
American Public Power Association................................  2924
American Public Television Stations..............................  1033
American Public Transit Association..............................  2005
American RehabAction Network.....................................  2020
American School Health Association...............................  3346
American Social Health Association...............................  2031
American Society for Clinical Nutrition..........................  2990
American Society for Microbiology............................1914, 3202
American Society for Nutritional Sciences........................  2045
American Society for Pharmacology and Experimental Therapeutics..  3289
American Society of Clinical Oncology............................  1798
American Society of Clinical Pathologists........................   812
American Society of Hematology...................................  2059
American Society of Nephrology...............................2385, 2758
American Society of Pediatric Nephrology.........................  1715
American Society of Transplantation..............................  1364
American Society of Tropical Medicine and Hygiene................  3387
American Speech-language Hearing Association.....................  2767
American Trauma Society..........................................   556
American Urological Association..................................   143
Arkansas Center for Birth Defects Research and Prevention........  1682
Association for Career and Technical Education................159, 2901
Association for Health Services Research.........................  2073
Association for Professionals in Infection Control and 
  Epidemiology...................................................   262
Association for Research in Vision and Ophthalmology.............    65
Association of Academic Psychiatrists............................  1479
Association of American Medical Colleges......................998, 3019
Association of American Universities.............................   236
Association of Independent Research Institutes...................   325
Association of Maternal and Child Health Programs................  2657
Association of Minority Health Professions Schools...............   281
Association of Population Centers................................  2671
Association of Professors of Dermatology.........................   105
Association of Schools of Public Health..........................   119
Association of State and Territorial Health Officials............  2772
Asthma and Allergy Foundation of America.........................   133
Autism Society of America....................................2709, 2956
Big Brothers and Big Sisters of America..........................  1847
Biotechnology Industry Organization..............................  1255
BlueCross and BlueShield Association.............................  1265
Boston Symphony Orchestra........................................  1231
California School of Professional Psychology.....................  1522
Center for Environmental Health Research and Service.............  2811
Children's Brain Diseases Foundation.............................  2357
Children's Brittle Bone Foundation...............................   928
Children's Heart Foundation......................................  3365
Christopher Reeve Foundation.....................................   719
Chronic Fatigue and Immune Dysfunction Syndrome Association of 
  America........................................................  1613
Citizens' Scholarship Foundation of America..................2958, 3193
City of Gainesville..............................................  3406
City of Miami Beach..............................................  3411
City of Newark...................................................  3401
Close-Up Foundation..............................................  3352
Coalition for American Trauma Care...............................  1739
Coalition for Health Funding.....................................  1752
Coalition for Heritable Disorders of Connective Tissue...........  2472
Coalition for Patient Advocates for Skin Disease Research........  1763
Coalition for the Advancement of Health through Behavioral and 
  Social Science Research........................................  3013
College and Problems of Drug Dependence..........................   224
Committee of Ten Thousand........................................  2700
Committee on Education Funding...................................  1768
Condell Medical Center.......................................2822, 2827
Consortium of Social Science Association.........................   387
Cooley's Anemia Foundation.......................................  1554
Council of State Administrators of Vocational Rehabilitation.....  2020
Council of State and Territorial Epidemiologists.................  3086
Crohn's and Colitis Foundation of America........................    96
Cystic Fibrosis Foundation.......................................  3094
Digestive Disease National Coalition's Public Policy Committee...  2484
Dystonia Medical Research Foundation.............................   770
Dystrophic Epidermolysis Bullosa Research Association of America, 
  Inc............................................................  3082
East 60th Street Community Youth Center..........................  2088
Easter Seals.....................................................  3433
Ehlers-Danlos National Foundation................................  2895
Elmira College...............................................2806, 3381
Epilepsy Foundation..............................................   359
Facioscapulohumeral Society......................................  2364
Federation of American Societies for Experimental Biology........   370
Florida Department of Education..................................   736
Florida State University.........................................  3430
Foundation Fighting Blindness....................................   348
Foundation for Ichthyosis and Related Skin Types.................  2911
Friedreich's Ataxia Research Alliance............................   612
Friends of NICHD Coalition.......................................  3223
Friends of the National Library of Medicine......................  1638
GED Testing Service..............................................  2869
Genome Action Coalition..........................................    55
Haymarket Center.................................................   539
Health Professions and Nursing Education Programs................  2677
Helen Keller International.......................................  2430
Helen Keller National Center for Deaf-Blind Youths and Adults....  3172
Hospital for Special Surgery.....................................  3056
Humane Society of the United States..............................  3210
Illinois Area Health Education Centers...........................   636
Illinois Community College Board.................................   626
Immune Deficiency Foundation.....................................   779
Infectious Diseases Society of America...........................   644
International Myeloma Foundation.................................  3162
Interstate Conference of Employment Security Agencies............   662
Interstitial Cystitis Association................................  2421
Jefferson County Public School...................................    10
Jeffrey Modell Foundation........................................  1703
Joint Council of Allergy, Asthma and Immunology..................  3121
Joint Steering Committee for Public Policy.......................   950
Juvenile Diabetes Foundation International.......................  1870
Labor Policy Association.........................................  2712
Legal Action Center..............................................   819
Lupus Foundation of America......................................   757
Lymphoma Research Foundation of America..........................   313
March of Dimes...................................................   831
Medical Library Association......................................  1899
Mental Retardation and Developmental Disabilities Research 
  Centers........................................................  3230
Metropolitan Family Services.....................................  1880
Minann, Inc......................................................  2689
Montefiore Medical Center........................................  3008
Montgomery County Stroke Club....................................  3285
Multiple Sclerosis Association of America........................  2907
Museum of Science and Industry...................................    30
Museums and Universities Supporting Educational Enrichment.......  3048
National Alliance for Abuse Awareness............................  3447
National Alliance to End Homelessness........................2661, 3131
National Alopecia Areata Foundation..............................  1782
National Asian American Telecommunications Association...........  3041
National Association for Equal Opportunity in Higher Education...   248
National Association for State Community Services Programs.......  2666
National Association of Anorexia Nervosa and Associated Disorders  1789
National Association of Community Health Center..................   902
National Association of County and City Health Officials.........  2985
National Association of Foster Grandparent Program Directors.....  1352
National Association of Foster Grandparent Program Directors.....  3251
National Association of Orthopaedic Nurses.......................  3099
National Association of Pediatric Nurse Associates and 
  Practitioners, Inc.............................................  2891
National Association of Physicians for the Environment...........  2652
National Association of Public Hospitals.........................  3000
National Association of State Universities and Land-Grant 
  Universities...................................................  3293
National Association of State Universities and Land-Grant 
  Colleges.......................................................  3243
National Black Programming Consortium............................  3043
National Bladder Foundation......................................  1244
National Child Abuse Coalition...................................  3051
National Coalition for Cancer Research...........................  1197
National Coalition for Heart and Stroke Research.................   849
National Coalition for Osteoporosis and Related Bone Disease.....   858
National Coalition of STD Directors..............................  1605
National Congress of American Indians............................  3141
National Council of Rehabilitation Education.....................   868
National Council of Social Security Management Associations......   170
National Council of State Agencies for the Blind.................   877
National Crime Prevention Council................................  2783
National Depressive and Manic-Depressive Association.............  2950
National Energy Assistant Director's Association, Inc............  3176
National Federation of Community Broadcasters....................  2461
National Foundation for Ectodermal Dysplasias....................   883
National Fuel Funds Network......................................  2981
National Head Start Association..................................  3262
National Hemophilia Foundation...................................  3336
National Indian Education Association............................  2747
National Indian Impacted Schools Association.....................  3066
National Job Corps Association...................................   892
National Kidney Foundation.......................................  1454
National Medical Association.....................................   789
National Military Family Association.............................  3025
National Minority Public Broadcasting Consortia..................  3035
National Multiple Sclerosis Society..............................  1377
National Neurofibromatosis Foundation............................  2374
National Nutritional Foods Association...........................  2738
National Organization of Rare Disorders..........................  1812
National Prostate Cancer Coalition...............................  3215
National Psoriasis Foundation....................................  3078
National Public Radio............................................  3279
National Right to Work Committee.................................  2969
National Rural Health Association................................   399
National Sleep Foundation........................................  1671
National Treasury Employee Union.................................  3393
Neurofibromatosis Foundation.....................................  1595
New York University School of Medicine...........................   480
New York University..............................................   670
North American Society of Pacing and Electrophysiology...........   682
North American Transplant Coordinators Organization..............  3104
Old Sturbridge Village...........................................  2791
Oncology Nursing Society.........................................   708
Oxalosis and Hyperoxaluria Foundation............................  2975
Pacific Islanders in Communications..............................  3045
Parent Project for Muscular Dystrophy............................   939
Parkinson's Action Network.......................................   212
Philadelphia College of Osteopathic Medicine.....................  3220
Pinon Community School Board, Inc................................  3062
Polycystic Kidney Research Foundation............................  1094
Population Association of America................................  2671
Prostatitis Foundation...........................................  1575
Public Policy Council............................................  3271
Recording for the Blind and Dyslexic.............................  2695
Research Society on Alcoholism...................................  1208
Research!America.................................................  1409
Rock Point Community School Board................................  3065
Rotary International.............................................  1053
Safety Net Coalition.............................................  2820
San Francisco AIDS Foundation....................................  1444
Santa Rosa Memorial Hospital.....................................  3452
Scleroderma Research Foundation..................................  1543
Sinai Family Health Centers......................................  1219
Society for Animal Protective Legislation....................1648, 3257
Society for Investigative Dermatology............................  1434
Society of Gynecological Oncologists.............................  1501
Society of Neuroscience..........................................  1826
Society of the Advancement of Women's Health Research............  2703
Society of Toxicology............................................   504
Southwest Texas State University.................................  2832
Spina Bifida Association of America..............................   747
Sudden Infant Death Syndrome Alliance............................   291
Task Force on Developmental Disabilities of the Consortium for 
  Citizens with Disabilities.....................................   181
The American Legion..............................................  2799
The Center for Victims of Torture................................  2802
The Chromosome 18 Registry and Research Society..................  2884
The CORE Center..............................................3187, 3376
The Council for Chemical Research................................  3268
The FDA-NIH Council..............................................  3115
The Fleet Reserve Association....................................  3357
TMJ Association, LTD.............................................  3074
Traditional Values Coalition.....................................  1564
Traumatic Brain Injury Act.......................................  2683
Tri-Council for Nursing..........................................  2944
United Distribution Companies....................................  2409
United Negro College Fund........................................  2100
United Tribes Technical College..................................  1424
University of Louisville.........................................    12
University of Medicine and Dentistry of New Jersey...............  3424
University of Miami..............................................  3415
University of Michigan...........................................  1582
University of Virginia School of Medicine........................   439
Voice of the Retarded............................................  2927

                                <greek-d>

</pre></body></html>
